<html>
<title> - UNITED STATES RESPONSES TO INTERNATIONAL PARENTAL ABDUCTION</title>
<body><pre>[Senate Hearing 105-845]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-845
 
      UNITED STATES RESPONSES TO INTERNATIONAL PARENTAL ABDUCTION

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 1, 1998

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                               ----------

                    U.S. GOVERNMENT PRINTING OFFICE
51-772 cc                   WASHINGTON : 1999




                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
CRAIG THOMAS, Wyoming                CHARLES S. ROBB, Virginia
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
JOHN ASHCROFT, Missouri              DIANNE FEINSTEIN, California
BILL FRIST, Tennessee                PAUL D. WELLSTONE, Minnesota
SAM BROWNBACK, Kansas
                     James W. Nance, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)






                            C O N T E N T S

                              ----------                              
                                                                   Page

DeWine, Hon. Mike, U.S. Senator from Ohio........................    17
Johnson, Thomas A., Alexandria, Virginia.........................    37
    Prepared statement...........................................    42
Marinkovich, Paul, Simi Valley, California.......................    54
    Prepared statement...........................................    60
Meyer, Lady Catherine I., British Embassy, Washington, DC........    19
    Prepared statement...........................................    21
Reno, Hon. Janet, Attorney General, U.S. Department of Justice...     5
    Prepared statement...........................................    11
Sylvester, Thomas R., Cincinnati, Ohio...........................    28
    Prepared statement...........................................    32

                                APPENDIX

Responses to Additional Questions Submitted for the Record by the 
  Committee......................................................    67
Abduction of Carina Maria Sylvester by Monika Rossmann (AKA 
  Monika Sylvester) and the Government of Austria, a Chronology..    69
Abduction of Amanda Kristina Johnson by Anne Franzen (AKA Anne 
  Franzen Johnson) and the Government of Sweden, a Chronology....    78
Statement Submitted by Hon. Tom Daschle..........................    82
Statement Submitted by Laura Kingsley Hong.......................    84
Letters and Additional Material Submitted for the Record on the 
  Subject of International Child Abduction.......................    89
List of Additional Material Submitted for the Record Which Will 
  be Maintained in the Committee's Files.........................   150

                                 (iii)




      UNITED STATES RESPONSES TO INTERNATIONAL PARENTAL ABDUCTION

                              ----------                              


                       THURSDAY, OCTOBER 1, 1998

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met at 10:05 a.m., in room SD-419, Dirksen 
Senate Office Building, Hon. Jesse Helms, chairman of the 
committee, presiding.
    Present: Senators Helms, Biden, and Robb.
    Also Present: Senator DeWine.
    The Chairman. The committee will come to order.
    I would say preliminarily that this is a right busy time up 
here. All the committees are meeting, trying to finish up 
whatever bills they can before adjournment, sine die, as 
Senator Byrd refers to it.
    Madam Attorney General, we are so glad to welcome you here 
this morning, and I am glad that your first appearance before 
this Committee this morning is the first time in 9 years that 
any Attorney General has appeared before the Foreign Relations 
Committee. So, that makes it a double pleasure to work with 
you. The last time, by the way, for anybody taking notes, was 
1989 when Dick Thornburgh visited this committee.
    Madam Attorney General, your coming here this morning to 
discuss the growing problem of international parental 
kidnapping is a very good measurement of your personal interest 
in this matter.
    Following your testimony, the committee will hear from a 
number of parents, each of whom will have heartbreaking stories 
about how their former spouses unlawfully took their children 
to foreign countries and about the subsequent search to find 
and seek the return of those children. I was surprised to 
learn, by the way, that these children were taken not to the 
closed societies of the Middle East, but to European countries 
with democratic and open societies.
    Now, the parents who will testify today will describe many 
long and expensive court battles in efforts to get their 
children back. For example, they will tell stories of hiring 
lawyers in foreign courts that favor their own citizens despite 
the existing treaty requirements that the children be returned, 
stories of futile or insufficient diplomatic efforts by the 
United States, and stories of the failure by the United States 
to issue arrest warrants or seek extradition of the former 
spouses who unlawfully spirited the children away.
    But it needs to be emphasized, I think, that this 
frustration with the existing process is not uniquely American. 
Our committee will hear today from a well-known British 
citizen, the wife of the British Ambassador to the United 
States, Lady Catherine Meyer. Lady Meyer has spent the past 
several years seeking the return of her sons from their father 
in Germany.
    It would be an ideal circumstance, Madam Attorney General, 
if we could have you sitting side-by-side with the 
distinguished Secretary of State discussing how the United 
States can better respond to the thousands of cases of 
international parental kidnapping every year.
    The question, of course, is what exactly is the problem? 
For many years in the United States, the kidnapping of a child 
by a parent was considered a family matter, not a criminal 
matter. Today, all 50 States do have criminal statutes that 
require the return of any child taken across a State line by a 
parent.
    During this hearing, parents are going to recite how the 
process breaks down when a child is taken across foreign 
borders. The Hague Convention on the Civil Aspects of 
International Child Abduction requires that children be 
returned to the habitual resident from which the child was 
taken. Each year--and you will amplify on this--U.S. Courts 
send an estimated 90 percent of kidnapped children back to 
foreign countries, but that statistic for returns to this 
country is not nearly as perfect. Only some 30 percent of 
kidnapped children are returned to the United States.
    Parents have reported to me the failure by the United 
States to initiate vigorously diplomatic and law enforcement 
tools seeking the return of their children. These parents 
report a sense of frustration--and I can understand that--with 
the obviously low priority placed on the return of abducted 
children compared to other diplomatic relations.
    Unfortunately, in most cases the kidnapping parents often 
flee U.S. borders with the children before law enforcement 
officers are even made aware of the unlawful act. Even in 
instances where local law enforcement is brought in, officers 
often are not aware of the process of tracking the kidnapper 
parent at the international level.
    The next step of issuing international arrest warrants for 
or requesting the extradition of the kidnapping parent can 
become a maze of bureaucracy for parents and local law 
enforcement officials. Even when they succeed in persuading the 
Justice Department to seek extradition, the State Department 
may very well refuse to go forward with the request.
    In one case documented by the United States Information 
Agency (USIA) Crime Alert Program, one United States mother, 
whose son was abducted by her ex-husband to Prague in the Czech 
Republic, had a Federal arrest warrant sworn against her ex-
husband. She made repeated efforts to have the FBI contact the 
U.S. embassy and the Czech authorities to carry out the 
warrant. Then, after months of no response by the FBI, the 
mother left her job and went to Prague, and in short order, she 
learned that her ex-husband and son indeed had been in Prague 
and had recently left on passports renewed by the State 
Department. The State Department claimed to have had no 
knowledge of the warrant or the kidnapping.
    Now, I have gone to great length with this prelude because 
this is a matter of great concern, as I know it is to you, and 
I doubly appreciate your coming here.
    These are the kinds of cases that should not occur and 
reflect a breakdown in coordination. So, I hope that you and I, 
as well as the Secretary of State--and I think Madeleine will 
work with us--can agree to work with this committee to 
coordinate better diplomatic and law enforcement efforts to 
assist parents seeking the return of their children. U.S. 
efforts to return kidnapped children who are brought to the 
United States are admirable and must be supported, but that 
same degree of proficiency and coordination must be brought to 
the return of children. There is no excuse for countries like 
Sweden, Austria, and Germany to violate existing treaty 
obligations that require the return of children.
    I have devoted more time than I intended to my opening 
statement, but in closing I believe it is appropriate that I 
share with you an excerpt of one of hundreds of sad letters I 
receive every year. This one is written to me by James Rinaman, 
who is a lawyer for the U.S. Army and a father from your home 
State of Florida. He has been battling the German legal system 
unsuccessfully since 1996 to gain the return of his child. He 
wrote to me as follows, and I am quoting him from now on.

          My mother raised four children, educated them, and 
        loves my daughter as her first grandchild. She is 
        tortured by a complete lack of information about my 
        daughter, and wakes up in the night to write letters on 
        her computer to save and give to my daughter. My 
        parents are now in their sixties. They expected to live 
        a peaceful, contented life. You might expect such a 
        glued together outfit would be able to resolve the 
        problem of my daughter's abduction. Instead, the law 
        has failed us. Our government has been unable to offer 
        any resolution. We have never felt so powerless. For a 
        Government like Germany to scoff at an agreement they 
        entered into should be viewed for what it is, a slap in 
        the face. This is something to be expected from Third 
        World countries, and we expect to have to deal with 
        them as such.

    Now, these sentiments, I think, speak for many other 
parents seeking assistance from the U.S. Government in the 
return of their children.
    Pardon me for taking so long to make a matter of record my 
own thoughts on this. Madam Attorney General, welcome again and 
you may proceed.
    [The prepared statement of Senator Helms follows:]
               Prepared Statement of Chairman Jesse Helms
    Thank you Madam Attorney General, for being with us this morning. I 
am glad to see your first appearance before the Foreign Relations 
Committee and the first time in nine years that an Attorney General has 
appeared before this Committee. That was in 1989 when Attorney General 
Richard Thornburgh visited us.
    Your coming here today to discuss the growing problem of 
international parental kidnaping is a measurement of your personal 
interest in this issue.
    Following your testimony, the Committee will then hear from a 
number of parents, each of whom will have heartbreaking stories about 
how their former spouses unlawfully took their children to foreign 
countries, and about the subsequent search to find and seek the return 
of their children. I was surprised to learn that these children were 
taken not to the closed societies of the Middle East, but to European 
countries with democratic and open societies.
    The parents testifying today will describe many long and expensive 
court baffles in efforts to get their children back. For example, 
stories of hiring lawyers in foreign courts that favor their own 
citizens despite the existing treaty requirement that the children be 
returned; stories of futile or insufficient diplomatic efforts by the 
United States; and stories of the failure by the United States to issue 
arrest warrants or seek extradition of the former spouses who 
unlawfully spirited the children away.
    But it needs to be emphasized that this frustration with the 
existing process is not uniquely American. Our Committee will hear 
testimony today from a well-known British citizen--the wife of the 
British Ambassador to the United States, Lady Catherine Meyer. Lady 
Meyer has spent the past several years seeking the return of her sons 
from their father in Germany.
    It would be an ideal circumstance, Madam Attorney General, if we 
could have you sitting side-by-side with the distinguished Secretary of 
State discussing how the United States can better respond to the 
thousands of cases of international parental kidnaping each year.
    The question, of course, is what exactly is the problem? For many 
years in the United States, the kidnaping of a child by a parent was 
considered a family matter--not a criminal matter. Today, all fifty 
states have criminal statutes that require the return of any child 
taken across state lines by a parent.
    During this hearing, parents will recount how this process breaks 
down when a child is taken across foreign borders. The Hague Convention 
on the Civil Aspects of International Child Abduction requires that 
children be returned to the habitual residence from where the child was 
taken. Each year U.S. courts send an estimated 90 percent of kidnaped 
children back to foreign countries. The statistics for returns to this 
country are not nearly as perfect. Only some 30 percent of kidnaped 
children are returned to the United States.
    Parents have reported to me a failure by the United States to 
initiate vigorously diplomatic and law enforcement tools seeking the 
return of their children. These parents report a sense of frustration 
with the obviously low priority placed on the return of abducted 
children, compared to other diplomatic relations.
    Unforunately, in most cases the kidnaping parents often flee U.S. 
borders with the children before law enforcement officers are even made 
aware of the unlawful act. Even in instances where local law 
enforcement is brought in, officers often are not aware of the process 
of tracking the kidnapper parent at the international level.
    The next step of issuing international arrest warrants for, or 
requesting the extradition of; the kidnaping parent can become a maze 
of bureaucracy for parents and local law enforcement officials. And 
even when they succeed in persuading the Justice Department to seek 
extradition, the State Department may refuse to go forward with the 
request.
    In one case documented by the USIA Crime Alert Program, one U.S. 
mother--whose son was abducted by her ex-husband to Prague in the Czech 
Republic--had a federal arrest warrant sworn against her ex-husband. 
She made repeated efforts to have the FBI contact the U.S. embassy and 
the Czech authorities to carry out the warrant.
    After months of no response by the FBI, the mother left her job and 
went to Prague. In short order she learned that her ex-husband and son 
had indeed been in Prague and had recently left--on passports renewed 
by the State Department! The State Department claimed to have had no 
knowledge of the warrant or the kidnaping.
    These are the kinds of cases, Madam Attorney General, that should 
not occur and reflect a breakdown in coordination. I hope that you and 
I, as well as the Secretary of State, can agree to work with this 
Committee to coordinate better diplomatic and law enforcement efforts 
to assist parents seeking the return of their children. U.S. efforts to 
return kidnaped children who are brought to the United States are 
admirable, and must be supported. But that same degree of proficiency 
and coordination must be brought to the return of children. There is no 
excuse for countries like Sweden, Austria, and Germany to violate 
existing treaty obligations that require the return of children.
    In closing, I believe it appropriate that I share with you an 
excerpt of one of hundreds of sad letters I receive each year on this 
subject. This one is written to me by James Rinaman, who is a lawyer 
for the U.S. army, and a father from your home state of Florida. He has 
been battling the German legal system unsuccessfully since 1996 to gain 
the return of his child. He wrote to me as follows:
    ``My mother raised four children, educated them, and loves my 
daughter as her first grandchild. She is tortured by a complete lack of 
information about my daughter, and wakes up in the night to write 
letters on her computer to save and give to my daughter. My parents are 
now in their sixties. They expected to live a peaceful, contented life. 
You might expect such a glued together outfit would be able to resolve 
the problem of my daughter's abduction. Instead, the law has failed us. 
Our government has been unable to offer any resolution. We have never 
felt so powerless . . . .For a Government like Germany to scoff at an 
agreement they entered into should be seen as a slap in the face. This 
is something to be expected from third world countries, and we expect 
to have to deal with them as such.''
    These sentiments, I suspect, speak for many other parents seeking 
assistance from the U.S. Government in the return of their children.
    Again, Madam Attorney General, welcome.

STATEMENT OF HON. JANET RENO, ATTORNEY GENERAL, U.S. DEPARTMENT 
                           OF JUSTICE

    Attorney General Reno. Thank you so much, Mr. Chairman.
    I would like to acknowledge the presence of Mary Ryan, the 
Assistant Secretary for Consular Affairs at the State 
Department, who is here representing the State Department, 
along with one of her colleagues, Mr. James Schuler.
    I just want to tell you, as I told you before, how much I 
appreciate your focus on this issue. I think this is one of the 
most troubling issues that I know, whether it be a domestic 
matter or something on an international scale. Your willingness 
to take the time to focus on this issue I think means so much. 
I would like to work with you and your staff in the months 
ahead to continue to address the problem and not just make it a 
one-shot appearance before the committee.
    The Chairman. Madam Attorney General, I thank you and it is 
a joy to work with you.
    Attorney General Reno. Thank you.
    The Chairman. You may proceed.
    Attorney General Reno. I would also like to thank you, Mr. 
Chairman, for bringing on for hearing the many important law 
enforcement treaties. We believe that these treaties will serve 
critical United States law enforcement interests through the 
extradition and mutual legal assistance mechanisms that they 
establish. I understand that we have one more question to 
answer and we will get that back to you just as soon as 
possible, and I hope that they can be ratified shortly.
    The Chairman. Good.
    Attorney General Reno. As I indicated, some of the most 
difficult, heartbreaking, and just wrenching cases that I know 
are child custody cases. As a lawyer in Miami, as the State 
Attorney in Miami, I dealt with these cases, and I put a lot of 
emphasis on them. Even then, I sometimes could not get justice 
done. There is nothing more heartbreaking than to have to tell 
a parent that you cannot do anything more under the law.
    When there is a kidnapping involved, that makes it all the 
more difficult, and when it is on an international scale, it is 
an even more difficult task because we have factors to consider 
which we may not be able to control due to the sovereignty of 
the foreign state.
    In a domestic abduction, as you well know, Mr. Chairman, 
the civil orders regarding custody are now granted by law full 
faith and credit from State to State. Moreover, State and 
Federal criminal warrants reach across our interstate 
boundaries.
    But in the international arena, custody orders entered by 
State courts in the United States are not enforceable outside 
the United States. Furthermore, State or Federal criminal 
warrants reach only as far as our extradition treaties take us 
and as far as the domestic law of our extradition treaty 
partner permits. In both civil and criminal process in these 
international abductions, as in many matters that exceed our 
borders, the reach of the United States is ultimately limited 
by decisions of separate sovereign states and their independent 
judiciaries.
    Although the Department of Justice does not play a direct 
role in the civil mechanisms for the recovery of children 
internationally, we are deeply concerned about this problem and 
how we can best support the Department of State which has the 
lead in recovering abducted children.
    Now, two mechanisms apply in cases of parental abduction: 
As you have pointed out, the Hague Convention or other civil 
means for recovery of the child, and the second, of course, are 
the criminal statutes for prosecution of the offender. But as I 
learned full well from my experience as State Attorney, 
bringing charges and even successfully completing the charges 
so that I get a conviction, does not mean that I am going to 
get the child back too.
    I would like for just a moment to discuss the civil 
process.
    The United States has long been a leader in creating 
mechanisms for the retrieval of children abducted 
internationally. The United States and Canada were instrumental 
in the negotiation of the convention on the civil aspects of 
international child abduction done at the Hague October 25th, 
1980. This Hague Convention provides for the return of a child 
abducted internationally by his or her parent pursuant to an 
application by the left-behind parent and a subsequent civil 
lawsuit filed in the country where the child is located.
    According to the convention, a Hague proceeding does not 
decide custody. Instead, it should, in most cases, result in an 
order for the return of the child so that the parents may 
pursue the resolution of custody in the best interests of the 
child in a civil court located where the child resided prior to 
the abduction. In the first 10 years of its operation, 
proceedings under the Hague Convention have resulted, I am 
told, in the return of over 2,000 children to the United 
States. Today 50 countries are party to the convention.
    The Department of State's Office of Children's Issues is 
the United States Central Authority for the Administration of 
the Hague Convention. The Department of Justice supports this 
office in its role as the Central Authority and coordinates 
with it when a case has both civil and criminal aspects.
    Furthermore, the Department of Justice substantially funds 
the National Center for Missing and Exploited Children. It is 
called sometimes NCMEC and sometimes the National Center, and 
it does wonderful work for parents and for children in this 
country. NCMEC, under a cooperative agreement with the 
Department of States, performs certain functions regarding 
children who are brought into the United States after having 
been abducted.
    While the Hague Convention has facilitated the return of 
many children and while it is a vast improvement over the lack 
of any international instrument whatsoever, it does not 
guarantee a satisfactory result in every case. Implementation 
of the convention varies among foreign jurisdictions. It 
depends sometimes just on the court in the foreign country. 
Even in cases in which a left-behind parent has timely filed 
the application, hired legal counsel, and literally done 
everything exactly right, that parent and our Government cannot 
be assured that we can get that child back.
    As a prosecutor, I have had the experience of a judge or a 
jury returning a decision that I thought was totally wrong, and 
I know the frustration. In these Hague cases as well, there are 
some decisions which we think and know are wrong. Ultimately 
these decisions, both in the United States and abroad, are made 
by independent judiciaries in independent sovereign states.
    That reality, however, offers little comfort to the parent 
who is seeking to recover the child. Sometimes they cannot 
locate the child. Sometimes they are frustrated by the court. 
In any instance it is an agonizing situation.
    The Department of Justice will continue to work with the 
Department of State in any way it can to support efforts under 
the Hague Convention. Further, in countries that are not party 
to the Hague Convention, we will try to assist in locating the 
child and providing whatever support we can.
    I would now like briefly to discuss the criminal process, 
including extradition and the role of the Department of Justice 
in the criminal processes.
    The terms ``parental kidnapping'' and ``parental 
abduction'' have come to encompass a variety of scenarios 
involving separation between a child and a left-behind parent 
or other person with custodial interests. The fact patterns 
range from a wrongful retention or overstay of lawful 
visitation or custody to an impulsive taking or to a kidnapping 
involving premeditated fraud or violence. Often, particularly 
in wrongful retentions or overstays, the whereabouts of the 
parent and child are known. Other cases involve layers of false 
identification, false passports, and a helpful underground.
    The Department of Justice is charged with the investigation 
and prosecution of crimes under the International Parental 
Kidnaping Crime Act of 1993. We are involved in the location 
and apprehension of abducting parents charged with State or 
local offenses who are also subject of a Federal warrant for 
unlawful flight to avoid prosecution, and with the Department 
of State, we are responsible for securing the extradition of 
offenders charged under either State or Federal law.
    Most parental kidnapping or interference with custody cases 
are charged under State law. By comparison, the number of 
Federal prosecutions involving these offenses is much smaller. 
At this time, our U.S. Attorneys' offices have 26 open cases 
involving parental kidnapping and 66 matters pending 
investigation, the FBI reports having opened 260 cases under 
the act since its enactment in 1993. In addition, from 1994 to 
1998, the FBI opened over 800 cases to assist in locating 
abductors charged under State and local statutes.
    As I mentioned at the outset, I want to make clear that 
criminal prosecution and the apprehension of the abductor does 
not necessarily result in the recovery of the child. Indeed, 
the Congress also recognized that one of the facts that should 
be considered when determining how to proceed, was that the 
procedure under the Hague Convention should be the option of 
first choice for a parent who seeks the return of a child.
    Now, two recent Federal cases illustrate the point that I 
am trying to make. In both the Al-Ahmad prosecution in the 
District of Colorado and the Amer prosecution in the Eastern 
District of New York, Federal prosecutors apprehended and 
obtained convictions against the abducting parent. However, in 
both cases, the children remain in the Middle East with 
extended family while the abductor serves the sentence imposed. 
Again, in both these cases, the Department of State endeavors 
to ascertain the welfare and whereabouts of the child and to 
assist the parent in making sure that the child is OK, but it 
is not a perfect solution.
    Problems with extradition may be another reason that 
criminal cases are not pursued. Extradition is not an option in 
all parental kidnapping cases. Many older ``list'' style 
extradition treaties, treaties from an era when abduction of a 
child by his or her parent was not recognized as a crime, as 
you noted earlier, are not interpreted to encompass this 
offense. Further, some countries will not extradite their 
nationals. Finally, some countries do not recognize such 
abduction as a crime at all.
    With the help of this committee, we can make some real 
progress I think in addressing these problems. The extradition 
treaties pending before the committee will allow extradition 
for parental kidnapping whenever both countries recognize the 
offense as a crime. This committee--and I thank you for it--
also took the lead in crafting legislation, Senate 1266, to 
address the problem of the limited interpretation of terms 
under the older ``list'' treaties. We appreciate your continued 
support in ensuring that our extradition treaties will 
encompass the offense of parental kidnapping to the fullest 
extent possible.
    But in addition to enforcement efforts, the Department of 
Justice is supporting the recovery of children internationally 
on a program basis. Our Office of Juvenile Justice and 
Delinquency Prevention, which we call OJJDP, serves a larger 
agenda involving the welfare of missing and exploited children. 
As I previously noted, the Department of Justice funds many 
activities of the National Center for Missing and Exploited 
Children. These activities include training law enforcement, 
prosecutors, and judges on domestic missing children cases, 
research projects, and the distribution of information 
regarding the prevention and response to parental abductions.
    Through the funding by OJJDP, the State Department relies 
on the Center to handle most of the issues relating to those 
incoming abduction cases.
    In addition, OJJDP and our Office for Victims of Crime have 
established a fund to assist parents with travel costs when 
they recover their children. These funds are administered by 
OJJDP in coordination with the National Center. Beginning this 
year, a representative of the Office for Victims of Crime will 
be physically located at the Department of State to assist that 
Department with United States citizens who are victims of crime 
overseas, including these children who are the victims of an 
international parent kidnapping. But, Mr. Chairman, I am the 
first person to tell you, as I told you at the outset, that 
there is much more to do.
    In June 1997, OJJDP, in conjunction with the National 
Center, held a parents focus group to identify issues and needs 
in this area. I have found from long ago that it is far better 
to listen to the people who have to struggle with the system 
rather than to think that we know it all. We obtained input and 
recommendation from State and local law enforcement agencies to 
improve the handling and response to international abduction 
through a number of research efforts.
    Based on this, in January 1998, we created an interagency 
committee to specifically focus on international parental 
kidnapping and how we can better respond to the victims in 
these cases, both the left-behind parent and the child. The 
committee has and is receiving input from Federal, State, and 
local law enforcement agencies in order to make recommendations 
to improve the services and system response to parents. As part 
of this effort, committee members have participated in 
additional parent focus groups, attended working group 
meetings, and listened directly to the questions and the needs 
of left-behind parents. The work of this committee is ongoing. 
It is addressing the full range of issues from efforts to 
educate lawyers, prosecutors, law enforcement, and judges on 
the Hague Convention and on international child abduction cases 
through detection and recovery, to prosecution and punishment. 
The interchange to date has helped in coordination of the many 
agencies which may need to be involved in any given case.
    Now, I expect a report on the committee's activities and 
recommendations to improve services and responses for parents. 
I expect that report right after the first of the year, and we 
will look forward to sharing it with you and working with you 
in that effort.
    Among the many issues we are addressing is the functioning 
of the Hague Convention. While all agree that this treaty is a 
valuable tool, we are committed to making sure it works even 
more effectively. This task rests primarily with the State 
Department, but the Justice Department can and will assist.
    I expect the report, when we receive it right after the 
first of the year, to address the following and make 
recommendations with respect to the following.
    First, ways in which the Justice Department through OJC and 
OJJDP can expand outreach and education programs to 
prosecutors, judges, and social services on international 
parental kidnapping. The police officer in Miami does not know 
what to do when a parent calls. The prosecutor gets confused 
where they go from the Department of Justice to the State 
Department. We have got to make sure that we get the message 
out in clear and concise ways.
    Second, I expect it to address ways in which we can manage 
these cases more effectively on an interagency basis and 
perhaps develop a protocol that can serve as a model.
    Third, I expect it to address ways in which we can improve 
our systems for keeping complete and accurate statistics and 
for following the cases so that they do not fall between the 
cracks.
    Fourth, together with the State Department, we will be 
reviewing how best to focus our efforts abroad. Over half of 
all family abductions are to countries not party to the Hague 
Convention. We need to consider whether there are other 
countries we should encourage to join the convention. United 
States law enforcement officials located overseas, particularly 
our FBI legal attaches, can help to emphasize to their foreign 
colleagues the seriousness with which the United States takes 
these cases and the need for effective responses to locating 
the children and the abducting parents.
    The fifth report that I expect is what can we do in terms 
of preventing the problem in the first place. I would like to 
hear from people as to how--and I expect the committee has 
already heard information on how--foreign courts take a State 
order and construe it one way when, if the order had been 
framed in a certain way, we might have had a stronger case 
before that foreign court.
    I want to make sure that the dissemination of information 
regarding legal and practical steps to help prevent abductions 
can be made available on a regular basis through the Internet 
and through other resources.
    Most importantly, we had an experience this year that I 
think will serve us well here. Through the National Center, we 
developed what we called a Family Survival Guide for Parents of 
Missing Children. I got to know a number of parents whose 
children were missing and some were recovered. Some were 
tragically found dead. This was not in the international 
kidnapping context. I listened to them and I thought we can do 
so much, but people were a step ahead of me. They were already 
involving these parents in developing a manual of questions and 
answers and feelings and recommendations as to how parents 
cope. This Family Survival Guide for Parents of Missing 
Children became probably the most popular publication the 
Department of Justice has ever put out.
    I would like to work with the State Department, with 
parents, with State and local law enforcement to review what 
has been done by the State Department and to publish an 
international parental abduction guide that involves the 
parents and see if we cannot get this out in a way that can be 
readily available on the Internet, at police departments, in 
prosecutors offices, at local libraries. The first effort with 
missing children was successful, and I think that this will be 
very important.
    Now, that is going to be what I get from the committee.
    Secretary Albright and I have already talked, and we have 
asked our senior policy staff to review several policy issues 
regarding international child abduction. One issue we want to 
review, together with OMB, is the level of resources we can and 
should be devoting to these cases. They are critically 
important cases, and we have got to address the issue.
    I want to talk with Director Frieh and follow up on issues 
with respect to the LEGATT's and what they are doing in terms 
of assisting and locating the child. What can we do better? How 
can we better allocate resources to ensure that there is a full 
performance in this area?
    We also need to explore making better use of diplomatic 
initiatives and how we at Justice can support State in these 
efforts. But one thing I have learned, when the judge rules, 
the diplomat often has their hands tied, and so we have got 
again to recognize that there is no perfect solution to the 
problem.
    We need to review at a senior level the recommendations 
made by the committee to us about what the role of the National 
Center should be. Perhaps the National Center can do more in 
terms of assisting. How can we work together to achieve that? 
Because they have done so much in terms of dealing with 
children coming into the United States.
    We are committed to doing everything that we can and we 
would like to work with the committee to do it. I would only 
say the most wonderful cases in the world are when the child 
comes home. The saddest cases are when you cannot get the child 
home. There is no perfect answer, but I will work with you 
every way I can to make sure that we have done all that can be 
expected of us to do the right thing.
    Thank you, Mr. Chairman, for focusing on this issue and for 
giving me the opportunity to share thoughts with you.
    [The prepared statement of Attorney General Reno follows:]
                    Prepared Statement of Janet Reno
                            i. introduction
Mr. Chairman and members of the committee:
    I am pleased to appear before the committee today to address the 
important topic of international parental kidnapping. Mr. Chairman, I 
want you to know how much I appreciate your focus on this issue for it 
is so important that we do everything we reasonably can to protect our 
children.
    I would also like to thank you, Mr. Chairman, and the members of 
the committee for going forward on the recent hearing regarding the 
many important law enforcement treaties pending before you. We believe 
that these treaties will serve critical United States law enforcement 
interests through the extradition and mutual legal assistance 
mechanisms they establish. Many of those treaties can also serve us in 
the topic before you today, the international abduction of a child by 
his or her parent. I understand the State Department has transmitted 
the answers to your follow-up questions, and we hope that the Senate 
will ratify these treaties as soon as possible.
    Some of the most difficult and critical cases our legal system 
faces are those involving the custody and welfare of a child. When a 
parent takes the drastic measure of removing a child away from the 
other parent, the cases become more complex and heartbreaking.
    Addressing these matters in the international arena is usually an 
even more difficult task because we have factors to consider which we 
may not be able to control, due to the sovereignty of foreign states. 
In a domestic abduction of a child by his or her parent, civil orders 
regarding custody are now by law granted full faith and credit from 
state to state. Moreover, State and Federal criminal warrants reach 
across our interstate boundaries.
    In the international arena, custody orders entered by State courts 
in the United States are not enforceable outside of the United States 
furthermore, State or Federal criminal warrants reach only as far as 
our extradition treaties take us and as far as the domestic law of our 
extradition treaty partner permits. In both civil and criminal process 
in these international abductions, as in many matters that exceed our 
borders, the reach of the United States is ultimately limited by 
decisions of separate sovereign states and their independent 
judiciaries.
    Although the Department of Justice does not play a direct role in 
the civil mechanisms for the recovery of children internationally, we 
are deeply concerned about this problem and how we can best support the 
Department of State, which has the lead in recovering abducted 
children. Thus I want to say a few words about the civil mechanisms for 
child recovery, before moving to the Justice Department's enforcement 
and programmatic role in international abduction cases.
                           ii. civil recovery
    The United States has long been a leader in creating mechanisms for 
the retrieval of children abducted internationally. The United States 
and Canada were instrumental in the negotiation of the convention on 
the civil aspects of international child abduction, done at the Hague, 
October 25, 1980 (``Hague Convention''.) This ``Hague Convention'' 
provides for the return of a child abducted internationally by his or 
her parent, pursuant to an application by the left-behind parent and a 
subsequent civil lawsuit filed in the country where the child is 
located.
    According to the convention, a ``Hague proceeding'' does not decide 
custody; instead, it should, in most cases, result in an order for the 
``return'' of the child so that the parents may pursue the resolution 
of custody and the best interests of the child in a civil court located 
where the child resided prior to the abduction. In the first ten years 
of its operation, proceedings under the Hague Convention have resulted 
in the return of over 2000 children to the United States. Today, 50 
countries are party to the convention.
    The Department of State's Office of Children's Issues is the United 
States' central authority for the administration of the Hague 
Convention. The Department of Justice supports this office in its role 
as the central authority, and coordinates with it when a case has both 
civil and criminal aspects. Further, the Department of Justice 
substantially funds the National Center for Missing and Exploited 
Children (``NCMEC'' or ``The National Center''). The National Center, 
under a cooperative agreement with the Department of State, performs 
certain functions regarding cases of children ``abducted to'' the 
United States.
    While the Hague Convention has facilitated the return of many 
children to the United States, and while it is a vast improvement over 
the lack of any international instrument whatsoever, it does not 
guarantee a satisfactory result in every case for every parent. 
Implementation of the convention varies among foreign jurisdictions. 
Even in cases in which a left-behind parent has timely filed an 
application, hired legal counsel, and literally done everything 
``right,'' that parent, and the United States, may be bitterly 
disappointed with the result in a particular case.
    As a prosecutor, I have had the experience of a judge or jury 
returning a decision with which I did not agree, which I believed was 
the wrong decision. In these Hague cases, as well, there may be some 
decisions which we think are wrong. Ultimately these decisions, both in 
the United States and abroad, are made by independent judiciaries in 
independent sovereign states.
    That reality, however, offers little comfort to the left-behind 
parents who have suffered the frustration and anguish of losing contact 
with a beloved child--either in situations in which the whereabouts of 
the child are unknown, or in situations in which the whereabouts are 
known, but access is limited or denied entirely. My heart goes out to 
those parents.
    The Department of Justice will continue to work with the Department 
of State in any way it can to support efforts under the Hague 
Convention. Further, in countries that are not party to the Hague 
Convention, our resources are, there too, committed to assist these 
children and the left-behind United States parents.
   iii. justice efforts; criminal processes and extradition; justice 
                                programs
    I would now like to briefly outline the Justice Department's role 
in these difficult cases.
    The terms ``parental kidnaping'' and ``parental abduction'' have 
come to encompass a variety of scenarios involving separation between a 
child and a left-behind parent or other person with custodial 
interests. The fact patterns range from a ``wrongful retention'' or 
``overstay'' of lawful visitation or custody, to an impulsive taking, 
to a kidnaping involving premeditated fraud or violence. Often, 
particularly in wrongful retentions or overstays, the whereabouts of 
the parent and child are known; other cases involve layers of false 
identification, false passports and a helpful ``underground.''
    In addressing these cases of parental abduction, two mechanisms can 
be called upon for two separate but related ends: First, the Hague 
Convention or other civil means for recovery of the child; and, second, 
criminal statutes for prosecution of the offender.
    The Department of Justice can have a more direct role on the 
criminal side. We are the agency charged with the investigation and 
prosecution of crimes under the International Parental Kidnaping Crime 
Act of 1993 (IPKCA); we are involved in the location and apprehension 
of abducting parents charged with State or local offenses who are also 
subject of a Federal warrant for unlawful flight to avoid prosecution; 
and, with the Department of State, we are responsible for securing the 
extradition of offenders charged under either State or Federal law.
    Most parental kidnaping or interference with custody cases are 
charged under State law. By comparison, the number of Federal 
prosecutions involving these offenses is much smaller. At this time, 
our United States Attorneys' Offices have 26 open cases involving 
parental kidnaping and 66 matters pending investigation. The FBI 
reports having opened 260 cases under the Federal International 
Parental Kidnaping Crime Act (IPKCA) since its enactment in 1993 in 
addition, from 1994 to 1998, the FBI opened over 800 cases to assist in 
locating abductors charged under State and local statutes.
    I want to make clear that the criminal prosecution and apprehension 
of any abductor does not necessarily result in the recovery of the 
child. Indeed, the Congress, when it enacted the Federal Parental 
Kidnaping Statute, noted that the Hague Convention ought to remain the 
preferred means for child recovery.
    Two recent Federal cases illustrate this point. In both the Al-
Ahmad prosecution in the District of Colorado and the Amer prosecution 
in the Eastern District of New York, Federal prosecutors apprehended 
and obtained convictions against the abducting parent. However, in both 
cases, the children remain in the middle east with extended family 
while the abductor serves the sentence imposed. Again, in both these 
cases, the Department of State endeavors to ascertain the welfare and 
whereabouts of the children and to assist those left behind.
    Problems with extradition may be another reason that criminal cases 
are not pursued. Extradition is not an option in all parental kidnaping 
cases. Many older ``list'' style extradition treaties--treaties from an 
era when abduction of a child by his or her parent was not recognized 
as a crime--are not interpreted to encompass this offense. Further, 
some countries will not extradite their nationals. Finally, some 
countries do not recognize such an abduction as a crime at all.
    With the help of this committee, we can make progress in addressing 
these problems. The extradition treaties pending before the committee 
will allow for extradition for parental kidnaping whenever both 
countries recognize the offense as a crime. This committee also took 
the lead in crafting legislation--S.1266--to address the problem of the 
limited interpretation of terms under our older ``list'' treaties. We 
appreciate your continued support in ensuring that our extradition 
treaties will encompass the offense of parental kidnaping to the 
fullest extent possible.
    In addition to enforcement efforts, the Department of Justice 
supports the recovery of children internationally on a programmatic 
basis. Our Office of Juvenile Justice and Delinquency Prevention, known 
as OJJDP, serves a larger agenda involving the welfare of missing and 
exploited children, including funding many activities of the National 
Center for Missing and Exploited Children. OJJDP funds training of law 
enforcement, prosecutors, and judges on domestic missing children 
cases, research projects, and the distribution of information regarding 
the prevention of and response to parental abductions.
    In addition, OJJDP and the Office for Victims of Crime have 
established a fund to assist parents with travel costs when they 
recover their children. These funds are administered by OJJDP in 
coordination with the National Center and the Office of Children's 
Issues. Beginning this year, a representative of the office of victims 
of crime will be physically located at the Department of State, to 
assist that Department with United States citizens who are victims of 
crime overseas, including these children.
                        iv. interagency efforts
    Mr. Chairman, we have been working hard to address concerns in this 
area. In June 1997, OJJDP in conjunction with the National Center held 
a parents focus group to identify issues and needs in this area. We 
obtained input and recommendations from State and local law enforcement 
agencies to improve the handling and response to international 
abduction cases through a number of research, training, and technical 
assistance efforts.
    In January 1998, we also created an interagency committee to 
specifically focus on international parental kidnaping and how we can 
better respond to the victims in these cases, both the left-behind 
parent and the abducted child. The committee has received input from 
Federal, State, and local law enforcement agencies in order to make 
recommendations to improve the services and system response to parents. 
As part of this effort committee members have participated in parent 
focus groups, attended working group meetings, and listened directly to 
the questions and needs of left-behind parents. The work of this 
interagency committee is ongoing and is addressing the full range of 
issues, from efforts to educate lawyers, prosecutors, law enforcement 
and judges on the Hague Convention and international child abduction 
cases, through detection and recovery, to prosecution and punishment. 
The interchange to date has helped in coordination of the many 
agencies--local, State, and Federal--which may need to be involved in 
any given case. A report on the committee's activities and 
recommendations to improve services and response to parents affected by 
international abductions is expected after the first of next year.
    I strongly believe that assistance and guidance would be of great 
benefit both to law enforcement personnel who must quickly respond 
these cases as well as to left-behind parents in international 
abduction cases.
    Therefore, I will be asking through the interagency committee that 
OJJDP, the Department of State, and other entities, review the valuable 
international parental child abduction guide recently re-issued by the 
Department of State. The goal of this review is to ensure that in its 
next publication it is more user friendly and includes information 
provided by the parents themselves. I will also ask the committee to 
explore ways to increase the circulation of this guide. I have learned 
how valuable this type of information can be to desperate parents. 
OJJDP's family survival guide for parents of missing children, because 
of its content, has been one of the most popular documents ever 
produced by the Department of Justice. The International Parental Child 
Abduction Guide, jointly produced by the Justice and State Departments, 
in conjunction with parents, Federal, State and local law enforcement 
agencies, and other organizations concerned with missing children, can 
be a vital resource for a parent whose child has been removed from the 
United States.
                      v. areas for renewed efforts
    While I have already described efforts that are ongoing in this 
area, the Justice and State Departments are, collectively, taking a 
hard look at what more we can do. I have discussed this with Secretary 
Albright.
    Among the many issues we are addressing is the functioning of the 
Hague Convention. While all agree that this treaty is a valuable tool 
for the recovery of children, we are committed to making sure it works 
even more effectively. This task rests primarily with the Department of 
State. However, the Justice Department can assist in the education and 
training of law enforcement agents, prosecutors, practitioners and 
judges, all of whom must become more familiar with the Hague 
Convention. The Office of Justice Programs and OJJDP are examining how 
we could expand outreach and education programs to train law 
enforcement, prosecutors, judges, and social services on international 
parental kidnaping.
    Together with the Department of State, we are reviewing how best to 
focus our efforts abroad. Over half of all family abductions are to 
countries not party to the Hague Convention. We need to consider 
whether there are other countries we should encourage to join the 
convention. United States law enforcement officials located overseas, 
particularly our FBI legal attaches, can help to emphasize to their 
foreign colleagues the seriousness with which the United States takes 
these cases, and the need for effective responses in locating the 
children and the abducting parents.
    Another area for attention is prevention. Efforts made in the State 
and local jurisdictions as to the type of orders entered regarding 
custody, the dissemination of information regarding legal and practical 
steps to help prevent abductions, as well as additional measures, such 
as surrender to the family court of both U.S. and foreign travel 
documents for the children, will well serve as a deterrent to these 
abductions.
    Also, we need to manage these cases more effectively on an 
interagency basis and explore ways to improve our systems for keeping 
complete and accurate statistics. State Department personnel, Federal 
and State prosecutors and investigators, and child welfare agencies 
need to work together and be better informed, so we make timely and 
effective decisions about the civil and criminal remedies in these 
cases, and in order to better respond to the left-behind parent.
    Moreover, coordination at a working level must be supported by 
coordination at a policy level. Secretary Albright and I have asked our 
senior policy staff to review several policy issues regarding 
international child abduction. One issue we want to review--together 
with O.M.B. if appropriate--is the level of resources we can and should 
be devoting to these cases. We also need to explore making better use 
of diplomatic initiatives and how we at Justice can support State in 
these efforts. We also need to review, at a senior level, the role of 
the national center and, in particular, current suggestions to expand 
its role in prevention, case management, case processing, and support 
to left-behind parents.
                             vi. conclusion
    These cases present difficult challenges. The Justice Department is 
committed to continue and to improve its partnership with the 
Department of State, and with State and local authorities, to insure 
that every case is addressed effectively. While there can be no 
guarantees we will have the desired result in every case, we must 
assure that we have done our best to recover children wrongfully 
separated from their parents, and to enforce the laws and lawful orders 
of our courts.
    Again, I appreciate the opportunity to appear before the committee 
concerning this most important topic.

    The Chairman. Madam Attorney General, I have been around 
the Senate for a while. I have heard a lot of witnesses on 
various subjects, but I will say to the Senator from Virginia 
who has just joined us, Senator Robb, that I have never had one 
who was more comprehensive in not only discussing the problem, 
but laying out and identifying in detail what she intends to do 
about the problem. That is sort of a novelty around this place. 
Madam Attorney General, I just appreciate so much your coming.
    Attorney General Reno. Mr. Chairman, do not give me any 
credit until we get something done.
    The Chairman. Who was it said a journey of a thousand miles 
has to start with the first step? You are there and then some.
    We have been joined by the distinguished Ranking Member, 
Senator Biden, and I will welcome him and suggest that we will 
be glad to hear from him.
    Senator Biden. Mr. Chairman, I apologize. I was down on the 
floor that the Attorney General is very accustomed to being in, 
the Judiciary Committee. We had our executive committee meeting 
down there. So, I will just ask my statement be placed in the 
record.
    If you were about to excuse the Attorney General, I will 
not have her stay on my behalf because I can drop the questions 
I have--
    The Chairman. I wish you could have heard her statement. I 
know you will read it.
    But we will be glad to hear from you on this.
    Senator Biden. No, no. I will not take the committee's 
time, but I would ask unanimous consent my statement be placed 
in the record.
    The Chairman. Without objection.
    [The prepared statement of Senator Biden follows:]

                  Prepared Statement of Senator Biden

    Mr. Chairman, I commend you for focusing attention on the issue of 
international parental abduction.
    The act of taking a child in violation of a custodial order--
whether across States' lines or across international borders--is a 
heinous crime which is extremely heart-wrenching for the parent left 
behind and for the child or children affected.
    There are two means of addressing the problem. The first is for a 
parent to seek a civil remedy through a foreign court.
    Ten years ago, the United States became party to the ``Hague 
Convention on the Civil Aspects of International Child Abduction,'' a 
fancy name for a treaty which imposes an obligation on nations party to 
it to return a child to the rightful custodial parent, subject to 
certain limitations and exceptions.
    After a decade of experience, it is timely for the Committee to 
review the operation of the treaty, although I am somewhat mystified 
why we are not hearing from the Department of State on that aspect of 
the issue.
    The second means of addressing the issue (though it does not 
guarantee the return of the child) is to pursue the perpetrator--the 
act of parental abduction is a crime in every State, and it is a 
federal crime to take or retain a child outside of the country in 
violation of a custody order.
    In the latter case, a criminal suspect may be extradited--provided, 
of course, that we have a bilateral extradition treaty with the country 
where the suspect may be found.
    Last year, this Committee took a small but important step in 
approving legislation, S. 1266--the ``Extradition Treaties 
Interpretation Act''--which will authorize the Executive to utilize 
older extradition treaties to cover this crime. Unfortunately, the bill 
has languished in the other body, for reasons I cannot fathom, and so I 
hope the attention to this issue here today will spur positive action 
on that legislation.
    I welcome the Attorney General and our witnesses and look forward 
to their testimony.

    Senator Biden. I will say how good it is to see the 
General. Do not scare us again, OK?
    The Chairman. Senator Robb.
    Senator Robb. Mr. Chairman, I thank you.
    I am actually playing hooky from both the Armed Services 
Committee where we are considering the testimony of the 
Secretary of Energy on nuclear matters and the Intelligence 
Committee where we are discussing covert action matters.
    But the hearing, the topic, and particularly the witness 
interested me, and I wanted to stop by for just a minute. I 
agree fully with the chairman's assessment of that portion of 
the Attorney General's testimony that I heard and the obvious 
interest and commitment to resolving a very vexing challenge 
for the international community is certainly very evident from 
the--I do not like to use the word ``passion,'' but the 
commitment to attempting to deal with this particular issue. I 
join the chairman in saying to the Attorney General thank you 
for a very comprehensive review and for her obvious dedication 
to results, not just rhetoric.
    The Chairman. Very good.
    Senator Biden. If you have answered this question, General, 
please, I will read it in the record. But how many cases, if 
you know, do you have pending now that this legislation we are 
talking about would affect? Do you have any idea of that?
    Attorney General Reno. Which legislation are you talking 
about? The Kidnapping Act or the Hague Convention?
    Senator Biden. The interpretation bill, S. 1266, The 
Extradition Treaties Implementation Act.
    Attorney General Reno. Senator, I do not have the numbers 
on that, but we will furnish that to you. It is enough so that 
it causes me problems, and when I go to our executive working 
group meeting with prosecutors and others, they are fussing at 
me as to why we have not done more.
    Senator Biden. Thank you, Mr. Chairman.
    The Chairman. Now, let me review your testimony and try to 
fit in my own understanding, such as it is, of the enormity of 
the problem.
    Your agency handles all of the law enforcement aspects, 
such as Federal arrest warrants and initiating extradition 
requests. That is correct, is it not?
    Attorney General Reno. Yes, sir.
    The Chairman. Now, the State Department, I am informed, 
tracks civil law requests under the Convention on Child 
Abduction, and the Center for Missing and Exploited Children, 
with a large grant from the Justice Department, which you 
mentioned, tracks cases of parents who abduct children to the 
United States.
    Now, it seems to me that one of the most frustrating 
aspects of this problem is fragmentation, and I think you 
emphasized that very adequately in your statement. Do I gather 
that you would support a consolidation of these activities, all 
of them, into the Justice Department?
    Attorney General Reno. I am going to wait and see what the 
committee recommends. I would not support it now and let me 
tell you why. If--just if--somebody decided that was the right 
thing to do and we took the applications and worked with the 
National Center for Missing and Exploited Children on the 
outgoing cases and then handled the incoming cases, we would 
still have to rely a very great deal on the missions around the 
world. I can tell you from my own experience in criminal cases 
where I have to rely on the State Department and its missions 
around the world to try to find somebody or make contact or 
nudge a minister of justice a bit, they can be absolutely 
invaluable. So, no matter where you put it, Mr. Chairman, the 
two Departments are going to have to work together, and I think 
the best thing to do is to look at how we can really work 
together so it is a seamless process. But I want to see what 
the committee recommends.
    The Chairman. Fair enough. I think that is a wise course.
    Staff has provided something I did not know. They say that 
California has implemented a system with some success where the 
civil and criminal aspects of parental kidnapping are unified. 
Is this some sort of model for a beginning of how to handle our 
problems?
    Attorney General Reno. I have heard of the California 
system. I have never explored it. Let me explore it and let me 
make sure that the working interagency committee has the 
information concerning it.
    The Chairman. Last year Joe Biden and I cosponsored a bill, 
as you mentioned, 1266, the Extradition Treaties Interpretation 
Act of 1997, which would include parental kidnapping as an 
extraditable offense under our existing extradition treaties. 
Now, this bill has languished in the House since it was passed 
unanimously by the Senate. I think I know the answer to this. 
Would you support this legislation?
    Attorney General Reno. Absolutely, Mr. Chairman, and we are 
very grateful to you for your leadership in pushing it.
    The Chairman. Well, I know you have a busy schedule. 
Everybody on this committee is probably going to ask permission 
to file a written question or so with you. I may have one or 
two myself.
    Attorney General Reno. We would be happy to, and not just 
at this time. If you have any questions--I have been working 
with Senator DeWine, and it is helpful for us to know about 
problem cases so we can address issues of what can be done 
better. After meeting with him, I have gone back and looked at 
what we can do to be more effective in terms of determining 
whether the case should be prosecuted federally or in the State 
court. We just welcome and continuing suggestions.
    The Chairman. Good.
    Mike, first I want to ask your forgiveness for not seeing 
you when you came in. Second, I am going to insist that you ask 
a question or make a comment.

STATEMENT OF HON. MIKE DEWINE, A U.S. SENATOR FROM THE STATE OF 
                              OHIO

    Senator Dewine. Mr. Chairman, first let me thank you for 
allowing me to sit with the committee. I arrived late. I was 
with Senator Biden. He had me detained in the Judiciary 
Committee. So, we were together there.
    But I want to thank you for holding a hearing on what I 
think is a very important issue. This issue came to my 
attention I guess the same way a lot of things come to our 
attention as Senators, and that is, we have constituents who 
call us or write us who have specific problems. This is a 
problem that the Attorney General and I have talked about, in 
fact, talked about just last week, that I think we are just 
seeing the tip of the iceberg. It is estimated--I looked at the 
testimony--a thousand of these potential cases. My guess is 
there may be many, many more that we are just not hearing 
about. But with the increase in international marriages--we 
know that half of all marriages in this country, at least, 
break up. We just know statistically that this is going to 
continue to be a major problem, and it is a problem that every 
Senator is going to see in his or her constituency in his or 
her State. There is nothing sadder than these cases. These are 
just heart-wrenching cases.
    So, I look forward, Attorney General, to working with you, 
and Mr. Chairman, just appreciate your interest in this in 
holding this hearing today.
    Senator Biden. Mr. Chairman, may I make one brief 
observation? One of the reasons why the Attorney General is 
probably happy to be here and probably does not want to leave 
is this is a lot friendlier than another committee, is it not?
    Senator Biden. We have not asked you any questions about 
those other subjects. You are welcome to stay, Janet. I realize 
this may be a momentary safe haven for you to talk about this. 
In case you are wondering why she is smiling so much, it is not 
the Judiciary Committee. That is why she is smiling.
    Attorney General Reno. Mr. Chairman?
    The Chairman. Yes, ma'am.
    Attorney General Reno. The reason I am so happy to be here 
is because this is an area where everybody can work together in 
a bipartisan way.
    Let me just add two thoughts to the general problem.
    Nothing frustrated me as much as to have somebody commit a 
murder in Dade County, flee to another country, the country of 
which he was a national, and be told that that country would 
not extradite its national, and if I wanted to prosecute, I 
would have to send witnesses and everybody down to the country.
    Well, that has created one of the major issues for me, 
which is if we are going to live in a world of trust, if we are 
going to have trade agreements and other arrangements with 
people, then we are going to have to trust each other enough to 
recognize that any case should presumptively be tried in the 
place where the crime was committed. You should not ask a child 
who has been molested to go a thousand miles away to prosecute. 
It is just wrong. Now, there are certain situations where there 
is a change of venue even in our country, but our great 
presumption is in favor of prosecuting the crime where it took 
place.
    So, one of the things that I have engaged in is a 
continuing campaign with my colleagues, the ministers of 
justice, to say, look, let us work this out so that we build a 
world based on trust and that everybody knows there is no safe 
place to hide. This is important here because some of these 
cases are stymied because the country where the child is and 
the parent is will not extradite the parent because the parent 
is a national of that country.
    We have made some progress. Sometimes I think it is four 
steps forward and five steps back, but it has been a slow 
process. I think we would like to work with the committee in 
pursuing that as much as we can.
    The second issue is a problem I want to point out. One of 
the reasons that people do not sometimes get involved in this 
in State and local jurisdictions is that they will not seek an 
extradition because they cannot pay for it, or if they seek the 
extradition, they are worried that once the child is here, the 
people will not want to prosecute.
    I would like to explore legislation that would authorize 
the Attorney General to designate funds to defray expenses 
incurred by State and local jurisdictions in an extraordinarily 
limited number of cases, but important cases that go to very 
significant problems like this. This tool would be helpful, but 
it is not intended to shift the entire burden. It is just 
attempting to create a proper balance between the Federal 
system and the State system.
    Again, child custody is basically a State issue under our 
Federal system. The Federal system should not be impaired 
because we cannot afford it. So, Senator DeWine and I had 
talked about it. Should more cases be brought in Federal court? 
Is that the best way to do it? I would like to continue to 
explore with you what the appropriate balance is between the 
Federal and State side and how that is affected by resources 
and what the final answer should be.
    The Chairman. Do you have any comments, Senator Biden?
    Senator Biden. I do not.
    The Chairman. Well, one of the things that bothers me most 
is that so often the governments that refuse to cooperate are 
the ones that have signed treaties saying that they would 
cooperate. I guess I learned from Sam Ervin who learned from 
Will Rogers that the United States never lost a war up until 
that time or won a treaty. So, maybe we better look at the 
treaties a little bit that we sign around this place instead of 
race horsing them through the Senate with a two-thirds vote.
    But thank you, ma'am, for coming.
    Attorney General Reno. Thank you so much, Mr. Chairman.
    The Chairman. Anytime you need a safe haven, you come on up 
here.
    Attorney General Reno. Thank you, sir. I may be calling on 
you.
    The Chairman. The second panel, distinguished citizens all, 
Mr. Thomas R. Sylvester of Cincinnati, Thomas Johnson of 
Alexandria, Virginia; Lady Catherine I. Meyer of the British 
Embassy in Washington; and Mr. Paul Marinkovich of Simi Valley, 
California. If you gentlemen and lady will take your seats, we 
will proceed.
    My southern upbringing compels me to say, ladies first, and 
so we will recognize you, Lady Meyer, and welcome you to the 
committee.

    STATEMENT OF LADY CATHERINE I. MEYER, BRITISH EMBASSY, 
                        WASHINGTON, D.C.

    Lady Meyer. Sir, I have prepared a proper statement that I 
have written, and I just wanted to do a short summary.
    Sir, my name is Catherine Meyer and I am a French and 
British citizen. I was married to a German citizen in 1986. We 
separated in 1992. We had a contractual agreement by which I 
had custody of the children and the children would visit their 
father during the holidays.
    We live in London. Everything works well. In 1994, I sent 
the children on holidays, and 4 days before they are due back I 
receive a letter from my ex-husband saying, I am not sending 
them back.
    Well, I was, like most people in my situation, completely 
distraught. I had never heard about child abduction within 
democratic societies. I only heard of the Bahti Makhmudi case. 
Suddenly I was faced with losing my children and having to 
fight through a legal system in my own country. I had actually 
no idea of the law before. I had to fight in Germany to try and 
seek the return of my children.
    So, this took some time. There were court orders made in 
Britain for the immediate return of the children who were 
illegally retained in Germany under Article 3 of the Hague 
Convention.
    We had a first hearing in Germany. About a month later, the 
German courts initially ordered the return of the children, but 
my ex-husband asked for half an hour to say good-bye to the 
children. My lawyers naively agreed and instead of returning 
the children, he put the children in a car and vanished.
    A month and a half later, there was an appeal hearing in 
Germany, by which time I had not seen my children for 4 months. 
In the appeal hearing, my ex-husband called the Article 13, 
which is the only exception in the Hague Convention, as a 
defense for not returning the children.
    One of the problems in this Hague Convention is actually 
this exception clause because once you have an exception, it 
basically defies the rule. Unfortunately, my studies of all the 
cases of some countries that have not returned children, it was 
always on the basis of Article 13b, which is supposedly the 
will of the children. So, on this basis my children were not 
returned.
    What I really want to say now is that since 1994 I have 
been fighting very hard to try and first have the return of my 
children. Then I have tried simply just to see my children. My 
children were taken away 4 and a half years ago. In 4 and a 
half years, I have never seen my children on my own. In 4 and a 
half years, I have spent 11 hours with my children, locked in a 
secluded house under the supervision of a third party. My last 
visit was in February. The visit before that was 2 years ago. 
It is a very, very difficult thing to live with.
    So, one of the major, major issues about this Hague 
Convention--we had recently the forum in Washington to try and 
help parents like me try and make the Hague Convention work 
better because, as we have discovered, it is a good piece of 
legislation, but it was written 18 years ago. Many things have 
changed in 18 years, and we also have discovered that whereas 
some countries abide by the spirit of the convention, other 
countries really do not. There are some countries that are 
specific problems and they do not return children.
    Then comes the added additional problem, as I was just 
saying, can we just even see our children. I think all of us 
here basically all have our own stories which is in essence 
very similar, and whether it is a father or whether it is a 
mother, I find that in modern society to be denied access to 
your children is quite outrageous.
    So, I call very strongly and I really appreciate that we 
are here to testify because I find this is a huge issue. I 
realized it was a huge issue when I started fighting. I had 
some articles in the British and the French press, and I 
started being approached by other parents. I realized this is 
enormous, and a lot of parents do not know where to go. They do 
not know how to get a lawyer. They do not have enough money. 
So, the numbers that we have, which NCMEC talks about a 
thousand cases, probably two and a half children per case--so, 
let us say 2,500 cases per annum of U.S. children taken abroad 
to Hague Convention countries. I think those figures do not 
show the reality. I think the real figures are tens of 
thousands.
    [The prepared statement of Lady Meyer follows:]
               Prepared Statement of Lady Catherine Meyer
    My paper is drawn from my personal tragedy and my knowledge of the 
situation in Britain and in Germany.
                                my case
    In 1984, I married a German doctor, Hans-Peter Volkmann, in London 
and our first son, Alexander, was born a year later. Volkmann then 
decided that we should move to Germany for two years. I abandoned my 
city career to follow my husband, and our second son, Constantin, was 
born in 1987. But our marriage broke up and in 1992 we legally 
separated: the children would live with their mother in London and 
visit their father during their school holidays.
    At first, all worked well. The children adapted quickly to their 
London life. They continued their schooling at the French Lycee and 
spent holidays with their father in Germany. I struggled to rebuild my 
career in the city of London so that I could support my children. By 
19941 had managed to obtain a senior position in a Bank and to buy a 
comfortable apartment for the three of us.
    On 6 July 1994, the children left for their summer holidays. 
Without warning, four days before they were due to return to London, 
their father announced that he was not sending them back to England. He 
then disappeared with the boys.
    I had no choice but to apply to the English courts. The High Court 
of England & Wales ruled that the ``retention of the children is 
illegal'' and ordered their ``immediate return'' to Britain under the 
terms of the Hague Convention. Initially, a local German court upheld 
the English decision. But Volkmann requested half an hour to say good-
bye to the boys. My lawyers naively agreed. Taking advantage of this, 
and in defiance of the court order, Volkmann bundled the boys into a 
car and vanished. The local police were unwilling to help and by the 
time Court bailiffs were located, it was too late.
    The following day, Volkmann lodged an ``ex-parte'' (i.e. the judges 
did not inform my side) appeal in the higher court of Lower Saxony, in 
the nearby town of Celle. Astonishingly, the judges made a provisional 
ruling in his favor. The children should remain in Germany until the 
appeal was heard.
    When this took place, in October 1994, the Celle court reversed the 
earlier English and German decisions on the grounds that it was the 
children's wish to remain in Germany, and that they had been suffering 
in a ``foreign environment . . . especially since German is not spoken 
at home or at school'' . . . The judges ruled that the children had 
attained an age at which it was appropriate to take their view into 
account, . . . since ``a 7 year old child faced with the decision to 
play judo or football, generally knows which decision to make . . .''
    At the time of the hearing, I had not seen or spoken to my children 
in over four months and they had been under the sole influence and 
control of their father.
    The Celle court decision also meant that all further legal 
proceedings on custody and access took place--and are still taking 
place, four years later--on the abductors home territory. The second 
consequence was that despite numerous applications to the German court 
since 1994, I have never been able to see my children alone.
    In November 1995, several applications were rejected on the basis 
that I might reabduct the boys and that they no longer wanted to see 
me. In December 1995 a further hearing was held in Verden: access was 
again denied on the grounds that I could re-abduct the children if we 
were to spend Christmas together. In January 1996, following a 
desperate attempt to see my boys in Germany, I was falsely accused by 
my ex-husband of trying to abduct the children. Despite a police report 
confirming this was untrue, immediately thereafter and in my absence 
the court transferred the residence of the children to Germany. Despite 
every guarantee on my part, including the support of the British Consul 
General in Hamburg, the fear of abduction was consistently used, over 
the next few years, to deny me and my parents normal access rights.
    In September 1997, Volkmann divorced me. In exchange for giving him 
custody, it was agreed in court that I should have access to the 
children on ``neutral territory''.
    But when the moment finally came, six long months later, for me to 
meet my sons in Hamburg, Volkmann backed out at the last moment, 
stating that it was the wishes of the children not to see me. The judge 
refused to enforce the access agreement. It was only then that I 
discovered that while the custody arrangement was enforceable, access 
was not. (In the UK it is not possible to get a divorce or a custody 
order without enforceable access arrangements).
    This took place in February of this year. Since then a further 
application to see my children has been denied on the grounds of ``lack 
of urgency.'' Now, I am awaiting another hearing in Germany to which I 
have been summoned on 25 November.
    In the last four and a half years, not only have I never been alone 
with my children, but I still have no enforceable access rights. In 
this period, I have been able to spend only 11 hours in the company of 
my children. (2 visits in December 1994; 1 in October 1995 and 5 more 
by May 1996 and 1 in February 1998). All were held under the most 
harrowing conditions: locked in my ex-husband's secluded house and 
under the supervision of a third party. All were broken off after less 
than two hours.
    So the months pass, the years pass, and my children are growing up 
without a mother. Before my ex-husband abducted our children, they were 
allowed to see and love both their parents. Now, they are not.
    If anything is trans-national, it is the interests of the children. 
Sadly, children's issues remain an area where national interest is too 
often allowed to assert itself. Co-operation between some Hague 
Convention countries is practically non-existent. Judges often do not 
know the treaty well enough to enforce it and nationalism takes 
precedence over the Hague Convention rules.
    Has anyone proved that I am an unfit mother? No. Has anyone proved 
that I do not love my children? No. But, I am nonetheless denied the 
rights that even women in prison are allowed. My parents have been 
denied all access as well. My 86-year old father may never live to see 
to see Alexander and Constantin again.
    My children will be scarred for life and they may never recover 
from this experience. They have become confused and angry with me, 
because they have been told that I have abandoned them. On two 
occasions, when I saw my sons and told them how happy I was to see 
them, Alexander replied: ``you lie. Daddy told us that you could come 
and see us whenever you wanted--but you never did''.
    My children, as thousands of others, do not deserve to have their 
lives destroyed in this way.
                              the problem
    Most people associate child abduction with countries where laws and 
customs are very different from ours. But, child abduction within 
western societies is much more common than supposed and there has been 
an explosion in the number of incidents since the mid-1970s.
    There is an obvious link between this phenomenon and the decline in 
marriage as a stabilizing factor in our societies. The sharp rise in 
divorce rates and children born outside marriage provide fertile ground 
for disputes about custody and access.
    At the same time, the problem of child abduction has over the last 
two decades acquired a new and sometimes insoluble dimension. 
Statistics point to an increase in marriage between people of different 
nationality. This is hardly surprising. With the explosion of 
international travel and tourism, the social consequences of a global 
economy, and the increasing irrelevance of national frontiers, 
especially in Europe, traditional impediments to trans-national 
marriages have fallen away. But those unions are no less prone to 
divorce and to quarrels about children.
    Whenever marriages break down, a decision has to be taken on where 
and with whom the children will live. This can be a bitter and 
contentious business. But when parents of different nationalities are 
involved, disputes over custody and access can be further exacerbated 
by differences in culture and in the legal systems of the two countries 
involved. Some of these situations result in cross-frontier abductions 
by one of the parents. When this happens--in contrast to abduction 
within a single national jurisdiction--experience shows how difficult 
it is to secure the safe return of children and to protect them from 
the psychological damage inflicted by abduction.
    Judicial co-operation between states can be a highly contentious 
area as the recent negotiations on an International Criminal Court have 
shown. One of the reasons is that judicial systems lie at the heart of 
national sovereignty. This often inhibits cross-border co-operation, 
which requires the competence of national courts to be limited by 
international obligations. The issue of child abduction is a prime 
example of the limitations of international co-operation in the 
judicial area.
    There are no international conventions regulating custody matters. 
Every country has its own judicial system. Custody orders made in one 
country are not necessarily recognized in another. When non-custodial 
parents abduct their children from the state in which custody has been 
given (usually heading to their home country), the chances of 
recovering them through judicial process can be slim. Every year, more 
and more children find themselves separated in the most harrowing 
circumstances from one of their parents.
    The effect on children can be devastating. But the victim parents 
themselves are also plunged into a bewildering world where 
helplessness, despair and disorientation compete. The emotional trauma 
is compounded by the daunting practical obstacles to retrieving the 
children, or even to gaming access to them. Simply finding out where to 
get help can be very difficult. Parents often face unfamiliar legal, 
cultural and linguistic barriers. Their emotional and financial 
resources can be stretched to the limit. In the meantime, the abducted 
child is often led to believe that the victim parent has abandoned it, 
so leading the child, in its anger and hurt, to assert that it does not 
want contact with the victim parent. This vicious circle complicates 
still further a resolution, and will continue to do so until courts 
recognize that there is such a thing as Parental Alienation Syndrome, 
PAS. As the years pass, the chances of recovering children before their 
adulthood become progressively more remote. Many victim parents feel 
that it would be easier to come to terms with the shock of bereavement 
than with a situation marked by prolonged uncertainty and anxiety.
    Some parents may believe that their actions have an objective 
justification (e.g. to rescue their children from domestic violence). 
But a common thread in all too many cases is the sustained, vengeful 
effort of the abductor to deprive the other parent of contact with the 
child to the maximum degree possible. The aim is to flee one judicial 
system, in favor of another in order to permanently reverse previous 
custody decisions and destroy the other parent's relationship with the 
child.
    The International Hague Convention on the Civil Aspects of 
International Child Abduction of 1980 was designed to ensure ``the 
protection of children from the harmful effects of their wrongful 
removal or retention''. Should one parent break a custody agreement 
either by illegally retaining (on an access visit) or abducting a 
child, the Hague Convention requires its immediate return to the 
country where the original custody agreement was made.
    The purpose of the Hague Convention was to provide a simple and 
straightforward procedure. In this, it has largely failed. Different 
national approaches to implementing the Hague Convention, the slowness 
of procedures, the lack of legal aid in some countries, and the 
excessive recourse to the loop-hole clause, has meant that most cases 
of international child abduction remain unresolved. Some children are 
never located. Others are simply not returned to their country of 
origin.
    The exact figures for trans-national child abduction are not known. 
Many parents are reluctant to go to the central authorities. Others are 
not even aware of the existence of the Hague Convention. The official 
figures could well understate the problem. Even so they are alarmingly 
high. In the United States alone, the National Centre for Missing and 
Exploited Children reports over 1,000 American cases (on average two 
children per case) of cross-border abduction every year and the number 
is growing sharply. In England, Reunite, the National Council for 
Abducted Children, has recorded a 50% increase since 1995 in the number 
of children abducted abroad by an estranged parent. In France, a 
similar upsurge has been recorded.
    Despite the rapid increase in abduction cases, there is too little 
awareness of the phenomenon in the governments and legislatures of 
Convention signatories. Nor is there much awareness among the 
populations at large. As a result, very little is being done to tackle 
the issue and to make The Hague Convention work as originally intended.
       the hague convention: what it does and what it does not do
    The Hague Convention on the Civil Aspects of International Child 
Abduction is an international treaty currently in force between 49 
countries.
    The objectives of the Convention are ``to secure the prompt return 
of the children wrongly removed to, or retained in, any Contracting 
State; and to ensure that rights of custody and access under the law of 
the Contracting state are effectively respected in the other 
Contracting states'' (Article 1). The Convention is not concerned with 
the ``best interests of the child'', that is to say, with the merits of 
a custody case. Criticisms or complaints about the custodial parent or 
the terms of a custody award, are matters to be dealt with by the 
jurisdiction of the child9s habitual residence. The paramount objective 
of the Hague Convention is to return the child to the country of 
habitual residence and to confirm that country's jurisdiction.
    The Hague Convention provides for a civil proceeding to be brought 
by the country from which the child was removed or retained. if 
proceedings are filed within one year, the judge of the country of 
retention is mandated to order the return of the child to the country 
of habitual residence. (Return is discretionary if more than one year 
has elapsed and the child is settled in the new environment). The 
abducting parent can raise objections to the return. But the intent of 
the Convention is not to allow these objections except in the most 
narrowly defined circumstances.
    The exception to the requirement for the immediate return of the 
child to the country of habitual residence is to be found in Article 13 
of the Convention.

          The judicial or administrative authority of the requested 
        state is not bound to order the return of the child if (Article 
        13b) there is a grave risk that the child's return would expose 
        him/her to physical or psychological harm or otherwise place 
        the child in an intolerable situation The judicial or 
        administrative authority may also refuse to order the return of 
        the child if it finds that the child objects to being returned 
        and has obtained an age and degree of maturity at which it is 
        appropriate to take account of its views.

    A main intention of this article was to draw a clear distinction 
between a child's objections, as defined in the article, and a child's 
wishes as commonly expressed in a custody case. This is logical, given 
that the Convention is not intended as an instrument to resolve custody 
disputes per se. It follows, therefore, that the notion of 
``objections'' under Article 13b is far stronger and more restrictive 
than that of ``wishes'' in a custody case. A failure by courts to grasp 
this distinction, and to see it as a key defense against the 
manipulation of a child by the abductor-parent, is a root cause of the 
difficulties described below in the implementation of the convention.
    To sum up:

    1. By allowing an exception, the Hague Convention does not set an 
            absolute rule. Children are not automatically returned.
    2. Article 13, in constituting this exception, can offer abductors 
            a way of legitimizing their actions.
    3. Whether or not article 13 serves this purpose depends on how the 
            judge interprets its meaning.

             iv. the hague convention: what has gone wrong
    The discretion given to judges has in practice resulted in a wide 
variation between signatory states in the outcome of proceedings. The 
American Bar Association reports that judicial returns vary between 5% 
and 95% from country to country. Article 13b, originally intended as an 
exception, has in some countries become virtually the rule. This is 
jeopardizing the Convention's effectiveness and perverting its original 
intent.
1. The exception is made the rule
    Evidence is accumulating that a major cause for the discrepancy in 
rates of return orders is the level of court allowed to hear Convention 
cases. When cases are heard centrally by High Court judges, return 
orders are usually made. But, the system tends to fail, when the courts 
hearing Convention cases are local family courts without Convention 
experience. This is particularly significant when Article 13b is raised 
as an objection.
    In England and Wales, Convention cases are exclusively heard 
centrally by a small number (seventeen at present) of specialist High 
Court judges. The High courts of England and Wales usually hear cases 
expeditiously based on paper evidence and without the child's view 
being heard. Judges usually make a decision quickly to return the 
children, relying on the foreign court to make a fair decision at any 
subsequent custody hearing.
    The Consultation paper on Child Abduction published in the February 
1997 issue of the British Family Law journal reported that in England 
and Wales, the ``consistent approach has been to draw a clear 
distinction between children's objections under article 13b and 
children's wishes in ordinary domestic custody cases''. The English 
High Court has taken a policy decision to approach Art. 13b with 
caution (for example against the risk of indoctrination by an abducting 
parent) and, even if a child were found to object to a return, to 
refuse a return only in an exceptional case.
    Conversely, in countries where Convention cases are first heard in 
local courts without Convention expertise, the results can be very 
different. For instance, in Germany, all Amtsgerichte (small family 
courts that can be found in towns which have as few as 20,000 
inhabitants) have jurisdiction to hear Convention cases. Cases are 
heard in the locality where the abductor has taken the children 
(usually his home town) and it is impossible to change jurisdictions. 
\1\
---------------------------------------------------------------------------
    \1\ 1 This is currently under discussion in Germany and a proposal 
has been put forward to reduce the number of courts eligible to hear 
Convention cases (at present more than 300).
---------------------------------------------------------------------------
    The risk here is of inexperienced judges, who may misinterpret the 
meaning of the Hague Convention. The 1996 Lowe report found that in 
Germany, no single Amtsgericht court had heard more than one case and 
that every time that the child's objections were raised as a 
``defense'' for abduction or retention, a return order was refused
    A feature of many such cases is that they are allowed to become a 
discussion on the merits of custody arrangements. Frequently, an 
abducting parent will, within the framework of Article 13b, level 
allegations against the other parent and request that oral evidence be 
heard. Judges, who are inexperienced, treat these Article 13b 
objections as ``a merit of custody'' argument This is exactly what the 
Convention was supposed to avoid: such considerations are meant to be 
reserved to the court of the child's habitual residence, which is best 
placed to decide on questions of custody and access. But local family 
courts are too often unable or unwilling to uphold the difference 
between proceedings under the Hague Convention and arguments over 
custody arrangements. Underlying this is a distrust of foreign courts.
    There is the added risk of a vicious circle, if family court judges 
are seen to favor local residents. Abductors will be readier to take 
the law into their own hands, if they believe that their judges will 
ex-post facto legitimize what they have done.
2. The danger of delay
    The merit of the Convention is supposed to lie in the speed of its 
proceedings. But, some countries are markedly slower in dealing with 
Hague applications than others. This is particularly the case where, as 
described above, court proceedings become in reality an argument over 
custody. (The problem of delay is compounded when cases are first heard 
in lower courts and appeals can then be lodged in higher courts).
    In some countries, the involvement of the local Youth Authority or 
Social Services, plays a major role in proceedings. Local judges tend 
to rely on their evidence, and hold up matters by asking to see welfare 
reports and the children. While in principle this could give a more 
complete picture of the children's situation, it is nonetheless a major 
factor for delay. In the meantime the child is more and more under the 
influence of the abducting parent and further alienated from the absent 
parent There is another problem. Youth Authority reports are usually 
based on information available only in the country of retention and 
there is little direct investigation into the environment from which 
the child has been taken. The result, therefore, can be an in-built 
bias in favor of the abductor. Finally, the passage of time will 
eventually generate a new argument, which favors abductors, namely that 
the children are now settled in their new environment and should not be 
moved yet again.
3. Perversion of the Convention's intent
    In a number of countries, therefore, interpretations of the Hague 
Convention extend its meaning to encompass in practice an unwarranted 
jurisdiction in custody matters. Certain consequences flow from this, 
all of them prejudicial to the victim.
    When a child is not returned, the abducting parent has the 
additional advantage of having subsequent proceedings dealt with in the 
country of retention rather than the country of the child's habitual 
residence. Case studies show that these court decisions, dealing with 
custody and access rights, tend to favor the abducting parent. This, 
combined with the fact that in some countries (for example in Germany,) 
judges are reluctant to enforce access orders, results in a situation 
where a parent is often deprived of all contact with the child, or at 
best, has contact in only the most harrowing circumstances (e.g. a 
government office with a third party present). On this interpretation 
of Article 13, the Hague Convention becomes in effect the instrument of 
alienation between child and victim-parent--the very opposite of what 
was intended.
    Professor Elisa Perez-Vera provided the primary source of 
interpretation of the Convention in her Report of 1980: ``The 
Convention as a whole rests upon the unanimous rejection of the 
phenomenon of illegal child removals and upon the conviction that the 
best way to combat them at an international level is to refuse to grant 
them legal recognition . . . the systematic invocation of the said 
exceptions, substituting the forum chosen by the abductor for that of 
the child's residence, would lead to a collapse of the whole structure 
of the Convention by depriving it of the spirit of mutual confidence 
which is its inspiration''.
4. Child trauma and parental alienation syndrome
    Children who are abducted will have already suffered from their 
parents' separation. But, in addition, they will experience the trauma 
of being suddenly cut off from their familiar environment--from a 
parent, grandparents, school and friends.
    This experience is already bad enough: many children do not 
understand what is happening or why. But things are often made even 
worse, when the abducting parent is hiding from the police or taking 
precautions against re-abduction; when the child realizes that there is 
a state of war between its parents. The child has already been 
traumatized by the loss of one parent; its greatest fear becomes that 
it will lose the other parent. This fear itself then becomes an 
obstacle to resolving the situation, since it is central to what is 
known as Parental Alienation Syndrome (PAS).
    Studies of PAS have established the severity of psychological 
damage done to abducted children, suddenly separated from a parent. The 
studies have also shown how susceptible the child is to being 
systematically alienated by the abductor-parent from the victim-parent.
    This susceptibility bears comparison to the ``Stockholm Syndrome'', 
when hostages start to identity with their captors. In the case of an 
abducted child the identification will be the stronger, because of the 
age of the ``hostage'' and the child's relationship with the 
``captor.'' For fear of losing the abducting parent as well, the child 
will not only be eager to please, but ready to believe allegations that 
it has been abandoned by the victim parent
    This is fertile ground for systematic indoctrination by the 
abducting parent and/or a professional psychologist. Since under some 
judicial systems, children--sometimes as young as three--may be 
required to appear in court, it becomes of paramount importance to 
abductor-parents that their children say ``the right thing'' to judges. 
This puts an even higher premium on placing psychological pressure on 
abducted children.
    The irony--and tragedy--is that the Hague Convention, in judicial 
systems like these, delivers children into precisely the danger from 
which it is supposed to protect them. Again Article 13 b is the crux. 
It can only be invoked if returning the child would expose it to grave 
risk of ``physical or psychological harm'' or place it in an 
``intolerable situation''. What greater psychological harm, what more 
intolerable situation could there be for a child, than to be exposed to 
systematic indoctrination by one parent against the other; and, worse, 
to carry the main burden of responsibility in adult court proceedings 
for deciding between mother and father? When placed in this context 
``the will of the children'' becomes nothing less than a vehicle for 
legitimizing the actions of the abductor-parent.
5. Enforcement
    Another problem lies in the alarming number of return orders, which 
have not been enforced. In several Convention countries, abduction is 
not considered a criminal act. Returns orders are not enforceable. In 
other countries, the enforcement process can take several months and 
does not always end in a return order being made. (The case of Tom 
Sylvester -US/Austria--is but one such example).
6. Legal Aid
    The lack of legal aid provisions in some countries is another major 
problem. Victim parents are often unable to bare the costs associated 
with these expensive procedures. In England & Wales, for instance, the 
legal aid provisions are extremely generous. But there should be no 
reason why each Contracting State should not underwrite the application 
under the Convention itself It would also be helpful to judges if they 
knew that legal aid will be available in the Contract State to a parent 
whose child the judge is returning under the Convention.
                               conclusion
    Eighteen years of experience with The Hague Convention leads 
inevitably to the conclusion that it is a seriously flawed instrument, 
which at worst prejudices the welfare of abducted and illegally 
retained children. The heart of the problem lies in the failure of 
national legal systems to implement the Convention in a uniform 
fashion, consistent with its spirit. As a result the Convention appears 
to be no deterrent to child abduction.
    It is arguable that, in so far as Article 13 can be exploited to 
justify abduction or retention, it has made the situation worse. It is 
also striking that, according to research by Dr. Linda Girdner, a 
parent is more likely to secure a return order through a non-Convention 
proceeding than through a Hague Convention proceeding (Dr. Girdner 
quotes an 80% success rate with the former compared with 33% under the 
latter).
    This is not an argument for dismantling the Hague Convention. It is 
an argument for improving it. The international community needs an 
international treaty based on the rejection of illegal abductions or 
retentions across frontiers and the need to return children to their 
usual place of residence. The fact that, as in England & Wales, the
    Convention can be made to work as intended shows its potential. The 
task is to come up with remedies to deal with those situations where 
the Convention does not work.
    This task will not be easily or quickly accomplished. That would 
require the establishment of some kind of supra-national legal body, to 
which signatory states would defer. That is not going to happen any 
time soon. The raw material with which we have to work is 52 
signatories, with different judicial systems. By definition, as long as 
this situation remains, the proper implementation of the Hague 
Convention will depend in large part on a willingness to co-operate in 
good faith.
    But there are a number of steps, which we can begin to take 
straightaway and which should set in motion an incremental process of 
improvement.
    A Hague Convention Review Conference needs to be called as soon as 
possible to debate and introduce improvements in the following areas:

          1. The Convention should make trans-national abduction and 
        retention of children a criminal offense, notifiable to 
        Interpol, Europol and national police agencies.
          2. At the same time, so as to co-ordinate action and 
        information, there should be ``hot lines'' between Central 
        Authorities and police; between national organizations, such as 
        NCMEC and Reunite, on the one hand and Central Authorities and 
        police agencies on the other; and between members of the public 
        and national organization.
          3. Governments should fund information campaigns to make the 
        public aware of these arrangements.
          4. The staff and resources of the Permanent Bureau in The 
        Hague and of Central Authorities should be increased to meet 
        the need for more effective action to tackle international 
        child abduction. In particular the Central Authorities should 
        notify the Permanent Bureau of all abductions or illegal 
        retentions brought to their attention, as well as of the 
        outcome of Hague Convention proceedings on their territories. 
        The Bureau should keep a comprehensive database of these cases.
          5. While an exception clause cannot be dispensed with 
        altogether, Article 13 should be re-drafted in a way, which 
        narrows its use to genuinely exceptional circumstances. As 
        currently drafted, it can too easily become the rule and not 
        the exception.
          6. In parallel, strict limitations should be placed on the 
        age and circumstances in which children can be called to appear 
        before the court. As a general rule, since Convention hearings 
        are not about custody, children should not appear in courts at 
        all. To require young children to appear in court and to make a 
        choice between parents is a form of child abuse, inflicting 
        extreme cruelty. The confusion and stress involved are for most 
        children beyond description, and empty the notion of the ``will 
        of the children'' of any significance. There may be rare cases 
        when it is important to hear the child at first hand. But no 
        child below a certain age should have to endure this ordeal.
          7. Article 13 should incorporate a clause dealing with access 
        provisions. Namely, if a court refuses a return, it should 
        automatically make the necessary provisions for enforceable 
        access rights, with a fair division of travel costs.
          8. Article 21 should be entirely revised. Experience has 
        shown that it does not work.
          9. Provisions for legal aid should be addressed and a common 
        policy should be established by ail signatory countries.

    Many of these points were discussed at the recent NCMEC conference 
on 15 and 16 September 1998. The recommendations which will be put 
together shortly, cover much of the above ground.

    The Chairman. Well, thank you very much.
    I hope you are encouraged, at least somewhat, by the 
testimony of the Attorney General. There seems to me to be a 
maximum interest in the problem, one that has bothered me for a 
long time and, of course, has bothered you. I have not had 
anything happen to me of that sort. To the limit of my 
capability, I am going to try to encourage the administration 
to come up with a solution that will be helpful to you.
    Now we will go back to the regular order, as we say in the 
Senate. Mr. Sylvester, we welcome you and we will be delighted 
to hear your testimony.

       STATEMENT OF THOMAS R. SYLVESTER, CINCINNATI, OHIO

    Mr. Sylvester.  Thank you, Senator Helms, all members of 
the Senate Committee on Foreign Relations, and Senator DeWine, 
for your interest in the international parental child 
abductions and providing me this opportunity to make a 
statement and submit materials regarding the abduction of my 
daughter, Carina Sylvester, to be entered into the public 
record.
    Carina, my precious 4-year-old daughter, is my only child. 
My Austrian ex-wife, Monika Sylvester, unlawfully abducted our 
American-born daughter from the United States to Austria on 
October 30th, 1995 when she was just 13 months old. Every day 
since then has been driven by my continuing efforts to seek 
enforcement of the various U.S. and Austrian court decisions 
granting me custody of my daughter and her return to the United 
States. Unfortunately, even after nearly 3 full years, my 
efforts have failed. Despite my unceasing attempts to be a part 
of Carina's life, I have not been able to participate at all in 
her life. The facts are that I have seen my daughter in a 
supervised setting for less than 10 hours over the past 3 
years.
    It is my understanding that the focus of this hearing is 
the response of the U.S. to international parental child 
abductions from the United States into other nations. It is 
also my understanding that you are seeking information from 
left-behind American parents like me specifically on the 
effectiveness of the responses of the State Department and the 
Justice Department to our pleas for assistance in obtaining the 
return of our children. I appreciate your inquiry because, 
unfortunately, in my experience the response has been of no 
assistance in obtaining enforcement of the valid orders I have 
for the custody of my daughter and for her return from Austria.
    The reason why it is so important for the U.S. to respond 
effectively to the needs of left-behind parents involved with 
countries who are party to the Hague Convention is because the 
Hague Convention does not always do what it is designed to do: 
Promptly reintegrate parentally abducted children into their 
environments of habitual residence for a custody determination. 
Sometimes, as in my case, even when there is an order entered 
for the child's immediate return and affirmed all the way 
through the Supreme Court, the child is still not returned.
    I can, of course, speak to you only of my own experience. I 
can say, however, that from the moment I came home to discover 
my baby daughter gone on October 30th, 1995, my life has been 
consumed with the process of fighting to maintain a life with 
my daughter. Unfortunately, the bottom line to my story is that 
had I known in the beginning what I know now, I would have 
taken immediate steps to personally retrieve Carina back to the 
United States and avoid the emotionally and financially testing 
legal process entirely. That would have provided the swift 
return of the child to her environment of habitual residence 
for a custody determination here. Instead, my initial moves, 
however, were to the police and a lawyer.
    Through the lawyer, I learned of the Hague Convention and 
its civil remedy for the return of a parentally abducted child. 
Having a highly developed sense of right and wrong and being a 
law respecting and law abiding person myself, I put my faith in 
the workings of the legal system, that applying the terms of 
the Hague Convention would bring my daughter home.
    What I had not counted on was that Carina's mother would 
not comply voluntarily with the order for return and that the 
Austrian legal system would provide no mechanisms for enforcing 
its own orders to coerce her to do so.
    I received a prompt order from the Austrian trial court 
that Carina be returned to her home in Michigan in 1995 which 
became valid and final when affirmed by the Austrian Supreme 
Court upon its delivery to the trial court on May 7th, 1996. 
However, because of the completely ineffectual system for 
enforcement of orders in Austria, Carina was never voluntarily 
returned.
    The one and only opportunity for civil enforcement was 
given only after the order was affirmed by the Supreme Court. 
An early morning surprise coercive enforcement was permitted 
because of the mother's well publicized refusal to allow the 
child to be returned to the States.
    When this enforcement was attempted in May 1996, with the 
assistance of a court officer, local police, a social worker, 
and the trial judge herself, in the end it was merely the 
classic knock on the door and a request for compliance. The 
answer to the knock on the door was that, of course, the baby 
was not home, but in reality she had gone out a back window in 
the arms of her grandmother.
    Once that enforcement failed, there was no voluntary 
compliance and no available means to try again. Instead, 
Carina's mother took an offensive position launching every 
legal maneuver imaginable. Finally, one of those maneuvers 
stuck and it was fatal to my case. That was her motion to 
reopen the Hague Convention case due to the passage of time and 
the assimilation of my daughter into the Austrian environment 
during that period of time. Unbelievably, the same Austrian 
Supreme Court that had affirmed the order for return in 1996 
affirmed first the decision of the trial court to reopen the 
Hague case, then its decision not to enforce the order for 
return as in the child's best interest. With that decision, all 
doors to my daughter slammed shut.
    Thus, due to the passage of time and the ineffectiveness of 
the Austrian courts to enforce its own orders, the Austrian 
judiciary has now taken the position that Austria will not 
enforce its own valid and final order for my daughter's return.
    The situation is best described with circular logic: The 
child has not been returned because the order was not enforced; 
now the order will not be enforced because the child was not 
returned.
    On April 16th, 1996, I obtained a judgment of divorce in 
Michigan and was awarded custody of my daughter until further 
order of the court. The Austrian Administrative Supreme Court 
refused to acknowledge that judgment. My appeal is still 
pending before the Supreme Administrative Court for a final 
determination.
    In the meantime, the Austrian trial court has awarded 
custody to my wife and has further ordered me to pay support. 
However, I have had only the scantiest opportunity to see my 
daughter since she was taken from me. Over the past 3 years, I 
have had to petition, argue appeals, and request special writs, 
all for the opportunity to see my daughter in a public 
building, supervised by no fewer than six people for a total of 
less than 10 hours.
    Imagine yourself in my shoes, for example, awaiting one 
such visit ordered at Christmas 1995 which was to have given me 
my first glimpse of Carina since she had been abducted. I 
arrived at the Institute for Learning in Graz with a bag of 
gifts on Christmas eve only to have the mother ignore the 
order. I left the Institute still with the gifts in hand 
returning to my hotel room to spend the rest of Christmas there 
alone. It is a pitiful situation for a parent, but consider why 
it is necessary to deny Carina the opportunity to share these 
wonderful times with her father. There is no sanction for her 
failure to provide the child on that day or any other.
    The visitation has deteriorated to such a point that I was 
forced to file a petition for rights of access under Article 
21, which has resulted in so many appeals that by the time each 
set of appeal is complete, the requested visitation time has 
passed and the issue is moot.
    As a result of the very frustrating legal situation in 
Austria, I sought all possible assistance here in the States. 
Very little that happened here in the States had any effect 
whatsoever on my situation. Naturally I worked with and spoke 
regularly to the Office of Children's Issues people who were 
working on my case, and I must say that on a whole I have been 
extremely frustrated with the results. Perhaps my expectations 
were unrealistic, but as the U.S. Central Authority, I would 
have hoped for swift and aggressive action in Carina's behalf 
under its obligations in Article 7 of the Hague Convention. 
Instead, I was told I would have to wait, that the issue would 
be addressed to the Austrians, for example, in 6 months at the 
conference meeting, or I would hear, my hands are tied, or you 
are just upset because you are not getting what you want.
    My attorney was simultaneously making calls and writing 
letters to State and receiving a similar response. The time 
delays in the preparation of letters, notes, and de marches is 
astounding and I feel they lose all effectiveness as a result 
of their delay. Although some strongly worded letters went out 
on my behalf, my overall impression is that the case workers 
are diplomats whose overall objectives were not those 
articulated under the Hague Convention, but international 
relations at the expense of children.
    My experiences with the Justice Department began well with 
the entry of an international warrant in May 1996 under the 
International Parental Kidnapping Crime Act. This led to the 
red and yellow notices by Interpol. However, my case went 
nowhere. Even inquiries into the matter were surprisingly met 
with contention. Initially I was told that the criminal 
approach would be put on hold to see how the civil proceedings 
under the Hague would unfold. I was also told that Austria does 
not extradite its citizens, but the U.S. does. So, if I were to 
go over to Austria to retrieve Carina myself, then I would run 
the risk of being extradited back to Austria to face criminal 
charges there. Clearly an unlevel playing field.
    Now, nearly 3 years later, we have seen how the civil 
proceedings have unfolded. Still nothing. In fact, after a very 
short period of time, it became clear that the official 
position of the Department of Justice was to remain neutral on 
the warrant. Not understanding this position or being satisfied 
with it, I continued to press for information and answers or 
even some interest in the warrant of any kind. For example, my 
recent request to the Assistant Attorney General on the case 
that an extradition request be issued, even if impossible to 
achieve, was denied.
    Therefore, I believe the United States is not responding 
adequately through law enforcement tools to assist American 
parents in internationally abducted U.S. children. Such legal 
action by the U.S. Department of Justice would serve to apply 
pressure on the Austrians to comply with its international 
treaty obligations and perhaps the abductor take accountability 
for the wrongful, illegal behavior. With the current situation 
of lack of support from the U.S. Department of Justice, the 
abductor continues to get away with complete impunity.
    Now, here I am a left-behind father with an international 
warrant under the International Parental Kidnapping Act and all 
I was asking what could be done to follow up on the warrant. 
For example, what is the next step? Can we request extradition? 
I still, after more than 2 years, do not have an answer to 
these questions. As U.S. citizens, are Carina and I not 
entitled to U.S. law enforcement? My experience with Justice 
was borderline hostility rather than helpfulness. My questions 
concerning extradition requests were constantly answered that 
Austria does not extradite its own citizens. Now I have learned 
that a request could have gone out, nonetheless, to send a 
message, but I was able to get nowhere in my request that this 
be done.
    Over the past 3 years, I have requested the involvement of 
senior officials in the Department of State, the Department of 
Justice, Congressmen, Senators, diplomats, the FBI, and people 
at the National Center for Missing and Exploited Children. My 
attorney talked to Janet Reno in person early on about my case. 
In June 1997, I met personally with Swanny Hunt, the U.S. 
Ambassador to Austria, in her office in Vienna.
    I have paid attorney fees both here and in Austria in 
excess of $200,000. I have attended workshops and rallies. I 
have networked with other parents who are similarly situated. I 
believe I am doing all I can and feel that some days I devote 
most of my day to my efforts to get some assistance to enable 
me to have a life with my daughter. I have sought this 
assistance from only those persons I believe to be holding 
themselves out as those who can help: The Department of State 
and the Department of Justice. I have long felt abandoned by 
both.
    Carina Sylvester is an American born U.S. citizen with 
rights which are being violated. Who in the United States is 
working to protect Carina's rights? Furthermore, Carina has 
rights which continue to be violated. According to the 
Austrian's own agreement to the U.N. Convention on the Rights 
of the Child, Carina has a right to know both parents, both 
extended families, and both nationalities. If you have rights 
that are not able to be exercised, it is as if you have no 
rights at all. She is not being exposed to this country, her 
native language, or her extended family. She has the right to a 
continuing relationship with me, her father. Carina was taken 
from her home in the U.S. nearly 3 years ago. Since then, every 
day I feel like I have been fighting with both the Austrian and 
U.S. Governments in order to be a substantial part of Carina's 
life.
    I love Carina with all my heart and soul. I am committed to 
a loving relationship with my daughter. With positive 
persistence and enduring patience, I have learned that I have 
misplaced my trust in the judicial system. I do not want to 
lose Carina. She is the most important part of my life. Please 
help to bring Carina back to the United States and allow her 
the opportunity to enjoy the normal relationship that a child 
is entitled to have with her father.
    There are no words which can adequately describe my 
feelings of loss and pain. I wish that I could convey the daily 
anguish and the deeper feelings of sorrow, sadness, anger, 
despair, and hurt. These feelings are always present for me. 
The moment I became aware that my daughter was taken from me, I 
felt like someone had reached inside my chest and ripped my 
heart out of my body. Since then, I think about her always. 
Every child I see reminds me of her. There is not a day that 
goes by that she is not paramount on my mind. Through Carina, I 
felt the joy and wonder of being a father. Then, after only 13 
months, I felt the sorrow of her being taken away from me. If 
you are a parent yourself, perhaps you can imagine the 
heartbreak of being without your child.
    There is an immediate need for both the Department of State 
and the Department of Justice to prioritize these parental 
child abduction matters and assist with the enforcement of 
American orders and American arrest warrants to give some 
support to parents like me who obtain affirmed valid and final 
orders for return under the Hague Convention which they 
themselves do not bring the children home. A strongly staffed 
U.S. Central Authority must take an aggressive, nondiplomatic 
posture with uncooperative Central Authorities like the 
Austrian Ministry of Justice. The Department of Justice must 
vigorously pursue these fugitives from justice as they would 
serious crimes and never again remain neutral on a warrant for 
arrest of an abductor. Extradition should be requested in every 
appropriate case whether it is believed to be granted or not.
    I hope and pray that productive action results for our 
children from these hearings today. I have submitted extensive 
written materials to support my short presentation here this 
morning and hope that you will read and consider them. I thank 
you for listening to my story and my concerns.
    [The prepared statement of Mr. Sylvester follows:]
               Prepared Statement of Thomas R. Sylvester
                              introduction
    I am Tom Sylvester, father of Carina Sylvester, my precious four-
year old daughter who is my only child. My Austrian ex-wife, Monika 
Sylvester, unlawfully abducted our American-born daughter, Carina, from 
the United States to Austria on October 30, 1995, when she was only 13 
months old. Every day since then has been driven by my continuing 
efforts to seek enforcement of the various U.S. and Austrian Court 
orders granting me custody of my daughter, the arrest of her mother and 
her return to the United States. Unfortunately, even after three full 
years, my efforts have failed. Despite many unceasing attempts to be 
part of Carina's life, I have not been successful. The facts are that I 
have seen my daughter in a supervised setting for less than 10 hours 
over the past three years.
    There are no words which can adequately describe my feelings of 
loss and pain. I wish that I could convey the daily anguish and the 
deeper feelings of sorrow, sadness, anger, despair and hurt. These 
feelings are always present for me. The moment I became aware that my 
daughter was taken from me I felt like someone had reached inside my 
chest and ripped my heart out of my body. Since then, I think about her 
always. Every child I see reminds me of her. There is not a day that 
goes by that she is not paramount on my mind. Through Carina, I felt 
the joy and wonder of being a father. Then, after only 13 months, I 
felt the sorrow of her being taken away from me. If you are a parent 
yourself, perhaps you can imagine the heartbreak of being without your 
child.
                         procedural background
    On October 31, 1995 I filed an Application for Assistance with the 
State Department under the Hague Convention on the Civil Aspects of 
International Child Abduction to which both the U.S. and Austria are 
party. I also filed a Complaint for Divorce in Oakland County Michigan 
Circuit Court. The Application for Assistance made its way through the 
Austrian Ministry of Justice to the court of the first instance in 
Graz, Austria where hearings were conducted by Judge Christine Katter. 
Both the mother and I appeared at the hearings, and the mother raised 
her defenses to return the child under the terms of the Hague 
Convention Treaty. On December 20, 1995, Judge Katter entered an Order 
for the immediate return of Carina to me in Michigan. The mother, 
however, did not comply with the court order.
    Thereafter, Judge Katter ordered specific supervised visitation for 
me at the Institute of Family Learning in Graz on Christmas Eve and 
December 27, 1995. The mother did not bring the child to the appointed 
place for visitation on either date denying Carina the opportunity to 
share the fun of opening Christmas presents with her Father.
    Instead, the mother took an appeal to Judge Katter's Order to the 
Austrian Court of Appeals. This initiated an automatic stay of 
enforcement of the December 20, 1995 Court Order which ultimately 
continued through May 7, 1996. The Austrian Court of Appeals affirmed 
the decision of Judge Katter and again directed Mrs. Sylvester to 
return the child to me for a custody determination here in the United 
States.
    The mother still would not return the child and instead took an 
Extraordinary Writ to the Austrian Supreme Court. The Austrian Supreme 
Court, although rendering its decision on February 27, 1996 in favor of 
the return of the child, did not ``deliver'' its Order until May 7, 
1996. Once delivered, all stays were then lifted in this case and the 
Order of December 20, 1995 became finally enforceable. On May 10, 1996, 
two local attorneys assembled a group in Graz, Austria to assist in 
effectuating civil enforcement of Judge Katter's Order. That group 
included local police, Judge Katter herself, an enforcer from the court 
and others, including my Michigan counsel and me. Unfortunately, the 
well-intentioned enforcement failed when the mother stated that Carina 
was not at home and that she was with her grandmother somewhere ``in 
the mountains.'' I believe that Carina's grandmother escaped from the 
house with Carina out a back window.
    There was much drama in the attempted enforcement in that a gun was 
drawn by the child's Austrian grandfather on the court officials. 
However, the local police on the scene made no arrests. To date, 
despite efforts by my Austrian counsel, there has been no criminal 
matter against the mother lodged by Austrian officials.
    The mother, still not in compliance with the court's order for 
return, responded to the attempted enforcement by first admitting 
herself into a hospital for ``injuries'' allegedly sustained during the 
benign attempted enforcement. She then retaliated with a barrage of 
actions against the trial court including a motion for disqualification 
of the judge alleging an amorous connection between the judge and my 
Austrian counsel, and a motion to change venue based on a false change 
in her address, both of which were denied. The mother then lodged 
criminal charges and grievances against my attorney. The most damaging 
of all, however, was her petition to ``reopen'' the Hague Convention 
case due to change of circumstances resulting from the passage of time. 
This motion was denied by the trial court, but was reversed and 
remanded on appeal. The Supreme Court of Austria determined that the 
order to return, entered more than a year earlier, may not itself be 
changed since it is both valid and final. However, with the services of 
an expert in child psychology, the trial court was to determine is 
circumstances had changed sufficiently due to the passage of time to 
warrant that the child not now be separated from her mother under the 
``grave risk of harm'' analysis. The trial court was further to 
consider if the child were to be returned, the proper mode of 
enforcement for the order.
    On remand, the trial court held that the order for return would not 
be enforced. This decision was made with no input from me and was based 
on a best interests of the child analysis ``since the specific welfare 
of the child takes precedence over the purposes of the Hague 
Convention.'' This decision was made despite the assurances of a ``Safe 
Harbor'' order from the Michigan court, the scheme of which the trial 
court dismissed as not in the child's best interest since it would 
remove her from Austria and could allow for my retaining custody in 
Michigan. both situations, the court concluded, would be detrimental to 
the child. With this analysis, the court effectively determined custody 
in clear violation of Article 16. This decision was subsequently 
affirmed on appeal.
    I filed two applications with the European Commission on Human 
Rights against Austria on behalf of both Carina and me but have no 
official word as yet as to their acceptance for presentment to the 
court.
    In Michigan, the divorce case proceeded to a Default Judgment of 
Divorce granting me sole physical and legal custody of Carina. The 
mother was granted supervised visitation in Michigan. The Judgment was 
entered on April 16, 1996. One week later, Judge Breck entered an Order 
sealing court records. The Austrian Ministry of Justice refuses to 
acknowledge the Michigan Judgment of Divorce, such refusal based in 
part of an Affidavit submitted by the mother's Michigan counsel. this 
decision was affirmed on appeal and is currently pending before the 
Supreme Administrative Court.
    The FBI, through Special Agent Scott Wilson, took an Affidavit to 
the U.S. District Court and Magistrate Morgan has signed A Warrant in 
Criminal Complaint No.96-80432, that being the case of The United 
States of America v. Monika M. Sylvester brought under the 
International Parental Kidnapping act, 18 USC 1204. the case was 
assigned to Assistant U.S. Attorney Jennifer Gorland. In the meantime, 
the FBI and the West Bloomfield, Michigan Police have submitted reports 
to Interpol. It is my understanding however that Interpol itself 
officially takes no affirmative steps to locate anyone or enforce 
anything.
                   the process of seeking assistance
    In an attempt to move the Austrian authorities to assist in either 
the civil or criminal enforcement of Judge Katter's Order, I sought the 
assistance of the American Consulate in Vienna. The U.S. Ambassador 
personally delivered a U.S. government de marche to the Austrian 
Ministry of Foreign Affairs in June, 1997. I asked the State 
Department, Bureau of Consular Affairs to correspond with the Ministry 
of Justice, the Central Authority in Austria. In response, the Minister 
of Justice has declined to assist in the enforcement of the Hague 
Convention.
    I have requested the involvement of literally hundreds of people 
including President Clinton, Mrs. Hillary Clinton, Attorney General 
Janet Reno, Senators Abraham and Levin, Representatives Knollenberg and 
Postman, Nancy Nayak and others within the International Division, 
National Center for Missing and Exploited Children, David Hobbs, Deputy 
Assistant Secretary of State for Overseas Citizens Services, U.S. 
Department of State, Randy Toledo, Terri Schubert, Debra Caruth and 
Ernistine Gilpin of the Office of International Affairs, U.S. 
Department of Justice, Jennifer Gorland and Saul Green, the U.S. 
Attorneys for the Eastern District of Michigan, U.S. Department of 
Justice, Scott Wilson, Special Agent, Federal Bureau of Investigation, 
in the U.S. Department of Justice, Ellen Conway, Jim Schuler, Ray 
Clore, Bureau of Consular Affairs, Office of Children's Issues, U.S. 
Department of State, Jim Preach, Interpol, John Baliff and Guyle Cavin, 
General Counsel, U.S. Embassy in Vienna, and I met with Swanee Hunt, 
U.S. Ambassador to Austria in Vienna.
    Nothing done has made a difference. The child was not returned 
because the order was not enforced, now the order will not be enforced 
because the child was not returned. The delay engendered both by the 
stubborn refusal of the mother not to comply with the order for return 
and the unending number of ancillary motions and other legal maneuvers 
brought by the mother coupled with the unlimited number of appeals to 
each decision, was fatal to my relationship with my daughter.
            the u.s. central authority: the state department
    As a result of the very frustrating legal situation in Austria, I 
sought all possible assistance here in the States. Very little that 
happened here in the U.S. had any effect whatsoever on my situation. 
Naturally, I worked and spoke regularly to the Office of Children's 
Issues people who were working on my case. And I must say that on a 
whole, I have been extremely frustrated with the results. Perhaps my 
expectations were unrealistic, but as the U.S. Central Authority, I 
would have hoped for swift and aggressive action in Carina's behalf 
under its obligations in Article 7 of the Hague Convention. Instead, I 
was told I'd have to wait--that the issue would be addressed to the 
Austrians for example in six months at the Conference Meeting. Or I'd 
hear ``my hands are tied'', or ``you're only upset because you are not 
getting what you want''. My attorney was simultaneously making calls 
and writing letters to State and receiving a similar response. The time 
delays in the preparation of letters, notes and de marches is 
astounding and I feel they lose all effectiveness as a result of their 
delay. Although some strong-worded letters went out on my behalf--my 
overall impression is that the case workers are diplomats whose overall 
objectives were not those articulated under the Hague Convention, but 
international relations, at the expense of the children.
                         the justice department
    My experiences with the Justice Department began well with the 
entry of an international warrant in May of 1996 under the 
International Parental Kidnapping Crime Act. This led to the red and 
yellow notices by Interpol. However, the case went nowhere. Even 
inquiries into the matter were surprisingly met with contention. 
Initially, I was told that the criminal approach would be put on hold 
to see how the civil proceedings under the Hague Convention would 
unfold. I was told that Austria does not extradite its citizens but the 
U.S. does. So if I were to go over to Austria to retrieve Carina 
myself, that I would run the risk of being extradited to Austria to 
face criminal charges there. Now nearly three years later, we've seen 
how the civil proceedings have unfolded and still nothing. In fact, 
after a very short period of time it became clear that the official 
position of the Department of Justice was to ``remain neutral'' on the 
warrant. Not understanding this position or being satisfied with it, I 
continued to press for information and answers or even some interest in 
the warrant of any kind. For example, my recent request to the 
Assistant Attorney General on the case that an extradition request be 
issued--even if impossible to achieve--was denied. Therefore, I believe 
the United States is not responding adequately through law enforcement 
tools to assist American parents and internationally abducted U.S. 
children. Such legal action by the U.S. Department of Justice would 
serve to apply pressure on the Austrians to comply with its 
international treaty obligations, and perhaps the abductor to take 
accountability for the wrongful, illegal behavior. With the current 
situation of lack of support from the U. S. Department of Justice, the 
abductor continues to get away with complete impunity.
    Now, here I am a left-behind father with an international warrant 
under the IPKA and all I asked was what can be done to follow up on the 
warrant--for example, what's the next step? My experience with Justice 
was borderline hostility rather than helpless. My questions concerning 
extradition requests were constantly answered that Austria doesn't 
extradite its own citizens. Now I have learned that a request could 
have gone out nonetheless to send a message but I was able to get 
nowhere in my requests that this be done.
                        one cause of the problem
    Had Austria been able to provide some mechanisms for enforcement of 
the return order for Carina, the Department of State and the Department 
of Justice would need to pay no significant role. Therefore, Austria 
plays a significant role in the bizarre result of my case that looked 
so hopeful from the start. As a treaty partner to the Hague Convention, 
Austria has indicated its interests in and dedication to complying with 
the terms of the Convention and its implementation there. Nonetheless, 
its legal system works in direct opposition to the goals of the 
Convention--that being the prompt return of the parentally abducted 
child into its environment of habitual residence.
    First, the Austrian legal system fails to provide for any 
significant and hard-hitting enforcement procedures, relying instead on 
the polite knock on the door and a request for voluntary compliance. 
Second, the Austrian legal system provides no end to any issue before 
it, allowing for unlimited appeals and motions until an original 
decision is bent so far out of shape that is no longer the same 
decision. This creates the serious problem of extensive delay, i.e., 
when the court file is in a higher court, no proceedings can be had on 
any interim matter requiring resolution not related to the issue on 
appeal.
    Third, the Austrian Central Authority is intractable. There is no 
real evidence of any interest or dedication to compliance with its 
duties under Article 7. In my case, when correspondence was sent from 
our Central Authority to the Austrian Central Authority requesting 
information as to what affirmative steps had been taken under Article 
7, the response was that the Minister of Justice declined to answer on 
the basis that the question did not promote good Austrian-American 
relations.
    Unfortunately for parents who put their faith in the legal system, 
the Hague Convention sometimes does not work even between parties to 
the Convention and even when orders for immediate return of the child 
are entered. It is because of this failure that American parents 
desperately need the assistance of the Department of State and the U.S. 
Central Authority, and the Department of Justice as our center of 
federal law enforcement.
                           the harsh reality
    The harsh reality of my situation is that I have paid attorney fees 
both here and in Austria in excess of $200,000. I have attended 
workshops and rallies. I have networked with other parents who are 
similarly situated. I believe I am doing all that I can and feel that 
some days I devote most of my day to my efforts to get some assistance 
to enable me to have a life with my daughter. I have sought this 
assistance from only those persons I believe to be holding themselves 
out as those who can help--Department of State and Department of 
Justice. I have long felt abandoned by both.
    Carina Sylvester is an American-born U.S. Citizen with rights which 
are being violated. Who in the U.S. is working to protect Carina's 
rights? Furthermore, Carina has rights which continue to be violated. 
According to the Austrian's own agreement to the U.N. Convention on the 
Rights of the Child, Carina has a right to know both parents, both 
extended families, and both nationalities. Carina is being denied her 
rights. If you have rights that are not able to be exercised, it is as 
if you have no rights at all. She is not being exposed to this country, 
her native language or her extended family. She has the right to have a 
continuing relationship with me, her father. Carina was taken from her 
home in the U.S. nearly three years ago. Since then, every day I feel 
like I have been fighting with Austrian and U.S. governments, in order 
to be a substantial part of Carina's life.
    I love Carina with all of my heart and soul. I am committed to a 
loving relationship with my daughter. With positive persistence and 
enduring patience I have learned that I have misplaced my trust in the 
judicial system. I do not want to lose Carina; she is the most 
important part of my life.
    Please help to bring Carina back to the United States and allow her 
the opportunity to enjoy the normal relationship that a child is 
entitled to have with her father.
    There are no words which can adequately describe my feelings of 
loss and pain. I wish that I could convey the daily anguish and the 
deeper feelings of sorrow, sadness, anger, despair and hurt. These 
feelings are always present for me. The moment I became aware that my 
daughter was taken from me I felt like someone had reached inside my 
chest and ripped my heart out of my body. Since then, I think about her 
always. Every child I see reminds me of her. There is not a day that 
goes by that she is not paramount on my mind. Through Carina, I felt 
the joy and wonder of being a father. Then, after only 13 months, I 
felt the sorrow of her being taken away from me. If you are a parent 
yourself; perhaps you can imagine the heartbreak of being without your 
child.
                            what can be done
    There is an immediate need for both the Department of State and the 
Department of Justice to prioritize these parental child abduction 
matters and assist with the enforcement of American orders and American 
arrest warrants to give some support to parents like me who obtain 
affirmed valid and final orders for return under the Hague Convention 
which don't themselves bring the children home. A strongly staffed U.S. 
Central authority must take an aggressive, non-diplomatic posture with 
uncooperative Central Authorities like the Austrian Ministry of 
Justice. The Department of Justice must vigorously pursue these 
fugitives from justice as they would ``serious'' crimes and never again 
remain neutral on a warrant for arrest of an abductor. Extradition 
should be requested in every appropriate case whether it is believed it 
will be granted or not.
    I hope and pray that productive action results for our children 
from these hearings here today. I have submitted extensive written 
materials to support my short presentation to you this morning and hope 
that you will read and consider them. I thank you for listening to my 
story and my concerns.

    [Additional information submitted by Mr. Sylvester appears 
in the appendix.]

    The Chairman. Thank you, Mr. Sylvester. We are going to 
try.
    Mr. Johnson.

      STATEMENT OF THOMAS A. JOHNSON, ALEXANDRIA, VIRGINIA

    Mr. Johnson. Thank you, Mr. Chairman. Mr. Chairman, before 
proceeding, I would like to express my deep appreciation to you 
and to other members of the committee for their interest in 
this subject, for your willingness to schedule hearings on the 
subject, and for your untiring commitment to assisting American 
children and their parents in this awful situation. In 
addition, the dedication and hard work of the committee staff 
in preparing for this hearing merits the admiration and thanks 
of all left-behind American parents. Among the only rays of 
hope in this situation for most of us have been the work of 
your committee and other congressional initiatives on the House 
side under Chairman Gilman and the House Caucus on Missing 
Children. So, for all of us, thank you.
    Mr. Chairman, I need to say that this statement is 
submitted solely in my personal capacity as an American citizen 
and as the father of Amanda Kristina Johnson, an American child 
wrongfully retained in Sweden. Although I have been an attorney 
for the U.S. Department of State for 19 years, I make this 
statement as a private citizen and do not in any way purport to 
represent or speak for the Department of State. I have taken 
annual leave to be here today and have not used Government 
resources to prepare or reproduce this statement.
    Mr. Chairman, in the June 29th Washington Post article on 
Lady Meyer that most of us have seen, there was consensus among 
most of those quoted, including U.S. Government personnel, that 
the system does not work. Having spent more than $200,000 in 
Amanda's case, litigating against the deep pocket of the 
Swedish Government in nine courts in two countries, I fully 
agree that the system does not work. This committee is to be 
commended for trying to find out why the system does not work 
and for being willing to do something about it.
    Mr. Chairman, as you indicated earlier, there is less than 
a 30 percent return rate for American children under the Hague 
Convention and quite frankly that percentage is probably skewed 
by the very high return rate from certain countries such as the 
United Kingdom. So, if a country like the United Kingdom were 
eliminated, the average would be much lower.
    The situation is only getting worse for left-behind parents 
at the moment because of the difficulties of getting the 
Justice Department to implement the 1993 act when Hague 
remedies are inapplicable or have been exhausted, the worst 
offending countries emboldened by the feeling that there is no 
risk in their current conduct, and the absence of adequate 
preventative measures.
    Mr. Chairman, the truth is that American citizens cannot 
rely on foreign government compliance with the international 
legal obligations they have undertaken in ratifying the Hague 
Convention and applicable human rights treaties.
    I will briefly try to summarize my rather lengthy 
statement, covering the subjects of foreign government 
involvement in and support for parental child abduction and 
wrongful retention, foreign legal systems that cannot or will 
not control the conduct of their citizens, the need for 
preventive and remedial measures to protect American children 
from the increasing threat, the importance of not writing off 
American children for the sake of good relations or any other 
reason, and some specific recommended congressional actions, 
most of which require only political will rather than tangible 
resources.
    With regard to foreign government support of these 
offenses, Mr. Chairman, I will be using some information on my 
daughter Amanda's case and my experience with the Swedish 
system, but those are provided primarily as case studies or 
examples.
    I would identify five pillars of a governmental child 
abduction system, and in particular I would list extreme gender 
or national bias in the courts, payment of unlimited legal fees 
for the child abductor at home and abroad, no enforceability of 
visitation or parental rights for the non-local parent, no 
principle of comity or respect for foreign law, foreign court 
orders, and the legal system in question, and criminal 
legislation that protects parents who abduct or wrongfully 
retain children.
    Despite the best efforts and intentions of Congress and 
some individuals in the executive branch, the truth is that all 
too often American parents are up against the full weight of 
foreign governments in these cases. Without the help of 
Congress along the lines I suggest below in the statement, more 
American citizens will continue to be victimized by foreign 
parents and their governments determined to abduct or retain 
American children, withhold them abroad, and ignore United 
States and international law.
    Mr. Chairman, as a preliminary matter, it is very important 
to stress this matter of no enforceable visitation or access to 
children in European civil law countries. The point is that if 
an American child is not returned under the Hague Convention, 
the consequence is that that child is likely to be completely 
lost to their American parents and families. In essence, the 
exercise of regular child custody jurisdiction in Sweden or 
Austria or Germany or Denmark effectively terminates the 
parental rights of the American parent because in Sweden, for 
example, a non-Swedish, non-custodial parent has no enforceable 
rights of any kind. So, for those reasons, I have spent the 
money I cited before in an effort to avoid Swedish custody 
jurisdiction because of those consequences.
    Amanda is not the first American child to be in this 
situation. She is not the only one at the moment. There is the 
child of Mark Larson of Orem, Utah, the children of Greg 
O'Donohue of Burbank, California, and she will definitely not 
be the last child without sweeping reforms of Swedish 
legislation, policy, and attitudes. But Congress can do a great 
deal to reduce the risks for American children and their 
parents, while increasing the risks of wrongful conduct for 
governments like Sweden and their citizens.
    Mr. Chairman, these are not private child custody disputes. 
Until the Post article mentioned appeared on June 29th, it is 
unlikely that many of us would have thought possible what 
Germany has done to the relationship between Lady Meyer and her 
children, and that is the key point. It is Germany, its 
governmental, legal, and social welfare systems, that has 
committed these human rights violations just as it is Sweden 
that has done everything possible to destroy Amanda's 
relationship with her American family, friends, home, and 
familiar environment in Virginia.
    Individual parents capable of abducting or wrongfully 
retaining their children exist everywhere, including the United 
States. The key question is whether their governments will do 
anything to control their conduct and protect the parental 
rights of foreign parents, especially in light of the 
international legal obligations of all countries under either 
the Hague Convention or human rights treaties that guarantee 
the role of both parents and the right of children with parents 
of different nationalities to spend time in both countries. All 
of these countries we are talking about are parties to the 
Convention on the Rights of the Child, which has 9 or 10 
articles trying to guarantee the role of both parents in every 
child's life, the role of both countries when parents live in 
different countries, et cetera.
    Mr. Chairman, the disinformation inherent in the false 
claim of ``private child custody dispute'' is particularly 
infuriating to American parents who have spent much of their 
savings fighting against the deep pocket of a foreign 
government in both United States and foreign courts simply to 
maintain any sort of contact with their children, while at the 
same time obeying all applicable laws in both countries.
    Mr. Chairman, my statement contains a summary of the 
Swedish Government system of international child abduction. I 
will come back to it if there is time, but the purpose of 
inserting it in my statement was to give an example of the kind 
of country-by-country information in narrative form that should 
be readily available to Congress, U.S. courts, attorneys, and 
parents.
    The Chairman. Well, I certainly agree. Let me say at this 
point that I want each of the four of you to submit additional 
printed or written material to be made a part of the printed 
record so that it can be made available.
    At the conclusion I am going to say a few things that I 
hope will be encouraging to you.
    You may proceed.
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Chairman, concerning the details of Amanda's case, 
voluminous documentation has already been given to committee 
staff, and several items are appended to this statement, 
including the unanimous decision of the Virginia Court of 
Appeals in the case, a Swedish Government demand for 
reimbursement of legal fees and child support that it has paid 
the abductor, a Swedish criminal law which is intended and used 
to protect Swedish child abductors and punish non-Swedish 
parents, photographs showing Swedish police participation in 
the continuing Federal and State felonies against Amanda and 
me, and a two-page outline of the Swedish Government system of 
supporting and financing parental child abduction.
    Mr. Chairman, the facts of the case are set forth in my 
statement. I would like to get to my proposed remedies, so I 
will not spend too much time on the facts except to say that 
four Swedish courts either ordered Amanda's return under the 
Hague Convention or held that Sweden did not have jurisdiction 
over her because she was only in Sweden temporarily as agreed.
    After an endless Hague process of 17 months, rather than 
the 6 weeks envisioned in the Hague Convention, the highest 
court concerned reversed all the lower court rulings and 
declared that Amanda would not be returned to the United 
States.
    I later obtained a sole custody order in Virginia, which 
the Swedish Government then challenged in the courts of 
Virginia, as I will mention in a moment.
    In terms of an update, I have only seen Amanda for 12 hours 
since December 1996, and the last time I was under police 
supervision at her school. That gives an indication of the 
resources that the Swedish Government is willing to utilize to 
benefit their child abductors.
    For the summers of 1997 and 1998, creative efforts by my 
Swedish and American attorneys to arrange visitation in the 
United States with guaranteed return to Sweden, because U.S. 
court orders will be enforced against me, or any type of 
supervised or unsupervised access in Sweden were summarily 
rejected by the mother and her attorney. No assistance was 
provided by the judge now assigned to the case, and the Swedish 
judge who previously dismissed the mother's petition for sole 
custody and upheld the Virginia order, has, not surprisingly, 
been removed from the case.
    In terms of the U.S. Government response, Mr. Chairman, 
when an American parent faces this situation today, he or she 
does so alone in many respects. Legal fees can quickly mount to 
tens of thousands of dollars, and there is still no central 
repository of information and expertise that can quickly and 
effectively supply accurate, basic data on the legal system, 
child custody institutions, law enforcement systems, social 
welfare system, legal aid program, and Hague Convention 
performance of the abductor's country. The left-behind American 
parent, thus, has little basis for evaluating the options 
available.
    Mr. Chairman, prevention and deterrence are what is needed 
and really is the key to eliminating much of the secrecy and 
ignorance that leads to successful child abductions and 
retentions. Effective vehicles already exist, such as the 
annual human rights report and a country-by-country Hague 
compliance report that may be enacted in the future.
    Mr. Chairman, currently the counselors available to left-
behind parents have roughly a case load of 150. At present 
there is no real advocate for left-behind American parents who 
must deal with a hostile foreign government and an often 
unresponsive U.S. Government, whereas foreign parents whose 
children are abducted or retained in the U.S. have access to 
the superb capabilities and staff of the National Center for 
Missing and Exploited Children. Left-behind American parents 
would greatly benefit if the National Center were allowed to 
play the same role for outgoing cases, abductions from the 
United States, as it plays for incoming cases.
    There is no monitoring of litigation in the United States 
financed by foreign governments so that statements of interest 
or amicus briefs could be filed in landmark cases. We are not 
talking about great resources here. The burden, of course, 
would be on the American parent to notify the U.S. Central 
Authority that an appeal of a particular custody order is 
pending and to see if there are interesting issues for the 
Federal Government to address.
    Mr. Chairman, foreign Central Authorities often work just 
as hard to assist their nationals who abduct or retain children 
as they do for their nationals who are victimized. I can give 
several examples, but would like to get on to the International 
Parental Kidnapping Crime Act of 1993.
    Mr. Chairman, this act should either be revised, if that 
will result in greater willingness of U.S. Attorneys' offices 
to utilize it, or be enforced as it stands. In my opinion it 
can be enforced as it stands. Today, however, the 1993 act is 
not only a failure generally in helping Americans, there have 
only been one or two prosecutions nationwide, few indictments, 
and fewer still provisional arrest requests to foreign 
governments. This has become a very effective tool for foreign 
child abductors both in United States courts and foreign 
courts. Its mere existence and the purely theoretical 
possibility of prosecution of foreign abductors or retainers is 
being used against American parents in Hague Convention and 
regular custody in the United States and abroad. Attorneys for 
child abductors, including those hired and instructed by 
foreign governments that are United States treaty partners, 
have argued that the fear of prosecution under the 1993 act 
justifies the denial of applications for return of American 
children under the Hague Convention, as well as the refusal of 
foreign abductors to appear in U.S. custody proceedings. This 
latter argument concludes with the demand that U.S. courts 
defer to the jurisdiction of the foreign court.
    Mr. Chairman, in terms of the interpretation of the act by 
U.S. Attorneys' offices, I have several comments on that, but I 
know that I am running out of time here.
    The Chairman. We are going to have some votes in just a 
minute, and I want Mr. Marinkovich to have some time too. If 
you would wind up as quickly as you can, bearing in mind that 
all of this is in writing and we are going to give it further 
circulation. We have given it to the media who are present this 
morning. I happen to be personally interested in this thing, 
and I have got a few comments about the Attorney General. So, 
if you will conclude when you can. I am not rushing you, but--
--
    Mr. Johnson. Well, I will conclude as quickly as possible, 
Mr. Chairman. Thank you.
    Several additional preventive and remedial actions by 
Congress are needed to level the playing field for American 
parents. Congress is faced daily with many competing demands 
that have serious resource implications. For the most part, 
measures that will help in this area do not.
    In particular, Mr. Chairman, I think there should be 
general objectives: Dissemination of information to alert U.S. 
courts, law enforcement authorities, family law practitioners, 
and parents to what is going on in this field; the sending of a 
clear worldwide message that the U.S. Government will not 
tolerate the abduction or wrongful retention of American 
children under any circumstances, and will make foreign 
governments pay a price if they essentially encourage and 
reward such conduct through financial and other direct support 
to abductors; third, a reform of current U.S. law and practice 
may be useful in certain areas.
    Specially, Mr. Chairman, with regard to the U.S. Central 
Authority, the committee, Congress should look at such factors 
as training and expertise of personnel, continuity, and 
institutional memory of personnel, case load, legal support 
available, and so on.
    As indicated, the National Center should be given a role to 
help American parents in the situation.
    Prevention, publicity, and accountability is important, 
annual human rights reports. I have described in detail how 
those could be utilized.
    Hopefully a requirement that there be reporting on Hague 
Convention compliance from the executive branch.
    In my statement I list criteria that this committee may 
wish to consider in terms of what kind of countries we want to 
have bilateral law enforcement relationships with.
    With regard to child support enforcement, Mr. Chairman, I 
would ask that the committee look at pages 17 and 18 of my 
statement to take measures to ensure that left-behind American 
parents are not on the receiving end of foreign government 
demands for child support for abducted children that are then 
enforced by the U.S. Government against left-behind parents. 
That is a possibility under current legislation. I have several 
safeguards that I list in that area.
    The Privacy Act and the Freedom of Information Act are 
often used to deny information and documentation to American 
parents. It seems to me that people like us have an absolute 
right to know everything that our Government is doing or 
failing to do in these cases.
    Finally, Mr. Chairman, I would just propose an exception to 
the Foreign Sovereign Immunities Act so that individual 
Americans who are the victims of crimes supported and financed 
and facilitated by foreign governments be able to take those 
governments into U.S. district court.
    To sum up, Mr. Chairman, it seems to me that to a large 
extent these crimes of human rights violations against American 
children and their parents succeed to a large extent because 
the foreign governments concerned are confident that there is 
no down-side risk. This guarantees future cases.
    As a father who came within 18 hours of regaining his 
daughter only to have a last minute stay from the Swedish court 
change our lives forever, I can only express the hope that this 
committee and Congress in general will ensure that there will 
be consequences in the future for governments that facilitate, 
finance, otherwise support, and reward the international 
parental child abduction or wrongful retention abroad of 
American children.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Johnson follows:]
                Prepared Statement of Thomas A. Johnson
    The Response of the United States to International Parental Child 
Abduction and Wrongful Retention of American Children Abroad
    This statement is submitted solely in my personal capacity as an 
American citizen and as the father of Amanda Kristina Johnson, an 
American child wrongfully retained in Sweden. Although I have been an 
attorney for the U.S. Department of State for nineteen years, I make 
this statement as a private citizen and do not in any way purport to 
represent or speak for the Department of State. I have taken annual 
leave to be here today and have not used government resources to 
prepare or reproduce this statement.
    Before proceeding, I would like to express my deepest appreciation 
to Senator Helms for his interest in this subject, for his willingness 
as chairman of the Committee to schedule a hearing on this subject, and 
for his untiring commitment to assisting American children and their 
parents subjected to the tragedy of international parental abduction 
and wrongful retention. I am also grateful to other members of the 
Committee for their interest and involvement in addressing this 
subject. Finally, the dedication and hard work of the Committee's staff 
in preparing for this hearing merits the admiration and thanks of all 
left-behind American parents. In the midst of an otherwise terrible 
experience for all such parents, the Committee's work and other recent 
Congressional initiatives have been among the few rays of hope.
    In the June 29, 1998 Washington Post article on the wrongful 
retention in Germany of Lady Catherine Meyer's children, there was 
consensus among those quoted that ``the system'' does not work. Having 
spent more than $200,000 in Amanda's case litigating against the deep 
pocket of the Swedish Government in nine different courts in two 
countries, I fully agree. This Committee is to be commended for trying 
to find out WHY the system does not work and for being willing to do 
something about it.
    Congress estimated the number of internationally abducted or 
wrongfully retained American children at 10,000 when it passed the 
International Parental Crime Act of 1993. With the increasing failures 
of the Hague Convention on the Civil Aspects of International Child 
Abduction (less than a thirty percent return rate for American 
children), the virtual refusal of the U.S. Justice Department to 
utilize the 1993 Act when Hague remedies are inapplicable or have been 
exhausted, the worst offending countries rightly emboldened by the 
present certainty that they generally risk no real-world consequences 
or even adverse publicity, and the absence of adequate preventive 
measures, the situation is only getting worse for left-behind parents 
who play by the rules in both countries concerned. They need to know 
that foreign government compliance with the international legal 
obligations they have undertaken in ratifying the Hague Convention and 
applicable human rights treaties cannot be relied upon.
    This statement addresses:

  <bullet> Direct foreign government involvement in and support for the 
        abduction and wrongful retention abroad of American children, 
        in violation of international treaty obligations;
  <bullet> Foreign legal systems that cannot or will not control the 
        conduct of their citizens in child custody matters and cannot 
        or will not protect the parental rights of American parents;
  <bullet> The need for preventive and remedial measures to protect 
        American children from the increasing threat of international 
        parental child abduction and wrongful retention abroad, and for 
        accountability within the United States Government concerning 
        the handling of these cases;
  <bullet> The two front war facing American parents and the importance 
        of not ``writing off'' American children for the sake of ``good 
        relations'' or any other reason;
  <bullet> Specific recommended Congressional actions, most of which 
        require only political will rather than tangible resources;
 foreign government support for international parental child abduction 
                   and wrongful retention of children
    The principal purpose of this statement, as indicated above, is not 
only to discuss individual cases or countries, but rather to provide a 
general description of foreign government support for the abduction and 
retention of American children, the response of the United States 
Government, and proposed Congressional actions to assist American 
children and parents affected by the crime of international parental 
child abduction and retention. Accordingly, the following information 
on my daughter Amanda's case and my experience with the Swedish legal 
and social welfare systems is provided primarily as a case study or as 
an example of what often confronts left-behind American parents.
1. Five Pillars of Governmental Child Abduction or Wrongful Retention
    While the present overall Swedish legal and social welfare system 
may well be one of the worst adversaries that a left-behind American 
parent can face, at least some elements of that system exist in many 
other countries, especially in European civil law countries. This does 
not include the United kingdom, of course, which is often cited as a 
model of how the system should work. In contrast, the Swedish system 
happens to include all of what could be called the Five Pillars of 
governmental child abduction and retention: no principle of comity in 
the legal system, extreme gender or national bias in the courts, 
payment of unlimited legal fees for the child abductor at home and 
abroad, no enforceability of civil court orders (including child return 
orders and visitation orders), and criminal legislation that protects 
parents who abduct or wrongfully retain children. In a given case, only 
one of these five ``pillars'' may be enough to ensure a successful 
abduction or retention.
    Regrettably, Amanda is only one of many American children abducted 
or wrongfully withheld abroad. As Congress recognized in passing the 
International Parental kidnapping Crime Act of 1993 (``the 1993 Act''), 
Amanda's case and Sweden's indefensible conduct are not unique, 
although the facts and circumstances of Mandy's case are particularly 
aggravated. Despite the best efforts and intentions of Congress and 
some individuals in the Executive Branch in recent years to combat the 
continuing tragedy of international parental child abduction, the fact 
remains that American parents whose children are abducted or wrongfully 
retained abroad are all too often up against the full weight of foreign 
governments (including Parties to the Hague Convention such as Sweden) 
prepared to supply virtually unlimited financial and other resources 
(e.g., government child psychiatrists and psychologists) to assist 
their citizens who abduct or wrongfully retain children. What has 
happened to Amanda and me can happen to any American citizen, already 
has happened to many, and will unquestionably happen to more in the 
future, unless Congress acts to prevent ``business as usual'' with the 
governments involved and to provide other remedies. Without the help of 
Congress along the lines suggested below, more American citizens will 
continue to be victimized by foreign parents and their governments 
determined to abduct or retain American children, withhold them abroad, 
and ignore U.S. and international law. This statement is submitted in 
the hope that Congress will act quickly and decisively to help other 
Americans avoid the nightmare to which my family has been subjected.
2. No Enforceable Visitation or Other Parental Rights
    As a preliminary consideration concerning any child abduction or 
retention involving Sweden (and most other European civil law 
countries), it must be noted that children not returned under the Hague 
Convention are likely to be completely lost to their American parents 
and families. The parental rights of an American parent may be 
effectively terminated by the inevitable grant of sole custody to the 
local national when a court in a European civil law country exercises 
regular child custody jurisdiction. In Sweden, for example, a non-
Swedish, non-custodial parent has no enforceable parental rights. The 
Swedish legal system and individual judges cannot control the conduct 
of Swedish parents (or otherwise protect the rights of foreign parents) 
because there is nothing comparable to contempt of court or any other 
effective means of enforcing visitation or access under a Swedish 
custody order. For Amanda, who lived with me half the time for several 
years and travelled freely with me both in the U.S. and Europe, even 
supervised visitation in Sweden is totally unenforceable and at the 
whim and mercy of the child abductor. A new Swedish law entering into 
effect today, ironically, will permit Swedish judges for the first time 
to impose joint custody over the objections of one parent. However, 
just as other seemingly progressive elements of Swedish child custody 
law and policy only apply when both parents are Swedish (e.g., shifting 
sole custody away from a parent that withholds a child1 unless, of 
course, the consequence is that the child leaves Sweden), it is highly 
unlikely that this new law will be applied in cases involving non-
Swedish parents. But even if it were, the terms of any future Swedish 
joint custody order are just as unenforceable as any visitation awarded 
under Swedish sole custody orders. Nothing has changed in that regard, 
although intense and sustained international pressure on Sweden might 
bring about reforms that include mechanisms comparable to contempt of 
court.
    For the reasons just given, I have spent more than $200,000 of my 
savings to avoid Swedish custody jurisdiction because of the 
consequences: a court order that even some U.S. authorities may view as 
giving the ``color of law'' to termination of the child's American life 
and my parental rights. Amanda is not the first American child to be 
subjected to these violations of her human rights by Sweden, she is not 
the only one at the moment (e.g., the child of Mark Larson of Orem, 
Utah and the children of Greg O'Donohue of Burbank, California), and 
she will definitely not be the last without sweeping reforms of Swedish 
legislation, policy, and attitudes. As discussed below, Congress can do 
a great deal to reduce the risks for American children and their 
parents, while increasing the risks of wrongful conduct for governments 
like Sweden and their citizens.
3. These Are Not ``Private Child Custody Disputes''
    Until the Washington Post article mentioned above concerning Lady 
Meyer appeared on June 29, it is likely that few Washington decision 
makers and opinion leaders would have thought possible what Germany has 
done to the relationship between Catherine Meyer and her children. And 
that is the key point. It is Germany (its governmental, legal, and 
social welfare systems) that has committed these human rights 
violations, just as it is Sweden that has done everything possible to 
destroy Amanda's relationship with her American family, friends, home, 
and familiar environment in Virginia.
    In short, these are NOT ``private child custody disputes,'' as 
Germany and Sweden try to claim in these cases, and as those who may 
wish to write off the children concerned and do business as usual with 
such countries would like to believe. American parents in such cases 
are often essentially alone against the power and wealth of the 
governments concerned. Of course, individual parents capable of 
internationally abducting or wrongfully retaining children are to be 
found in every country. The question, therefore, is whether their 
governments will control their conduct and protect the parental rights 
of foreign parents, especially in light of the international legal 
obligations of all countries under either (or both) the Hague 
Convention or human rights treaties that guarantee the role of both 
parents and the right of children with parents of different 
nationalities to spend time in both countries.
    The disinformation inherent in the false claim of ``private child 
custody dispute'' is particularly infuriating to American parents who 
have spent much of their savings fighting against the deep pocket of a 
foreign government in both U.S. and foreign courts simply to maintain 
contact with their children while obeying all applicable laws in both 
countries. As indicated above but worth repeating, this ``private child 
custody dispute'' red herring (an appropriate description taking into 
account the conduct of some Scandinavian and Northern European 
countries) also attempts to cover up what can only be described as 
sophisticated and very well-financed governmental child abduction 
systems, for example, in some European countries (other than the United 
kingdom and Ireland) that may include some or all of the following:

        (1) undeniable bias against foreign parents by the courts 
        (compared to the very high rate of returns of abducted children 
        from the U.S. ordered and enforced by U.S. courts);
        (2) no enforceable visitation or other parental rights for 
        foreign parents (owing to the absence of anything comparable to 
        our contempt of court);
        (3) no concept of comity (reciprocal enforcement of foreign 
        court orders, including custody orders agreed to by their 
        nationals);
        (4) payment of unlimited legal fees for their nationals who 
        abduct or retain children in all litigation at home and in the 
        U.S. (in both Hague Convention and regular custody 
        proceedings);
        (5) aggressive action by police and prosecutors against foreign 
        parents in enforcing criminal legislation specifically drafted 
        and intended to protect their child abductors/retainers;
        (6) ``address protection'' programs that enable abductors/
        retainers and the children involved to disappear even from U.S. 
        consular officers, with the aid of the police and social 
        welfare agencies.

    Because it is nearly impossible for Americans to believe, it must 
be repeated that, as a practical matter, the exercise of jurisdiction 
over an abducted or wrongfully retained American child in a regular 
child custody proceeding by a German or Swedish or Austrian or Danish 
court (with the inevitable grant of sole custody to the non-American 
abducting parent) is equivalent to termination of the parental 
relationship between the child and the American parent. Even if some 
form of access or visitation is awarded on paper, noncustodial parents 
have no legally enforceable rights of any kind in such countries.
4. Summary of the Swedish Government System of International Child 
        Abduction and Wrongful Retention of Children
    The following is an example of the kind of country-by-country 
information in narrative form that should be readily available to 
Congress, U.S. courts, attorneys, and parents:
    Cases of abduction and wrongful retention of children by a Swedish 
parent are not merely ``private custody disputes,'' in view of the lack 
of effective remedies provided by the Swedish legal and social welfare 
systems to the left-behind parent and the extensive Swedish government 
financial, law enforcement, social welfare, and other support supplied 
to Swedish parents who engage in abduction/retention of children.
    In international cases where only one parent is Swedish 
(particularly where the mother is Swedish), children not returned under 
the Hague Convention on the Civil Aspects of International Child 
Abduction are, as a practical matter, completely lost to their non-
Swedish parents unless the Swedish mother decides otherwise. This is 
the result of the Swedish legal system's inability to effectively 
control the conduct of Swedish parents and protect the rights of non-
Swedish parents in the absence of any judicial power comparable to 
contempt of court. In regular child custody proceedings, Swedish courts 
invariably grant sole custody to Swedish mothers and, as noted, have no 
power to enforce visitation for fathers. Even in cases where a foreign 
parent has sole or joint custody under a non-Swedish custody order and 
no Swedish custody order exists, there is no concept of comity in the 
Swedish legal system (despite Sweden's obligation under Article I of 
the Hague Convention to ensure respect for the rights of custody and 
access under the law of other States Parties).
    Swedish law enforcement authorities have been informed by the 
Ministry of Foreign Affairs that foreign custody orders ``have no 
validity in Sweden,'' aggressively interfere with any effort by a 
foreign parent to exercise his custody rights in Sweden and may arrest 
and prosecute him under a unique Swedish penal law that effectively 
protects and rewards Swedish child abductors/retainers. In both Hague 
Convention and regular child custody litigation in Sweden and abroad 
(including all possible appeals in Sweden, the other country concerned, 
and the European system), the Swedish social welfare system provides 
unlimited payment of legal fees for most Swedish nationals. This 
exhausts the resources of most non-Swedish parents, and, in any event, 
Swedish authorities will not enforce or otherwise respect foreign 
appellate judgments against Swedish parents. Non-Swedish parents with 
very low incomes may be provided legal aid for proceedings in Sweden, 
but this does not help anyone with an income of more than $30,000. 
Moreover, Swedish authorities aggressively seek reimbursement from the 
left-behind parent for the legal aid and child support it has provided 
to the abductor. Examples are attached.
    In non-Hague cases, as demonstrated by the now leading decision of 
Sweden's supreme court in the Ascough case during 1997 (children of 
Australian/British father and Swedish mother residing in Singapore), 
the Swedish courts will take jurisdiction and award sole custody to a 
Swedish mother even in cases where the children were born outside of 
Sweden, clearly reside outside Sweden, have never resided in or even 
visited Sweden, and were unquestionably abducted to Sweden.
    In summary, Sweden's overall legal and social welfare system 
concerning child custody and parental child abduction/retention does 
not comply with numerous provisions of human rights treaties to which 
Sweden is a Party, notably the Convention on the Rights of the Child, 
the European Convention on Human Rights, and the International Covenant 
on Civil and Political Rights as a result of six factors: the 
undeniable bias of Swedish courts in favor of Swedish mothers, the 
absence of anything comparable to contempt of court to enforce 
visitation for fathers, the unlimited financial support received in 
Sweden and abroad by Swedish child abductors, enforcement by Swedish 
law enforcement authorities of a criminal law that effectively protects 
and rewards Swedish child abductors, the lack of comity with respect to 
non-Swedish court orders, and the refusal of Sweden to extradite or 
effectively prosecute Swedish child abductors. Most notably, Sweden's 
legal and social welfare system are inconsistent with both the letter 
and spirit of Sweden's obligations under the Convention on the Rights 
of the Child to ensure contact with both parents and, in international 
cases, with both countries. Thus, Sweden cannot ensure compliance with 
the following articles of the Convention: 2, 5, 8, 9, 10, 11, 16, 18, 
29, and 35.
5. Amanda's Case
    Voluminous documentation concerning Amanda's wrongful retention in 
Sweden by a Swedish diplomat and the Government of Sweden, as well as 
information on other American children abducted to Sweden, has already 
been supplied to Committee staff. An updated chronology of the case is 
attached to this statement, along with:

  <bullet> The unanimous decision of the Virginia Court of Appeals 
        upholding the Virginia Custody Order;
  <bullet> The Virginia Supreme Court Order dismissing further appeals;
  <bullet> Swedish Government demands for reimbursement of legal fees 
        and child support paid to the abductor;
  <bullet> A Swedish criminal law intended and used to protect Swedish 
        child abductors and punish non-Swedish parents who attempt to 
        exercise their custody rights;
  <bullet> Photographs showing Swedish police participation in the 
        continuing Federal and state felonies against Amanda and me, 
        and
  <bullet> An outline of the Swedish Government's System of supporting 
        and financing parental child abduction.

    With full support in every conceivable way from the Government of 
Sweden, Amanda has literally been held hostage in Sweden since early 
1995), in violation of:

  <bullet> U.S. civil law and court orders to which the mother agreed 
        in open court;
  <bullet> U.S. Federal and state criminal law;
  <bullet> Sweden's international legal obligations under several 
        treaties (The Hague Convention on the Civil Aspects of 
        International Child Abduction, the Convention on the Rights of 
        the Child, the European Convention on Human Rights, and other 
        human rights instruments);
  <bullet> Sweden's own civil and criminal laws on joint custody and 
        child abduction (which are never enforced against Swedish 
        mothers), and
  <bullet> The eligibility requirements for payment of all legal fees 
        in Sweden and abroad by the Swedish Government (which are 
        apparently conveniently waived for Swedish abductors).

    The facts of the case are clear. Amanda, a U.S. citizen and 
resident from birth (November 11, 1987), is also a Swedish citizen. She 
was a U.S. Government dependent during her first two years while I was 
posted at the U.S. Mission in Geneva. Mandy then lived with me in 
Virginia roughly fifty percent of the time until age 6, attending three 
years of preschool and kindergarten at Browne Academy in Alexandria, 
Virginia. She spent the rest of her time in New York with her mother, 
Anne Franzen, who was the lawyer at the Swedish Consulate with lead 
responsibility for child abduction and custody matters, and who was 
actually offered the position of Head of the Swedish Central Authority 
for the Hague Convention upon leaving New York. Despite being 
wrongfully withheld outside the U.S. for nearly four years now, Amanda 
has still lived longer in an American diplomatic community or the U.S. 
itself than in Sweden. She should have been living again in the U.S. 
since the spring of 1995 under the agreed terms of a December 1993 
Virginia custody order and subsequent enforcement orders, which make 
clear that Amanda's habitual residence continues to be Virginia, that 
the Virginia courts have continuing exclusive jurisdiction over her 
case, and that the parents are prohibited from seeking custody 
modification in any court anywhere in the world without the consent of 
the Virginia court.
    The case against Anne Franzen (Deputy Assistant Under Secretary for 
Human Rights in the Swedish Foreign Ministry at the time) was so strong 
that four Swedish courts either ordered Amanda's return under the Hague 
Convention or held that Sweden did not have jurisdiction over Amanda 
because she was only in Sweden temporarily in accordance with the 
Virginia Custody Order to which the mother had agreed. After endless 
delays, stays of execution, appeals, and litigation financed for the 
mother by the Swedish Government in 8 separate proceedings in 6 courts 
(a Hague process that lasted 17 months instead of the 6 weeks set forth 
in the Convention), the final court from which there was no appeal (the 
Swedish Supreme Administrative Court or Regeringsratten) reversed all 
the lower court rulings in a May 1996 decision declared by the U.S. 
Government in diplomatic notes to be a violation of the Convention and 
rejected by the highest courts of Virginia.
    On August 9, 1996, with the abducting mother represented by counsel 
paid by the Swedish Government, the Virginia Court granted me sole and 
exclusive custody, made contempt findings, and issued several other 
forms of relief. There has never been a Swedish custody order of any 
kind concerning Amanda. The Virginia Custody Order remains the only one 
in the world. But Amanda continues to be wrongfully withheld from me, 
the rest of her American family, her home and familiar environment, and 
her country by her mother and by the Government of Sweden through a 
legal and social welfare system that fails to meet even minimal 
standards of due process of law (e.g., no rules of evidence and no 
prohibitions on ex parte communications with judges).
    Since December 1995, Amanda has been able to see me on four 
occasions, for a total of 12 hours. On the second occasion (September 
16, 1996), after picking Amanda up at her school as a custodial parent 
unwilling to subject the two of us to the continued degradation of 
supervised visitation, I was wrongfully detained in her presence four 
hours later at our hotel (where I had informed the mother we would be) 
by four Swedish policemen at the abducting mother's request. I was held 
in solitary confinement for nearly 48 hours, despite (or actually 
because of) the fact that I have sole custody under the only Custody 
Order in the case and have joint custody even under Swedish law. 
Although I was released, never charged with any offense, and 
compensated by the Swedish Government for wrongful detention, the 
incident has done incalculable harm to Amanda and to my relationship 
with her.
    On the third and fourth occasions, in December 1996, I was only 
allowed to see Mandy under police guard at her school, with the police 
challenging the presence of the Vice Consul from the American Embassy 
on one occasion and making a further mockery of my joint custody 
``rights'' in Sweden (see attached photographs of Swedish police car at 
Amanda's school). Amanda and I have not seen each other since that 
demeaning experience in December 1996. Telephone contact ceased in 
August 1997. Every element of joint custody has been violated: no 
school or medical records, no photographs, no information on activities 
or general welfare have been provided to me. There has been no response 
to any of the countless letters and packages sent to Amanda for more 
than a year, and I do not know if they have been received. For the 
summers of 1997 and 1998, creative efforts by my Swedish and American 
attorneys to arrange visitation in the United States with guaranteed 
returns to Sweden (U.S. court orders ARE enforceable) or any type of 
supervised or unsupervised access in Sweden were summarily rejected by 
the mother and her attorney. No assistance was provided by the judge 
now assigned to the case. The judge who previously dismissed the 
mother's petition for sole custody and upheld the Virginia Order has, 
not surprisingly, been removed from the case.
   united states government response to international parental child 
          abduction and wrongful retention of children abroad
    Today, when an American parent faces the nightmare of international 
child abduction or wrongful retention abroad, he or she does so alone 
in most respects. Legal fees and other expenses can quickly mount to 
tens of thousands of dollars. A decade after U.S. ratification of the 
Hague Convention on the Civil Aspects of International Child Abduction, 
there is still no Central repository of reliable information and 
expertise in the Executive Branch that can quickly and effectively 
supply accurate basic data on the legal system, child custody 
institutions, law enforcement system, social welfare system, legal aid 
program, and Hague Convention performance of the abductor's country. 
The left-behind American parent thus has little basis for evaluating 
the options available.
    Some of the information recently supplied to this Committee by the 
Executive Branch is inaccurate, incomplete, and misleading, 
particularly the implication that ``everybody does it'' and that the 
United States is no better than most other countries. That implication 
is false. Moreover, the frequent claim that elementary but essential 
information on a variety of matters concerning foreign legal systems in 
connection with child abduction or child custody is ``not available'' 
to the Executive Branch is discouraging. This information is available 
and could be obtained without difficulty or expense from American 
embassies, experts in the field, local attorneys, and American parents 
who have learned the hard way.
    Although all concerned would presumably agree that prevention and 
deterrence of child abduction or wrongful retention are the ultimate 
goals, little is being done in this area. Dissemination of information 
on the key institutions, laws, and child custody practices of other 
countries is the key to eliminating much of the secrecy and ignorance 
that leads to successful child abductions and retentions. Countries 
whose legal systems and child custody institutions guarantee frequent 
non-compliance with the Hague Convention or no visitation or other 
rights for American parents need to be publicly identified and analyzed 
in depth.
    As suggested below, effective vehicles such as the annual human 
rights reports already exist, and Congress has also passed legislation 
that would require an annual country-by-country Hague Convention 
compliance report that should be broadened to include cases not 
resolved within six months, cases involving non-Hague countries, and 
lists of countries that have any of the 5 Pillars of a governmental 
child abduction stem mentioned above. Maximum use should be made of the 
Internet and other established channels in the family law and consular 
affairs fields to ensure that U.S. courts, attorneys, and parents with 
children at risk are aware of the likely consequences of an abduction 
to or wrongful retention in a given country.
    Left-behind parents often find themselves more knowledgeable in 
many ways than those in the Executive Branch who are supposed to help 
them, especially in view of the fact that case officers now are 
responsible for around 150 cases, according to a recent statement by 
the Assistant Secretary of State for Consular Affairs. If those who are 
supposed to help (or their superiors) are primarily interested in 
maintaining ``good relations'' with the other countries concerned or 
declare that they do not work for the American people but rather for 
the Secretary of State or are fearful that pressing too hard in a 
current case will jeopardize assistance from a particular country in 
future cases, the plight of the children involved and their left-behind 
parents worsens. In the latter case, such a classic policy of 
appeasement is no more successful in dealing with child abduction than 
it has historically been in any other field.
    At present, there is no real advocate for left-behind American 
parents, who must deal with a hostile foreign government and an often 
unresponsive U.S. Government, whereas foreign parents whose children 
are abducted or retained in the United States have access to the superb 
capabilities and staff of the National Center for Missing and Exploited 
Children (NCMEC) because of its role in dealing with ``incoming'' cases 
(i.e., abductions to or retentions in the United States). Left-behind 
American parents would greatly benefit if NCMEC were allowed to play 
the same role for ``outgoing'' cases.
    There is no monitoring of U.S. litigation financed by foreign 
governments against left-behind American parents so that U.S. 
Government statements of interest or amicus curiae briefs can be filed 
in landmark cases. In fact, this would not require a significant 
increase in resources. In two recent cases, statements of interest from 
the U.S. Government of only a page or two would have been invaluable. 
In one case, the American parent prevailed in upholding a custody order 
in the highest courts of his state for an abducted child, but only at 
considerable expense. In the other case, the American parent lost in 
the 10th Circuit for acting precisely in accordance with U.S. 
Government policy and advice in Hague Convention cases. In view of the 
strong dissenting opinion, literally a few sentences in a U.S. 
Government statement of interest might have made a difference.
    In contrast, foreign Central Authorities often work just as hard to 
assist their nationals who abduct or wrongfully retain children as they 
do for their nationals who are victims of these offenses. In the case 
of the Swedish Central Authority, its support of child abduction and 
wrongful retention include such means as coordination of litigation 
strategy in Sweden and the U.S. against American parents. This has 
included creative attempts to a) use the Uniform Child Custody 
Jurisdiction Act in U.S. courts to obtain for Sweden the status of an 
American state for purposes of jurisdiction and enforcement of Swedish 
custody orders, and, b) use the mere existence of the 1993 
International Parental Kidnapping Crime Act in both Swedish and U.S. 
courts as a justification for not returning children to the U.S. on the 
pretext that the Swedish abductor might be prosecuted. Other activities 
of the Swedish Central Authority have included release of documents and 
information to Swedish abductors and their attorneys, refusal to 
respond to important U.S. Central Authority inquiries (a July 1995 
Hague Application for access to Amanda and a 6-page memorandum from the 
U.S. Central Authority in August 1995 have never been formally 
answered), informing the Swedish police and prosecutors that American 
child custody orders have no validity in Sweden in contravention of the 
whole object and purpose of the Hague Convention, translation only of 
court decisions and other documents favorable to the Swedish abductor, 
and so on. Such conduct by a foreign government, especially its Central 
Authority for an international convention againstchild abduction and 
wrongful retention, should receive the widest possible exposure and 
censure.
    Litigation in the United States financed by foreign governments 
against Americans who are already the victims of crimes committed by 
nationals of those governments should at least raise some serious 
questions about possible abuse of sovereign immunity. For example, the 
Swedish Government attempts to put a legal gloss on the abductions and 
wrongful retentions committed by its citizens by pursuing frivolous 
appeals of U.S. custody orders all the way to the supreme court of the 
states concerned even when the children have been held hostage in 
Sweden for years. Roughly four years ago, Julia Larson was abducted to 
Sweden from Utah for the third time and my daughter Amanda was 
wrongfully retained in Sweden. Neither child has been in the United 
States nor been allowed normal contact with their American families, 
but the Swedish Government has considered it necessary to try to make 
everything look ``legat'' by attacking the Utah and Virginia custody 
orders in extremely expensive and time-consuming litigation. An effort 
in Virginia to satisfy a money judgment against the abducting mother by 
garnishing the retainer paid to her attorney was blocked by an 
affidavit (attached) declaring that all funds held by the law firm are 
directly from ``the Kingdom of Sweden's legal aid agency.''
    In many respects, an improved United States response requires a 
change in attitude so that senior officials acknowledge that foreign 
legal and social welfare institutions which permit the successful 
commission of crimes against American children and their parents are 
not ``private child custody disputes'' or merely the errors of an 
``independent judiciary.'' Regarding the latter point, the judges are 
not particularly independent in some European countries. They become 
judges relatively early in their careers, do not have life tenure, and 
depend on the Ministry of Justice for future assignments. In any event, 
evidence of foreign government involvement in and support for parental 
child abduction or retention by their nationals should not be ignored.
International Parental Kidnaping Crime Act of 1993
    This Act should either be revised (if that will result in greater 
willingness of U.S. Attorney's offices to utilize it) or be enforced as 
it stands when Hague Convention remedies are exhausted or inapplicable, 
or the left-behind parent so requests. At present, despite the best 
intentions of Congress, the 1993 Act is not only a failure in helping 
Americans (there have only been one or two prosecutions nationwide, few 
indictments, and fewer still provisional arrest requests under the 
Act), but it has become an effective tool for foreign child abductors 
and retainers. Under some extradition treaties, it actually creates 
dual criminality where none existed before, so that American parents 
who rescue their abducted children can be extradited to countries that 
refuse to extradite their nationals for parental child abduction or any 
other offense and also refuse to return children consistently (or at 
all) under the Hague Convention.
    Moreover, to add insult to injury for the victims of child 
abduction or wrongful retention who know that the Department of Justice 
will generally not implement the 1993 Act, its mere existence (and the 
purely theoretical possibility of prosecution of foreign abductors or 
retainers) is being used against American parents in Hague Convention 
and regular custody litigation in the U.S. and abroad. Attorneys for 
child abductors/retainers, including those hired and instructed by 
foreign governments that are U.S. treaty ``partners,'' have argued that 
the fear of prosecution under the 1993 Act justifies the denial of 
applications for return of children under the Hague Convention, as well 
as refusal of abductors/retainers to appear in U.S. custody 
proceedings. This latter argument concludes with a demand that U.S. 
courts defer to the jurisdiction of the foreign court.
    That was precisely the argument made in Virginia to the trial court 
and the Court of Appeals in my daughter's case by the attorney hired by 
the Swedish Government. Fortunately, the Virginia judge cut through the 
argument by asking whether the abductor would immediately return to 
Virginia with the child if given immunity from prosecution. This bad 
faith argument fared no better in the Court of Appeals. But the 
argument that the children should not be sent back to the U.S. under 
the Hague Convention if the local parent faces criminal charges will 
almost certainly succeed in many foreign courts.
    With regard to implementation of the 1993 Act, the approach being 
taken by some U.S. Attorney's offices concerning the Act cannot 
possibly be consistent with the intent of Congress. Although the Act 
places both wrongful removal (or abduction) of a child from the United 
States and wrongful retention abroad on the same level, as does the 
Hague Convention, wrongful retention abroad is effectively being read 
out of the Act by some prosecutors as not serious enough to merit 
indictment.
    Moreover, some prosecutors have unilaterally added as an 
affirmative defense that a child abductor or retainer is attempting to 
obtain a local custody order abroad and would already have succeeded so 
but for Hague Convention proceedings freezing the local custody 
process. In like manner, some prosecutors are incorrectly asserting 
that a foreign court order denying return of the child(ren) under the 
Hague Convention constitutes a defense under the Act. Disregarding the 
entire object and purpose of the Hague Convention in Article I (respect 
for the custody laws of other Parties to the Convention), such 
prosecutors apparently have no difficulty with individuals who clearly 
violate U.S. court orders and custody rights, as long as they are also 
attempting to persuade a foreign court to ignore the orders and 
unilaterally take jurisdiction over the case. In essence, this approach 
gives immunity from prosecution, so long as abductors are using the 
legal process in their home country, no matter how corrupt, 
incompetent, or biased against foreign parents it may be.
    Even when Hague Convention remedies are inapplicable or have been 
exhausted, and thus utilization of law enforcement mechanisms will not 
jeopardize return of the child(ren), left-behind parents hear a litany 
of excuses for failure to implement the Act or to use it in any way to 
pressure abductors into returning the child(ren). The latter approach 
does not constitute misuse of the criminal process to achieve a civil 
law objective, as some might argue. Rather, it would constitute use of 
a criminal law to bring a halt to criminal conduct, which is presumably 
what Congress intended. At the moment, the point is moot because the 
1993 Act is being used far more by foreign governments against 
Americans than by the U.S. Department of Justice.
    In litigation financed by foreign governments, as noted above, its 
mere existence is cited as a reason not to return children to the 
United States in European courts and as a reason to defer to European 
jurisdiction in U.S. courts. Adding to the irony of the general refusal 
by U.S. law enforcement authorities to implement the 1993 Act is the 
very aggressive enforcement by some European law enforcement 
authorities of laws or policies that protect local child abductors and 
target foreign parents who attempt to exercise their sole or joint 
custody rights. An example of such a criminal law from the Swedish 
penal code is attached to this statement. It has been used as a 
justification for aggressive Swedish police action against several 
American fathers, including me, as described above.
    Ironically, the record of U.S. courts under the Hague Convention in 
recent years is nearly perfect concerning returns of children to some 
of the worst violators of the Convention, including Sweden. There have 
in fact been essentially voluntary returns of children to the United 
States from such countries. But a determined Swedish or Danish or 
Austrian or German child abductor/retainer (among others) will almost 
never have to comply with return orders from their own courts. Again, 
there are no truly effective means of enforcing civil court orders in 
European civil law countries, including Hague Convention return orders. 
Police assistance to enable an American or other non-local parent to 
take a child out of the country is virtually impossible. Moreover, 
European abductors/retainers have the possibility of further delaying 
and frustrating the Hague Convention process by utilizing the European 
Human Rights Commission and Court in Strasbourg.
    Especially in Scandinavia, mothers also increasingly have the 
option of going ``underground'' or otherwise stalling long enough to 
have the case reopened, with the best interests of the child(ren) then 
being found to require remaining in place because they are fully 
resettled. Of course, in social welfare States where the governments 
continue to pay legal fees, child maintenance, and other allowances to 
child abductors, the authorities can easily find those who go 
``underground'' if they want to.
    While a few countries that provide legal aid to both parties in 
Hague cases without regard to need (e.g., the United Kingdom) may have 
a valid complaint about the failure of the United States to provide 
legal aid to anyone, the situation is far worse where a government pays 
unlimited legal fees at home and abroad for its child abductors, so 
that left-behind American parents are confronted by the deep pocket of 
a foreign government not only in foreign courts but also in U.S. 
courts. The point is that foreign parents are not in any way up against 
the U.S. Government in abduction cases here.
    Several additional preventive and remedial actions by Congress are 
needed to ``level the playing field'' for American parents facing off 
against foreign governments. Congress is faced daily with many 
competing demands that have serious resource implications. This request 
does not. It seeks only the requisite political will to accomplish the 
objectives of better protecting American children from international 
parental kidnapping, especially when such conduct is directly supported 
by foreign governments.
    Taking into account that the high rate of return from a very few 
countries (e.g., the United kingdom) makes even the overall return 
average of thirty percent misleading, the Hague Convention success rate 
with certain countries is so low that the reality facing many American 
parents is a stark choice between abandoning their children or 
conducting a rescue operation. That reality and the country-by-country 
details behind it need to be comprehensively disseminated to all U.S. 
courts, family law practitioners, law enforcement authorities, and the 
general public.
  proposed congressional actions against international child abduction
    Congress may wish to give serious consideration to specific 
proposed actions listed below in order to accomplish three general 
objectives:

          (1) Dissemination of sufficient information to alert U.S. 
        courts, law enforcement authorities, family law practitioners, 
        and parents in bi-national situations concerning the 
        difficulties of gaining the return of American children from 
        particular countries;
          (2) The sending of a clear worldwide message that the U.S. 
        Government will not tolerate the abduction or wrongful 
        retention of American children under any circumstances and will 
        make foreign governments pay a price if they essentially 
        encourage and reward such conduct through financial and other 
        direct support to abductors; and,
          (3) Reform of current U.S. law and practice (both civil and 
        criminal) that can work against American citizens, thus aiding 
        and abetting the abduction of American children by foreign 
        citizens and their governments.

    Under the circumstances, the following proposals do not constitute 
micro-management.
(1) U.S. Central Authority
    PROPOSALS: (A) Consider whether it is fair to all parties concerned 
for the CA to remain in the State Department, taking into account such 
factors as:

  <bullet> training and expertise of personnel;
  <bullet> continuity and institutional memory of personnel;
  <bullet> number of personnel available;
  <bullet> caseload of personnel;
  <bullet> legal support available;
  <bullet> the balance between child abduction/retention cases and 
        ``good relations'' in bilateral relations;
  <bullet> the role of regional bureaus and American embassies, and
  <bullet> general openness and a willingness to provide left-behind 
        American parents with all available information and 
        documentation.
    (B) Consider the vital assistance and support for both the U.S. 
Central Authority and left-behind American parents if the National 
Center for Missing and Exploited Children (NCMEC) is given the same 
role for ``outgoing'' cases (i.e., abductions from the U.S. and 
retentions of American children abroad) as it now has for ``incoming'' 
cases.
(2) Prevention, Publicity, and Accountability
    PROPOSALS: (A) In the ``children's rights'' section of the annual 
human rights report on each country, direct that the child custody 
system be summarized, including gender bias or bias against foreigners 
based on statistical evidence, enforceability of visitation/access for 
noncustodial parents (i.e., is there anything comparable to contempt of 
court?), payment of legal fees for host country nationals in custody or 
abduction cases, criminal legislation that protects abductors/
withholders, compliance (or not) with the relevant provisions in the 
Convention on the Rights of Child on the role of both parents, the 
right of children in international cases to spend time in both 
countries, etc. The U.S. is not a Party but has signed and complies 
with the relevant provisions to a far greater extent than most States 
Parties.
    Each year, the annual human rights report is eagerly awaited, 
widely disseminated, and, unlike most government reports, widely read 
throughout the world. One important function that the annual human 
rights reports should perform is prevention, as ``human rights 
advisories'' comparable to travel advisories; i.e., to alert potential 
victims of current and/or ongoing, systemic human rights abuses. If 
just one child from ANY country is saved from being lost because a 
judge, attorney, parent, or family friend reads or hears about 
government-supported child abduction/retention in a given country, then 
an accurate and complete report will have accomplished something both 
worthwhile and right. An accurate and complete report on countries such 
as Sweden would constitute a great service to American and other 
parents who might be warned in time to avoid losing their children.
    (B) If the President signs H.R. 1757, amend Section 1803 (Reporting 
on Hague Convention Compliance) to cover retention cases and any case 
not resolved within 6 months, and to include lists of countries that do 
not have anything comparable to contempt of court and cannot enforce 
their own civil court orders, that pay the legal fees of their 
abductors/retainers, that have criminal legislation which effectively 
protects their abductors/retainers, etc. If the President does not sign 
the bill, transform Section 1803 into stand-alone legislation with the 
suggested revisions.
(3) Bilateral Relationships
    PROPOSAL: Review what type of relationship the United States should 
have with governments that:

  <bullet> are directly engaged in facilitating, financing, otherwise 
        supporting, and rewarding criminal conduct against American 
        citizens;
  <bullet> have in place any elements of a governmental child abduction 
        system;
  <bullet> have refused return of American children abducted/retained 
        in violation of U.S. law or court orders;
  <bullet> have unresolved cases of abduction/retention of American 
        children with no meaningful or enforceable access for the 
        American parent;
  <bullet> use their law enforcement authorities aggressively against 
        American parents whose children have been abducted/retained and 
        rarely if ever use them to assist American parents;
  <bullet> have failed to compensate American parents of abducted/
        retained children for their legal and other expenses, and
  <bullet> abuse their sovereign immunity by financing litigation in 
        U.S. courts against American parents while claiming that the 
        cases are private custody disputes and refusing to respect/
        enforce results adverse to their citizens.
(4) Mutual Legal Assistance Treaties (MLATs)
    PROPOSAL: Consider whether the United States should provide 
assistance against a left-behind American parent in any case where 
there has been a child abduction/retention in violation of U.S. law or 
court orders AND whether the United States should provide assistance 
under any foreign law that criminalizes the attempts of custodial 
parents (sole or joint) to exercise their parental rights in response 
to abduction/retention of their child(ren). (e.g., See attached Swedish 
penal law which has been used against several American parents of 
abducted/retained children).
(5) Child Support Enforcement
    PROPOSAL: Amend P.L. 104-193 (Section 459A) or take other action 
to:

    (A) prohibit any child support enforcement arrangement with a 
country that does not have a legal system providing prompt, adequate 
and effective enforceable, unsupervised access/visitation IN THE UNITED 
STATES by means of something comparable to contempt of court; and
    (B) prohibit any child support enforcement agreement unless it 
contains ironclad guarantees that no American parent of an abducted/
retained child will be affected, harassed, or penalized in any way AND 
it expressly excludes any case where there is or has at any time been:

  <bullet> a violation of a U.S. custody order or U.S. custody law;
  <bullet> a violation of a Federal or state criminal law;
  <bullet> a denial of a request for return of the child(ren) under the 
        Hague Convention or a failure of the foreign Central Authority 
        to comply with other Convention obligations;
  <bullet> termination or reduction of any support obligation by a U.S. 
        court;
  <bullet> an unpaid judgment or fine imposed by a U.S. court on the 
        foreign parent;
  <bullet> a failure by the foreign government or its courts to provide 
        rapidly enforceable unsupervised, and generous visitation in 
        the United States with police assistance and with no legal aid 
        provided to the foreign parent violating a foreign or U.S. 
        custody order;
  <bullet> an inability or refusal by the foreign government/courts to 
        control the conduct of the foreign parent through contempt of 
        court or other effective means, and
  <bullet> an inability or refusal by the foreign government/courts to 
        protect and promote the exercise of parental rights by the 
        American parent.
(6) Implementation of the International Parental Kidnapping Act of 
        1993, 18 US 1204
    PROPOSAL: Consider remedial actions based on Justice Department 
response, if any, to Senate Judiciary Committee questions:

  <bullet> Require annual DJ report on number of requests from parents 
        or their counsel for indictments, number of indictments, number 
        of extradition requests, number of actual prosecutions, etc.
(7) Privacy Act
    PROPOSAL: Require that left-behind parents be provided with the 
option (in writing) to waive all Privacy Act rights so that their names 
can be given to parents involved with the same country and to 
organizations (such as NCMEC) that can help:

  <bullet> Prohibit use of the Act to withhold any information or 
        documents from left-behind American parents, and
  <bullet> Prohibit use of the Act on behalf of abducted American 
        children or abductors (even if U.S. citizens) as a basis for 
        withholding information or documents from left-behind American 
        parents.
(8) Freedom of Information Act (FOIA)
    PROPOSAL: Prohibit use of FOIA as a basis for refusing release of 
ANYTHING and EVERYTHING to American parents in child abduction/
retention cases (information, documents, diplomatic and other 
government-to-government correspondence, etc.)

  <bullet> These are not matters of national security; a left-behind 
        American parent has an absolute right to know everything that 
        his government has done or failed to do to obtain the return of 
        the American children concerned.
(9) Exception to Foreign Sovereign Immunities Act
    PROPOSAL: Create an exception to the FSIA giving American citizens 
a cause of action in U.S. district courts against foreign governments 
(and all their assets in the United States) that directly engage in, 
facilitate, or otherwise support criminal conduct against them and 
their children.
(10) Bilateral Claims
    PROPOSAL: Consider the use of bilateral U.S. Government claims on 
behalf of American children and their parents against foreign 
governments that have permitted their nationals to abduct/retain 
American children (and perhaps provided assistance and support).
(11) Office of Foreign Missions
    PROPOSAL: Require OFM to: (A) regulate and monitor the hiring and 
payment by foreign governments of American attorneys in cases of 
abduction/retention of American children where U.S. civil/criminal law 
or U.S. court orders have been violated, and
    (B) monitor and discourage any harassment of American citizens by 
foreign government agencies demanding either ``child support'' for 
abducted/retained American children or reimbursement to the foreign 
government of the legal fees it has paid for someone who has abducted 
or retained American children.
    In an era of budget constraints, it is reasonable for Congress and 
the American people to ask what U.S. Government interest is more 
important than protecting our youngest citizens from the impact of 
crime. And international parental child abduction or wrongful retention 
of children are crimes, as well as human rights violations. The Hague 
Convention is a noble effort to remedy criminal conduct by civil means, 
but all too many countries (notably European civil law countries) knew 
at the time they ratified the Convention that their basic child custody 
laws and institutions were (and still are) incompatible with full 
compliance.
    All of us are well aware that there are many ways to lose a child, 
none of them acceptable. But foreign government support for and 
participation in the loss of a child is intolerable. To a large extent, 
these crimes and human rights violations against American children and 
their parents succeed because the foreign governments concerned are 
confident that there is simply no downside risk; i.e., no real-world 
consequences for ignoring or dismissing the U.S. Governments interests 
and views. This guarantees future cases. As a father who came within 18 
hours of regaining his daughter only to have a last-minute stay from a 
Swedish court change our lives forever, I can only express the hope 
that this Committee and Congress in general will ensure that there will 
be consequences in the future for governments that facilitate, finance, 
otherwise support, and reward the international parental child 
abduction and wrongful retention abroad of American children.
    [Additional information submitted by Thomas Johnson appears 
in the appendix.]
    The Chairman. Mr. Marinkovich.

     STATEMENT OF PAUL MARINKOVICH, SIMI VALLEY, CALIFORNIA

    Mr. Marinkovich. Thank you, Mr. Chairman.
    The Chairman. By the way, I have been sitting here looking 
at the pictures of your little boy and your little girl, Mr. 
Sylvester. I happen to be the father of three and grandfather 
of seven. I have got at least 10 good reasons to thank God that 
I am not in your place. That is the undergirding of my interest 
in this thing.
    I have some further comment about the Attorney General and 
her sincerity which may encourage you.
    You may proceed.
    Mr. Marinkovich. Thank you, Mr. Chairman. I should hope 
that no one should have to go through what the people at this 
table are.
    I wish to thank this committee for the honor of speaking 
about America's most precious resource. The most precious 
resource that we have in America are children.
    I brought my 14-year-old son Michael here today--he is 
videotaping me--because he has a great interest in seeing his 
brother again.
    The Chairman. Where is Michael?
    Mr. Marinkovich. Michael is right here.
    The Chairman. Michael, come up here.
    Senator Biden. You can bring your camera, Michael.
    The Chairman. You sit down here and you be judge of your 
father. How about that?
    Mr. Marinkovich. Mr. Chairman, you are going to get me in 
trouble now. He is the boss. You look good up there, Mike.
    My 6-year-old son Gabriel was lost to an act of 
international parental abduction on August 19th, 1996. Over the 
last 773 days, I have been engaged in a battle on many 
different fronts to ensure his safe return.
    As both a father and as the Executive Director and co-
founder of the International Child Rescue League, I find it 
important to hold the proper context in both my case and when I 
interact with others, and I want to share that with you. It is 
the mission statement that hangs on our walls of both our east 
coast office with Mr. John LeBoe in Florida and our west coast 
office in southern California. It is as follows.
    By holding the sacred bond of parent and child in its 
highest regard, we stand for the rights of all children to 
receive the love of both their parents. We have faith that all 
parents really want to do what is best for their children, but 
realize that sometimes decisions are made out of anger rather 
than out of love. It is our firm belief that through individual 
case support of missing and abducted children and by enrolling 
the people of every nation in this vision, that a miracle is 
indeed possible. We work toward the day when children 
everywhere will be blessed with a world in which parental 
kidnapping is no longer a threat to their growth, development, 
and stability.
    Mr. Chairman and committee, I am here today in support of 
creating that miracle.
    Let us first look at the actual act of parental abduction 
itself and how it relates to children. The National Center for 
Missing and Exploited Children, who I have a lot of respect 
for, created a federally funded publication to educate and 
advise law enforcement officials in their investigation of 
parental abduction cases, and that publication is called 
Missing and Abducted Children: A Law Enforcement Guide to Case 
Investigation and Management. It advises law enforcement 
personnel who are involved in this type of case as follows, and 
I quote. ``The emotional scarring that is caused by these 
events,'' child abduction, ``requires that officers recognize 
family abduction not as a harmless offense where two parents 
are arguing over who loves the child more, but instead as an 
insidious form of child abuse.''
    Now, in 1993 the American people and this Congress spoke 
their will and passed into law the International Parental 
Kidnapping Crime Act of 1993 and set something into motion. It 
states--and I quote--``Whoever removes a child from the United 
States or retains a child outside of the United States with the 
intent to obstruct the lawful exercise of parental rights shall 
be fined under this title or imprisoned for not more than 3 
years, or both.''
    Now, according to an August 31st, 1998 news article in the 
Ventura County Star about my case, Nancy Nayak, who is the 
Assistant Director of the National Center for Missing and 
Exploited Children, quoted the following, and I quote. ``In 
1993, case workers estimated about 10,000 children were 
abducted in the United States and taken abroad in parental 
abductions. While the exact numbers cannot be determined today, 
experts acknowledge that it is significantly higher. Also since 
1993, approximately 10 arrest warrants have been filed for 
these parents, and only one has been successfully prosecuted.'' 
And we heard a number of 26 today, so the number might be 
altered a little bit, but it is still just a mere handful, less 
than 1 percent.
    Now, I visited Washington, D.C. In June of this year and I 
talked to several Members of the Senate and Congress. I have 
both written and called on the phone and faxed and everything 
that we have to do as parents to get a hold of you lawmakers. I 
have been incredibly pleased with the response that I have been 
getting.
    I was told that we were a Nation of laws. I was also 
informed that laws are created more as a deterrent to crime 
rather than a punishment for crime. It was also explained to me 
that the stricter a law is enforced, the higher percentage of 
compliance is achieved. So, if strict enforcement of laws are a 
deterrent to crime, then what type of message is our Justice 
Department giving the American people by prosecuting only 1 
one-hundredth of 1 percent of those who violate the 
International Parental Kidnapping Crime Act of 1993? How 
effective of a deterrent to the crime of international parental 
kidnapping is the issuance of a warrant for less than 1 percent 
of those who violate the International Parental Kidnapping 
Crime Act of 1993?
    Is it any wonder that the National Center for Missing and 
Exploited Children report that international child abduction 
out of the United States has tripled since 1986? While some are 
quick to point that the rise in international marriages in the 
United States have fueled this dramatic increase, I believe 
that some, if not most, of this increase can be directly 
attributed to the inexcusable disregard for enforcement of the 
International Parental Kidnapping Crime Act of 1993 by our own 
Justice Department.
    In my case, after a long emotional and financial strain, I 
was able to join the ranks of that less than 1 percent of the 
cases that resulted in a parental abduction warrant. This was 
only achieved after a 6-month full background check by the FBI 
into my own personal affairs, having to fly my present family 
out from California to Texas to be interviewed by the FBI, and 
drumming up support through the lawmakers in Congress and local 
media and thousands of man-hours and at least a hundred 
letters. I believe it was my persistence that persevered in 
obtaining this warrant and not the willingness of my U.S. 
attorney to cooperate.
    My son has been abducted into an underground organization 
in Sweden. I have won the Hague cases in Sweden and have full 
custody in both the United States and Sweden. The Swedish 
Government has uncovered conclusive proof that my son was 
registered in Sweden under a fraudulent birth certificate and a 
fraudulent United States passport that was obtained as a result 
of this fraudulent birth certificate. Both the Swedish 
Government and myself have provided proof beyond a shadow of a 
doubt of this action. I have requested that my U.S. attorney 
issue a charge of passport fraud to not avail. Passport fraud, 
by the way, is extraditable from almost any country. The 
evidence is included within the handouts.
    The Swedish prosecutor indicated that with an issuance of 
passport fraud, he could expand the scope and search for my son 
to include obtaining the phone and bank records of those known 
to be illegally hiding him. Without the passport fraud warrant, 
he will do nothing. He indicated to my attorney--I hear this a 
lot--that if the United States is not willing to address this 
issue, then why should Sweden? I think this makes a lot of 
sense. It is a question we need to ask ourselves. Why should 
other countries take child abduction seriously if we are not 
willing to?
    Now, if we can prosecute parents who abduct children on 
more than one crime, then we can increase the chances of 
extradition. If we can have their passports revoked, then we 
can have the possibility of deportation which has worked in the 
past. If we show these other countries that we are serious by 
our actions and our requests, then they start getting serious 
about the return of our children. The context very clearly 
starts here with our own Justice Department. If we do not treat 
the abduction of our children as a serious matter, then how can 
we expect those other countries involved to fight for our 
children's return?
    Up until recently, the huddled masses of left-behind 
parents and their abducted children in their patient suffering. 
Every day these parents experience the agony that only a parent 
can feel when their child has been stolen away from them. They 
become bitter at the indifference they experience from the 
Government officials that are sworn to uphold the laws of their 
country. They have been kept at bay by hundreds, perhaps 
thousands of U.S. Attorneys who refuse to issue international 
parental abduction warrants. How much longer will the U.S. 
Justice Department remain deaf to futile cries of these left-
behind parents and their abducted children?
    The tide is changing left-behind parents of abducted 
children are standing up and starting to be heard, thanks to 
lawmakers such as you who are listening. We are crawling out of 
our isolated existence and realizing that we are no longer 
alone. We are now networking together and finding we share a 
common injustice at the hands of our own Justice Department. It 
is evident that it is the will of the American people to do 
something drastic about this growing problem, and I am happy to 
say that I understand that you are listening.
    The miracle that we can create here today is for the 
Justice Department to start taking this crime seriously and to 
support the wishes of the American people and this Congress by 
strictly enforcing the International Parental Kidnapping Act of 
1993 and to start cooperating with parents.
    Ms. Reno has the unique honor of being part of the growing 
tide of change and becoming a part of the solution to this 
problem. She has before her an opportunity to send out a clear 
message that the United States is not going to stand for the 
abduction of their children. Period.
    In a recent July 30th, 1998 article in the Los Angeles 
Daily Journal, featuring my case, Nancy Nayak from the National 
Center for Missing and Exploited children quoted that ``The 
Hague process is very lengthy and expensive and at best it can 
take 6 months to a year,'' not 6 weeks as was quoted to me in 
the publication that I received from the OCI. ``Even with the 
Hague Treaty, the State Department reports there is only a 30 
percent chance of getting your child back.'' Most of that 30 
percent are made up of voluntary returns. In some countries 
such as Sweden, Germany, and Austria, the percentage rates are 
far worse.
    I can sit here and complain about the Swedish Government 
who granted the abductor of my son secrecy protection, which is 
the equivalent of the witness protection program here in the 
United States, because she presented the Swedish authorities 
with false documentation and false claims that her life was in 
danger. I can complain about the lack of police effort in 
Sweden to find my son when in fact he was attending a local 
public school three blocks from the police station under his 
correct name and Swedish ID number. I can even complain about 
the releasing of police investigation files to the abductor's 
attorney detailing the scope and the methodology of their 
search for her. I can complain that the Swedish Government 
financially assists the abductor, who is an American citizen, 
with legal aid and welfare, but yet claims to not know where 
she is. But today is not the forum to complain only about 
Sweden. I have directly confronted the Swedish Government with 
these issues and will continue to do so.
    We are here today with many other left-behind parents 
questioning the lack of compliance of our Hague Convention by 
other countries, as we should, but it is equally disturbing 
that our own State Department Office of Children's Issues is 
sending a clear message out to all the Central Authorities 
involved that we are not adequately concerned for our children. 
This is shown by the lack of returned correspondence, by their 
constant turning over of personnel, their ridiculously vague 
and soft treatment of violations by other Central Authorities, 
their inherent lack of knowledge and training regarding foreign 
laws, and their overall lack of concern for the parents they 
are supposed to support. If I can use my terribly mismanaged 
case as a barometer as to how the OCI is doing, then I cannot 
begin to imagine the lack of support that other parents with 
softer voices are receiving from the OCI.
    As I understand it, new counselors have little formal 
training in their new posts and are taking on an incredible 
workload. My counselor had 3 days of on-the-job training before 
taking the post over. After writing to Ms. Ryan, who is here 
with us today, the Assistant Director of Consular Affairs, 
about these concerns, she indicated that a counselor handles 
between 140 and 150 cases. I know these parents here could join 
me in knowing that handling one case is almost too much. How 
could anyone handle that many cases? It is impossible. It is an 
impossible workload even for an experienced counselor who has 
been in their post for a couple of years. But to turn that 
level of workload over to an inexperienced person with no 
formal training is tragic because it concerns the welfare of 
missing and abducted children, and each mistake that they make, 
each lack of quick action, each unanswered correspondence 
directly relates to a child's life. The Department is left to 
relearn the lessons that they have already learned. The price 
paid for those lessons were the souls and the loss of childhood 
that countless numbers of past abducted children have already 
paid.
    Now are we to rob countless others again because we simply 
have an inefficient system of inadequate training that clearly 
does not work? It is perfectly clear to me that we have a very 
serious problem here, and it is our children who will once 
again pay the price. Please name another area within the State 
Department that handles a commodity that is more precious than 
our children.
    As a world leader, other nations look to us for that 
leadership and to deliver an example in which to follow. It is 
any wonder that we have such a problem with Hague Convention 
compliance abroad? If we are sending out a message that we are 
soft on the international parental abduction of our own 
children, then how can we possibly expect other countries to 
hold the higher standard that is going to be necessary to 
increase returns above 30 percent? Every child who is not 
returned is subject to a flagrant violation of their human 
rights as American citizens. 7 out of every 10 children 
abducted out of this country through the Hague Convention will 
never again see American soil.
    I have come up with a couple of solutions as I have seen 
it. I am not a lawmaker. I am not a lawyer, but it just some 
things, after 2 and a half years, that make some common sense 
to me.
    First of all, we need strict enforcement by the Justice 
Department of the International Kidnapping Crime Act of 1993. 1 
one-hundredth of 1 percent prosecution rate is inexcusable, and 
it sends a message out to every parent who is thinking about 
abducting their child that no one is going to prosecute them. 
It makes international child abduction a viable option for 
every parent who is going through a divorce, and it needs to 
stop.
    We need to educate our U.S. Attorneys about parental 
abduction and to instruct them to take an aggressive stance in 
prosecuting these cases.
    We need a person right here in Washington, D.C. At the 
Justice Department's Office of International Affairs who has 
the sole job to be in charge of international parental 
kidnapping. If we are having 1,200 kids leaving a year out of 
this country--or more--1,200 cases, then I would think that 
would warrant having an individual in charge of that. They 
would provide a consistency that we do not have now for left-
behind parents to get a universal answer and a solution to 
their problems and a forum for U.S. Attorneys to ask the needed 
questions that they need to know.
    We need to have every international abduction case 
broadcasted worldwide. In a bold and heroic effort by the 
International Broadcasting Bureau of the U.S. Information 
Agency, a program is now underway to broadcast our search for 
these fugitives who abduct our children. These broadcasts 
represent a two-front war against international abductions and 
illustrates one attempt of direct action by the U.S. Government 
to solve this problem. I am happy to say that I am seeing a 
branch of the U.S. Government that is taking action, and I 
applaud them.
    This first front offers a very real chance to provide the 
international public with the information needed to effect the 
successful returns of these abducted children, but the second 
front represents a much larger stage for a much larger picture. 
These broadcasts will serve as a forum for the United States to 
deliver how serious they intend to deal with international 
abduction of their children.
    Mr. Charles Goolsby and the International Broadcasting 
Bureau of the U.S. Information Agency is to be commended for 
their valiant effort toward assisting in the return of these 
abducted children and should stand as an example of what real 
change looks like for all Justice Department officials 
everywhere.
    The Chairman. Mr. Marinkovich, we must ask you to conclude 
in the next couple of minutes, if you will.
    Mr. Marinkovich. I have got about 45 seconds left.
    The Chairman. That will be fine.
    Mr. Marinkovich. I agree with Tom Johnson that we need to 
move the Office of Children's Issues from the State Department 
to the Civil Branch of the Justice Department or to a private 
organization such as the National Center for missing and 
Exploited Children who are pioneers in this field. If that is 
not possible, then we need to do what we need to do to at least 
double the number of counselors handling existing cases. 140 to 
150 cases per counselor is unmanageable, and it is our children 
that suffer.
    We need to have studies into individual compliance records 
of each country which we deal with. We absolutely should not 
pass any further treaties with countries who are not currently 
in compliance with the Hague Convention because if they are not 
supporting our end of the treaties at this point, what makes us 
think that they are going to comply with mutual legal 
assistance treaties?
    We should impose some further duty on imports from 
countries that put money into a fund to help these searching 
parents who are taxed hundreds of thousands of dollars looking 
for their children in relationship to how flagrantly the 
countries violate the Hague Convention.
    In closing, again I want to acknowledge that I am not a 
lawyer, that I am not an attorney, that I am not a lawmaker. I 
guess by right I was invited here because I am the father of 
Michael and Gabriel and a man that has been involved in a 2\1/
2\ year struggle to get them back. I pray that we can create 
the miracle that I discussed in the beginning of this testimony 
here today by starting the ball rolling and by all of us 
changing the way in which we think about international parental 
abduction and to send a very strong and serious message out as 
the world leaders that we are not going to stand for it 
anymore. Even if we put an extradition request out there and it 
will not be honored, the context of us putting it out creates 
action.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Marinkovich follows:]

                 Prepared Statement of Paul Marinkovich

    I wish to thank the Committee for the honor of speaking about 
America's most precious resource, our children.
    My 6-year-old son Gabriel was lost to an act of International 
Parental Abduction on August 19, 1996. Over the last 773 days I have 
been engaged in a battle on several fronts for his safe return. As both 
a father and as an executive director and co-founder of the 
International Child Rescue League, I find it important to hold the 
proper context in both my case and interacting with others. Our mission 
statement is as follows:

          By holding the sacred bond of parent and child in its highest 
        regard, we stand for the right of all children to receive the 
        love of both their parents. We have faith that all parents 
        really want to do what is best for their children, but realize 
        that sometimes decisions are made out of anger rather than 
        love. It is our firm belief, that through individual case 
        support of missing and abducted children and by enrolling the 
        people of every nation in this vision, that a miracle is indeed 
        possible. We work toward the day when children everywhere will 
        be blessed with a world in which parental kidnapping is no 
        longer a threat to their growth, development, and stability.

    I am here today in support of that miracle. One dictionary defines 
a miracle as ``an event believed to be an act of God or of a 
supernatural power.'' I contend that a miracle is a shift in one's 
perception or their thinking. If we can start to change the way we all 
think about International Child Abduction then we can indeed create a 
miracle here today.
                           justice department
    Lets first look at the actual act of parental abduction itself and 
how it relates to children. The National Center for Missing and 
Exploited Children created a federally funded publication to educate 
and advise law enforcement officials in their investigation of parental 
abduction cases called Missing and Abducted Children: Law Enforcement 
Guide to Case Investigation and Management. It advises law enforcement 
officers as follows:

          The emotional scarring caused by these events requires that 
        officers recognize family abduction, not as a harmless offense 
        where two parents are arguing over who ``loves the child 
        more,'' but instead as an insidious form of child abuse.

    In 1993, the American people and this Congress spoke their will and 
passed into law the International Parental Kidnapping Crime Act of 
1993. It states, and I quote,

          Whoever removes a child from the United States or retains a 
        child outside the United States with intent to obstruct the 
        lawful exercise of parental rights shall be fined under this 
        title or imprisoned not more that 3 years, or both.

    According to a August 31, 1998 newspaper article in the Ventura 
County Star about my case, Nancy Nayak who is the Assistant Director of 
the National Center for Missing and Exploited Children, quoted the 
following:

          In 1993, case workers estimated about 10,000 children were 
        abducted in the United States and taken abroad in parental 
        abductions. While the exact numbers can not be determined 
        today, experts acknowledge that it is significantly higher. 
        Also since 1993, only 10 arrest warrants have been filed for 
        these parents, and only one has been successfully prosecuted.

    I visited Washington DC in June of this year and talked to several 
members of the Senate and Congress. I was told that we are a nation of 
laws. I also was informed that laws are created more as a deterrent to 
crime rather than a punishment for crime. It was also explained to me 
that the stricter a law is enforced, the higher percentage of 
compliance is achieved. So if strict enforcement of laws are a 
deterrent to crime, then what type of message is our Justice Department 
giving the American people by prosecuting only 1/100th of 1 percent of 
those who violate the International Parental Kidnapping Crime Act of 
1993? How effective of a deterrent to the crime of International 
Parental Kidnapping is the issuance of a warrant for 1/10th of 1 
percent of those who violate the International Parental Kidnapping 
Crime Act of 1993?
    Is it any wonder that the National Center for Missing and Exploited 
Children report that International Child Abduction out of the United 
States has tripled since 1986? While some are quick to point that the 
rise in international marriages in the United States have fueled this 
dramatic increase, I believe that some, if not most, of this increase 
can be directly attributed to the inexcusable disregard for enforcement 
of the International Parental Kidnapping Act of 1993 by our Justice 
Department.
    In my case after a long emotional and financial drain, I was able 
to join the ranks of the 1/10th of 1 percent of the cases that result 
in a warrant. This was only achieved after a 6 month full background 
check into my affairs, having to fly my present family out from 
California to Texas for an FBI interview, drumming up support from my 
Congressman and local media and thousands of man hours and at least one 
hundred letters. I believe it was my persistence that persevered and 
not the willingness of my U.S. Attorney to cooperate.
    My son has been abducted into an underground organization in 
Sweden. I have won my Hague cases in Sweden and have full custody in 
both the United States and Sweden. The Swedish Government has uncovered 
conclusive proof that my son was registered in Sweden under a 
fraudulent birth certificate and a fraudulent United States Passport 
that was obtained with this fraudulent birth certificate. Both the 
Swedish Government and myself have provided proof beyond a shadow of a 
doubt of this action. I have requested that the U. S. Attorney issue a 
charge of Passport Fraud to no avail. The evidence is included within 
the handouts of the written account of my testimony.
    The Swedish prosecutor indicated that with an issuance of passport 
fraud he could expand the search for my son to include obtaining the 
phone and bank records of those known to be illegally hiding my son. 
Without the Passport Fraud warrant he will do nothing. He indicated to 
my attorney, that if the United States is not willing to address this 
issue then why should the Swedes. His request makes sense. Why should 
other countries take child abduction seriously if we are not willing 
to?
    If we can prosecute parents who abduct on more than one crime, then 
we can increase the chances of extradition. If we can have their 
passports revoked, then we have the possibility of deportation which 
has worked in the past. If we show these other countries that we are 
serious by our actions and requests, then they start getting serious 
about the return of our children. The context very clearly starts here 
with our own Justice Department. If we don't treat the abduction of our 
children as a serious matter, than how can we expect those other 
countries involved to fight for our children's return.
    Up until recently, the huddled masses of left behind parents and 
their abducted children have been isolated in their patient sufferance. 
Every day these parents experience the agony only a parent can feel 
when their child has been stolen away. They become bitter at the 
indifference they experience from the government officials sworn to 
uphold the laws of their country. They have been kept at bay by 
hundreds, perhaps thousands, of U.S. Attorneys who refuse to issue 
International Parental Abduction Warrants. How much longer will the 
United States Judicial System remain deaf to the futile cries of these 
left behind parents and their abducted children?
    The tide is changing. Left behind parents of abducted children are 
standing up and starting to be heard. We are crawling out of our 
isolated existence and realizing that we are not alone. We are now 
networking together and finding we share a common injustice at the 
hands of our own Justice Department. It is evident that it is the will 
of the American people to do something drastic about this growing 
problem.
    The miracle we can create today, is for the Justice Department to 
start taking this crime seriously and to support the wishes of the 
American people and this Congress by strictly enforcing the 
International Parental Act of 1993 and start cooperating with parents.
    Ms. Reno as the Attorney General, you have the unique honor of 
being part of the growing tide of change and becoming a part of the 
solution. You have before you, an opportunity to send out a clear 
message that the United States is not going to stand for the abduction 
of children, period.
                            state department
    In a recent July 30, 1998 article in the Los Angeles Daily Journal 
(a well recognized legal newspaper) featuring my case, Nancy Nayak from 
the National Center for Missing and Exploited Children quoted that, 
``The Hague process is very lengthy and expensive and at best it can 
take from 6 months to a year'' (not six weeks as quoted by the 
publication I received from the OCI). She further states, ``Even with 
the Hague Treaty, the State Department reports there is only a 30 
percent chance of getting your child back.'' Most of that 30 percent 
are made up of voluntary returns. In some countries, such as Sweden, 
Germany, and Austria, the return rate is even worse. I was never 
informed that my chances of getting my son back via the Hague 
Convention are less than 30 percent. Is that level of return acceptable 
to the United States?
    I can sit here and complain about the Swedish Government who 
granted the abductor of my son secrecy protection (the equivalent to 
our witness protection program) because she presented the Swedish 
authorities with false documentation and false claims that her life was 
in danger. I can complain about the lack of police effort in Sweden to 
find my son, when in fact he was attending a local public school three 
blocks from the police station under his correct name and Swedish ID 
number. I can complain about the releasing of police investigation 
files to the abductor's attorney detailing the scope and methodology of 
their search for her. I can complain that the Swedish Government 
financially assists the abductor, who is an American citizen, with 
legal aid and welfare but yet claims they do not know her location. 
This is not the forum to complain about Sweden. I have directly 
confronted the Swedish Government with these issues and will continue 
to do so. Already, some changes are taking place.
    We are here today with many left behind parents questioning the 
lack of compliance of the Hague Convention by other countries, as we 
should, but it is equally disturbing that our own State Department 
Office of Children's Issues is sending a clear message out to all the 
Central Authorities involved that we are not concerned about our 
children. This is shown by their lack of return correspondence, their 
constant turning over of personal, their ridiculously vague and soft 
treatment of violations by other Central Authorities, their inherent 
lack of knowledge and training regarding foreign laws, and their 
overall lack of concern for the parents they are supposed to support. 
If I use my terribly mismanaged case as a barometer as to how the OCI 
is doing, then I can't begin to imagine the lack of support other 
parents with softer voices are receiving from the OCI.
    As I understand it, new consulars have little formal training in 
their new post and are taking on an incredible work load. My consular 
had three days of on the job training before taking the post over. 
After writing to Mary A. Ryan, the Assistant Director of Consular 
Affairs about these concerns, she indicated that a consular handles 
between 140 to 150 cases. This is an impossible workload even for an 
experienced consular who has been in that post for two years. To turn 
over that level of workload to an inexperienced person with no formal 
training is tragic because it concerns the welfare of missing and 
abducted children and each mistake, each lack of quick action, each 
unanswered correspondence directly affects a child's life. The 
Department is left to relearn the lessons already learned. The price 
paid for those lessons were the souls and the loss of childhood that 
the countless numbers of past abducted children have already paid. Now 
are we to rob countless others again because we simply have an 
inefficient system of inadequate training that clearly doesn't work? It 
is perfectly clear to me that we have a very serious problem and it is 
our children who will once again pay the price. Please name another 
area within the State Department that handles a commodity more precious 
than our children.
    Other nations look to us for world leadership and to deliver an 
example in which to follow. It is any wonder that we have such a 
problem with Hague compliance abroad? If we are sending out a message 
that we are soft on the international parental abduction of our 
children, than how can we expect other countries to hold the higher 
standard necessary to increase returns above 30 percent? Every child 
who is not returned is subject to a flagrant violation of their human 
rights. Remember 7 out of 10 children will never see American soil 
again.
    Our miracle here is for the United States to stand as a world 
leader with an aggressive context that we are not going to stand for 
the abduction of our children. This can be put forth by every State 
Department official in every letter and phone call. We must change the 
way in which we lead the world for the benefit of our children.
                               solutions
    (1) We need strict enforcement by the Justice Department of the 
International Kidnapping Crime Act of 1993.
    (2) We need to educate our U. S. Attorneys about parental abduction 
and instruct them to take an aggressive stance in prosecuting these 
cases.
    (3) We need a person in Washington D.C. at the Justice Department's 
Office of International Affairs who is only in charge of International 
Parental Kidnapping. They would provide a consistency so that left 
behind parents can get a universal answer and solution to their 
problems and strict enforcement can be assured.
    (4) We need to have every international abduction case broadcasted 
worldwide. In a bold and heroic effort by the International 
Broadcasting Bureau of the United States Informational Agency, a 
program is now under way to broadcast our search for these fugitives 
who have abducted our children. These broadcasts represent a two front 
war against international abductions and illustrates one attempt of 
direct action by the United States Government to solve this problem. 
The first front offers a very real chance to provide the international 
public with the information needed to affect the successful returns of 
these abducted children but the second front sets the stage for a much 
larger picture. These broadcasts will serve as a forum for the United 
States to deliver how serious they deal with the international 
abduction of their children. Mr. Charles Goolsby and the International 
Broadcasting Bureau of the United States Informational Agency is to be 
commended for their valiant effort towards assisting in the return of 
these abducted children and should stand as an example for all Justice 
Department officials everywhere.
    (5) We need to move the Office of Children's Issues from the State 
Department to the Civil Branch of the Justice Department or to a 
private organization such as the National Center for Missing and 
Exploited Children. If that is not possible, we need to at least double 
the number of consulars handling these cases.
    (6) We need to have studies into the individual compliance records 
of each of the countries in which we deal with. We absolutely should 
not pass further treaties with countries who are not currently in 
compliance with the Hague Convention.
    (7) We should impose further duty on imports from countries and put 
that money in a fund to help searching parents in those countries in 
direct relation to the amount of non-compliance they are exhibiting.

    The Chairman. Very good. Thank you, sir.
    Now what I hope is good news. I have been interested in 
this matter for a long time. Senator Biden just leaned over to 
me and said we have got to get the State Department off the 
dime.
    Now, you can lay the blame either way, but the blame should 
exist in the first place.
    Let me say in defense of a lady who does not belong to the 
same party that I do, but the Attorney General has mentioned 
this thing to me voluntarily at functions which she and I have 
attended. One of them was a state dinner. I know it is on her 
mind, and I know she wants to do something. This Government is 
so big, unless people make themselves heard, as you have, 
nothing much happens. But something is going to happen and I 
think Joe Biden feels the same way about it.
    Senator Biden. Mr. Chairman, all four cases are different. 
All four cases are tragic. All four cases make any parent 
think, oh, my God, what would I do?
    I would like to say I admire your restraint. I mean that 
sincerely. I admire your restraint.
    The Chairman. Amen.
    Senator Biden. I am not certain that I would possess that 
same restraint. I hope I would but I do not know what I would 
do.
    The second point I would like to make is, since the cases 
are different, some of the action we can take legislatively and 
by attempting to change interpretations of treaties would help 
some of you, would not help others of you. There is not a 
single legislative solution that would solve all four of your 
problems, and you represent all the same end result but four 
different circumstances.
    The country in question has overruled you in the end. Well, 
they have. The most recent ruling in Sweden--I mean in--excuse 
me.
    Mr. Sylvester.  In Austria.
    Senator Biden.--in Austria, the Supreme Court reversed 
itself on the grounds that she is now settled. Right?
    Mr. Sylvester.  Well, in reality, if I can clarify, the 
Supreme Court--there is, was, and will always remain a valid 
and final order under the Hague Convention Treaty to return 
Carina to the United States. The distinction is on the second 
round, when the Supreme Court received the review about a year 
later, what they have decided is to not enforce their valid and 
final order for return. Perhaps a subtle difference, but I 
think a distinction. They did not reverse themselves.
    Senator Biden. The bottom line is under the treaty they are 
allowed to conclude the child has become settled, so you are at 
a disadvantage legally compared to where you were legally 
before you were at substantive disadvantage from the day this 
began.
    The only point I am trying to make is not any one of you 
are better or worse positioned in terms of what you are 
entitled to as a matter of God given right. What I am 
suggesting is one solution would not solve all your problems.
    Case in point. Yours, sir, seems to me to be an easy one 
for us. I am not as gentlemanly, and I mean this sincerely, and 
I am not as subtle as the chairman. I think the chairman and I 
should tell the Secretary of State and the Attorney General 
very simply, if the facts as you stated them to us are true and 
that is that the State Department--this passport fraud has 
occurred, then I am prepared to say to the Secretary of State 
personally and to the Attorney General personally, if the 
chairman is willing to do this, if you do not issue that 
forthwith, immediately, the next 48 hours, you are going to 
play hell with me on every single thing you want, everything 
you want. I imagine we can get their attention. That is a 
relatively easy thing for us to do.
    Now, it is much more difficult for us to solve the other 
problems that are here. It does not mean they are not able to 
be solved. What I am suggesting to you is that you have 
raised--and I particularly appreciate, Mr. Johnson, your 
specific recommendations as to how to better facilitate the 
application of American law in a fair implementation of the 
Hague Treaty. All of you have made specific recommendations.
    I know we are going to have to go vote in just a second, so 
I will not take any more of the chairman's time except to say 
this. Where there is a specific, explicit thing we can do, like 
that old joke about the way you get the donkey's attention is a 
2 by 4 across the head, where that works, I am willing to apply 
the 2 by 4. It seems to me, subject to my independently 
verifying what you have told us, that a 2 by 4 may work in your 
case. It is going to take a little bit more in the other three 
cases.
    But I am prepared to work with the chairman and with the 
Senator from Ohio to figure out how we make the Government--we 
provide the agencies in question with the manpower and 
resources so they cannot say that it was a lack of resources, 
they cannot say it was a lack of support that they were getting 
for them to do their job. If that includes moving from one 
Department to another, I am willing to entertain that as well.
    I am sorry to take so much time, Mr. Chairman. I will cease 
and desist.
    The Chairman. Is this not the good news that you wanted?
    Lady Meyer. Can I make one comment?
    The Chairman. You may have the last word because you talked 
briefly.
    Lady Meyer. Thank you.
    I completely agree with you. Each of our individual cases 
are different, but we have one point in common, that in all our 
cases our children were not returned to our countries for 
different reasons. But since then, because we are dealing with 
particular countries that do not have enforcement of access 
rights, none of us have been able to see our children, and I 
think that is a very, very unfortunate issue, not only the non 
return of the children, but access.
    Senator Biden. I agree with you.
    Lady Meyer. I can list which countries. In France, for 
instance, if there is no access, the parent is immediately 
arrested, put in jail. In Britain, access is also enforceable. 
In Germany, Austria, I think Sweden and Denmark, it is not, and 
that is another huge issue for us.
    Senator Biden. It is and I appreciate it. I did not mean to 
belittle the other----
    Lady Meyer. No, no. Not at all.
    The Chairman. Very well. I take note of the fact that we 
have two Michaels here at the dais.
    I know you will not hesitate to respond to questions filed 
in writing by Senators who were unable to be here but who have 
an interest in this. Now, make haste to respond to those so 
that we may make the record as complete as possible.
    I know you appreciate what Senator Biden has said. That is 
the way he operates, and I am glad to be working with Joe 
Biden.
    Thank you very much, and if there be no further business to 
come before the committee, we stand in recess.
    [Whereupon, at 12 p.m., the committee was adjourned, 
subject to the call of the Chair.]


                            A P P E N D I X

                              ----------                              


   Responses to Additional Questions Submitted for the Record by the 
                               Committee

                 United States Department of State,
                                         Washington, D. C.,
                                                  February 8, 1999.
Hon. Paul Coverdell,
United States Senate.
    Dear Senator Coverdell: Following the October 1, 1998, hearing on 
international parental child abduction at which the Attorney General 
testified, additional questions were submitted for our response. We 
apologize for the long delay in this response. However, please be 
assured that we have been in continuous contact with Mr. Goldstein and 
have also pressed the Swiss Central Authority for a rapid resolution of 
the process for enforcement of the court order to return Kelly to her 
father.
    If we can be of further assistance to you, please do not hesitate 
to contact us.
            Sincerely,
                                    Barbara Larkin,
                                       Assistant Secretary,
                                               Legislative Affairs.
Enclosure:
    As stated.

                                 ______
                                 

                Questions Submitted by Senator Coverdell

                hague convention case of kelly goldstein
    Question. What is the status of this case and what steps are being 
taken by the USG (United States Government) to assist Mr. Goldstein in 
enforcing the court orders pertaining to his daughter?
    Answer. Mr. Goldstein's daughter Kelly was abducted by her mother 
on or about September 4, 1996. Mr. Goldstein filed for return of Kelly 
pursuant to the Hague Convention on October 1, 1996. In November, 1996 
an initial Swiss court decision refused to return Kelly based on 
Article 13 of the Hague Convention. Article 13 stipulates that the 
judicial authorities of a given state may refuse to order the return of 
a child ``if there is grave risk that his or her return would expose 
the child to physical or psychological harm or otherwise place the 
child in an intolerable situation.'' Mr. Goldstein successfully 
appealed this decision and on March 6, 1997 his daughter was ordered 
returned to the U.S. Kelly's mother appealed this decision but the 
Appeals court turned her down on April 25, 1998. Enforcement of the 
court order was subsequently suspended when the mother appealed to the 
Swiss Federal Court--the highest court in Switzerland. This court 
rejected appeal in September and decided in favor of Mr. Goldstein.
    Mr. Goldstein's case was then sent to the appropriate cantonal 
court for execution of the return order. The Swiss Central Authority, 
(SCA) responding to inquiries by the U.S. Central Authority, has said 
the case is being prolonged by the need to make the best arrangements 
for the return of the child. Further confusing the issue are 
accusations of abuse against Mr.Goldstein, which he has been trying to 
get investigated in order to clear his name and be able to go to 
Switzerland to get Kelly. The Swiss Central Authority has said that 
such accusations can play a role in the decision of the cantonal 
authorities regarding enforcement of return.
    The most recent development is the apparent withdrawal of the 
presiding cantonal judge in the case because, as related by Mr. 
Goldstein, he had a conflict of interest.
    Question. What additional steps could the USG undertake to assist 
in this case, if any? If other measures are available, why have they 
not been taken to date?
    Answer. The United States Central Authority for the Hague (the 
Office of Children's Issues in the Department of State) has been in 
regular contact with the Central Authority in Switzerland. We have 
encouraged a rapid resolution of the case and have requested 
explanations for the continuing delays and appeals. In Switzerland, as 
in other European countries, the national and local laws permit the 
kind of dilatory appeals process in civil matters that we have seen in 
Mr. Goldstein's case. The only other action that could be taken in the 
short term by the U.S. Government would be a diplomatic note. We have 
not yet sent such a note because it is likely the Swiss Government 
would answer that the case was still subject to an ongoing legal 
process. We will, however, watch closely how the new judge handles the 
enforcement process, and consider further whether a diplomatic note 
might yet be an effective way to proceed.
    Question. Is the apparent lack of cooperation by Swiss authorities 
in this case typical? Is Switzerland generally cooperative in these 
cases and in compliance with the Hague Convention?
    Answer. There is no typical case since circumstances vary. As a 
private civil legal matter between the parents, the progress of each 
Hague case depends on the individuals involved and the circumstances of 
the case, including complex factors such as the resources of the 
private parties involved, claims by either parent, the operation of the 
legal system in the country where the child is located, the age of the 
children, the passage of time, etc.
    The Swiss Central Authority has monitored and facilitated the 
process in this case, and has been responsive to our concerns, but it 
does not have authority to determine the actions of the judiciary. The 
Appeals court overturned the trial court's denial of return. The Swiss 
Supreme Court has upheld the return of the child to the United States. 
Statistically, since July 1, 1988, when the Convention became effective 
between the United States and Switzerland, 39 abduction cases have been 
closed; 20 of these were closed by agreements or court decisions to 
allow either return of or access to the child. The remaining 9 cases 
were closed for reasons other than return of or access to the child. 
Currently, 6 cases are pending: 4 involving applications for access and 
2 seeking return, including that of Kelly Goldstein.

                               __________
  Abduction of Carina Maria Sylvester by Monika Rossmann (AKA Monika 
                Sylvester) and the Government of Austria

                               Chronology
 
 
 
10/30/95                             Carina Sylvester is taken by her
                                      mother from the United States to
                                      Austria.
10/31/95                             Thomas Sylvester files Application
                                      for return of the child with U.S.
                                      State Department under the Hague
                                      Convention Treaty on the Civil
                                      Aspects of International Child
                                      Abduction (``the Hague Convention
                                      Treaty'') to which both the United
                                      States and Austria are
                                      signatories. In separate
                                      litigation, Thomas Sylvester files
                                      a Complaint for Divorce in the
                                      Oakland County Michigan Circuit
                                      Court and an Ex Parte Order for
                                      joint custody is entered.
11/08/95                             Austrian Central Authority confirms
                                      receipt of the Hague Application.
11/21/95                             Ex Parte Interim Order for Custody
                                      of Carina Sylvester is amended.
                                      Thomas Sylvester granted temporary
                                      physical custody of Carina
                                      Sylvester and Monika Sylvester
                                      supervised visitation in Michigan.
1215/95                              Application for Assistance makes
                                      its way through the Austrian
                                      Ministry of Justice to the court
                                      of the first instance in Graz,
                                      Austria where hearings where
                                      conducted by Judge Katter. Monika
                                      Sylvester raises her defenses to
                                      return the child under the terms
                                      of the Hague Convention Treaty.
12/18/95                             Thomas Sylvester travels to Austria
                                      to participate in the legal
                                      proceedings.
12/20/95                             Thomas Sylvester participates in
                                      proceedings with District Court of
                                      Graz. District Court of Graz Judge
                                      Christine Katter enters court
                                      order for Carina to be returned to
                                      the United States pursuant to the
                                      Hague Convention. Monika Sylvester
                                      did not comply with the Order of
                                      the Austrian Court.
12/22/95                             Graz court specifically orders
                                      supervised visitation for Thomas
                                      Sylvester to see Carina in Graz on
                                      Christmas Eve, 1995 and on
                                      December 27, 1995. In separate
                                      litigation, Monika Sylvester is
                                      served with documents on Michigan
                                      court proceedings in accordance
                                      with Michigan law.
12/24/95                             Thomas Sylvester arrives at Family
                                      Institute for Learning in Graz,
                                      Austria in accordance with
                                      supervised visitation scheduled by
                                      Austrian court order. Monika
                                      Sylvester does not comply with the
                                      Austrian court Order and does not
                                      bring Carina to the appointed
                                      place for this visitation.
12/27/95                             Thomas Sylvester arrives at Family
                                      Institute for Learning in Graz,
                                      Austria in accordance with
                                      supervised visitation scheduled by
                                      Austrian court order. Monika
                                      Sylvester does not comply with the
                                      Austrian court Order and does not
                                      bring Carina to the appointed
                                      place for this visitation.
12/28/95                             Thomas Sylvester returns from
                                      Austria to the U.S. without seeing
                                      Carina.
01/19/96                             The Austrian Court of Appeals
                                      affirms the December 20, 1995 Graz
                                      Court Order for the immediate
                                      return of Carina to the United
                                      States. This filing of the Appeal
                                      however, initiated an automatic
                                      stay of enforcement of the
                                      December 20, 1995 order which
                                      ultimately continued through May
                                      7, 1996.
1/23/96                              A Default is taken by Monika
                                      Sylvester in the Michigan court
                                      proceedings.
2/27/96                              Austrian Supreme Court affirms the
                                      lower court order for return of
                                      Carina. However, the Order is not
                                      official until it is
                                      ``delivered''. It was delivered to
                                      the District Court of Graz on May
                                      7, 1996. Once delivered, all stays
                                      were lifted and the initial order
                                      from the Graz Court dated December
                                      20, 1995 became finally
                                      enforceable.
3/7/96                               Motion filed for Entry of Default
                                      Judgment of Divorce in Michigan
                                      court.
3/13/96                              Appearance of Monika Sylvester in
                                      Michigan court proceedings through
                                      counsel and filing of a Motion to
                                      Set Aside the Default.
3/14/967                             United States Central Authority
                                      forwards to Thomas Sylvester's
                                      lawyer, Jan McMillan, a copy of
                                      the Austrian court of first
                                      instance order and a copy of the
                                      decision of the Austrian appellate
                                      court, upholding the lower court's
                                      decision to order return of the
                                      child pursuant to Hague
                                      Convention.
4/5/96                               Following extensive hearing in
                                      Michigan Circuit Court, Order
                                      entered denying Monika Sylvester's
                                      Emergency Motion for Order
                                      Preventing Removal of Minor Child
                                      from Custody of Defendant Pending
                                      Hearing and for Temporary Spousal
                                      Support and Travel Expenses.
4/16/96                              Order entered in Michigan Court
                                      proceedings denying Monika
                                      Sylvester's Motion to Set Aside
                                      the Default. Default Judgment of
                                      Divorce entered in Michigan court.
                                      Thomas Sylvester granted sole
                                      legal and physical custody of
                                      Carina. Monika Sylvester granted
                                      supervised visitation in Michigan.
                                      No appeal taken.
5/1/96                               Order to Seal Michigan Court Record
                                      pursuant to MCR 8.105(D) entered.
5/06/96                              Austrian Central Authority
                                      acknowledges United States Central
                                      Authority faxes of April 17 and
                                      May 1 asking if the Austrian
                                      Supreme Court had made a decision
                                      and informs the United States
                                      Central Authority that no decision
                                      had yet been made.
5/07/96                              Austrian lawyer informs Thomas
                                      Sylvester the Austrian Supreme
                                      Court order was delivered to the
                                      Graz court and requests Thomas
                                      Sylvester travel to Austria to
                                      participate in a recovery attempt
                                      orchestrated by Judge Katter.
5/08/96                              Thomas Sylvester and Jan McMillan
                                      travel from United States to
                                      Austria.
5/09/96                              Thomas Sylvester and Jan McMillan
                                      meet with Dr. Stephan Moser in
                                      Graz to discuss arrangements for
                                      the child recovery as arranged by
                                      the court.
5/10/96                              Failed attempt at civil enforcement
                                      of the Austrian court orders at
                                      the home of Monika Sylvester's
                                      parents, Werner and Gertraud
                                      Rossmann in Austria.
5/15/96                              Monika Sylvester submits a petition
                                      to the District Court of Graz to
                                      remove Judge Katter from the case.
5/16/96                              United States Central Authority
                                      asks Austrian Central Authority to
                                      confirm that the Austrian Supreme
                                      Court had made a decision on this
                                      matter in favor of the applicant
                                      and asks for assistance in
                                      enforcing this order.
5/29/96                              The United States of America V
                                      Monika M. Sylvester, Criminal
                                      Complaint No.96-80432 for
                                      international parental kidnapping
                                      under 18 USC 1204 issued in U.S.
                                      District Court. Red and Yellow
                                      Notices issued by Interpol.
5/30/96                              United States Central Authority
                                      forwards to lawyer Jan McMillan
                                      the Austrian Central Authority fax
                                      confirming that on February 27,
                                      1996 the Austrian Supreme Court
                                      had dismissed Monika Sylvester's
                                      appeal and stating that ``the
                                      decision of the district court of
                                      Graz of December 20, 1995 has
                                      become final''.
6/10/96                              The supervisory court in Austria
                                      dismisses Monika Sylvester's
                                      petition for removal of Judge
                                      Katter of the Graz court from the
                                      case due to prejudice.
6/18/96                              Austrian lawyer for Thomas
                                      Sylvester, Dr. Stephan Moser,
                                      files a second application for
                                      civil enforcement of the December
                                      20, 1995 court Order.
6/25/96                              Court of the first instance in Graz
                                      transfers jurisdiction to court of
                                      the first instance in Obergralla
                                      based on Monika Sylvester's
                                      allegations that she resides in
                                      Obergralla. Monika Sylvester is
                                      actually hiding with the child.
6/26/96                              United States Central Authority
                                      asks the Austrian Central
                                      Authority what steps are being
                                      taken to enforce the December 20,
                                      1995 court return order. Monika
                                      Sylvester files a request that the
                                      Austrian Ministry of Justice not
                                      recognize the Michigan Judgment of
                                      Divorce.
6/27/96                              United States Central Authority
                                      asks Embassy Vienna to attempt a
                                      welfare and whereabouts visit with
                                      the child. Austrian Central
                                      Authority informs the United
                                      States Central Authority ``it is
                                      up to his attorney-at-law (Moser)
                                      to take all further steps to
                                      enforce the decision of the
                                      District Court of Graz''.
6/29/96                              Austrian Court of Appeals decides
                                      in favor of Reopening the Hague
                                      Convention case.
7/03/96                              United States Central Authority
                                      informs the Austrian Central
                                      Authority that it was up to
                                      Austrian authorities to enforce
                                      Austrian court orders.
7/05/96                              Embassy Vienna faxes Jan McMillan
                                      report on consular investigator
                                      visit to Graz to try to locate
                                      Carina and to speak with the
                                      police and others involved in this
                                      case. Embassy also informs Jan
                                      McMillan that United States
                                      Ambassador had personally written
                                      to the Governor of Styria,
                                      Austria, to ask for her assistance
                                      in returning Carina to the United
                                      States.
7/10/96                              Thomas Sylvester requests via
                                      letter the assistance of President
                                      Bill Clinton for the return of
                                      Carina to the United States. In a
                                      separate letter addressed to the
                                      First Lady Hillary Rodham Clinton,
                                      same request is made for Canna.
7/12/96                              United States Central Authority
                                      writes to head of the Austrian
                                      Central Authority to express U.S.
                                      concern and frustration over the
                                      difficulties encountered in
                                      enforcing the December 20, 1995
                                      order and asks what measures they
                                      are taking to enforce their order.
7/17/96                              Austrian Central Authority informs
                                      United States Central Authority
                                      that the mother and child moved
                                      from Graz to Obergralla and that
                                      therefore the district court of
                                      Leibnitz would be the court of
                                      competent jurisdiction.
7/26/96                              Thomas Sylvester appeals District
                                      Court of Graz decision of June 25,
                                      1996 transferring the venue to
                                      Obergralla.
Date unknown                         Monika Sylvester submits a petition
                                      to Re-open Hague Convention case.
Date unknown                         Motion to Re-open Hague Convention
                                      case denied by Judge Katter and
                                      appealed to Austrian Court of
                                      Appeals by Monika Sylvester.
8/21/96                              United States Central Authority
                                      again writes detailed letter to
                                      Austrian Central Authority asking
                                      that they assist in enforcing the
                                      December 20, 1995 order. The
                                      Austrian Central Authority
                                      responds on August 28, 1996 that
                                      it is the sole task of the court
                                      to enforce its order.
9/03/96                              Embassy Vienna reports results of a
                                      medical examination of Carina done
                                      by Dr. Dieter Schmidt. Carina
                                      appears in good health.
9/08/96                              Austrian Central Authority informs
                                      United States Central Authority
                                      (and United States Central
                                      Authority informs Thomas
                                      Sylvester) that on August 29 the
                                      court of appeal in Graz overruled
                                      the order of the district court to
                                      transfer the case to the district
                                      court of Leibnitz. The court of
                                      appeals also set aside the parts
                                      of the May 8 order regarding
                                      enforcement measures for return of
                                      the child. The appeals court also
                                      allowed for further appeal to the
                                      Austrian Supreme Court.
9/10/96                              Embassy in Vienna sends letter to
                                      Austrian Central Authority asking
                                      that Carina be visited by social
                                      worker; Austrian Central Authority
                                      replies that local judge sees no
                                      reason for such a visit and again
                                      states that Austrian Central
                                      Authority cannot interfere in
                                      court proceedings
9/11/96                              United States Central Authority
                                      speaks with the Austrian Embassy
                                      Officer about this case.
9/16/96                              Decision of Graz Court to suspend
                                      divorce proceedings until such
                                      time as decision is made on the
                                      recognition of the Michigan
                                      Judgment of Divorce.
9/19/96                              United States Central Authority
                                      sends cable to Embassy Vienna
                                      instructing them to demarche
                                      Government of Austria to express
                                      United States Government interest
                                      in quick resolution of this case
                                      and request enforcement of return
                                      order.
9/23/96                              United States Central Authority
                                      contacts United States Interpol to
                                      see if Austrian Interpol has
                                      located mother and child. United
                                      States Interpol says several
                                      requests have been sent but no
                                      reply from Austrian Interpol.
9/26/96                              Decision of the Ministry of Justice
                                      not to recognize the Michigan
                                      Judgment of Divorce as valid and
                                      enforceable in Austria.
10/10/96                             Embassy Vienna reports that they
                                      visited Government of Austria
                                      Ministry of Foreign Affairs and
                                      Ministry of Justice (Austrian
                                      Central Authority) to discuss
                                      case. Both ministries say delay is
                                      unfortunate but believe case is
                                      being properly handled by the
                                      independent judiciary, emphasizing
                                      that the administrative branch
                                      cannot instruct judicial branch.
                                      Says delay is result of ``careful
                                      and effective lawyering'' on both
                                      sides.
10/15/96                             Austrian Supreme Court enters
                                      decision to reopen Hague
                                      Convention case.
10/22/96                             Attorney Jan McMillan sends letter
                                      to United States Central Authority
                                      asking for update on demarche to
                                      Austrians. The United States
                                      Central Authority calls Jan
                                      McMillan to discuss demarche.
10/26/96                             Jan McMillan faxes copy of Appeals
                                      Court decision to reopen case.
10/30/96                             Jan McMillan files Freedom of
                                      Information Application request on
                                      all records regarding the return
                                      of any children to Austria from
                                      the United States under the Hague
                                      Convention since October 1995.
                                      United States Central Authority
                                      gives copy of request to Central
                                      Authority/PRI
11/19/96                             Jan McMillan sends letter to Adair
                                      Dyer at the Hague Permanent Bureau
                                      about case and asks for his
                                      assistance in resolving matter.
                                      Also calls United States Central
                                      Authority director to discuss
                                      case. Wants United States to
                                      threaten not to return Austrian
                                      children if Carina is not
                                      returned. United States Central
                                      Authority advises that threat is
                                      ill-conceived and possibly
                                      illegal.
11/26/96                             Jan McMillan calls Adair Dyer about
                                      case. Tries to contact Austrian
                                      Central Authority Schutz but is
                                      unable; sends him letter asking if
                                      Ministry of Justice would
                                      represent father if he no longer
                                      retains Austrian lawyer.
12/3/96                              United States Central Authority
                                      sends lengthy query to Austrian
                                      Central Authority about the
                                      Supreme Court decision, the lack
                                      of enforcement, the lack of
                                      access, and rewarding the
                                      abductor.
12/5/96                              Austrian Central Authority Werner
                                      Schutz replies to United States
                                      Central Authority letter. Austrian
                                      Central Authority says December
                                      20, 1995 order is still ``valid
                                      and final''. The court, he says,
                                      will only address the question of
                                      enforcement of the order, taking
                                      into consideration the best
                                      interests of the child. Reiterates
                                      that Ministry of Justice can not
                                      interfere in judicial process.
                                      Says father has to petition the
                                      court to get access to Carina
                                      while case ``drags on''. Lastly,
                                      says child is not in danger and
                                      court will not arrange for social
                                      worker to see child.
1/2/97                               Austrian Supreme Administrative
                                      Court denies Thomas Sylvester's
                                      appeal of the Austrian Ministry of
                                      Justice position not to recognize
                                      the Michigan Judgment of Divorce.
                                      United States Central Authority
                                      forwards to Austrian Central
                                      Authority letter from Jan McMillan
                                      regarding reopening of the
                                      enforcement issue, separation of
                                      powers, access to child and
                                      refusal to have child seen by
                                      social workers.
1/10/97                              Jan McMillan says Austrian attorney
                                      petitioned court of visitation
                                      rights of father in early December
                                      1996.
1/21/97                              Thomas Sylvester asks United States
                                      Central Authority for information
                                      on approach by United States
                                      Delegation to March Hague meeting
                                      regarding the case. United States
                                      Central Authority informs Thomas
                                      Sylvester that United States
                                      Delegation will generally discuss
                                      the enforcement of civil judgments
                                      and Article 13(b) delays in
                                      plenary session, and will have
                                      side meeting with the Austrian
                                      Central Authority Schutz to
                                      discuss this case specifically.
                                      United States Central Authority
                                      asks the Austrian Central
                                      Authority for update on pending
                                      visitation request.
2/03/97                              Thomas Sylvester and Jan McMillan
                                      ask for follow-up to Austrian
                                      Central Authority on Jan
                                      McMillan's January 2 letter which
                                      has not been answered.
2/12/97                              Decision of the Graz Court on
                                      remand directing the child
                                      psychologist three weeks to
                                      conclude his investigations.
4/2/97                               Report and recommendation of Dr.
                                      Kraft submitted to Graz Court.
4/22/97                              Response to report of Dr. Kraft
                                      filed by Thomas Sylvester.
4/29/97                              Opinion and Order regarding
                                      Visitation. Opinion and Order on
                                      Remand granting Monika Sylvester's
                                      petition not to enforce the Order
                                      for Return under the Hague
                                      Convention.
5/28/97                              Order of the Austrian Court of
                                      Appeals denying Thomas Sylvester's
                                      appeal of the Order Not to Enforce
                                      the Order for Return.
5/31/97                              Thomas Sylvester travels to Austria
                                      for visitation with Carina
                                      Sylvester.
6/2/97                               Thomas Sylvester exercises
                                      supervised visitation with Carina
                                      Sylvester for one hour at the
                                      Family Institute for Family
                                      Learning in Graz, Austria.
6/4/97                               Thomas Sylvester exercises
                                      supervised visitation with Carina
                                      Sylvester for one hour at the
                                      Family Institute for Family
                                      Learning in Graz, Austria.
6/5/97                               Thomas Sylvester meets with Swanee
                                      Hunt, U.S. Ambassador to Austria
                                      in her office at the U.S. Embassy
                                      in Vienna. Ambassador Hunt hand-
                                      delivers U.S. diplomatic note
                                      prepared by the U.S. State
                                      Department to the Austrian
                                      Ministry of Foreign Affairs.
6/6/97                               Thomas Sylvester exercises
                                      supervised visitation with Carina
                                      Sylvester for one hour at the
                                      Family Institute for Family
                                      Learning in Graz, Austria.
6/7/97                               Thomas Sylvester returns from
                                      Austria to the United States.
6/9/97                               U.S. Department of State delivers
                                      diplomatic note to the Austrian
                                      Embassy in Washington, D.C.
9/9/97                               Order of the Supreme Court of
                                      Austria denying Thomas Sylvester's
                                      appeal from the decision of the
                                      Court of Appeals on the Reopening
                                      of the Hague Case issue.
9/10/97                              Order issued regarding Austrian
                                      divorce case.
9/30/97                              Austrian Central Authority informs
                                      U.S. Department of State that the
                                      Austrian Supreme Court decided on
                                      September 9, 1997 not to accept
                                      the extraordinary Appeal, and that
                                      no enforcement measures will be
                                      available to return the child to
                                      the United States. The Austrian
                                      Central Authority closes its file
                                      on the original Hague Application.
12/9/97                              Thomas Sylvester travels to Austria
                                      for visitation with Carina
                                      Sylvester. Thomas Sylvester and
                                      Monika Sylvester meet with Dr.
                                      Helga Baumann at the Institute for
                                      Family Learning to discuss
                                      upcoming visitation matters.
12/10/97                             Thomas Sylvester exercises
                                      supervised visitation with Carina
                                      Sylvester for two hours at the
                                      Family Institute for Family
                                      Learning in Graz, Austria.
12/11/97                             Thomas Sylvester exercises
                                      supervised visitation with Carina
                                      Sylvester for two hours at the
                                      Family Institute for Family
                                      Learning in Graz, Austria
12/12/97                             Thomas Sylvester exercises
                                      supervised visitation with Carina
                                      Sylvester for two hours at the
                                      Family Institute for Family
                                      Learning in Graz, Austria.
12/15/97                             Dr. Stephan Moser sends letter to
                                      Dr. Brigitte Birnbaum, legal
                                      counsel for Monika Sylvester,
                                      outlining a plan for Thomas
                                      Sylvester to see Carina four times
                                      in 1998 (during the Easter
                                      holiday, a week in June, time
                                      during Carina's birthday in
                                      September and the Christmas
                                      holiday period).
12/22/97                             Dr. Birnbaum sends a reply to Dr.
                                      Moser letter stating that Monika
                                      Sylvester wants Thomas Sylvester
                                      to pay child support of OS10,000
                                      ($1,000/month).
12/24/97                             Thomas Sylvester speaks with Carina
                                      on the telephone for Christmas
                                      1997.
12/29/97                             District Court of Graz order awards
                                      Monika Sylvester custody of
                                      Carina. The court order does not
                                      even address Thomas Sylvester's
                                      rights at all.
1/13/98                              Monika Sylvester notifies Thomas
                                      Sylvester via fax of the court
                                      order with regard to custody of
                                      Carina. Monika Sylvester requests
                                      Thomas Sylvester for a suggestion
                                      on payment of child support.
1/14/98                              Thomas Sylvester replies via fax to
                                      Monika Sylvester regarding
                                      visitation, mirror custody orders
                                      in both Austria and the United
                                      States, financial and other
                                      support for Carina, Monika's
                                      statements which are untrue and
                                      need to be corrected for Carina's
                                      sake, and agreement for future
                                      action plans.
1/20/98                              United States Central Authority
                                      sends Jan McMillan the State
                                      Department translation of the
                                      Austrian custody order. United
                                      States Central Authority points
                                      Out that the court order does not
                                      even address Thomas Sylvester's
                                      rights at all, not even
                                      visitation, and questions if this
                                      is usual in Austria.
1/21/98                              Monika Sylvester sends fax to
                                      Thomas Sylvester emphasizing her
                                      position that the plan for 1998
                                      was only to be applied if Thomas
                                      Sylvester accepted the Austrian
                                      custody order and started child
                                      support payments right away.
                                      Monika states that visiting rights
                                      are to be applied for at the
                                      Austrian court. Monika Sylvester
                                      states this will be the last
                                      letter she sends to me directly.
1/22/98                              Thomas Sylvester sends fax to Dr.
                                      Stephan Moser requesting to
                                      proceed with a formal petition to
                                      Court for flirther visitation with
                                      Carina.
1/27/98                              Jan McMillan sends fax to Dr.
                                      Stephan Moser requesting advise as
                                      to how and when he recommends the
                                      petition be brought to the court
                                      for visitation.
2/2/98                               Austrian Court of Appeals order
                                      denies Thomas Sylvester's appeal
                                      of the custody award to Monika
                                      Sylvester.
2/4/98                               Thomas Sylvester sends a fax to Dr.
                                      Stephan Moser to provide thoughts
                                      regarding the letter from Dr.
                                      Birnbaum of December 22, 1997.
                                      Highlights include holiday stay
                                      for Carina in the United States, a
                                      plan for 1998, child support
                                      payments, and a proposal to
                                      structure a workable legal
                                      solution.
2/11/98                              Jan McMillan sends fax to Dr.
                                      Stephan Moser to discuss a
                                      strategy for Thomas Sylvester's
                                      formal request for visitation with
                                      Carina this Easter.
2/16/98                              Letter signed by Dr. Brigitte
                                      Bimbaum in German stating that a
                                      visitation for Thomas Sylvester
                                      with Carina at Easter is not
                                      possible. Furthermore, Dr.
                                      Birnbaum requests Thomas Sylvester
                                      to stay in the United States and
                                      take money that would be spent in
                                      travel and send it to Monika
                                      Sylvester.
2/27/98                              Austrian Court of Appeals denies
                                      the appeal from Thomas Sylvester
                                      to the District Court of Graz
                                      decision on custody dated December
                                      29, 1997.
2/25/98                              Thomas Sylvester receives Dr.
                                      Birnbaum letter dated February 16,
                                      1998.
2/26/98                              Thomas Sylvester submits 1998
                                      requested visitation dates to Jan
                                      McMillan. Thomas Sylvester and Jan
                                      McMillan draft the Application for
                                      Assistance under Article 21 of the
                                      Hague Convention for Rights of
                                      Access.
3/3/98                               Thomas Sylvester signs and faxes
                                      Application for Assistance
                                      documents to Jan McMillan to
                                      proceed with appropriate process
                                      of formal submission of the Hague
                                      Convention Application for
                                      Assistance for Rights of Access.
3/4/98                               Jan McMillan faxes signed documents
                                      to United States Central Authority
                                      on the Application for Assistance
                                      under Article 21 the Hague
                                      Convention on the Civil Aspects of
                                      International Child Abduction. In
                                      the Application, Thomas Sylvester
                                      requests visitation and other
                                      access to Carina under the Hague
                                      Convention according to a schedule
                                      which includes the Easter 1998
                                      holiday and the last week of June,
                                      1998. This request in no way is
                                      meant to diminish Thomas
                                      Sylvester's prior request for
                                      Carina's return under the Hague
                                      Convention, which although
                                      ordered, has not as yet been
                                      honored.
3/4/98                               United States Central Authority
                                      acknowledges receipt of the Hague
                                      Application for access to Carina,
                                      and forwards the application to
                                      the Austrian Central Authority for
                                      processing.
3/6/98                               Austrian Central Authority requests
                                      United States Central Authority to
                                      provide German translations of the
                                      application and the other
                                      documents. Austrian Central
                                      Authority states a new
                                      authorization according to Article
                                      28 of the Convention is needed
                                      because this is a new application
                                      under Article 21 of the
                                      Convention. Before receiving the
                                      complete application, the Austrian
                                      Central Authority is unable to
                                      send it to the competent court.
3/9/98                               Jan McMillan sends the original
                                      signed Application for Assistance
                                      to the United States Central
                                      Authority which was faxed on March
                                      4, 1998.
3/11/98                              United States Central Authority
                                      sends the Austrian Central
                                      Authority fax dated March 6, 1998
                                      to Thomas Sylvester along with a
                                      German access application, and
                                      requests an Article 28
                                      authorization be signed and
                                      returned to the United States
                                      Central Authority. Jan McMillan
                                      sends a letter via fax to Dr.
                                      Stephan Moser including the
                                      appropriate Application for
                                      Assistance under the Hague
                                      Convention for access and letter
                                      from Werner Schutz requesting that
                                      the American Application written
                                      in English be translated to
                                      German. Jan McMillan requests Dr.
                                      Moser complete the form in German
                                      incorporating same information as
                                      set forth on the English language
                                      version. Time is of the essence
                                      and correspondence is forwarded
                                      accordingly.
3/12/98                              United States Central Authority
                                      replies to the Austrian Central
                                      Authority March 6 fax and forwards
                                      the Article 28 Authorization via
                                      fax while the original follows by
                                      mail. The United States Central
                                      Authority also informs the
                                      Austrian Central Authority that
                                      the German translation of the
                                      Hague Access Application will be
                                      submitted directly to Austrian
                                      Central Authority by Dr. Stephan
                                      Moser, the applicant's attorney in
                                      Austria. The United States Central
                                      Authority requests the Austrian
                                      Central Authority to advise what
                                      the next steps will be once all
                                      the necessary paperwork is
                                      received.
                                     Thomas Sylvester signs the Article
                                      28 Authorization form to empower
                                      the Central Authority of Austria
                                      to act on Thomas Sylvester behalf
                                      or to designate another
                                      representative to act, according
                                      to the Hague Convention on the
                                      Civil Aspects of International
                                      Child Abduction. Article 28
                                      document is faxed to Jan McMillan
                                      and original sent via express mail
                                      for processing.
3/13/98                              Original signed Article 28
                                      Authorization from Thomas
                                      Sylvester received by Jan McMillan
                                      and forwarded to the United States
                                      Central Authority.
3/17/98                              Original signed Article 28
                                      Authorization from Thomas
                                      Sylvester sent by United States
                                      Central Authority via mail to the
                                      Austrian Central Authority.
3/20/98                              Jan McMillan faxes correspondence
                                      from United States Central
                                      Authority dated March 12 to
                                      Austrian Central Authority on to
                                      Dr. Stephan Moser and states the
                                      need to proceed with this matter
                                      quickly so that Thomas Sylvester
                                      may have the possibility of
                                      visiting with Carina in April. Jan
                                      McMillan also asks Dr. Moser to
                                      speak with the Austrian Central
                                      Authority concerning who is
                                      responsible for initiating the
                                      court action.
3/24/98                              Dr. Stephan Moser sends a letter
                                      with Jan McMillan's letter dated
                                      March 4 to the Austrian Central
                                      Authority for reply to process
                                      application promptly.
3/27/98                              Austrian Central Authority replies
                                      to Dr. Moser by requesting
                                      clarification regarding the dates
                                      of the access and the manner in
                                      which such access is requested,
                                      specifically, the ``dignified and
                                      normal unsupervised access''.
3/31/98                              Austrian Supreme Court dismisses
                                      appeal to enforce original return
                                      order.
4/1/98                               Jan McMillan sends fax to Dr. Moser
                                      requesting that he prepare a
                                      response to the Austrian Central
                                      Authority and provides
                                      explanations to help the Austrian
                                      Central Authority understand the
                                      application along with advice that
                                      April 10 rapidly approaches and
                                      the Hague Convention requires that
                                      the Central Authority proceed with
                                      all due speed on processing the
                                      request.
4/2/98                               Dr. Moser provides Austrian Central
                                      Authority with clarification on
                                      access.
4/3/98                               Austrian Central Authority informs
                                      the United States Central
                                      Authority that the German version
                                      of the application, signed by Dr.
                                      Moser on March 24 has been
                                      received on March 26 by the
                                      Austrian Central Authority, and
                                      the application along with the
                                      additional documents are sent to
                                      the President of the District
                                      Court of Graz today.
4/6/98                               United States Central Authority
                                      sends the Austrian Central
                                      Authority fax dated April 3 to Jan
                                      McMillan.
4/7/98                               Graz court enters statements
                                      against access submitted by Monika
                                      Sylvester.
4/9/98                               Austrian Central Authority informs
                                      the United States Central
                                      Authority that the competent court
                                      in Austria, the District Court of
                                      Graz, has not yet been able to
                                      decide the case as the whole file
                                      had to be transmitted to the High
                                      Court of Appeal in Vienna for
                                      decision on an extra-ordinary
                                      appeal, and stated that the court
                                      tried to reach a friendly
                                      settlement with the mother, yet it
                                      has no been possible to get into
                                      contact with the mother's lawyer.
                                      Dr. Stephan Moser informs Jan
                                      McMillan that Monika Sylvester's
                                      attorney, Mrs. Birnbaum, has sent
                                      no message in reply to the request
                                      for access, and therefore it is
                                      not possible to arrange for some
                                      visitation on Easter weekend.
4/11/98                              Jan McMillan sends letter to United
                                      States Central Authority
                                      expressing disappointment that
                                      Thomas Sylvester was unable to
                                      have visitation with Carina as
                                      hoped over the Easter weekend, and
                                      requests the United States Central
                                      Authority forcefully demand that
                                      the Austrian Central Authority
                                      cooperation to handle this matter
                                      in accordance with the terms of
                                      the Hague Convention that call for
                                      expeditious resolution of
                                      applications.
4/15/98                              Graz court enters statements
                                      against access submitted by Monika
                                      Sylvester.
4/16/98                              United States Central Authority
                                      sends fax to the Austrian Central
                                      Authority to point out that the
                                      current request for access is a
                                      new, separate case that has
                                      nothing to do with the ``whole
                                      file'' that is with the High Court
                                      in Vienna for the appeal on the
                                      custody/divorce case; and requests
                                      the access case be brought before
                                      the Graz court immediately so that
                                      the question of access to Carina
                                      not be entirely controlled by the
                                      mother and her attorney.
4/17/98                              Robert Gasser in Austria submits
                                      report identifying activity taken
                                      in attempts to hand-deliver court
                                      documents to Monika Sylvester. He
                                      went to the house where Monika
                                      Sylvester was reportedly living
                                      and was told documents would not
                                      be accepted ``because there might
                                      be some bomb in the letter''.
4/22/98                              Austrian Central Authority responds
                                      to United States Central Authority
                                      fax of April 16 on the handling of
                                      the court file. Austrian Central
                                      Authority states ``at the time
                                      when the application under 21 of
                                      the Convention has been received
                                      by the district court the court
                                      file was not present and the judge
                                      acting in the absence of the
                                      competent judge had no knowledge
                                      at all of the case and in
                                      particular of the content of the
                                      court file. The judge's point of
                                      view that he had not sufficient
                                      information regarding the case to
                                      decide immediately on the access-
                                      right was justified and must be
                                      respected in the light of the
                                      independence of the judiciary.''
4/27/98                              Dr. Stephan Moser faxes to Jan
                                      McMillan a District Court of Graz
                                      decision dated April 22 to reject
                                      the Hague Application for Rights
                                      of Access.
4/29/98                              Austrian Central Authority sends
                                      fax to the United States Central
                                      Authority stating ``The Austrian
                                      Central Authority wants to inform
                                      that the District Court in Graz
                                      has by its order of April 22, 1998
                                      rejected Mr. Sylvester's
                                      application according to Article
                                      21 of the Hague Convention because
                                      of procedural reasons. A copy is
                                      attached. It is up to Mr.
                                      Sylvester to instruct his attorney-
                                      at-law to lodge an appeal.''
5/4/98                               United States Central Authority
                                      sends fax to Thomas Sylvester
                                      which states ``as requested,
                                      here's the fax I received from the
                                      Austrian Central Authority last
                                      week. I'll let you know as soon as
                                      we have 'come up with a strategy
                                      here.''
5/14/98                              United States Central Authority
                                      sends fax to Austrian Central
                                      Authority to express
                                      disappointment and dismay at Graz
                                      court interpretation of Article 21
                                      and states ``our legal adviser is
                                      researching this matter and we
                                      will inform you of our next
                                      steps.'' Also asks how many
                                      Article 21 access cases have been
                                      filed in Austria, how many have
                                      been denied, and the legal basis
                                      for these denials.
5/22/98                              Austrian Central Authority replies
                                      to United States Central Authority
                                      stating ``the applicant's attorney-
                                      at-law has lodged an appeal
                                      against the order of April 22 and
                                      the court files have been
                                      transmitted to the appeal court on
                                      May 19. It Is up to the appeal-
                                      court to decide concerning the
                                      interpretation of Article 21 of
                                      the Convention given by the court
                                      of the first instance.''
5/25/98                              Austrian Court of Appeals enters
                                      decision which rejects the appeal
                                      with respect to the application
                                      for rights of access for April 10,
                                      11, and 12, 1998; the appeal is
                                      granted for the rest. The court of
                                      the first instance is instructed
                                      to enforce the recent ruling,
                                      setting aside the previous grounds
                                      for rejection.
6/1/98                               Thomas Sylvester requests United
                                      States Central Authority to define
                                      when to expect its legal adviser
                                      to finish researching the matter
                                      and when to expect another letter
                                      to inform the Austrian Central
                                      Authority of its next steps. Also
                                      requests United States Central
                                      Authority to identify its strategy
                                      in this case.
6/2/98                               United States Central Authority
                                      sends a memo to Thomas Sylvester
                                      stating ``we're preparing a letter
                                      to William Duncan at the Hague
                                      Permanent Bureau concerning your
                                      case. We all agree the Bureau
                                      needs to know what Austria is
                                      doing. We don't know what action
                                      the Bureau can or will take. We
                                      decided a diplomatic note to the
                                      Austrians won't do any good''.
                                      Thomas Sylvester writes to United
                                      States Central Authority to
                                      request Welfare and Whereabouts
                                      checks on Carina Sylvester be
                                      conducted by the United States
                                      Department of State.
6/3/98                               United States Central Authority
                                      sends fax to Thomas Sylvester
                                      stating ``we are in the middle of
                                      preparing a letter to the Hague
                                      Permanent Bureau regarding the
                                      original court decision. I think
                                      there's no reason not to send it
                                      even if the appeals court
                                      overturned. It's still an
                                      appalling decision.''
6/4/98                               Austrian Central Authority informs
                                      U.S. Department of State that
                                      Austrian Appeals Court has
                                      overturned the Graz Court of Graz
                                      decision on Access.
6/7/98                               Jan McMillan sends fax to Dr.
                                      Stephan Moser to provide a listing
                                      of dates through 1998 that Thomas
                                      Sylvester has prepared pertinent
                                      to request for Rights of Access to
                                      Carina.
6/15/98                              Thomas Sylvester requests United
                                      States Central Authority to
                                      provide update on developments
                                      regarding the Welfare and
                                      Whereabouts check on Carina.
6/24/98                              Thomas Sylvester is informed by Dr.
                                      Moser that due to proceedings in
                                      Austria, Thomas Sylvester will not
                                      be allowed to see Carina next
                                      week, as requested. Thomas
                                      Sylvester informs United States
                                      Central Authority and requests
                                      action. United States Central
                                      Authority sends urgent fax to
                                      Austrian Central Authority asking
                                      for assistance immediately and to
                                      confirm Carina's whereabouts. It
                                      was noted in the fax that the
                                      appeals court's decision
                                      instructed the Craz court to
                                      facilitate the visitation request.
6/30/98                              Jan McMillan informs Thomas
                                      Sylvester the United States
                                      Central Authority stated Welfare
                                      and Whereabouts check failed
                                      miserably. United States officials
                                      in Austria contacted the opposing
                                      legal counsel, who said the child
                                      is fine and gave no other
                                      information. Reportedly, Austrian
                                      Central Authority informed United
                                      States Central Authority that if
                                      we had concrete evidence to prove
                                      to that Carina is not living with
                                      the mother, it would be
                                      appropriate to go to the Austrian
                                      courts for assistance to locate
                                      the child. In the absence of
                                      concrete evidence, Austrian
                                      government/legal system is
                                      unwilling to provide assistance.
                                      Thomas Sylvester requests the
                                      United States Central Authority to
                                      instruct the United States Embassy
                                      in Vienna to re-do the Welfare and
                                      Whereabouts check.
7/2/98                               Thomas Sylvester sends fax to Dr.
                                      Stephan Moser identifying a
                                      schedule of dates to be identified
                                      in the court Order for Access as
                                      follows: September 6-14 and
                                      December 20-31, 1998. United
                                      States Central Authority again
                                      instructs the Embassy in Vienna to
                                      make an attempt to see Carina.
7/3/98                               Austrian Central Authority sends
                                      fax to the United States Central
                                      Authority stating ``I want to
                                      inform you that Dr. Moser has
                                      lodged--on July 2, 1998--a
                                      modified application concerning
                                      visitation rights with the
                                      District Court of Oraz. On behalf
                                      of Mr. Sylvester he requested an
                                      unsupervised access for the period
                                      from 6 to 14 September 1998 and
                                      from 25 to 31 December 1998. As
                                      soon as the court renders an order
                                      I shall inform you immediately.''
7/7/98                               Administrative Court in Oraz enters
                                      decision that child support
                                      payments are to be paid by Thomas
                                      Sylvester to the mother in
                                      specific amounts beginning October
                                      30, 1995 and continuing to the
                                      present and ongoing into the
                                      future.
7/8/98                               Thomas Sylvester requests United
                                      States Central Authority to
                                      address this case in its entirety
                                      with Hague Permanent Bureau and
                                      report violations by Austria.
7/13/98                              Thomas Sylvester asks United States
                                      Central Authority when it will
                                      send letter to the Hague Permanent
                                      Bureau on the developments in my
                                      case.
7/15/98                              United States Central Authority
                                      sends a doctor's report dated June
                                      29, 1998 sent by United States
                                      Embassy in Vienna. The report from
                                      the Austrian doctor, Dr. Dieter
                                      Schmidt in Feldkirchen, Austria
                                      states that Carina is 104
                                      centimeters tall and weighs 21
                                      kilograms, and the necessary
                                      immunization has been given.
                                      Thomas Sylvester requests Jennifer
                                      Gorland, Assistant U.S. Attorney
                                      to issue a Provisional Arrest
                                      Request pertaining to the Warrant
                                      for Arrest 96-8043 issued by
                                      United States District Court
                                      Eastern District of Michigan on
                                      May 29, 1996.
7/21/98                              Jennifer Gorland informs Thomas
                                      Sylvester the Office of
                                      International Affairs will not
                                      approve extradition requests in
                                      parental kidnapping cases with
                                      Austria. Austria will not
                                      extradite a citizen for these
                                      charges. The Criminal Complaint
                                      remains pending but is of limited
                                      value unless Monika Sylvester
                                      leaves Austria.
7/22/98                              Dr. Stephan Moser faxes District
                                      court of Graz document dated July
                                      7, 1998 to Thomas Sylvester which
                                      contains a statement from Monika
                                      Sylvester that she will submit her
                                      position regarding access to the
                                      child within 14 days.
7/27/98                              District Court of Oraz enters an
                                      order on Access. According to this
                                      decision, Thomas Sylvester will
                                      have the right to see his daughter
                                      at the mother's residence during
                                      the period of September 6 to
                                      September 14, 1998 and during the
                                      period of December 20 to December
                                      31, 1998 on Mondays, Wednesdays,
                                      and Fridays from 4:00 pm to 6:00
                                      pm, with the mother being present
                                      all times. In separate litigation,
                                      Dr. Moser submits an appeal to the
                                      Administrative Court against the
                                      Austrian court decision of May 7,
                                      1998 regarding child support.
8/4/98                               Austrian Ministry of Justice
                                      informs the United States Central
                                      Authority of the District Court of
                                      Graz decision of July 27, 1998
                                      regarding access and flirther
                                      notifies the United States Central
                                      Authority ``the order is not yet
                                      enforceable as the mother has
                                      still got the possibility to lodge
                                      and appeal against it which will
                                      then be decided as quickly as
                                      possible by the Court of Appeal of
                                      Graz. There would then still be
                                      the possibility to lodge an extra-
                                      ordinary appeal to the Supreme
                                      Court against the decision by the
                                      Court of Appeal of Graz.''
8/7/98                               Office of Public and Congressional
                                      Affairs, Federal Bureau of
                                      Investigation, Fugitive Publicity
                                      Unit issues notice to all field
                                      offices that the International
                                      Crime Alert, Voice of America will
                                      profile this child kidnapping
                                      case.
8/10/98                              International Crime Alert issued by
                                      the International Broadcasting
                                      Bureau, Voice of America at the
                                      Office of Policy in Washington,
                                      D.C. Contents of the international
                                      public service announcement should
                                      be used by August 17, 1998 by
                                      worldwide English and all services
                                      in the European division.
8/13/98                              Monika Sylvester lodges an appeal
                                      to the Austrian Court of Appeals
                                      against the decision by the
                                      District Court of Graz regarding
                                      the access to Carina.
8/17/98                              Thomas Sylvester sends fax to the
                                      United States Central Authority to
                                      express disappointment in the
                                      level of support provided by
                                      Office of Children's Issues.
8/21/98                              Thomas Sylvester requests United
                                      States Central Authority to
                                      provide status on follow-up letter
                                      to Austrian Central Authority on
                                      next steps, as promised in United
                                      States Central Authority
                                      correspondence dated May 14, 1998.
8/24/98                              Thomas Sylvester sends fax to
                                      United States Central Authority to
                                      follow-up on unanswered matters
                                      including a letter to the Hague
                                      Permanent Bureau, another
                                      diplomatic note to the Austrians,
                                      Whereabouts check and the delays
                                      on Access.
8/25/98                              United States Central Authority
                                      informs Thomas Sylvester that the
                                      letter to the Hague Permanent
                                      Bureau has not yet been done but
                                      is being drafted this week.
9/1/98                               Dr. Stephan Moser sends fax to Jan
                                      McMillan to inform her that ``due
                                      to the fact that there does not
                                      exist so far any legally valid
                                      decision of the court which grants
                                      some rights of access according to
                                      the Hague Convention, the planned
                                      visit of Thomas Sylvester would
                                      have to be postponed''. Dr. Moser
                                      tried in vain to contact the court
                                      of appeals judge who is on
                                      vacation and he tried to contact
                                      Mrs. Birnbaum in order to ask her
                                      whether her client would be
                                      willing to give some visitation
                                      right to Thomas Sylvester but she
                                      refused. Therefore, as Dr. Moser
                                      says, ``I can not advise our
                                      client to come over.''
 


                               __________
Abduction of Amanda Kristina Johnson by Anne Franzen (AKA Anne Franzen 
                 Johnson) and the Government of Sweden

                               Chronology
 
 
 
8/94                                 Amanda last in Virginia and the
                                      United States
11/94                                Last exercise of Thomas Johnson's
                                      custody rights permitted by Anne
                                      Franzen Johnson (Amanda in Paris
                                      for Thanksgiving)
6/94-2/95                            Repeated attempts by Thomas Johnson
                                      to schedule 4 weeks of 1995 Easter
                                      vacation in the U.S. in accordance
                                      with the Virginia Order are
                                      ignored or rejected by Anne
                                      Franzen Johnson
1/95                                 Repeated attempts by Thomas Johnson
                                      to schedule visitation in Sweden
                                      in accordance with the Virginia
                                      Order during early February are
                                      ignored or rejected by Anne
                                      Franzen Johnson
1/25/95                              Anne Franzen Johnson secretly files
                                      for sole custody of Amanda and
                                      complete elimination of all
                                      Virginia Orders Virginia
                                      jurisdiction in the Solna District
                                      Court, Solna, Sweden
2/1/95                               In a telephone call initiated by
                                      Thomas Johnson only to speak with
                                      Amanda, Anne Franzen Johnson
                                      refuses contact with Amanda and
                                      suddenly demands without
                                      previously raising the subject
                                      that Thomas Johnson agree to
                                      immediate psychiatric treatment
                                      for Amanda; Thomas Johnson
                                      responds negatively with an
                                      immediate fax requesting an
                                      explanation in writing (none is
                                      ever received, but Anne Franzen
                                      Johnson had raised the subject in
                                      her secret filing for sole custody
                                      on 1/25)
2/8-2/10/95                          Thomas Johnson travels to Sweden
                                      for visitation but is allowed by
                                      Anne Franzen Johnson to see Amanda
                                      only under supervision
2/13/95                              Thomas Johnson receives Anne
                                      Franzen Johnson's petition for
                                      sole custody by registered mail
3/7/95                               Anne Franzen Johnson refuses in
                                      writing via her Swedish attorney
                                      to comply with the Custody Order
                                      by allowing Amanda to return to
                                      the U.S. for 4 weeks of Easter
                                      vacation
3/14/95                              Thomas Johnson files an Application
                                      for Amanda's return on June 10,
                                      1995 under the Hague Convention on
                                      the Civil Aspects of International
                                      Child Abduction
3/27/95                              Initial hearing in Circuit Court of
                                      Alexandria on Thomas Johnson's
                                      motion for an order finding Anne
                                      Franzen Johnson in violation of
                                      the Custody Order for Amanda and
                                      wrongfully retaining Amanda in
                                      violation of his custody rights
4/5/95                               Solna District Court dismisses Anne
                                      Franzen Johnson's petition on the
                                      grounds that Amanda has spent most
                                      of her life in the U.S., that the
                                      agreed terms of the Virginia
                                      Orders are that Amanda's stay in
                                      Sweden is not permanent, and that
                                      she is thus not domiciled in
                                      Sweden
4/12/95                              Hearing before the Circuit Court of
                                      Alexandria and issuance of an
                                      Order that Amanda's habitual
                                      residence remains in Alexandria,
                                      Virginia, that Anne Franzen
                                      Johnson has wrongfully retained
                                      Amanda in violation of the Hague
                                      Convention and has violated Thomas
                                      Johnson's custody rights, and that
                                      Anne Franzen Johnson is ordered to
                                      relinquish custody of Amanda to
                                      Thomas Johnson on June 10, 1995
4/24-4/27/95                         Thomas Johnson present in Sweden
4/25/95                              Thomas Johnson allowed the only
                                      overnight visit with Amanda since
                                      11/94, but only after surrendering
                                      her passport and only because of
                                      Anne Franzen Johnson's desire to
                                      disrupt his trial preparations and
                                      exploit his jet lag
4/26/95                              Hearing in Stockholm, Sweden before
                                      the County Administrative Court
                                      (Lansratten) on Thomas Johnson's
                                      Hague Application with both
                                      parties and witnesses present
5/19/95                              Lansratten finds that Amanda has
                                      her domicile in the U.S. and that
                                      Anne Franzen Johnson has violated
                                      Thomas Johnson's custody rights,
                                      and orders Amanda's return as
                                      requested on June 10 in accordance
                                      with the Hague Convention
6/7/95                               Administrative Appeals Court
                                      (Kammarratten) issues a stay on
                                      execution of the return order
6/10-6/20/95                         Thomas Johnson present in Sweden
                                      (no contact with Amanda)
6/13/95                              Hearing in Stockholm before the
                                      Kammarratten on Anne Franzen
                                      Johnson's appeal with both parties
                                      present
6/19/95                              Kammarratten fails to respect the
                                      Virginia Orders and reverses the
                                      return order on erroneous grounds
                                      that only Thomas Johnson's rights
                                      of access, not his custody rights
                                      have been violated until 8/20/95
7/14/95                              U.S. Central Authority transmits
                                      two Hague Applications by Thomas
                                      Johnson, one for Amanda's return
                                      on 8/20/95 and the other for
                                      access to her under Article 21,
                                      along with concerns about Swedish
                                      compliance with the treaty
7/19/95                              Thomas Johnson's Hague Application
                                      for return on 8/20/95 filed with
                                      the Lansratten
                                     Swedish Central Authority dismisses
                                      U.S. concerns, sends translations
                                      of the psychiatric reports
                                      unlawfully obtained by Anne
                                      Franzen Johnson and ignored by 3
                                      Swedish courts, and essentially
                                      urges Thomas Johnson to submit to
                                      Swedish jurisdiction
8/15/95                              U.S. Central Authority transmits a
                                      six-page memorandum to the Swedish
                                      Central Authority raising concerns
                                      about Swedish compliance with the
                                      treaty (never answered)
8/21-9/8/95                          Thomas Johnson present in Sweden
                                      (no contact with Amanda)
9/7/95                               Regular Appeals Court (Svea
                                      Hovratt) ignores Article 16 of the
                                      Hague Convention (regular custody
                                      proceedings must be frozen during
                                      pendency of a Hague application),
                                      applies Swedish domestic law,
                                      decides that Amanda's residence in
                                      Sweden is permanent, and reverses
                                      the Solna District Court's
                                      dismissal of Anne Franzen
                                      Johnson's sole custody petition
9/26-10/1                            Thomas Johnson present in Sweden
                                      (access to Amanda only at her
                                      school for 1 hour on 9/28)
9/28/95                              Hearing (lawyers only) in Stockholm
                                      before the Lansratten on the Hague
                                      Application for return of Amanda
                                      on 8/20/95
10/6/95                              Lansratten upholds the Virginia
                                      Orders and orders Amanda's return
                                      on 11/11/95, finding that her stay
                                      in Sweden is limited under the
                                      Virginia Orders and (expressly
                                      rejecting the Svea Hovratt
                                      decision) that she is thus not a
                                      resident of Sweden
10/95                                Thomas Johnson petitions the
                                      regular Supreme Court (Hogsta
                                      Domstolen) for leave to appeal the
                                      Svea Hovratt decision on
                                      jurisdiction (petition not acted
                                      upon as of 8/8/96)
10/27/95                             Kammarratten issues a stay on the
                                      return order for 11/11
11/10/95                             Kammarratten refuses to lift the
                                      stay
12/13/95                             Hearing (lawyers only) in Stockholm
                                      before the Kammarratten on Anne
                                      Franzen Johnson's appeal of the
                                      return order
12/18-12/24/95                       Thomas Johnson present in Sweden
                                      (access to Amanda only at her
                                      school)
12/19/95                             Kammarratten orders Amanda's return
                                      at 10 A.M. on 12/22/95, finding
                                      that Amanda's stay in Sweden was
                                      limited under the Virginia Orders,
                                      that Amanda's domicile on 8/20/95
                                      was still in Virginia, and
                                      (agreeing with previous courts)
                                      that there is no support for Anne
                                      Franzen Johnson's claims of
                                      psychological risks in returning
                                      Amanda and thus no need for a
                                      child psychiatric evaluation
2/20/95                              Administrative Supreme Court
                                      (Regeringsratten) reverses the 8/
                                      95 return order for Julia Larson,
                                      daughter of American father Mark
                                      Larson abducted 3 times from Utah
                                      by her Swedish mother
12/21/95                             Without explanation, the
                                      Regeringsratten issues a stay on
                                      the return order for Amanda less
                                      than 18 hours before the time
                                      ordered for the return
1/30/96                              United States Government Statement
                                      of Interest filed with
                                      Regeringsratten via the Swedish
                                      Central Authority
12/95-5/96                           Repeated denials by Regeringsratten
                                      of requests by Thomas Johnson's
                                      attorneys for a hearing, lifting
                                      of the stay, an immediate
                                      decision, etc.
5/9/-5/11/96                         Thomas Johnson present in Sweden
                                      (access to Amanda only for 2 hours
                                      at her school on 5/10)
5/9/96                               Regeringsratten reverses the return
                                      order for Amanda, finding that
                                      Amanda's residence is Sweden by
                                      applying Swedish domestic law and
                                      ignoring the Virginia Orders, the
                                      Hague Convention, the U.S.
                                      Government Statement, the
                                      reasoninq of the lower courts, and
                                      pertinent decisions by third
                                      country courts
6/20/96                              Diplomatic Note from the United
                                      States Government is delivered to
                                      the Swedish Government by the
                                      American Embassy in Stockholm
                                      declaring that:
                                       <bullet> the Regeringsratten
                                      decision of 5/9 ``represents a
                                      serious departure from Sweden's
                                      obligations under Articles 1, 3,
                                      and 16 of the Hague Convention''
                                      and ``threatens the greater
                                      objectives of the Convention''
                                       <bullet> ``the United States
                                      considers Sweden to be in
                                      violation of its obligations under
                                      the Hague Convention''
                                       <bullet> the ``Regeringsratten
                                      decision can be expected to have
                                      an immediate, negative effect on
                                      transnational custody disputes
                                      among nationals of Hague
                                      Convention States--a result
                                      manifestly and significantly
                                      contrary to the Hague Convention
                                      and to the best interests of the
                                      affected children''
                                       <bullet> the United States
                                      ``strongly urges'' the Government
                                      of Sweden to ``remedy the
                                      inconsistency between Sweden's
                                      hemvist law and its obligations
                                      under the Hague Convention, and to
                                      take all other necessary steps to
                                      correct the Regeringsratten
                                      decision of 9 May 1996.''
6/26/96                              Request for Status Conference by
                                      the Alexandria Court continued
                                      until 7/2/96
7/2/96                               Status Conference
8/9/96                               Hearing by the Circuit Court for
                                      the City of Alexandria on Rule to
                                      Show Cause and Motion for Order of
                                      Sole Custody filed by Thomas
                                      Johnson
                                     Order of Contempt and Change of
                                      Custody issued by the Circuit
                                      Court for the City of Alexandria
                                      finding Anne Franzen in willful/
                                      multiple/continuing contempt of
                                      court, ordering her to produce the
                                      child so that custody may be given
                                      to Thomas Johnson, terminating any
                                      child support obligation to Anne
                                      Franzen, imposing a fine of $500
                                      per day against Anne Franzen until
                                      she returns the child to Thomas
                                      Johnson, granting Thomas Johnson
                                      sole and exclusive custody,
                                      ordering Anne Franzen to pay
                                      $75,000 in attorneys fees and
                                      other costs to Thomas Johnson,
                                      enjoining Anne Franzen from
                                      proceeding further in Sweden with
                                      any aspect of a custody or child
                                      support petition, and reserving
                                      jurisdiction
9/16/96                              Thomas Johnson exercises joint
                                      custody rights in Sweden by
                                      picking up Amanda at her school
                                      and spending 4 hours with her, and
                                      is arrested in her presence at
                                      their hotel by 4 Swedish policemen
                                      upon the request of Anne Franzen
9/16/96-9/18/96                      Thomas Johnson detained in solitary
                                      confinement without charges and
                                      released from custody
9/20/96                              Thomas Johnson returns to the
                                      United States
11/96                                Swedish prosecutor refuses to file
                                      charges
12/16/96                             Swedish supreme court (Hogsta
                                      Domstolen) refuses without issuing
                                      an opinion to hear Thomas
                                      Johnson's appeal against Swedish
                                      jurisdiction (i.e., an appeal
                                      against the 9/95 reversal by the
                                      court of appeals of the 4/5/95
                                      dismissal by the Solna district
                                      court of Anne Franzen's petition
                                      for sole custody)
12/19/96-12/20/96                    Direct participation by Swedish
                                      police in criminal conduct by
                                      ``supervising'' Thomas Johnson's
                                      visitation with Amanda,
                                      interfering with his custody
                                      rights under both Swedish and
                                      United States law, and aiding and
                                      abetting child abduction by Anne
                                      Franzen
1/97                                 Appellate brief financed and
                                      supervised by the Swedish
                                      Government is filed in Virginia
                                      against the 12/28/93 and 8/9/96
                                      Orders, and argues that Sweden is
                                      a ``more convenient'' forum to
                                      litigate custody because Anne
                                      Franzen would be prosecuted for
                                      committing the felony under United
                                      States federal law of
                                      international parental kidnapping
2/97                                 Order by the Circuit Court for the
                                      City of Alexandria authorizing
                                      Thomas Johnson to participate in
                                      any Swedish proceedings without
                                      prejudice to U.S. jurisdiction and
                                      court Orders
5/97                                 Order by the Circuit Court for the
                                      City of Alexandria imposing
                                      additional damages and fines on
                                      Anne Franzen
6/97                                 Swedish judge (Hans Frostell, Solna
                                      Tingsratt) defers to vacation
                                      schedules of Anne Franzen and her
                                      attorney (Susanne Johansson), and
                                      refuses to schedule a hearing to
                                      arrange some kind of summer
                                      visitation using ``mirror'' court
                                      orders and other safeguards
9/97                                 Oral argument before the Court of
                                      Appeals of Virginia on the appeal
                                      financed by the Swedish Government
12/97                                Unanimous decision by the Court of
                                      Appeals in an opinion written by
                                      Chief Judge Johanna Fitzpatrick
                                      that upholds the Virginia Custody
                                      Order, finds that Virginia
                                      continues to be Amanda's
                                      residence.and continues to have
                                      jurisdiction, refuses to defer to
                                      Swedish jurisdiction, upholds the
                                      finding of contempt against Anne
                                      Franzen based on her wrongful
                                      conduct, and rejects Anne
                                      Franzen's fear of a kidnapping
                                      prosecution as an excuse for her
                                      misconduct
3/98                                 Supreme Court of Virginia dismisses
                                      Swedish appeal
6/98                                 Swedish judge reportedly willing to
                                      speak by telephone with the
                                      Virginia judge to discuss
                                      solutions but allows Anne Franzen
                                      and her attorney to veto the
                                      proposed contacts
                                     Anne Franzen refuses any form of
                                      supervised or other access or
                                      visitation when Thomas Johnson is
                                      in Stockholm on 19 June, and also
                                      rejects any contact of any kind
                                      for the entire summer
 

               Statement Submitted by Senator Tom Daschle

    Mr. Chairman and members of the committee, thank you for providing 
this important opportunity to focus on the problem of international 
parental kidnapping and to begin the development of policies to address 
this growing problem.

    Each year over 1,000 children are abducted from their homes and 
taken to a foreign country. Too often, these children are permanently 
out of reach of U.S. law and are never returned home. It is my hope 
that the committee's work here today will help us to address this 
serious problem, reunite children with their families, and prevent 
similar kidnappings from happening in the future.

    This problem became particularly important to me after I was 
contacted by Kristine Zeledon of Watertown, South Dakota, last 
February. Kristine and her husband Alban were finalizing their divorce 
when Alban fled to Costa Rica with the couple's two children, Aidan and 
Alen. Seven months later he is still there, beyond the reach of U.S. 
laws, and Kristine has not seen her children since their abduction.

    As a father of three children, I understand how painful these 
months have been to Kristine. As a Senator, I am deeply concerned and 
frustrated that the United States--the most powerful nation in the 
world--cannot reunite two small children with their mother.

    Unfortunately, American jurisdiction over this crime often ends at 
our border. Many nations have not traditionally recognized parental 
kidnapping as a crime. Others will not cooperate with U.S. extradition 
efforts when the abductor is a native of the country to which he or she 
has fled. And while I am pleased that an international agreement, the 
Hague Convention, addresses this tragic problem by directing its 
signatories to return children to their country of residence, I am 
concerned that many countries still have not ratified the convention, 
and that others are not strictly enforcing its provisions.

    As the committee members consider possible legislation to reduce 
the incidence of international parental kidnapping and ways to help 
reunite families, I hope you will consider the following ideas and 
recommendations:

    First, we must redouble our efforts to encourage other nations to 
ratify the Hague Convention and to enforce its provisions. While over 
2,000 children have been returned to the United States through 
proceedings under the Hague Convention, these represent only a fraction 
of those that have been taken overseas. Indeed, over half of the 
nations to which abducted children are taken are not party to the 
convention.

    We should also consider strengthening the Hague Convention to make 
it retroactive. You can imagine the frustration felt by Kristine and 
her family when they discovered that Costa Rica signed the Hague 
Convention only after the boys were kidnapped and taken to that 
country. Under the terms of the convention, it cannot be used to secure 
the return of the boys because Costa Rica was not a party to the treaty 
when the kidnapping occurred.

    Second, we must educate our law enforcement officials and attorneys 
so that they are better able to respond to cases of international 
parental abduction. Too often, state and local law enforcement agencies 
face a steep learning curve when an abduction is reported to them. This 
limits the ability of these agencies to respond quickly and effectively 
to a kidnapping. In many cases, better education would help to prevent 
abductors from leaving the country in the first place.

    In Kristine's case, had the judge had the opportunity to review the 
American Bar Association's profiles of potential child abductors or 
Kristine been advised to place a hold on the issuance of new passports 
for her children, the abduction might have been avoided.

    Third, we need to improve our ability to give parents like Kristine 
the help they need to navigate the difficult and confusing maze of 
agencies they must contact for assistance under these circumstances. In 
the weeks following the abduction, Kristine sought help from her local 
police department, local police in the state of New York, the Federal 
Bureau of Investigation, the National Center for Missing and Exploited 
Children, the U.S. Department of State, Interpol and my office in the 
United States Senate.

    We need to provide straightforward guidance to the parents of 
abducted children. I understand that Attorney General Janet Reno has 
asked that the International Parental Child Abduction Guide, published 
by the Department of State with the assistance of the Department of 
Justice, be updated with the input of parents and brought into expanded 
circulation. I applaud the Attorney General for her efforts, and will 
support her in whatever way I can to meet these goals.

    It is past time for us to move forward with new strategies to 
address this problem. It is a common refrain now that the world is 
becoming more interconnected, and as it does, I believe international 
kidnappings will become more commonplace. It is essential that we 
develop the means to resolve these abductions and return children to 
the parent who has rightful custody.

    Thank you again, Mr. Chairman, for your willingness to hold a 
hearing to discuss this important issue. I look forward to working with 
you in the development of legislation and in the recommendation of any 
administrative measures that will prevent international abductions from 
occurring and reunite children with their parents.

                               __________
               Statement Submitted by Laura Kingsley Hong

                               memorandum

To:    Committee on Foreign Relations

Copy:  Senator Mike DeWine
              Doris O. Matsui, Deputy Assistant to the President

From:  Laura Kingsley Hong

Date:  October 31, 1998

Re:    The International Abduction of Rhonda Mei Mei Lan Zhang
              Statement to the Committee on Foreign Relations



    Mr. CHAIRMAN, MEMBERS OF THE COMMITTEE: My name is Laura Hong. I am 
a partner at the law firm of Squire, Sanders & Dempsey, resident in 
Cleveland, Ohio and am the former foster mother and current legal 
guardian and custodian of Rhonda Mei Mei Lan Zhang (``Mei Mei'').
    At the invitation of Senator Helms, I submit this statement to be 
entered into the public record because Mei Mei was abducted by her non-
custodial birth mother, Sue Ping Chen, on October 15, 1996, and taken 
to the People's Republic of China. And yet, despite the clear terms of 
the International Parental Kidnaping Act, the Department of Justice has 
refused to issue an indictment.
    First, on behalf of myself Tom Kovach and four year old Mei Mei, we 
thank you for giving us this opportunity to submit this statement on a 
matter of grave import. We also express our gratitude to Chairman 
Helms, Committee Members Coverdell, Smith, Thomas, Grams, Dodd, Kerry, 
Robb and Wellstone who, along with twenty-six other Senators and six 
Representatives, have made requests to President Clinton, The National 
Security Council, theDepartments of State and Justice, and the Chinese 
government to facilitate Mei Mei's return home.
    As the Committee is aware, in 1993, President Clinton signed into 
law the International Parental Kidnaping Act, 18 USC Sec.  1204. The 
statute makes it a crime for a non-custodial parent to remove a child 
from the United States with the intent to obstruct the lawful exercise 
of parental rights. The statute defines parental rights as the ``right 
to physical custody of the child.''
    Mei Mei was born in Cleveland, Ohio on November 4, 1993. As a 
result of Ms. Chen's repeated neglect of Mei Mei, by court order dated 
March 8, 1995, more than a year and a half before Mei Mei's abduction, 
I was granted physical custody of Mei Mei. That right has continued 
uninterrupted through the date of the abduction and to the present day. 
In addition to the court order granting me physical custody of Mei Mei, 
after Mei Mei's abduction on October 15, 1996, the Juvenile Court for 
Cuyahoga County has issued several orders commanding the return of Mei 
Mei, has terminated Ms. Chen's parental rights and has awarded me legal 
custody. Initially, I was Mei Mei's foster parent; I am now Mei Mei's 
legal guardian and custodian. Also, since Mei Mei's abduction, the Ohio 
Eighth District Court of Appeals issued a writ of habeas corpus 
commanding Ms. Chen to bring Mei Mei before it, and the Ohio Supreme 
Court has upheld the issuance of that writ.
    Yet despite these court orders, and the overwhelming congressional 
and citizen support, the Department of Justice refuses to issue an 
indictment under the International Parental Kidnaping Act; and the 
State Department, citing the inaction of the Department of Justice, 
similarly refuses to help.
    The Act clearly applies here by its terms, and the fact that the 
Cleveland U.S. Attorney has not enforced it sends a message that a law 
is a law only to the extent the local U.S. attorney wishes it to be.
    The Congress, in enacting the Hague Convention, explicitly stated 
that the return of abducted children to their home state is of 
paramount importance, and that ``Persons should not be permitted to 
obtain custody of children by virtue of their wrongful removal or 
retention.'' 42 U.S.C. Sec.  1161. The rights protected by the Hague 
Convention include the situation when a child is in the care of foster 
parents. ``If custody rights exercised by the foster parents are 
breached, for instance, by abduction of the child by its biological 
parent, the foster parents could invoke the Convention to secure the 
child's return.'' (51 Fed. Reg. No.58, p.1505.)
    I now direct the Committee's attention to the responses to our 
efforts to bring Mei Mei home that we have received. The State 
Department has consistently called this a ``private custody dispute.'' 
But it is susceptible to being called that only because the Cleveland 
U.S. Attorney has declined to indict under the International Parental 
Kidnaping Act. If an indictment issued, then, a fortiori, this would be 
a federal criminal matter, and not a ``custody dispute.'' Moreover, 
there is no ``dispute'' here at all; under Ohio law, her abductor, Sue 
Chen, has no rights whatsoever with respect to Mei Mei.
    Despite the overwhelming congressional support, which has been 
ongoing for over two years, the President will not help little Mei Mei 
and us because the National Security Council will not help us. The 
National Security Council is ``unable'' to help us because the 
Department of State will not help us. The Department of State will not 
help us because the Department of Justice will not help us. The 
Department of Justice will not help us because the Cleveland, Ohio U.S. 
Attorneys' Office has declined to prosecute. The Cleveland U.S. 
Attorneys' Office will not issue an indictment because the Cuyahoga 
County Prosecutor's Office has not issued an indictment. The head of 
the Cuyahoga County Prosecutor's Office's Criminal Division will not 
issue an indictment because, in his words, Mei Mei ``looks Chinese'' 
and ``belongs in China.''
    Though our efforts to seek enforcement of the laws of this country, 
and in particular the International Parental Kidnaping Act, are 
detailed more fully in the attachments, I will summarize for the 
Committee below our protracted and thus far unsuccessful efforts 
directed to the Cleveland U.S. Attorney's Office and the Department of 
Justice to obtain an indictment under the International Parental 
Kidnaping Act.
    The day after Mei Mei's abduction, on October 16, 1996, I provided 
a statement to Cleveland FBI agents. On that same day, Cleveland Police 
confirmed that Ms. Chen and Mei Mei had flown from Cleveland to 
Chicago, Chicago to San Francisco, and San Francisco to Hong Kong. Ms. 
Chen was travelling on her Chinese passport, and Mei Mei was traveling 
on her U.S. Passport. With the assistance of the Department of 
Commerce, we immediately electronically transmitted photographs of Mei 
Mei and Ms. Chen to Hong Kong FBI agent James Wong. Unfortunately, we 
were too late. Ms. Chen and Mei Mei had already entered the People's 
Republic of China.
    We were immediately advised that the Chinese authorities would 
assist in Mei Mei's return if we obtained a federal indictment. We were 
also advised that a federal indictment would facilitate an Interpol 
warrant, and that that, too, would facilitate Mei Mei's return. Having 
been so advised, we began a process that resulted in hundreds, if not 
thousands, of requests for an indictment.
    On October 21, 1996, six days after Mei Mei's abduction, Tom 
Kovach, also an attorney at Squire, Sanders & Dempsey, and the only 
father Mei Mei has ever known, met with Cleveland Assistant U.S. 
Attorney, Gary D. Arbeznik. Mr. Arbeznik requested that we prepare a 
memorandum of law and analysis of the International Parental Kidnapping 
Act in response to Mr. Arbeznik's erroneous statement to me over the 
telephone that the International Parental Kidnaping Act requires an 
underlying state indictment. Despite the incredible pressure and strain 
under which we were functioning, and despite the fact that we are 
civil, and not criminal, litigators, we provided Mr. Arbeznik with the 
memorandum; we did not, at the time, question why it was our obligation 
to explain the law to an Assistant U.S. Attorney.
    During the next few days, we received incredible support and 
assistance from other law enforcement, particularly Hong Kong FBI, the 
U.S. Embassy in Beijing and the Consulate office in Guangzhou, where we 
had located Ms. Chen and Mei Mei. Unfortunately, with lightning speed--
just nine days after Mei Mei's abduction--Mr. Arbeznik, on October 24, 
1996, without any discussions with me, notified the U.S. Embassy in 
Beijing that the Cleveland U.S. Attorney's office had declined to 
prosecute the case.
    Though I continually called Mr. Arbeznik for a status, this 
information did not become known to us until more than one month later 
when Congresswoman Patsy Mink forwarded to me a Department of State 
telegram from the U.S. Embassy in Beijing advising her of Mr. 
Arbeznik's October 24, 1996 notification and also advising that 
``without the requisite request from FBI Cleveland to work the case, 
the U.S. Government has no legal authority to pursue [Mei Mei's] case 
in China.'' Agent John Jacobs, of Cleveland FBI advised us that because 
Mr. Arbeznik had affirmatively stated that he was not going to 
prosecute, Cleveland FBI could do nothing further.
    Thereafter, over the next fifteen months, we were left highly 
insulting messages by a now-former Department of Justice Attorney 
allegedly responsible for ``children's affairs.'' We were threatened 
with local indictments for posting a web site about Mei Mei's 
situation, and were flatly ignored by Cleveland U.S. Attorney Emily 
Sweeney, with whom we left unreturned messages on at least a weekly 
basis.
    The first Department of Justice response we received to the 
hundreds of letters from us, citizens, members of the Congress, the 
immediate past presidents of the American Bar Association, Federal Bar 
Association and the National Asian Pacific Legal Consortium was in 
early 1997. Unfortunately, all these form letter responses did was 
offer ``assurances'' that the Cleveland Office of the U.S. Attorney was 
``thoroughly looking into the matter'' despite the fact that on October 
24, 1996, Assistant U.S. Attorney Gary Arbeznik had closed the matter, 
and announced that the U.S. Attorney was not going to prosecute.
    The Cleveland U.S. Attorney herself did not respond to any 
inquiries until October 23, 1997, more than one year after Mei Mei's 
abduction, when she wrote me a lengthy letter advising me that the 
Cleveland U.S. Attorney's Office was declining to prosecute Ms. Chen. A 
copy of that letter is appended to my written statement. I bring to the 
attention of the Committee, however, some highlights of the Cleveland 
U.S.A's letter in which she articulated to us for the first time the 
``basis'' for the Cleveland U.S. Attorney's Office's refusal to pursue 
an indictment of Sue Ping Chen for the kidnapping of Mei Mei.
    Though it would appear that, in theory, the letter was intended to 
explain her decision, we were amazed to see that, in all its length (4 
pages), there was not one mention of the International Parental 
Kidnapping Act, 18 U.S.C. Sec.  1204 (the ``IPKA''), or any other 
criminal statute. She stated that her ``office [was] not satisfied that 
an unbiased trier of fact will find Sue Ping Chen guilty,'' but her 
statement was made in a vacuum, with no reference to the particular 
criminal statute against which the Cleveland USAO claimed to have 
assessed the probability of Chen being found guilty. And we found this 
to be telling. Moreover, the Cleveland USAO did not provide any legal 
authority for employing the standard she claimed to have employed--
i.e., the standard that an ``unbiased trier of fact will find the 
accused guilty.'' Yet she also cited Section 9-27.220 of the United 
States Attorney's Manual, which indicates that the ``threshold 
determination'' should be whether probable cause exists to believe that 
a federal offense has been committed, and ``that admissible evidence 
probably will be sufficient to obtain and sustain a conviction.'' 
Apparently, the Cleveland USAO chose to apply a more exacting standard 
than that set forth in the ``Manual'' when it came to enforcing Mei 
Mei's rights.
    Crimes, as we all know, have elements, and the decision as to 
whether to prosecute for the commission of a particular crime ought to 
hinge on whether the elements of that crime are met. Each element of 
the International Parental Kidnaping Act is clearly met in Mei Mei's 
case, and none of the affirmative defenses set forth in that statute 
are available--even arguably--to Ms. Chen. Yet, while the U.S. Attorney 
spent three pages discussing collateral issues of little relevance to 
the issue of whether Chen violated the International Parental Kidnaping 
Act, she offered not one shred of information as to why she was not 
``satisfied that an unbiased trier of fact will find Sue Ping Chen 
guilty.'' In particular, she did not share with us which elements of 
the crime she found lacking. Her unwillingness to discuss the critical 
issue--i.e., why the Office felt Chen would not be found guilty under 
the International Parental Kidnaping Act for kidnapping Mei Mei--spoke 
volumes.
    The Cleveland USAO went on to state that the ``seeking [of] an 
indictment against an individual in order to facilitate enforcement of 
a civil court order is not a proper use of the grand jury,'' that ``an 
indictment of Sue Ping Chen for [the] purpose [of aiding in Mei Mei's 
return] would be an abuse of the Federal Grand Jury process,'' and that 
``[t]here is no reason to believe that an indictment of Sue Ping Chen 
would effect either her return or the return of the child.'' All of 
these bases, of course, put the U.S. Attorney squarely in opposition to 
Congress on the issue of the international abduction of American 
children. As the Congress made clear in passing the International 
Parental Kidnapping Act, one of the express purposes of the Act was 
``to provide the basis for Federal warrants, which will in turn enhance 
the force of U.S. diplomatic representations seeking the assistance of 
foreign governments in returning abducted children.'' H.R. No.103-390, 
Cong. Rec. P. 2421 (emphasis added). Thus, Congress believed it 
eminently appropriate and advisable to use an indictment under the 
International Parental Kidnaping Act for the purpose of facilitating 
the return home of internationally abducted American children, and 
legislated accordingly. It was always our understanding that the 
American people elect the Congress to make such legislative 
determinations, and that U.S. Attorneys are appointed merely to enforce 
them.
    This U.S. Attorney, however, clearly believes that she has the 
authority to override the Congress.
    The Cleveland U.S. Attorney then went on to note that ``the state 
[of Ohio] has plainly indicated that it will not enforce'' the order 
terminating Chen's parental rights and granting permanent custody of 
Mei Mei to me, Laura Hong, and that this, in turn, ``raises a serious 
question regarding federal enforcement.'' But it was unclear which 
``state'' she was referencing. Apparently, it was the position of the 
Cleveland USAO that the Cuyahoga County Court of Common Pleas, which 
terminated Chen's parental rights and awarded custody to me, is not 
``the state''; nor is the Ohio State Legislature, which enacted the 
laws by which Chen's parental rights were terminated and legal custody 
of Mei Mei was awarded to me; nor is the Ohio Court of Appeals, which 
issued a writ of habeas corpus directing Chen to bring Mei Mei home; 
nor is the Supreme Court of Ohio, which declined to vacate the writ of 
habeas corpus directing Chen to bring Mei Mei home; nor is the Cuyahoga 
County Board of Commissioners, the government entity charged with 
oversight of Children Services, which has publicly expressed support 
for the efforts to bring Mei Mei home; nor are Senators DeWine and 
Glenn, who, along with more than one-third of the U.S. Senate, have, in 
a number of ways, manifested their support for bringing Mei Mei home.
    Instead, ``the state,'' as far as the Cleveland USAO appears to be 
concerned, consists of one misguided individual in the Cuyahoga County 
Prosecutor's Office who the Cleveland Plain Dealer labeled a ``Chen 
proponent,'' and who publicly stated that he would not enforce Ohio's 
laws in this case, publicly condoned the abduction of children from the 
child welfare system, and caused the quashing of a City of Cleveland 
felony kidnapping warrant for Chen's arrest that had been issued upon a 
showing of probable cause by the Cleveland Police Department. It is 
troubling that, notwithstanding all of the ``state'' entities that 
spoke out in favor of bringing Mei Mei home in accordance with the laws 
of the ``state,'' the Cleveland U.S. Attorney took its cue from the one 
public official who had, in this matter, consistently maintained a 
position contrary to law.
    The remainder of the U.S. Attorney's letter was clearly geared 
towards convincing someone other than us--perhaps her Justice 
Department superiors--that the equities in this case supported her 
decision not to prosecute. \1\ In the interests of fairness, though, 
the U.S. Attorney could also have shared with her extended audience the 
fact that the ``evidence'' she recited in her letter--i.e., the staged 
welfare visit conducted by the Guangzhou Consulate, and the 
representations of Chen's father as reported to her by Children 
Services as to his purported willingness and ability to care for the 
child--was heard by Judge Patrick F. Corrigan of the Cuyahoga County 
Court of Common Pleas, and rejected outright. In the interests of 
fairness, the Cleveland USAO could have cited the evidence--which was, 
in the Judge's words, ``clear and convincing''--that led the Judge to 
find that Mei Mei is not in a suitable environment, that Chen is 
incapable of parenting, and that neither Chen nor Chen's father (who 
kicked Chen and Mei Mei out of his apartment in Guangzhou on two 
occasions, documented in the court files, because he ``could not 
handle'' Chen's psychotic behavior) is capable of providing a suitable, 
stable home for Mei Mei.
---------------------------------------------------------------------------
    \1\ We note that the Cleveland USAO has ignored Section 9-27.230 of 
the ``United States Attorney's Manual,'' which instructs the office to 
consider as a matter of primary importance the actual or potential 
impact of the offense on Mei Mei and Ms. Hong.
---------------------------------------------------------------------------
    In that letter, the U.S. Attorney also stated that Children 
Services had the ``parental rights'' to Mei Mei at the time of the 
abduction, apparently to suggest that Children Services, and Children 
Services alone, had the right to prosecute on Mei Mei's behalf. The 
International Parental Kidnaping Act, however, focuses by its terms on 
``physical custody'' of the child, and Mei Mei was, by order of the 
juvenile court, physically placed in my home. Incredibly, the U.S. 
Attorney adopted the very same position regarding Mei Mei's physical 
custody that was taken by Ms. Chen in our writ of habeas action--a 
position the Ohio Eighth District Court of Appeals flatly rejected. As 
I mentioned, the Ohio Court of Appeals found in the habeas action that 
physical custody of Mei Mei was vested in me, and that, under Ohio law, 
I was an appropriate entity to seek her return. The Ohio Supreme Court 
refused to vacate the Court of Appeals' decision to that effect. In any 
event, the International Parental Kidnaping Act makes it a crime to 
``remov[e] a child'' and to ``retain[] a child'' outside the U.S. See 
18 U.S.C. Sec.  11204 (a). Assuming arguendo that I was not wronged by 
the removal of Mei Mei by Chen, I clearly was wronged, and continue to 
be wronged, by Ms. Chen's continued unlawful retention of Mei Mei.
    Finally, the Cleveland USAO ignored the fact that Mei Mei, too, is 
a victim here, with her own right to have the laws enforced on her 
behalf, and that I, as legal custodian of Mei Mei, have the legal right 
to seek enforcement of the laws on Mei Mei's behalf. Along these same 
lines, the Cleveland USAO made repeated references in the letter to Mei 
Mei as Chen's ``own child'' and ``her child'' that are deeply 
disturbing. Under Ohio law--and the Cleveland USAO acknowledges that 
``[m]atters of family law are historically the province of state and 
local governments''--Chen has no parental rights whatsoever to Mei Mei, 
and Mei Mei is not ``her child.'' Thus, under Ohio law, the accident of 
birth should no more subject Mei Mei to abduction by a birth parent 
than it would any of the tens of thousands of adopted children in this 
State. The Cleveland USAO's refusal to accept this was, in essence, a 
refusal to recognize the authority of Ohio's legislature to legislate, 
and its courts to adjudicate, that those who repeatedly manifest a lack 
of fitness to parent will forfeit their parental rights. Moreover, 
contrary to the U.S. Attorney's suggestion, Mei Mei is not a ``dual 
citizen of the PRC and the United States.'' Under Chinese law, because 
Mei Mei was born in the U.S. to a U.S. Permanent Resident, Mei Mei, 
notwithstanding Chen's Chinese nationality, is barred from obtaining 
Chinese citizenship.
    The Cleveland U.S. Attorney was correct, though, in one respect. 
There are no guarantees that an indictment of Chen under the 
International Parental Kidnaping Act will bring Mei Mei home. But 
Congress made a determination--with which President Clinton agreed 
\2\--that an indictment under the International Parental Kidnaping Act 
is an appropriate and useful tool in the efforts to bring 
internationally abducted American children home. And while the 
Cleveland USAO played word games with what the State Department told 
her office, she did not deny in her letter that she was informed of the 
State Department's opinion that an indictment of Chen would be helpful 
in the effort to bring Mei Mei home. Whether the Cleveland U.S. 
Attorney and the Department of Justice acknowledge it or not, they 
knowingly erected a barrier to the return home of Mei Mei, a young 
American citizen, by their refusal to enforce the laws of Ohio and the 
United States on Mei Mei's behalf and therefore inflicted on Mei Mei a 
grave injustice that continues to this day. We ask the Committee to do 
what it can to help Mei Mei, and to ensure that no other children 
suffer Mei Mei's fate because of a U.S.Attorney's unwillingness to 
enforce the laws as written.
---------------------------------------------------------------------------
    \2\ In his December 2, 1993 Statement upon signing the IPKA, 
President Clinton made clear that, while the civil remedies of the 
Hague Convention should be utilized where available, where they are not 
available (as here), a criminal indictment under the IPKA is 
appropriate.
---------------------------------------------------------------------------
                                        Laura Kingsley Hong

                               __________
Letters and Comments Submitted for the Record by Parents on the Subject 
                    of International Child Abduction

             Center for Middle East Women's Rights,
                                           50 Justin Drive,
                                                 San Francisco, CA.
Senator Jesse Helms,
Washington, D.C.

    Dear Senator Helms: This is my statement to be included in the 
record for the Foreign Relations Committee Hearing scheduled for 
October 1, 1998.
    My daughters, Alia and Aisha Gheshayan, are two United States 
citizens who were kidnapped from the United States in 1986. They have 
been in Saudi Arabia for the past thirteen years and are held 
incommunicado with their mother, their family, and their country. They 
are deprived of all their rights and privileges as U.S. citizens as 
guaranteed under the Constitution of the United States.
    As adult women living in Saudi Arabia (my daughters are now 16 and 
20 years of age) they have no freedom of choice, no freedom of 
religion, no freedom of movement, no freedom to chose a marriage 
partner, no freedom to chose a career and must be submissive to any 
whim of their father or male relative of their family.
    In my thirteen years of separation from my daughters I have been 
psychologically and emotionally tortured by the Saudi government 
repeatedly. What they have done to me and my daughters is not even 
human and is in violation of all human rights and all of God's laws. 
Due to my efforts the United States signed the Hague Treaty, the 
International Child Abduction Crime Act was passed and the Children's 
Issues section of the State Department was opened in 1987. A letter 
signed by 54 U.S. Senators to the Saudi King asking for the release of 
my daughters was never responded to by the Saudi government. The Saudi 
government never gave me a visa to visit my daughters until 1995 (ten 
years after they stole my little girls). This was due to the pressure 
from former U.S. Ambassador to Saudi Arabia, Raymond Mabus. I was 
``allowed'' to see my girls in a hotel lobby in Riyadh for two hours 
after ten years of separation. My daughters were almost grown and 
begged me to take them out of there and home with me. I was guarded 
like a criminal at the hotel and the Saudis then took my daughters away 
again and I never saw them again. Such cruelty is beyond human belief.
    I was not invited to speak at this Hearing and I believe the 
witnesses that were called are not representative of the true tragedy 
of International Child Abduction. I have offered several witnesses like 
Mrs. Ethel Stowers, Monica Stower's mother, to speak about the torture 
her grandchildren have had to endure at the hands of the Saudis. The 
staff on the Committee is obviously not interested in our horrific 
stories about the Saudi rape, torture and beating of U.S. children.
            Sincerely yours,
                                    Patricia Roush.

                                 ______
                                 

             Center for Middle East Women's Rights,
                                           50 Justin Drive,
                                San Francisco, CA, August 18, 1998.
Hon. Wyche Fowler, Jr.,
Ambassador, Embassy of the United States
Riyadh, Saudi Arabia.

RE: AMERICAN CITIZEN CHILDREN ABDUCTED TO SAUDI ARABIA

    Dear Ambassador Fowler: As you are aware, since you have taken over 
the post from Ambassador Raymond Mabus in August 1996, you have done 
nothing to continue the pressure on the Saud family princes to release 
my two U.S. citizen daughters from Saudi Arabia. In fact you are 
calling the Saudis your friends as is quoted by the Associated Press in 
the article about you and your Scottish girlfriend.

        March 3, 1997
        Associated Press

          WASHINGTON (AP)--The State Department is seeking 
        clarification from former Sen. Wyche Fowler about how much he 
        is telling a young Scottish woman about his new role as U.S. 
        Ambassador to Saudi Arabia.
          In a letter uncovered in a Scottish newspaper, Fowler, 55, 
        tells his 24-year-old pen pal that the Saudis are ``elegant, 
        candid and have a good sense of humor. We trade tales and 
        laugh.'' U.S. officials confirmed the authenticity of the 
        letter.
          Fowler, who was posted went to Saudi Arabia last August, says 
        in the letter he has been ``meeting influential Saudis, 
        including the King, Crown Prince and his cabinet.'' He adds: 
        ``I've been working very hard.''
          State Department spokesman Nicholas Burns said Friday the 
        U.S. officials are seeking clarification about the matter from 
        Fowler, a former Georgia senator. Other officials said they 
        wonder how much Fowler shared with his friend about his work.
          The friend is Josephine Morton, 24, a physiotherapist and 
        sports-shop manager, whose relationship with Fowler was first 
        disclosed in November by the Glasgow Evening Times, which sent 
        a copy to The Washington Post. The Scottish newspaper said they 
        had met on an airplane last summer.
          ``I do hope we will see each other soon,'' the letter said, 
        ``I will work on it. I would love to see Scotland through your 
        laughing eyes''.
          He said he will visit ``when I have no agenda--such as asking 
        permission to launch air strikes against other Islamic nations 
        from Saudi territory.''
          That was an apparent reference to the Saudi refusal to allow 
        use of their territory for air strikes against Iraq last 
        summer.
          Fowler, who is married, began the letter by saying, ``it was 
        wonderful to hear your voice last night--your accent being more 
        lifting and lovely than mine.''

    You should have been removed from your post at that time, but I 
suppose you and your congressional friends consider this type of 
unethical behavior just normal. Afterall, what is adultery among all 
the other vices you have learned in your political career? While Mr. 
Clinton is on television begging for his political life due to his 
sexual affairs, you enjoy not even a reprimand from your superiors. Are 
your Saudi friends inviting you to their little sex slave parties in 
the Kingdom?
    I was not effective in convincing the Foreign Relations Committee 
not to confirm you to that post in October 1997. You made all kinds of 
promises about my case to get yourself back into the loop in the 
Kingdom.

        San Francisco Examiner--September 27, 1997
        By Erik Tanouye
        Examiner Washington Bureau

   nominee fowler says he will help s.f. woman get back her daughters
          WASHINGTON--President Clinton's nominee to be ambassador to 
        Saudi Arabia has promised to help a San Francisco woman whose 
        two daughters were abducted from the United States by their 
        Father, a Saudi national.
          Wyche Fowler told the Senate Foreign Relations Committee in 
        written testimony this week that he would ``work for a long 
        term satisfactory solution to this case.''
          Fowler's promise came after Patricia Roush, opposing his 
        nomination in a letter to Foreign Relations Committee Chairman 
        Jesse Helms, criticized Fowler for failing to do enough to help 
        her get her children returned to her.
          In her letter to Helms, Roush noted that former Ambassador 
        Raymond Mabus had pressured her ex-husband to give up the 
        children by refusing to grant visas to members of his family 
        who wanted to visit the United States, but that Fowler had 
        lifted the ban on the visas.
          Fowler wrote the committee in response this week that 
        withholding the visas would most likely do little to guarantee 
        the return of the children.
          He also called the Saudi government ``determined and helpful 
        within the possibilities of Saudi law'' in trying to resolve 
        the issue.

    You, Mr. Fowler, lost my daughters after Ambassador Mabus left the 
Kingdom. He had it all set up with the Crown Prince to have them 
released. I have all those conversations on tape with Dick Herman and 
Ray Mabus when this was being arranged. YOU ARE RESPONSIBLE FOR 
DROPPING THE NEGOTIATIONS TO HAVE THEM RELEASED.
    My daughters are now twenty and sixteen years of age and have no 
allies in that Embassy in Riyadh that you are in charge of. All the 
efforts of Ray Mabus are lost. My daughters are not the only victims of 
U.S./Saudi political collusion. The list is long as you know. My 
friend, Monica Stowers, who came to you to help rescue her and her 
young daughter from torture and condemnation and who wrote the 
following affidavit at the Embassy beseeching you to get them out of 
that kingdom of torture, tells me that you wouldn't even meet with her 
to discuss her inhuman situation. She continues to live with her 
fifteen-year-old daughter in constant fear in some back room in Riyadh. 
Her husband hired a ``hit team'' to kill her last year and sold her 
daughter to a mutawa. Did you care? The answer is ``NO''. You are too 
busy with your Saudi friends and girlfriends.
    The following is an affidavit signed by Monica Stowers, at the 
United States Embassy-Riyadh December 16, 1996.

          ``I am imploring my government and President Clinton to 
        rescue us from this dire situation. We need help to get out of 
        Saudi Arabia and you Must help us! If you don't, I may never 
        see my daughter again.
          I am writing this affidavit as an appeal to my government to 
        take us out of here because I have no legal recourse and as a 
        Christian, I am discriminated against in the courts. As a woman 
        it is the same.
          My daughter and I are U.S. citizens and we are appealing to 
        President Clinton to get us out of here before it is too late.
          I've been in jail here before for refusing to leave my 
        children. They are U.S. citizens, born in Houston, Texas. Their 
        country should not turn its back on them.
          WE WANT HELP. WE NEED HELP.
          I want a written response as to what you will do for me. What 
        will happen to my daughter when I don't come home one day 
        because I've been arrested by the authorities? My daughter 
        stays alone all day at home because her father will pick her 
        up.
          If you refuse to help us, I hold you, the U.S. government, 
        responsible for what happens to my daughter. She could also be 
        arrested for trying to leave the country on her own.''
              Monica Stowers

    Mr. Fowler, I am demanding the release of all the American citizen 
children of the following U.S. citizen women:
    Patricia Roush, Monica Stowers, Miriam Hernandez, Margaret McClain, 
Diana Woodruff, Jennifer Martin, Peggy Mohammad, Kim Eckrockt, Laura 
Butterfield Phillips, Vickie Melko, Dawn DiBennedetto, Gracie Khan, and 
Kristine Uhlman.
    This letter will be forwarded to all members of our organization 
worldwide and also to all members of our other organization, 
P.A.R.E.N.T. which now reaches forty countries. Our lobbying power 
grows daily and Ambassador Prince Bandar and his Washington retainers 
and ``torture lobbyists'' will not be able to stop us.
    Did you know that on May 26, 1998, I was at the Saudi Embassy in 
Washington and asked to speak with Adel Jubair and Rehab Mahsoud and 
that they ordered the doors at the Embassy to be locked. That's right, 
they locked me out of the Saudi Embassy. Rather than invite me in to 
discuss this matter, they chose the ``honorable'' thing to do and 
locked me out. Just like you locked Monica Stowers and her daughter 
out.
    We are demanding action now, or we will demand your resignation 
from that post.
                                    Patricia Roush,
                                                  Director,
                             Center for Middle East Women's Rights.

                                 ______
                                 

                                    Barbara Dooley,
                                             P.O. Box 5281,
                                 Santa Rosa, CA, February 11, 1997.
Senator Jesse Helms,
Chairman, U.S. Senate Committee on Foreign Relations.

  abduction of u.s. american born zaid ziadeh (birthdate 10/3/89) to 
                                 jordan

    I am asking for your help. As Chairman of the Foreign Affairs 
Committee, attention should be given to the problem of abducted 
children to Jordan, especially since President Clinton has established 
such friendly relations with King Hussein of Jordan, the U.S. gives 
them Foreign Aid and sixteen F-16 planes this past July, and the U.S. 
considers Jordan our ally.
    This is a long commentary, but it is difficult to condense the 
details of the past--the six year attempt with the U.S. government, 
Jordanian government, United Nations, celebrities, news media, etc. to 
draw attention to this heartbreaking drama of the January 12, 1991 
abduction of ZAID ZIADEH from his American mother by his Palestinian-
born Jordanian father.
    My daughter, Kathleen, met Jamal Ziadeh in San Francisco, in the 
summer of 1988. He was very attentive to her, and both of them were 
cosmetologists and had much in common. They discussed the cultural and 
religious differences between them, but there was a way to work them 
out because they were in love! Jamal said he had ``left his Islamic 
faith'', and more than anything else, he wanted to become a U.S. 
Citizen. He worked hard in Amman for 2 years to obtain a ``green card'' 
to come to this country, and arrived here in November 1986, and his 
goal that he wanted more than anything was to become a citizen of the 
U.S. five year later in November 1991, as three of his brothers, 
Mohammed, Salah, and Naser, had already done. (Mohammed currently works 
for Lockheed-Marietta in Sunnyvale, Salah works for LifeScan, a 
diabetic supply company, in Milpitas, Naser is a Reserve Deputy Sheriff 
in Los Angeles County, and a fourth brother, Mahamood, is attending 
college in Southern California--all of them have been educated in the 
U.S.)
    Kathy and Jamal eloped to Nevada, and were married by a Christian 
minister on November 2, 1988. The ``honeymoon'' was over three months 
later when Kathy found out she was pregnant. Immediately, Jamal put 
pressure on her to convert, and wanted them to be married in the Moslem 
Mosque, and Kathy would not agree to this. Then Jamal insisted on Kathy 
having an abortion, and she left him for two months. He begged her to 
come back to him, even though he realized she would not have an 
abortion. Kathy took excellent care of herself while she was pregnant, 
and on October 3, 1989, she gave birth to a beautiful, healthy boy, 
ZAID JAMAL. She nursed ZAID, and was always the sole caregiver to ZAID, 
while Jamal was away from the home working or attending his Palestinian 
meetings in San Francisco. Jamal continued to isolate Kathy from her 
family, friends, and kept her captive in their home, with no money or 
no transportation. In August 1990, when Iraq invaded Kuwait, Jamal 
``turned'' on Kathy, and anything that bothered him about her, he 
blamed on her being an American, and would say, ``you are just like 
President Bush!''
    Kathy became very depressed, withdrawn, and the only light in her 
life was her little ZAID, and the joy he brought to her. When she 
developed a mitro valve prolapse heart condition, and would have severe 
anxiety attacks, she realized she was in danger from his continual 
emotional abuse, and determined to leave him, for her own sanity, and 
safety, as well as ZAID's continued well-being.
    She left Jamal in September 1990, and continued to be fearful of 
him. She allowed him to see ZAID, fearing if she did not, he would take 
him, even if he had to break in the house in the night. She filed for a 
legal separation, and the court hearing was scheduled for January 16, 
1991. On January 11, Jamal asked Kathy to have an overnight visit with 
ZAID, claiming his family was having a reunion, because Mohammed, who 
works for Lockheed, and as a principle contributor to the space shuttle 
project, had just returned home from Cape Canaveral. By the time on 
January 12, 1991, he was to return ZAID, he and ZAID were on a plane to 
Jordan, where his father, three brothers and two sisters lived (there 
are ten children in Jamal's family). His brother, Mohammed, told Kathy 
that she was ``lucky Jamal did not kill her before he left with ZAID, 
because he could have done it and gotten away with it!''
    Immediately after the abduction, letters were sent to United States 
government officials, United Nations officials, Jordanian Government 
officials and every organization associated with the abduction of 
children, many were not answered, and those answered brought no result. 
No contact could be made with Jamal and ZAID, and Kathy was totally cut 
off from the most precious person in her life--ZAID!
    In June 1991 Kathy met with the Jordanian Ambassador Hussein 
Hammami who came through Santa Rosa on a speaking tour. He stated 
``young children belong with their mother'', and assured her he would 
``do all he could'' to have ZAID returned.
    There were contacts with the Jordanian Government in Queen Noor's 
Office, and a recommendation from them that Kathy retain a Jordanian 
Attorney, Advocate Zuhair Abu Shamma. A Power of Attorney Document, and 
a copy of the California Superior Court Order, awarding Kathy sole 
legal and physical custody of ZAID, were forwarded to Jordan. Kathy had 
no further input into the preparation of this court case.
    Three court hearings were held (September 5, 22, and 29, 1992) and 
the decision was reached that ZAID should remain in Jordan, even though 
the Moslem law states a child under 7 years of age should be with their 
mother. There was an appeal to a higher court, and as the records 
prove, the Jordanian court proceedings are so lengthy that the outcome 
arrived at is always ``in the child's best interest to remain where 
they are, in Jordan,'' and that was the result determined. No court 
papers were ever received by Kathleen from the attorney or the 
Jordanian Government, and this information was obtained only by verbal 
contact from a friend we have in Amman, Jacob Ammari, telling us of the 
court results. In Jordan the government and the Moslem religion are 
one, and Moslems look at, and judge non-Moslems as infidels.
    On January 21, 1994, I talked with Najeeb Halaby, the father of 
Queen Noor, on the telephone, and on February 1, 1994, Jamal 
``suddenly'' called the U.S. Embassy and allowed the first health and 
welfare visit with the Embassy and little ZAID. Pictures were taken and 
sent to Kathy, and they were so bittersweet--such joy to know he is 
alive, and a beautiful, healthy little boy, but so sad to see him, to 
know he is being told someone else is his ``mother'', and not being 
able to hold him, to nurture him, or to love him. I see my daughter 
continue to ``die'' daily because of her loss of ZAID.
    A second health and welfare visit was made in June 1994, and Kathy 
said, with tears in her eyes, ``it's as though I have willfully given 
my precious ZAID up for ``adoption'' and I receive `progress reports' 
on his development!'' It is absolutely more hurt than she can bear.
    I cannot tell you how the hours, days, months and years since 
January 12, 1991 have affected our family. My daughter did not die as 
Nina Abequa died in July 1994 at the hand of Mohammad Abequa, but Kathy 
died emotionally, and spiritually when this precious little ZAID was 
taken from her. She is cutoff from him just as though she were dead. 
She has not remarried, and does not want other children, because ZAID 
is the one she loves, and all she thinks about. Jamal has remarried, 
has three more children, and he has gotten on with his life, even 
though he did not divorce Kathy.
    I contacted Anna Quindlen, the New York Times newspaper columnist 
who wrote the article about Mohammad Abequa, who killed his wife on 
July 4, 1994, and abducted their two children to Jordan. I read where 
these two children were returned to the U.S. shortly after their 
abduction, with the assistance of the Jordanian Royal Palace and the 
New Jersey Senators Lautenberg and Bradley.
    Ms. Quindlen wrote an article on ZAID on September 14, 1994, and 
she was appalled that the U.S. Government allows these little American-
born children to be held hostage, against their will. Currently Mr. 
Abequa is being tried in Jordan, but we have no news of this given in 
the U.S.--Jordan knows how to protect their own.
    Also, in August 1994, Naser Ziadeh, Jamal's brother called for 
Kathy--the first contact he has made with her in over 3 years. He lives 
in the Los Angeles area. He told Kathy he made a visit to Amman in 
June, and saw little ZAID. Naser says ZAID is an extremely bright 
little boy, and very sweet. Naser further says he ``does not want ZAID 
to go to school in Jordan because ZAID will not get a good education 
there, and would like ZAID to go to school here in the U.S.''
    He further said that he and ZAID grew very close while he was 
visiting in Jordan, and he took ZAID to a museum, and spent special 
time with him. Naser says ZAID saw a picture of his mother that had 
fallen from a box onto the floor, and knows that she lives in the U.S. 
The night Naser was to leave, ZAID ``cried and threw a fit'' because he 
wanted to ``come home with his Uncle Naser''. ZAID would not stay in 
his own home, but insisted on staying with Naser and stayed awake until 
2:30 a.m., until Naser was taken to the airport to return to the U.S., 
and all this time ZAID was still begging and hoping to return to the 
U.S. with his Uncle Naser.
    This is a sad story, because it means ZAID is not happy there, but 
it was an encouraging story to Kathy because she feels he is not 
``settled'' there, and that there is something inbred in ZAID that he 
knows about his mother, and wants to return to her, and that it would 
not be too traumatic if and when ZAID is able to return to her.
    In October 1994, when plans were being made for the signing of the 
peace treaty between Israel and Jordan, President Clinton, Secretary of 
State Warren Christopher, California Senators Dianne Feinstein, and 
Barbara Boxer, and Congresswoman Lynn Woolsey from our District, became 
involved in letter writing campaigns in an attempt to obtain the 
release of these approximately 37 to 40 U.S. American born children who 
have been abducted by their fathers to Jordan. (It is impossible to get 
any information on the exact number of abducted children from the State 
Department because they say it would violate confidentiality). If you 
call Jim Schuler, Office of Children's Issues, (202) 647-2688, he will 
tell you Jordan is a sovereign country, which allows dual nationality, 
who has not signed the Hague Convention, the treaty of extradition, and 
will give you every other reason why Jordan is right in keeping ZAID 
there. Evidently, our country has no policy or makes any policy with 
regard to abducted children--they just accept what Jordan dictates!
    Many letters, telephone calls, etc., have taken place, but the 
``thirty-second sound byte'' of attention paid to this matter passes 
quickly, and the ``political'' focus passes even faster. On August 11, 
1994, President Clinton was quoted in the news with regard to his 
``worldwide campaign to erase Jordan's $6.5 billion debt''. Why not ask 
for these abducted children to be returned in exchange for this foreign 
aid. To my shock, I discovered a Bill was quickly passed by the House 
and Congress within a few days and our U.S. American born abducted 
children were not even thought of or considered as part of the 
negotiations. Jordan was ``unhappy'' over the amount of foreign aid 
Vice President Al Gore in his March 1995 visit promised they would 
receive from the U.S. ($488 million write off of debts owed by Jordan 
plus more than $43 million in military and economic aid) because it is 
only a ``fraction'' of the $3 billion Israel receives and the $2.2 
billion promised Egypt. On July 29, 1996, sixteen (16) F-16's were 
``given'' to Jordan and when the U.S. wanted to land troops in Jordan 
during the current Iraq confrontation, Jordan would not let the U.S. 
use their soil!
    On January 18, 1993 we watched the true story of Cathy Mahone, in 
``Desperate Rescue'', who went `outside the law' to hire mercenaries to 
return her daughter from Jordan to the U.S. We do not want to go 
`outside the law' but want to believe that the United States, as the 
last remaining super power, as they go to great lengths to protect the 
human rights of citizens in other countries, will set the priority for 
a little U.S. born child as ZAID is, who cannot speak for himself, who 
has been denied his right to the love and nurturing of his birth mother 
by being totally cut off from her, and his U.S. citizenship by a 
violent, selfish, spiteful act of his father. The world is too small 
today, and we must all work together to create a truly `human' race of 
people.
    Does the U.S. ever put any conditions, such as the return of U.S. 
American born children to just ``giving'' away our U.S. dollars? It 
makes me feel very unwilling to pay my taxes by my hard-earned money to 
have it go to the country that is holding my grandson, ZAID, and the 
country which has caused our family such grief, pain and heartache.
    I believe the U.S. has abdicated the U.S. citizenship of ZAID to 
the country of Jordan, and as I quote the U.S. Ambassador to Jordan, 
Mr. Wesley J. Egan, in his letter to Najeeb Halaby (father of Queen 
Noor), dated October 20, 1994, a copy of which is attached, along with 
my comments. I believe a thorough investigation should be made into the 
actions of the U.S. State Department, and the U.S. Embassy in Jordan 
with regard to abducted children.
    Also since Mr. Egan attached a copy of the March 1993 Appeals Court 
decision to his letter to Mr. Halaby, I know Jim Schuler in the State 
Department has a copy of this decision, and he ignores our request for 
this. This decision obtained in Amman, Jordan by Zuhair Abu Shamma, an 
advocate recommended by Queen Noor's Office to represent KATHLEEN, (she 
was not contacted by the attorney for any input at all) for which my 
husband and I paid for his services. We never heard from the court or 
the advocate with a result to the case. An acquaintance we have in 
Jordan, obtained an Arabic copy of the court decision, that no one 
seems to be able to translate, and my daughter was never given any 
information except that she lost custody of ZAID.
    Did the court say she ``rides with hell's Angels, or is a 
prostitute''? These are lies told by some Jordanian fathers, and the 
American mother never knows what is said in court and has no defense. 
My daughter is one of the finest mothers I have ever seen, and we have 
hours of videos with her and ZAID, where you see love and devotion 
showered on ZAID.
    The Congress passed a PUBLIC LAW 103-173, dated December 12, 1993 
(considered and passed House and Senate) which amends Title 18, United 
States Code, with respect to parental kidnapping, ``(a) Whoever removed 
a child from the United States or retains a child who has been in the 
United States) outside the United States with intent to obstruct the 
lawful exercise of parental rights shall be fined under this title or 
imprisoned not more than 3 years, or both''. The U.S. Government should 
insist on extradition of JAMAL, and other fathers, who have abducted 
American born children and return the children to their mothers--or no 
more foreign aid to Jordan!.
    Because as a diabetic, my vision and health are failing very 
quickly, and I wanted to see ZAID one more time before I go blind, so I 
traveled alone to Jordan in June 1995 to see ZAID, and his father 
allowed me to stay in their run-down third-story apartment, with no hot 
water, and the conditions of my visit to see ZAID was that he would not 
be told about his mother, or that I was his grandmother! What a 
bittersweet experience! It just about killed me to see him in these 
deprived conditions, and to have to go away and leave him behind. The 
video pictures I took of him while I was there--a little, skinny, 
frail, large-eyed boy without a smile, are very sad. KATHLEEN cannot go 
to Jordan, because the State Department says in a memo, that JAMAL 
could force her to stay there as his wife, because he has not divorced 
her, and the U.S. could not guarantee her safe exit out of Jordan!
    One further thing, in September 1996, JAMAL sent a video of ZAID, 
who was 7 years old on October 3rd. JAMAL was trying to make ZAID jump 
rope by having ZAID stand inside the rope, while two people were 
turning the ends. ZAID could not jump, because he could not establish 
the rhythm of the rope, and his father called him ``chicken'' in 
English, and ZAID walked away, wiping tears from his eyes, and his 
father was running along behind, taping this awful scene! It broke my 
daughter, Kathleen's heart and she sobbed and screamed in disbelief 
when she saw ZAID treated this way.
    Kathy received a recent (undated) Health and Welfare visit report, 
(only the fourth visit made in 6 years) and it was very upsetting to me 
that they are made at the home of Jamal's father, which is a palace 
compared to ZAID's home, where he lives 24 hours a day. The clothes, 
shoes, and socks described in the report are items we sent to ZAID for 
his birthday in October. It is a frustrating mixed message we give by 
sending Jamal clothing for ZAID. We care very much about ZAID, but by 
helping, we are supporting Jamal in his ability to keep ZAID from his 
mother! Kathy received a card from Jamal stating he told ZAID ``that 
this gef (Kathy sent ZAID) was from my girfreid. Zaid chous this card 
and stickrs for his father girfreid he asked when she is going to viset 
us. I told hem I don't know. maybe soon.'' [sic]
    As the ancient prophet, Isaiah said, ``Can a mother forget the baby 
at her breast and have no compassion on the child she has borne?'' The 
answer resounds every time I see my daughter, NO, she can never forget 
her precious son, ZAID and in the same sense, I cannot forget my 
daughter, and see and feel her deep loss, as well as my own personal 
loss of my grandson, ZAID!
    Kathy is my ONLY child, and ZAID is her ONLY child, so you see how 
precious he is to us--we have lost an entire generation! I mentioned 
Kathy's mitro valve prolapse heart problem, aggravated by stress, and 
I, as ZAID's Gramma, since his abduction, have been diagnosed with 
diabetes, and am insulin dependent. This condition has been brought on 
by the stress of ZAID's abduction.
    I would like to request that you give attention to ZAID's plight 
and other U.S. American born children held in Jordan, to try and bring 
the tragedy of these children to the hearts of caring Americans. I know 
it is an old, often told story, but until these little ones are 
``home'', the story is not over. Everyone to whom I tell this story 
cannot believe the U.S. Government allows these abductions to go on, 
and why the government does not ``force'' Jordan with all the 
negotiations they are involved in, to bring these children home!
                                     Barbara Dooley
                                ZAID's brokenhearted Gramma

                                 ______
                                 

                                                September 29, 1998.
Hon. Jesse Helms,
Chairman, Senate Foreign Relations Committee,
Washington, DC.

    Dear Mr. Chairman: I understand that on Thursday, October 1, your 
committee plans to hold a hearing on international child abductions. I 
commend you for examining this difficult issue which, sadly, affects a 
large number of American parents.
    One of my constituents, Ms. Nicole Faulkner, is one such parent. In 
1995, her 9 year-old son was taken from Florida to the Bahamas by his 
father, Mr. Khalil Moses. Mr. Moses, who is a Bahamian citizen, is 
wanted on Federal and State kidnapping charges. For the past 3 years, 
Ms. Faulkner, who had been awarded custody of her son prior to the 
abduction, has been seeking assistance through Bahamian authorities to 
get her son back, but so far has been unsuccessful. She has been 
repeatedly stonewalled by the Bahamian government. The Bahamas ratified 
the Hague Convention in 1994. I have enclosed some information about 
her case.
    Ms. Faulkner's name was submitted as a possible witness for your 
hearing through the Center for Missing Children and her attorney Mr. 
Michael Berry. If you have questions, you can contact Mr. Berry at 813-
447-0533.
    I know there are tight time constraints governing every hearing, 
but I would appreciate it if you would consider adding Ms. Faulkner to 
the panel of witnesses. Three of the four witnesses scheduled to appear 
are fathers. Perhaps it would be good to hear a mother's perspective.
    I would be grateful for anything you can do to accommodate Ms. 
Faulkner. Thank you and best wishes.
            Sincerely,
                                     Frank R. Wolf,
                                        Member of Congress.

                                 ______
                                 

             Michael C. Berry and Associates, P.A.,
                           Attorneys and Counselors at Law,
                                                September 29, 1998.
Seantor Jesse Helms,
United States Senate, Washington, D.C.

RE: Abduction of Khalil S. Moses, Jr. to the Bahamas, Senate Foreign 
Relations Committee Hearing, October 1, 1998, Public Records Submittal.

    Dear Senator Helms:  Enclosed is a letter to you from my client, 
Suzette Faulkner, whose child was abducted to the Bahamas in December 
1995. My client has made diligent efforts to retrieve the child without 
success and finds as I do that the U.S. Government has lost focus in 
pursuing abducted children. It is the view of Ms. Faulkner and myself 
that your committee is serving a valuable purpose by forcing the State 
Department to exert pressure on non-cooperating countries. I stand 
ready to assist you in any way in this matter.
            Yours sincerely,
                              Michael C. Berry, Sr.

                                 ______
                                 

               Suzette Nicole Christensen Faulkner,
                        43196 Wayside Circle, Ashburn, VA ,
                                                September 28, 1998.
Representative Frank R. Wolf,
241 Cannon House Office Building, Washington, D.C. .

(Edited for updating)

RE: Abduction from the United States of my son Khalil S. Moses, Jr.

    Dear Representative Wolf:  I am writing to you about my eleven-
year-old son, Khalil S. Moses, Jr., who was abducted from Tarpon 
Springs, Florida to the Bahamas by my former husband Khalil S. Moses, 
Sr. My son is an American citizen. He was born in Florida and lived in 
Alabama and Florida. His father is a Bahamian citizen who has lived and 
worked intermittently in the United States. The purpose of this letter 
is to request your involvement in this matter due to the facts of 
mischievous and suspicious dealings by the Bahamian law enforcement 
agencies, government and legal system.
     january 16, 1997 hague convention trial in nassau, bahamas on 
                     international child abduction
    After much anticipation, a trial had been set in Nassau, Bahamas on 
January 16, 1997 but after traveling there and expending more funds the 
trial was cancelled. The trial is based upon the ``Hague Convention On 
International Child Abduction'' which was ratified by the Bahamian 
government in 1994. It is commonly referred to as the ``Hague Treaty''. 
The U.S. has been a signatory country since July 1, 1988. The treaty 
has been incorporated into Federal law under 42 U.S.C. 11601 et seq. 
There are approximately forty-five countries that have signed the 
treaty to date. The treaty basically states that the Bahamian courts 
must abide by a valid U.S. court order concerning custody of the child, 
order the prompt return of the child, and most importantly not 
relitigate the custody issues but remand the matter to the U.S. Court 
which had already determined custodial rights. Under the treaty, if the 
Bahamian courts had entered rendered a custody order and the child was 
abducted into the United States, upon application to the court in the 
United States, that court would have the reciprocal duty to honor the 
Bahamian court order. On April 1, 1996, the Sixth Circuit Court in 
Clearwater, Florida awarded primary residential custody of my son to 
me. The venue has been changed for any subsequent action in the United 
States to my place of residence, Ashburn, Virginia. The order 
culminated many years of litigation with my former husband who 
continues to hide the child from me through a combination of trickery, 
threats and abuse. In this effort I was and still am represented by my 
Florida attorney, Michael C. Berry, Sr. In order to petition the 
Bahamian courts I retained a Bahamian attorney in Nassau without 
effect. The case number in the Bahamian court is 95196.
                               abduction
    In December 1995, just a few weeks before the final trial in 
Clearwater, Florida, to extend my custody rights to uninterrupted 
custody and supervised visitation only for Khalil, Sr. due to his prior 
acts, after 2 years of litigation, my former husband, who was 
represented by attorneys the entire time, abducted the child and 
disappeared in violation of a direct court order directing him not to 
leave Pinellas County, Florida. No information was provided to me by 
anyone as to his location or well being. A county show cause warrant, 
state criminal abduction warrant and Federal kidnapping warrant were 
issued for his arrest. On July 1, 1996, an informant divulged 
information that Khalil, Sr. and Khalil, Jr. had been seen in Nassau, 
Bahamas. I immediately flew to the Bahamas and discovered he had filed 
some court papers ex-parte which were fraudulently seeking to keep me 
from getting the child. He had been living with his unemployed father, 
hiding on boats and in Bahamian hotels. Since December 1995 until 
September 1996 he had not attended school nor had he received medical 
attention for a bone cyst in his leg. I sought the assistance of local 
law enforcement and legal counsel in a fruitless attempt to obtain my 
child.
             bahamian local law enforcement and government
    Upon arrival in Nassau my husband and I went to the local law 
enforcement office with my U.S. attorney and Bahamian attorney. We met 
with an inspector who reviewed our United States documentation, his 
position, and he agreed to take a statement from me which apparently 
served as probable cause to arrest Mr. Khalil S. Moses, Sr. onsite. 
Apparently there were corresponding laws which caused the wrongful 
retention of a child to be a crime, Bahamian Penal Code (Ch. 77, Sect. 
308). In addition, in reviewing my documents my Bahamian attorney took 
a gun list and presented it to another police officer that I 
subsequently visited because apparently possession of firearms in the 
Bahamas is illegal. We were told that if we found Khalil to call them 
and they would proceed to arrest him. At the same time my U.S. attorney 
visited and informed the local embassy officials of the status of the 
case. I was advised by my attorneys to follow the letter of the law and 
let the legal system proceed. Soon afterward an informant disclosed the 
whereabouts of Khalil. He was hiding in a hotel room which was under 
the name of an individual from Tarpon Springs, Florida. During the same 
time an FBI agent who covered the Bahamas from Miami was on the island 
and informed me of the location of Mr. Moses. Coincidentally, he was 
staying at the same hotel as Khalil. The FBI agent declined to get 
involved. We called the police and Khalil was arrested and both he and 
my son were taken to the police station. We called my Bahamian attorney 
who informed us that a hearing was set by Khalil's attorney for custody 
and I must go to the courthouse immediately. I did. My U.S. attorney 
was not allowed in the courtroom. The court declined to issue a custody 
order and we proceeded to the police station for what we thought would 
be the pick-up of my son. Upon our arrival I asked to see my child 
alone and was refused. I was taken upstairs to where they hold the 
criminals, and there sat my son and my former husband, My former 
husband was being interrogated by another police officer apparently 
taking his statement under oath. I remember that they required him to 
sign the document. My son was in between my former husband and myself.
    No one else was permitted to accompany me. I tried to talk to my 
son but he was scared and confused in view of the surrounding 
environment. I pleaded for privacy and to get my son out of this 
turmoil but was refused. My U.S. Attorney did likewise. Within 15 
minutes an attorney came in to represent my former husband; apparently, 
he was tied to the ministry of the government. He had a private talk 
with the inspector. After the talk, the inspector told my U.S. attorney 
that we would not get the child, we were to leave the island and if we 
followed or harassed Khalil at all we would all be arrested. My ex-
husband's father, Joseph Moses, is a member of a very influential and 
very wealthy Bahamian family of Lebanese descent, and it appeared as if 
there was some form of third-party intervention, especially in view of 
the fact that upon the appearance of what appeared to be a high-powered 
official, we were told that any further actions on our part would lead 
to our arrest. While this was transpiring, the FBI official associated 
with the case did nothing to assist us. We also found out that the 
local law enforcement official, the FBI agent, and the opposing counsel 
attended a Fourth of July party that evening at the embassy. Faced with 
what appeared to be a corrupt environment, my U.S. attorney advised 
that we leave the country immediately and he requested that a Hague 
Treaty petition be filed by our Bahamian counsel immediately.
                         bahamian legal system
    After that incident we suddenly found it very difficult to contact 
our attorney in the Bahamas. This was true even for my U.S. attorney. 
He would not return phone calls or answer letters. After much 
consternation he finally filed the Hague Treaty Petition. At the same 
time we were told that some accusations were being made about our 
activities in the Bahamas when we went there initially in July and that 
there may be warrants for ``someone(s)'' (?) arrest. Was it me, my 
husband, my attorney or what? It scares me to think that I could be 
arrested upon arrival in Nassau for the trial this month. Were they 
trying to keep my attorney off the island? I don't know. The embassy 
informed us that the Bahamian attorneys are a unique group, very 
independent and have little if any client contact. Nonetheless our 
suspicions were raised and enhanced when we requested copies of the 
court pleadings by phone and by letter. Finally my U.S. counsel 
retained a documents retrieval company in the Bahamas to get the 
documents which are supposed to be public records, as is the case in 
the U.S., but much to our surprise the documents retrieval company told 
us the court would not release any copies and that only if requested by 
counsel of record would they be released. We requested by letter and 
phone that our Bahamian attorney get the copies or issue a letter to 
let the documents retrieval company get the documents, but that has not 
worked. Consequently we have been unable to obtain any of the court 
documents pertaining to the upcoming case. There is obviously some 
reason, as yet unclear, that the files are not available for public 
inspection. In our opinion this is an attempt by the father, and his 
family, to conceal what has historically been highly fraudulent 
statements in the pleadings. This pattern of misrepresentation and 
concealment of information is consistent with our experience in 
initially locating the child.
                       communications with my son
    In the months since July 4, 1996, when I located my son in Nassau, 
Bahamas, I have talked with him on the phone as often as I can but now 
my communication has been cut off and the court has held proceedings of 
which I have no knowledge. He is always in the presence of his father 
and I am sure he is scared and confused. I know that my former husband 
has spent a lot of time with statements that typically lead to 
alienation of affections with me. I am very concerned about him and 
oddly enough, recognize that he has a right to see his father (under 
supervised conditions to avoid another abduction) if I prevail in this 
matter. We are also strongly concerned that he will be hidden again 
prior to or after the hearing as his father has a pattern of moving 
without any notification to avoid enforcement of any orders. This is 
not the first time he has run to the Bahamas. Oddly enough his father 
did the same thing to his mother when he was a little boy.
                         united states embassy
    We have asked the U.S. Embassy to investigate. The investigation 
resulted in the consulate of the U.S. Embassy meeting with opposing 
counsel, the father and child in the opposing counsel's office. The 
meeting was inappropriate in that the child was not interviewed 
privately and was undoubtedly subject to the stresses of a legal 
discussion. My former husband has not attempted to shield my son from 
the circumstances of this case. Quite the opposite he has used him as a 
pawn. This pattern of involving the child in legal discussions 
continues to disregard the emotional well being of the child. There are 
indications that the State Department and the FBI are treating this 
matter as just another family law dispute. There is a lack of emphasis 
or appropriate pressure placed on the Bahamian government to treat this 
matter with the necessary attention. This can be offset by your 
involvement. It is very likely that the father and his family are using 
their influence with the local police, attorneys, and government.
            Sincerely,
               Suzette Nicole Christensen Faulkner.

                                 ______
                                 

                                   Maureen Dabbagh,
                        Executive Director of P.A.R.E.N.T.,
                         308 General Gage Rd., Virginia Beach, VA .
Hon. Jesse Helms,
Chairman, Committee on Foreign Relations,
U.S. Senate, Washington, D.C.

    Dear Honorable Senator: In regards to the Foreign Relations 
Committee Meeting next week in which you ask Madam Secretary to address 
specific questions regarding international parental kidnapping  . . . 
BRAVO!
    As the parent of a child who has been abducted, abandoned and is 
now being held by a terrorist group in Syria . . .  I can tell you I am 
so tired of this issue being swept under the rug and the U.S. 
Department of State, Division of Children's Issues using limited 
resources and manpower to BRING FOREIGN CHILDREN INTO the U.S. via 
their adoption assistance.
    Please let us know what we can do to support remedies to abduction. 
P.A.R.E.N.T. is an International coalition (Parents Advocating for 
Recovery Through Education by Networking Together) with over a dozen 
non-profit member support groups. We have chapters in France and in the 
mid-east. I am the author of ``RECOVERY OF INTERNATIONALLY ABDUCTED 
CHILDREN''.
            Regards,
                                   Maureen Dabbagh.

                                 ______
                                 

                                                 September 28, 1998

Re: Oct. 1 Senate Foreign Relations Hearing/International Abduction 
(The Following to be entered into record)

From: Maureen Dabbagh
    Dear Honorable Senator Helms: I am the mother of an 8-year-old 
American child who has been illegally abducted to Syria.
     My child is not with her father. I do have a legal custody order 
form Syria. I also have U.S. and Syrian warrants for the arrest of the 
man that kidnapped my child originally . . . her father, Mohamad Hisham 
Dabbagh, a Syrian National.
    I have not seen my beloved daughter since she was 2 years old. 
Nadia Alexandra Dabbagh is being held in Damascus, Syria. Her abducting 
father is working and living in Saudi Arabia?
    Law Enforcement authorities have worked aggressively in my case, 
i.e., Interpol, FBI as well as Voice of America, the National Center 
for Missing and Exploited Children our U.S. embassies in both Syria and 
Saudi Arabia and numerous other agencies. The only agency that I am 
terribly disgusted with is the U.S. Department of State, Division of 
Children's Issues. Whoever set that office up is either a complete 
idiot or they know nothing about international abduction or they do not 
want the office to bring children home.
    One Caseworker at Children's Issues actually told me that he 
``preferred'' doing the international adoptions! As the parent of a 
child who has been illegally taken from the U.S., I was appalled at 
this man's lack of sensitivity. Bringing foreign children INTO the U.S. 
to be adopted by American families should not be a priority over the 
recovery of American children taken to foreign countries.
    We are now seeing second generation abductors. My ex-husband's 
father abducted his own children and took them to another country. It 
was not until his two oldest children were nearly 50 years old, did 
they learn that their mother was actually alive and they found her.
    This is not just about custody. Terrible things happen to children 
when they are taken into cultures that do not recognize even the most 
basic fundamental practices that keep children safe. Abducted children 
may face:

    <bullet> Female genital mutilation--otherwise known as castration
    <bullet> Sold into marriage
    <bullet> Abandoned into orphans
    <bullet> Abandoned on the streets in foreign countries
    <bullet> Killed by their abductor

    This may seem rather exploitive of the subject, but in truth I am a 
first-hand witness to the above atrocities. These things are not just 
happening in Non-Hague countries. They are happening in Hague countries 
too!
    Currently, Senator Charles Robb (VA) is sponsoring a ``Sense of the 
Senate Resolution'' in an effort to rescue my daughter, Nadia.
    As I said earlier in my letter, Nadia is not with her father and I 
have legal custody from the courts in Syria. So why can I not bring my 
child home or even see her . . . it is because my child is being held 
by a terrorist group known as the Muslim Brotherhood?
    No Mother should endure the heartache of having a child abducted. 
No parent should have to deal with the frustrations of a system that is 
ill-equipped to handle the problem, and even worse, ignore the experts 
that are doing something about this. No MOTHER SHOULD PICK UP THE 
TELEPHONE AND BE TOLD TO HAND OVER MONEY IN RETURN FOR HER CHILD . . . 
this is not suppose to happen in America.
    I recently went on National TV and disclosed my child's plight 
after years of silence. The State Department called me and ``demanded'' 
to know why I told all of America! They inferred I had misrepresented 
my child's plight. I told them, to go to the Justice Department for 
proof. . . they even have a web page up on the Internet telling of 
Nadia's plight. They shut up real fast. Now, why would the State 
department be upset because I told all of America that Nadia is being 
held by Terrorists?
    I want my child. I want my child home in America where she belongs. 
I do not want her to stay in Damascus for another day.
    If Nadia were the daughter of a U.S. Senator . . . she would have 
been home a long time ago!
    I have tried to remain positive over the course of the last 6 
years. I have written a reference book on ``RECOVERY OF INTERNATIONALLY 
ABDUCTED CHILDREN'' 1997, McFarland & Co., Inc.
    I have started an international organization called P.A.R.E.N.T. We 
are 10 million strong and have members in France, Belgium, Switzerland 
and the U.K. We are going to the U.N.
    Politics has no place in Human Rights! We do not compromise 
American citizens for the sake of ``commerce''.
    America belongs to the people, and thanks to Bill Gates, the 
average American now has the ability to let their voice be heard in 
mass numbers.
    I admire your efforts to bring about solutions to this most 
difficult problem. If you are truly interested in knowing how many of 
these solutions are being successfully implemented by P.A.R.E.N.T., 
please feel free to give me a call.
            Sincerely,
                                   Maureen Dabbagh,
                                   Mother of Nadia Dabbagh,
                  Executive Director of P.A.R.E.N.T. International.

                                 ______
                                 

                                     George Massie,
                         International Kidnapping to Chile,
                                                September 28, 1998.
Hon. Jesse Helms,
Chairman, Committee on Foreign Relations,
United States Senate.

                          the story of georgie
    These days TV., magazines and newspapers are full of stories of 
parents kidnapping their children and taking them from the other parent 
without warning. Most of these have shown the father abducting children 
from mothers. My story is different but altogether too common where the 
mother has taken the children. The most surprising aspect has been the 
authorities, through incompetence, honest mistakes, transparent 
conspiracy in the case of a Chilean judge, and confusion have assisted 
the mother and her in this and continue to assist her.
    My story starts four years ago when my wife fled the U.S. without 
warning. Before that I had a family, children, a nice home, two new 
cars, my own lucrative business and money in a savings account. Very 
much in love I married Gabriela Marcenaro Landa a divorcee with two 
children from a previous marriage in 1989. In 1990 we had our first 
child my only child a boy so we named him George Welton Massie IV and 
we called him Georgie. Life could nor have been better. There were some 
problems between her and my stepchildren's father because she 
continually blocked his visitation, a mode of behavior she later turned 
against me. But life was good until that fateful day in November 1993 
when she ran away and kidnapped my son. What happened after that is a 
tale of dishonesty cruelty and pain, pain that continues to this day. 
Two fathers, myself and Salvador Landa do not have our children anymore 
and no right anyone will enforce to be able to see them. How in this 
modern world of communications, legal systems, and international law 
could this have happened?
    On November 3, 1993 my aged mother living in Dallas was forced for 
health reasons to sell the family home and move to Arizona where she 
could get medical care. I drove the 1,400 miles from Miami to help her. 
While I was driving, unknown to me, my wife was packing the children's 
toys and clothes, taking the money from our savings account and buying 
airplane tickets to her native Chile. Just as I arrived in Dallas she 
called and said ``I am sorry but I have taken your son (Georgie then 
3\1/2\ years old) and gone to Chile you probably won't see him again''. 
She also took the children from her previous marriage Salvador's 
children Gabriella 9 and Nicolas 6. There was no warning for me or 
Salvador, the shock was tremendous.
    That same night in disbelief and despair I flew back to Miami to 
see if it could be true, to see if something could be done. I was 
picked up at the airport by Georgie's Godfather Florida State Fire 
Marshall Antonio Samper and we went to my home. The emotional strain as 
we approached the house was unbearable, hoping against hope that 
somehow it wasn't true. The house was dark and as the front door was 
opened. Whether by the wind or curious fate, Georgie's wind up mobile 
started playing a forlorn ``Old McDonald Had a Farm'' in a dirge as 
only a windup toy, spring force almost depleted, can sound. But the 
house was empty not just empty but empty in a way only a house that had 
once been full of children's laughter can be. I wept uncontrollably in 
shock and pain.
    That same night I called the Metro Dade Police (Miami) and asked 
them to come make a report. They told me it wasn't their problem 
because we were still married it was a domestic issue. Anthony Samper 
picked up the phone and demanded they make a report, again they 
refused. The next day I called the Florida State Attorney's Office the 
U.S. Attorney's office and was told the same thing it's a domestic 
problem they couldn't help. I contacted lawyers both here and in Chile 
and was told the same thing. There was nothing I could do . . . 
nothing. Much later I found that this advice was terribly wrong, it is 
a sad fact that so many people in authority have no idea how to handle 
this problem and that their advice forced me to do things that would 
make justice even more difficult, if not impossible, to obtain. It 
seemed the only way I could ever see my son was to go to Chile to live 
close enough to help him to somehow be his Dad.
    I was frantic my wife's actions were clearly not of a mentally 
balanced person. Recent psychological evaluation of her was very clear 
in stating she has deep problems. Georgie and the other kids were in 
danger. If there were problems with the marriage there is simple 
separation and divorce, certainly not taking an action as radical as 
this. I tried to reach her by phone but she had gone into hiding near 
Chillan, Chile with the help of her brother Jorge.
    In Chile Gabriela had entered the country illegally, she had used a 
Chilean passport but she is a naturalized U.S. citizen and dual 
nationality isn't allowed there, although I found out later their laws 
are ``flexible''. She had registered Georgie under another name and had 
registered him as an illegitimate child for his ``new'' Chilean birth 
certificate. All of this I discovered later. After she arrived there 
she found that the money she had taken with her (she removed $25,000 
from our joint savings account before she left) wouldn't last very 
long. Without a place to live or a car her future there was not bright. 
Later she agreed that if I were to ship her a car to her I could visit 
George, could see him and be with him. Clearly the pattern of blackmail 
was beginning with a 3\1/2\ year old child and his father's love for 
him the tools she would use. I believed I had no choice but to comply.
    Over the next months I traveled to Chile and during that period she 
allowed me to see Georgie more and more. She agreed that, provided I 
would invest in a business and a farm in Chillan, Chile I could move 
there and we could try to work things out. To do this, to raise the 
money, I had to sell all the personal things I could, withdraw all the 
savings we had left and move all my family belongings to Chile. 
Perhaps, I reasoned, over time I could convince her to return to the 
U.S. Because of what all the authorities had said if I was really to 
help my son Georgie this was the only way. I couldn't kidnap him as she 
did, he had been through enough and I believe all kids deserve a Mom 
and a Dad. If there is any possibility to give him both I would.
    I financed the purchase of a store and its inventory a farm and a 
truck at a cost of $200,000. I was told by the Chilean Consulate in 
Miami that before I could put anything in my name or be involved in any 
financial transactions I had to have Chilean residency so I applied for 
that. Because Chile has community property laws I was advised by 
Chilean lawyers it wasn't important that the property I paid for prior 
to obtaining residency was in her name, her Chilean name. Later I found 
out how wrong that was. Being desperate to be with my only child and 
reunite my family I moved to Chillan, Chile in August 1994.
    For a short while we had a family again. In a strange land, in a 
Third World country, but nevertheless a family. The family lasted until 
my U.S. money ran out in February 1995. When that happened she called 
the police and said we weren't married legally (she had not registered 
our U.S. marriage in Chile as she said she had). They demanded I leave 
the apartment immediately. They also said I wasn't Georgie's legal 
father because she had registered him as illegitimate in Chile so I had 
no right to see him. But it got worse, much worse. The shop, the farm, 
the truck, were hers not mine! I was on the street, no money, no 
transportation, no son. She even took the only cash money I had from my 
locked brief case along with my passport and other personal papers. 
This was all condoned in Chile, the police supported her actions. A 
country that is striving to be a part of the modern industrial group of 
nations.
    If the story ended here it would relate enough pain but it doesn't. 
Because she had signed all the documents for our farm as a single 
person she was able to sell it to her brother and keep the money. 
Because when she set up the children's prepaid college fund in Florida 
in 1991 she listed herself as the sole beneficiary she was able to take 
their money and keep it for herself. Stealing their future. After 
forcing me from our apartment she blocked me from visitation with my 
son. It seemed I had no place to turn for help.
    Again I tried to get legal help. It was impossible to believe that 
this could happen in any civilized country, that I had lost everything 
but the most important thing to me was that my son was kept from me. I 
hired a Chilean lawyer just to be able to see my son. But the local 
Judge was sick so nothing happened. Later I learned from her that the 
Family Court Judge was a friend of hers. Gabriela still kept Georgie 
from me. Surely I thought this kind of total disregard of a son's 
rights, a father's rights, rights of a legal marriage and its 
responsibility wasn't possible.
    A glimmer of hope the Hague Convention, an international treaty for 
the return of abducted children was explained to me by the U.S. State 
Department . . . again a dead end Chile didn't sign it until July 1994. 
No help to me because it isn't retroactive, she kidnapped the kids to 
Chile scant months before Chile signed it. But there is part of the 
Convention that provides for return of children for visitation, another 
glimmer of hope. But although this does apply Chile has refused to 
honor the treaty it signed. Not just in my case but in all cases, so 
much for Chilean honorability and a just place in the nations of the 
world.
    Chile that requires both parents to sign before a Chilean child can 
leave the country--a country zealously guarding against abduction is 
obviously hypocritical and not concerned about other countries parent's 
rights because of this case and many others where they have failed to 
react. In fact they have not honored this treaty in one case on three 
years. Chile also signed the UNICEF agreement about children's rights, 
again a country that wants to look good to the world but does not want 
to honor its pledges.
    Not being able to help my son in Chile and on the advice of lawyers 
both in the U.S. and Chile I returned to the U.S. Here I was told there 
could be justice and again that turned out to be a mirage. Because I 
was blackmailed with Georgie as a hostage, blackmailed to going to 
Chile and living in the apartment with my wife some legal opinions are 
that Chile has jurisdiction, the same country that couldn't even help 
me get any visitation! Back in the Unite States, despite all I have 
been led to believe, despite what she has done, there appears to be 
little hope, little hope for Georgie. After spending over $18,000 here 
and $6,000 in Chile in legal fees there still there is no end in sight 
I still cannot see my son let alone have him with me. The specifics of 
this are documented facts and it is puzzling because in spite of them 
and the obvious fraud they clearly expose, Georgie is severed from his 
father and lost in a Third World country.
    How can a U.S. judge not have jurisdiction? Georgie was born in the 
U.S. to two U.S. citizens. Citizens legally married in the U.S. He was 
undoubtedly abducted, there are too many witnesses, too much evidence 
for there to be doubt. In Chile he has no rights he is illegitimate 
because of her falsely registering him and must bear the stigma of that 
throughout his life there. She has stolen money here both from me and 
from Georgie by taking his college fund and from the other children 
too. Sal Landa has two children, my step children, he hasn't seen for 
over 2 years. A U.S. Court, as is customary here awarded joint custody 
to him and Gabriela. Later without advising him of the hearing a 
Chilean Judge, her friend, overruled the U.S. Court and awarded 
Gabriela full custody. She has lied in almost every document she has 
signed, she has falsely denied a legal marriage exists, she has taken 
property and money both in the U.S. and Chile.
    The story isn't ended and may never be. I cannot stop trying to 
give my son a good life. I cannot stop trying to be a good father. Not 
until justice of some reasonable sort is obtained. Should kidnapping be 
rewarded? Should fraud be rewarded? Apparently for now both are and the 
children and father continue to suffer. As for my case the minors 
Georgie, Nicolas and Gabriella need to be returned to the United States 
where they were born and have spent most of their lives. Then custody, 
visitation and the children's welfare could be decided by a Judge who 
can be aware of all the facts without bias. In the larger view how can 
this kind of crime be stopped? So other parents, fathers and mothers 
alike, do not have to go through something like this. Simple, minors 
under 12 years cannot leave the U.S. without the written approval of 
both parents just as Chile does just as most countries do.
Post script
    The above was written in 1995 what has happened since? Today is 
September 1998.
    The U.S. Court failed to do anything so I moved back to Chile to 
see Georgie. I went to a judge here and got some visitation, terrible 
by U.S. standards but I do see him.
    The Hague convention has proved worthless, Chile has refused to 
honor it although they have signed it. Our State Department seems 
powerless. So if you do international business get cash or product 
first. They sign papers they do not honor.
    I did register Georgie legally in Chile so he is not a bastard 
anymore.
    I must pay her support to see him or go to jail, the support for 
him is OK but she is legally married to me and now is pregnant with 
another child by another person.
    I am told no property can be regained by me, Chile supports her 
fraud.
    As a last point I found out she had been married 4 times in the 
U.S. and lied on the marriage license with me, that seems unimportant 
here.
                                     George Massie.

                                 ______
                                 

Hon. Jesse Helms,
Senator, United State Senate,
Washington, D.C.

Via Fax form Chile

    Dear Senator: Previously I sent the story of my son, George Massie, 
however here is another I am working on to help the father. As I have 
to be here in Chile to continue my fight I also help others in the same 
situation.
    The below is an email from Jim Staley to me I felt I should share 
with you as it shows the problem we face.
            Sincerely,
                                     George Massie.

        <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="94c7e0f5f8f1eddefdf9d4f5fbf8baf7fbf9">[email&#160;protected]</a> wrote:
          Hi George, I am having another sleepless night here in 
        Virginia. I have so many things going through my head and I 
        really miss my son. I just can't believe my wife would go to 
        these limits. Taking all the photos, all the memories, the 
        household furnishings, and then disappearing from the face of 
        the earth. I can't believe she felt like she had to run off 
        like this.
          At this point in time I don't even know where she and my son 
        are. This is making me very worried and giving me a great 
        amount of anxiety. The FBI said they searched the Customs data 
        base and don't have her listed leaving the country. A few of 
        her friends said they had no idea she was leaving. I called her 
        mother's house and her mother turned on the radio and put the 
        phone next to the radio for 5 minutes and then she hung the 
        phone up. I called several more times and her mother does other 
        strange things.
          I got a lawyer and got an emergency temporary custody order 
        for my son. However, the hard thing is finding her and my son. 
        My lawyer has handled several cases like this that involved 
        Jordan and Argentina. He told me that he would now work with 
        the FBI to try to find her. He feels very confident and this 
        makes me feel a little better. He also connected me with a 
        therapist that has experience in these cases. I visited him 
        last week and I will go visit him tomorrow. Basically he helps 
        me cut down on the anxiety pressure created from this awful 
        situation.
          I just received a duplicate copy of my marriage certificate 
        from PA, but I still would like to get my son's birth 
        certificate. I feel so stupid that I didn't make a copy of his 
        birth certificate and passport, but I also would have never 
        thought a person (my wife) could ever do such a terrible thing 
        to another person. Would you be able to get his birth 
        certificate with the following information?
      I don't have my sons R.U.N. The only information that I have is 
the following:
          My sons name: James Gregory Staley Marusic
          DOB: 22 September 1996
          Born at: Clinica Tabancura (I don't have it yet but I will 
        get the doctors name)
          My wife's name: Victoria Susana Marusic Jara
          DOB: 23 November 1965
          R.U.N: 9.607.363-1
          Nro. Inscripcion: 1.007
          Her mothers name: Silvia Manuela Jara Alegria
          Her fathers name: Antonio Mirko Marusich Martinich
          Also, does Santiago have phone books like we do in the USA? 
        Do they have them on CDs? I would like to look up the people 
        connected to several phone numbers that my wife made to 
        Santiago in the past month. I'm thinking that this may give me 
        a lead to my son.
          Thank you very much and may God take care of our children,
          Jim

                                                September 18, 1998.
        George,
          I wrote you about a year ago and told you my pregnant Chilean 
        wife of 7 month's abandoned me on June 3, 97 and retuned to 
        Santiago. I was devastated!
          You replied with advice and I still can't believe although we 
        are married in the USA we are not in Chile. After you told me 
        about this I played stupid with my wife and it appears that she 
        knew this all along. Stupid me!
          Then, I made a very surprise visit to Santiago on 21 
        September 97. I brought about $1,500.00 of baby things and 
        stated that I was there to pay for the birth of the child. So, 
        my wife and her family kindly let me take part in the birth of 
        the Child and I stay with her at Clinica Tabancura for 5 days. 
        My son Little Jimmy was born at 3 AM on September 22, 97. It 
        was such a great feeling and the best five days of my life. 
        However, when I returned to her parent's house they put me out 
        after 3 days. Her mom and sister insisted that I should not 
        touch the baby because they didn't want him to get attached to 
        me. I constantly argued with them for my rights, but in the end 
        my wife agreed with her mom and sister. Plop! After getting 
        thrown out of their house I was so expired that I ended up at 
        the airport and waited there for 1.5 days and got a flight back 
        to Wash D.C. I was lucky to have a free ticket from the miles I 
        gained over the past several years because this ticket allowed 
        me to change the dates very easily and without any penalties. 
        30 minutes into the flight I got up to use the restroom and 
        collapsed on the floor of the isle. The flight attendants used 
        oxygen to revive me and later said that I was pale white and 
        they could not read my pulse. They actually thought I was dead 
        and was going to land the plane.
          Over the next 11 months and 3 weeks I tried to get my wife to 
        register my Son as an American Citizen and to submit her 
        immigration papers. I sent all the paperwork and all she had to 
        do was bring them to the Embassy and get a medical physical. 
        The Embassy agreed to review all the documents and they 
        suggested that I remain in the USA in case they needed more 
        information.
          They stated that when the time came to sign the citizen 
        papers (2 weeks) that they would call me and I would have to 
        return to Chile. I agreed to this. But, my wife would not take 
        the papers to the Embassy. Later I would find out why!
          On May 21, 98 my wife made an unannounced return visit to 
        Wash D.C. She said she had a fall out with her family and that 
        she wanted to make a new start because of the baby. At the time 
        I was so happy to see my Son that I let her back into the 
        house. I should have at least made her register our marriage in 
        Chile and make her sign the immigration documents to allow my 
        Son to become an American. I did tell her that I wanted her to 
        do the above things with my help, but she always put them off 
        and started a huge argument or fight. She became very violent 
        and would break my things. Over the next four months I spent 
        about 4K on baby things and bought her a new Camry.
          Over the next four months I formed a very strong bond with my 
        Son. The only word he would say was Dada. He actually would 
        wakeup in the morning and yell Dada, Dada, Dada. We did 
        everything together. Camping, hiking, biking, and he loved the 
        outdoors. He became my total life. I loved giving him a bath, 
        feeding him his milk, reading to him, changing his diaper, and 
        especially playing with him. I loved when we watched Sesame 
        Street together and when he used to want to hug me.
          On Monday September 14, 98 I came home from work and my house 
        was almost completely empty. My wife took about 8K worth of 
        stuff. She kidnapped my Son. My Little Jimmy! The house was a 
        wrecked like it got hit by a hurricane. I was in such a state 
        of shock. Where is my Son! How can anyone do such a terrible 
        thing? I cried, I collapsed on the floor, and I felt like 
        someone had just ripped out my heart and smeared the blood on 
        my face. How cruel can a person be? Why?
          I have not slept for 4 nights and I feel terrible. It took me 
        2 painful days to cleanup my house and I filled 8 large sized 
        garbage bags of paper, food, broken items, and boxes. The most 
        painful area was Little Jimmy's bedroom. He had his own master 
        bedroom and I had it fixed up with a playhouse, train set, and 
        many other toys. It was all gone except the crib, dresser, and 
        changing station. My eyes are tearing and I feel like I'm going 
        to vomit at this very minute. How could she do this?
          I talked with the neighbors and it appears that her sister 
        and brother-in-law came to Wash D.C. and helped her pillar my 
        home and rob my Son. The audacity of these people. How could 
        they? I filed a police report that that's all the police could 
        do. They told my that it was perfectly legal what my wife did 
        to me and that she is allowed to take my Son anywhere because 
        we did not have any custody orders and a divorce papers in 
        place. I contacted the FBI and they where very sympathetic but 
        said that they could not attempt to stop my wife or find her 
        because she didn't have a child custody warrant for her arrest 
        and that the local court system would have to put a warrant out 
        on her. Now the local judge is stating that I have to file for 
        custody it could take up to 6 month's and cost 15K. I now feel 
        this country's legal system is terrible. I contacted the 
        Children's Office at the State Department and talked with Drew 
        Haldane. He told me that I had to complete the forms for the 
        Hague Convention. I asked how long this would take and he said 
        6 months. I then told him to read your URL story and that I 
        didn't believe him. I can't believe he did not even know about 
        your URL Site.
          What to do now?
          My wife is hiding somewhere in Chile and I don't know where 
        my Son is. I think she is at her parent's house at Manuel 
        Rodriguez 1020, Maipu, Santiago but I really don't know.
          Right now the only options I seem to have are:
          1. Go to Santiago and hire a detective to find her. But, then 
        what do I do if I find her? Get a lawyer in Santiago and fight 
        for custody of the Child?
          2. Wait 6 month's to get a custody warrant so that the FBI 
        can attempt to locate her?
          3. Complete the Hague Convention forms and then fight for 
        custody in Chile?
          Can you give me any advice? Do you know a great lawyer that 
        can help me in Santiago? Do you know how I can obtain my Son's 
        birth certificate in Santiago?
          Any help would be great for my emotions right now.
            Thank You,
                                        Jim Staley.

                                 ______
                                 

                                                     July 29, 1998.
Hon. Jesse Helms,
Chairman of the Senate Foreign Relations Committee,
Washington, DC

RE: Rinaman Child Abduction--Germany

    Dear Senator Helms: I understand you are investigating Hague 
Convention Compliance. With this letter, I am providing you with some 
documents and facts that may assist you regarding Germany.
    I was married to a German woman while I was a Judge Advocate in the 
Army in Europe. We lived in Italy, and then in Germany for one year, 
where our daughter, Julia was born. Five months after Julia was born, 
we moved to Washington, D.C., purchased a home, and I planned to leave 
the Army for a civilian job in D.C. My wife's mother came to visit for 
several months. During that time, my wife was apparently convinced by 
her mother to leave our marriage and return to Germany.
    On June 1, 1996, about ten months after we moved to D.C., my wife 
went to Germany for a ``two week visit''. Ten days later, I received 
the enclosed letter, telling me our marriage was over. I called the 
State Department, learned about the Hague Convention, filled out the 
petition in English and German, and filed the petition in July 1996.
    The first court in Germany ordered that Julia be returned to the 
United States. My wife appealed, and offered her mother's testimony to 
say I had given permission for her to keep Julia in Germany because the 
mother had overheard an argument in which I allegedly was told my wife 
wanted a divorce, and I told her to take the baby and her things and go 
to Germany. This was a total fabrication. There was never any such 
discussion--never any talk about divorce, separation, or child custody. 
In fact, my wife abandoned almost everything she owned, including her 
childhood photos and many other personal effects. Although I appeared 
in that court and told them this was a complete lie, they said they 
believed my wife's mother, and overturned the lower court's order. I 
note that even if there had been such an argument, the case law, which 
was provided to the German court, does not support this defense to 
return, and the decision is contrary to the spirit and intent of the 
Hague Convention.
    Since the upper court overturned the return order, I have been to 
court again on one visit, along with my mother and father and two of my 
siblings, and also to a counseling/mediation on another occasion in an 
effort to see my daughter. I have received only resistance from the 
court. My ex-wife has told me that she is living with another man and 
my daughter is calling him `papa', so that she does not want to 
``disturb'' my daughter with my presence, or my telling her I am her 
father. As you might imagine, I am entirely distressed with this 
situation, and I do not intend to allow it. To date, I have worked 
entirely within the law, dealing with the State Department, and paying 
nearly $50,000.00 since 1996 in attorney fees, travel expenses, and 
other associated costs to reunite my daughter with myself and the rest 
of her family. At this point, I firmly believe I would have been much 
more successful hiring someone to re-abduct my child. I relied 
completely upon the law, and now I know it was a mistake.
    As you will see from the enclosed summaries of cases dealing with 
Germany from 1990-1993, that country's courts consider the treaty to be 
only advisory. The German courts regularly decide cases ``in the best 
interest of the child'' (staying with the mother), with complete 
disregard for the child's interest in knowing the other parent. You 
will also find a copy of an article from the London Times describing 
Germany as the ``worst offender'' non-compliance with Hague cases.
    If you will force the issue with the State Department, they will 
admit that out of about 90 cases, only about 35 were returned through 
1996. I am confident the same dismal track record will prove true from 
1996 to present. The lower courts, ``Amtsgericht'' sometimes appear to 
follow the law, as in my case. The problem is that the Germans will 
waive these decisions in your face to prove they follow the law, all 
the time knowing that the cases are appealed and overturned at the OLG. 
It is a well coordinated fraud. If they do not intend to comply with 
the treaty, why do we recognize them as signatories?
    As for my case, I am going to Germany for what I consider the 
``last straw'' with their courts in September 1998. I found three years 
of letters faxed to my wife by her mother, all in German, in which Frau 
Breitbach brags about her tax evasion, social welfare fraud, and other 
deceitful things. She even lied in what she describes as her ``sad 
voice'' just days after my wife and I moved to D.C., that my wife and I 
had marital problems, and my wife had returned to Germany, so that she 
needed to be ``registered'' for social welfare purposes. Meanwhile, we 
were in the midst of purchasing a home in Washington. I intend to ask 
the Court to reverse their decision, which was based wholly upon the 
testimony of a practiced liar and fraud.
    I have provided a complete copy of these letters to my 
Representative, Tillie Fowler, as well as to our Ambassador to Germany, 
Mr. Kornblum. I realize I must present these letters to the court, and 
I fully intend to do so in September, but I do not expect relief from 
the German courts. I am hoping that the State Department will provide 
these letters to the German authorities who oversee Hague Convention 
compliance, to show them that my child has been literally kidnaped, and 
kept from me for over two years. I would also like to offer to help you 
in any way I possibly can to ensure compliance with the Hague 
Convention in Germany and other countries as well. I have been in 
contact with many other devastated parents, several of whom have 
children who were taken to Germany and have suffered a similar 
experience to mine.
    My grandfather served in the Army in WWII. He was a doctor, and was 
a prisoner of war in Japan for several years. He valued his citizenship 
in the United States very much. My father retired as a Brigadier 
General after 37 years in the Florida National Guard. He continues to 
practice law in a civilian firm in Jacksonville. My brother is a 
Captain in the Florida National Guard. He was deployed for Hurricane 
Andrew, and he recently deployed for the wildfires we experienced in 
Florida. He is an environmental engineer in his civilian employment, 
and has been educated at Vanderbilt and Georgia Tech. My sisters were 
educated at Tulane and Southern Methodist University. One is an 
Architect, the other works in Public Relations. I attended the 
University of Florida and Florida State University Law School. I am now 
a Captain, Judge Advocate in the Florida National Guard, and I am 
promotable to Major. However, because of the significant time I have 
been required to spend in Germany, I have found it necessary to resign 
from the National Guard and enter the Army Reserve, because I cannot 
take an additional two weeks off from my civilian law practice to 
attend annual training. I have worked for a Chicago Law firm in their 
Jacksonville, Florida office since I left D.C.
    My mother raised four children, educated them, and loves my 
daughter as her first grandchild. She is tortured by a complete lack of 
information about my daughter, and wakes up in the night to write 
letters on her computer to save and give to my daughter. My parents are 
now in their sixty's. They expected to live a peaceful, contented life. 
You might expect such a glued together outfit would be able to resolve 
the problem of my daughter's abduction. Instead, the law has failed us. 
Our government has been unable to offer any resolution. We have never 
felt so powerless.
    I entreat you sir, please do not allow our State Department to 
compromise on this issue. For a government like Germany to scoff at an 
agreement they entered into should be seen as a slap in the face. This 
is something to be expected from third world countries, and we expect 
to have to deal with them as such. We must however, demand compliance 
from Germany. That country relies upon us for protection and trade. We 
should be able to expect better treatment of our citizens--Julia is 
both American and German, in spite of the German's claim that she is a 
German National. If you desire any further information from me, or if I 
can in any way otherwise assist you, please do not hesitate to contact 
me.
            Very truly yours,
                             James C. Rinaman, III.

                                 ______
                                 

                                 Walter Paul Benda,
                                     Max Meadows, Virginia,
                                                September 27, 1998.
Hon. Jesse Helms,
U.S. Senate, Committee on Foreign Relations,
Washington, D.C. 20510-6225

    Dear Senator Helms: My family and I were greatly excited to receive 
your September 21 letter advising us of the special hearing of the 
Senate Foreign Relations Committee on October 1 regarding international 
child abduction. Being victims of this, we have felt extremely 
frustrated by the indifference shown by our government, as well as 
foreign governments, about this problem. We are deeply appreciative 
that someone of your stature finally has the courage and compassion to 
publicly address this problem.
    I apologize in advance that much of my letter sounds negative, but 
please understand that I and my family have been emotionally and 
financially drained by the abduction of my two American born daughters, 
Mari and Ema, for over 3 years now. We have had no direct contact with 
them whatsoever since the day they were abducted. We still do not know 
their whereabouts, even though my wife, Yoko Mizuno Benda, was indicted 
for international parental kidnapping over 2 years ago, and supposedly 
is being searched for by the FBI, Interpol, and our State Department.
    Here is a quick round-down of my experiences:
    1.) Japanese Police: I have personally gone, usually with my own 
paid interpreter, to various Japanese police departments in Tokyo and 
Chiba about half a dozen times during the past 3 years. Each of these 
experiences has been most unpleasant, and there has never been any 
concrete help of any kind offered. They have ridiculed me, ignored 
factual evidence I have presented to them, spoken behind my back with 
my interpreter (trying to get her to just make me leave), and basically 
been rude and uncooperative. From my experience, the Japanese police 
are lazy, insensitive, ignorant, and racist. They will not lift a 
finger to help foreigners in these kinds of cases.
    2.) Japanese courts: I been involved in Japanese court proceedings 
in family court, district court, high court, and in the very near 
future, I will be pleading my case before the Japanese Supreme Court. 
From my experiences, these courts do not follow standard legal 
procedures that would be expected in the U.S. court system. For 
example, despite the fact that I was properly communicating with the 
Japanese family court, keeping them informed of my whereabouts, they 
never acknowledged any of my communications, and did not keep me 
notified of hearings that were scheduled. As a consequence, my wife's 
Japanese attorney rammed my case through family court without me being 
given any opportunities for mediation which are guaranteed under 
Japanese law before a case can be heard in district court. I definitely 
feel I received discriminatory treatment from the family court because 
I was a foreigner and they felt they could circumvent my legal rights 
without me being able to do anything about it.
    Many legal irregularities also occurred at the district court 
level. At the first hearing, for which I had to take off over one week 
from work, and spend lots of my personal funds to travel to Japan, my 
wife and her attorney showed up one hour late. The judge said nothing 
about this, and let them present their side during the remaining 30 
minutes, without giving my Japanese lawyer an opportunity to say 
anything. When my Japanese lawyer suddenly resigned 2 weeks before the 
next hearing, the judge refused to reschedule the hearing, even though 
I made an official written request in Japanese and was assured by 
Japanese attorneys that normally a hearing would be rescheduled when a 
lawyer suddenly resigned like this. Because of the lack of time, I was 
unable to find a qualified Japanese attorney willing to take on my 
case, and ended up having to represent myself in Japanese district 
court. Throughout this whole case I have presented exhaustive evidence 
(including dozens of documents, photos, tape recordings, videotapes, 
affidavits signed by 25 friends of my daughters, etc.), which has been 
brushed aside by all the judges and officials who are responsible for 
determining these cases. Japanese judges have made custody rulings 
regarding my children without once having seen them or even 
indepndently verifying that they are attending school or are even 
physically present in Japan.
    3.) Japanese Bureaucracy: I have visited all the Japanese 
bureaucracies that I can think of, that might be able to lend me 
assistance in locating my daughters, or making some kind of progress in 
resolving this matter. I have gone to the city office, where my wife 
and daughters are fraudulently registered (with my daughters' names 
falsified), and filed a report that their address is fraudulent. This 
was to be investigated, but it has been almost one year now since I 
filed the report and nothing has happened. I have met with bureaucrats 
of the educational system, and they have told me there is no national 
computer database for locating my children. They also said that even if 
they had knowledge of my children, they would not share it with me 
because of the children's privacy rights. I have met with an official 
in the Japanese National Health Insurance Agency, to obtain any health 
records they would have about my children, and he refused to cooperate 
in any way, again citing the children's privacy rights. I have met with 
officials at the Japanese Embassy in Washington, as well as at the 
Japanese Delegation to the United Nations in New York, and despite 
their assurances they would try to help, they have done nothing.
    4.) U.S. Embassy in Tokyo and the U.S. State Department: Their 
attitudes and lack of cooperation have sometimes been even worse than 
that of the Japanese officials I have dealt with. Despite numerous 
phone calls and letters to Ambassador Mondale, requesting a 5 or 10 
minute meeting with myself and another American father whose children 
had been abducted in Japan, I never received any sort of response from 
Ambassador Mondale whatsoever. Members of my family also wrote letters 
to him, and he never even had the courtesy to reply. His total 
indifference to this problem was reflected throughout the U.S. Embassy 
in Tokyo. During one of my frequent visits to the Embassy, I was 
brought into the office of the Consul General, Mr. Wayne Griffith. 
Before I had barely said a word, he began to lecture me in a very 
arrogant fashion that he had a staff of Embassy Marines at his 
disposal, ready to throw me out of the Embassy if I was disruptive in 
any way. He was totally ignorant about the most basic aspects of 
international parental kidnapping. He angrily argued with me when I 
read him excerpts from a NCMEC publication which cited obligations the 
U.S. Embassy has in these cases. I found Mr. Griffith's assistant, 
Margaret Uyehara, whom he assigned to deal with me, to also be very 
ignorant and inexperienced with these cases. She was also very arrogant 
and very rude. I have a tape recording of a phone conversation I had 
with her where she slammed the phone in my face, after saying she was 
too busy to deal with me because they were having a snow storm in 
Tokyo.
    Just like Ambassador Mondale, Secretary of State Madelyn Albright 
also has never dignified my family or me with a response to any of the 
numerous letters we have written her. Her attitude is also reflected in 
the Office of Children's Issues in the State Department in Washington. 
They do practically no follow-up whatsoever with parents, and rarely 
bother to return phone calls or faxes. I still have evidence of all the 
phone calls and faxes I have made to the Office of Children's Issues 
which were ignored and never returned. When they do speak to parents, 
it is very condescending and designed to deflate parents' hopes of ever 
seeing their children again.
    5.) U.S. Police:  The local police in Virginia are basically 
ignorant about international kidnapping laws, and were not of any help. 
The FBI office in Roanoke, however, has been helpful, at least in 
cooperating with the indictment of my wife for international parental 
kidnapping. However, they do not seem to have any interest in 
aggressively pursuing this case with Japanese Interpol. Nothing has 
happened even though my wife was indicted over 2 years ago.
    6.) Virginia Courts: I pursued this case all the way up to the 
appeals court level in Virginia, and it was always thrown out. My wife 
and I both attended college in Virginia, we both held Virginia drivers 
licenses, my wife had signed a legal certificate in Virginia that she 
was a Virginia resident, and she listed a Virginia address with INS 
while we were temporarily residing in Japan, but the Virginia courts 
ignored all this and felt there was no significant connection to 
Virginia. Basically the Virginia judges did not want to get entangled 
in an international case, and took the easy way out by pushing it away.
    7.) National Center for Missing and Exploited Children (NCMEC): 
Even though my children are missing, and are being psychologically, if 
not physically, exploited, for the first 3 years NCMEC has refused to 
register them in their system, because I did not have a U.S. custody 
order. It has pretty much been a ``Catch-22'' situation for me, because 
I could not get U.S. courts to hear my case, and so it's been 
impossible to get a custody order in the U.S. NCMEC needs to recognize 
that international cases are different from domestic cases, and adapt 
accordingly.
    As you can see, all the various systems that are supposed to help 
parents in these kinds of cases are largely ineffective. My experiences 
are not unique. Through an organization that I co-founded in Japan, 
called Children's Rights Council-Japan, I have come across dozens of 
cases like mine in Japan, and in practically all these cases the left 
behind parents have been unsuccessful in maintaining regular personal 
relations and direct contacts with their children, as guaranteed by the 
United Nations Convention on the Rights of the Child, which Japan 
ratified in its entirety on April 22, 1994. In my own case over a dozen 
articles of this convention have been violated by Japan, including my 
children's rights to both of their parents, both of their extended 
families, both of their nationalities, both their religions, as well as 
the right to their native language, English.
    What do I recommend that the Committee on Foreign Relations do, 
that would effectively address this problem of international parental 
kidnapping?
    As a member of the United Nations, I think the U.S. should be 
adamant that countries which sign a United Nations treaty, do so with 
sincerity. If a country does not sign a treaty in sincerity, then it 
should be forced to withdraw from it. Accordingly, I respectfully ask 
your committee to introduce a resolution in the United States Senate 
calling on Japan, as well as other countries that have signed the 
United Nations Convention on the Rights of the Child treaty and are not 
abiding by it, to withdraw from it. Furthermore, I believe Japan's 
application to become a member of the U.N. Security Council should be 
denied. I really think this would have an immediate impact upon Japan 
to clean up its act. No country wants to have an international 
reputation for violating children's rights.
    When I moved to Japan in November of 1992 with my wife and 
children, I assumed I was moving to a civilized country which respected 
children's rights like they are respected in the United States. I now 
know that Japan, and many other countries as well, have no respect for 
children's rights as defined in the United Nations Convention on the 
Rights of the Child treaty. These countries are sanctuaries for child 
abductors, and they should be forced to withdraw from the treaty. At 
least this would give fair warning to Americans thinking of marrying 
citizens of those countries, or moving to those countries with their 
American born children.
    Thank you very much for giving me this opportunity to present my 
experiences and views.
            Sincerely,
                                      Walter Benda.

                                 ______
                                 

                        synopsis of barlow case
    (1) Mark William Barlow and Ruth Bruegger Barlow were married to 
each other on March 5, 1988 in Clemmons, North Carolina, United States, 
and lived together as husband and wife until May 9, 1991. Three 
children were born of the marriage of Mr. and Mrs. Barlow: Dwight 
Ernest Barlow, born September 2, 1988; Jeffrey Daniel Barlow, born 
December 6, 1989; and Brian Roger Barlow, born November 20, 1990.
    (2) In January, 1991, shortly after the birth of their third son in 
November, 1990, Mrs. Barlow traveled with the three children to 
Switzerland for a visit with her family. Mrs. Barlow was to return 
approximately five weeks later. However, she did not return until ten 
weeks later and brought both of her parents with her. Upon Mrs. 
Barlow's return, her father, Mr. Ernest Bruegger, a retired district 
court judge in Olten-Gosgen, Switzerland, confronted Mr. Barlow with a 
demand that his daughter and grandchildren reside in Switzerland. Due 
to the unhappiness of Mrs. Barlow, Mr. Barlow agreed to move to 
Switzerland. Mr. and Mrs. Barlow rented their home in Guilford County, 
North Carolina, sold all of their furniture, furnishings, and other 
belongings, and Mr. Barlow quit his employment in anticipation of the 
move to Switzerland. Shortly before their departure, Mrs. Barlow 
claimed that she and the children needed to go to Switzerland a week 
before Mr. Barlow in order to obtain work permits and other documents 
for him. Mrs. Barlow left North Carolina with the three children on May 
9, 1991.
    (3) on May 13, 1991, on the first business day after returning to 
Switzerland, Mrs. Barlow filed in Olten-Gosgen, Switzerland, a 
temporary petition for divorce, custody, child support, maintenance for 
herself, and sought to bar Mr. Barlow from having visitation with the 
three minor children. Mrs. Barlow was represented by her cousin, Dr. 
Arthur Haefliger.
    (4) On May 14, 1991, three days before Mr. Barlow was to depart for 
Switzerland, Mrs. Barlow informed him by telephone that she had filed 
for divorce in Switzerland and intended to keep the children there with 
her.
    (5) On May 15, 1991, Dr. Laemnli, a District Court Judge in Olten-
Gosgen, granted Mrs. Barlow's request for temporary custody and set a 
hearing for support for May 29, 1991.
    (6) On May 16, 1991, Mr. Barlow filed a complaint for custody of 
the minor children in Guilford County, North Carolina. At the same time 
Mr. Barlow filed an Application for Assistance under the Hague 
Convention on the Civil Aspects of International Child Abduction. 
(hereinafter Hague Convention). On said date, Mr. Barlow received an 
emergency custody order from the District Court in Guilford County 
awarding him temporary custody of the three children.
    (7) On May 27, 1991, the Swiss Central Authority formally contacted 
the District Court in Olten-Gosgen requesting the return of the three 
children to the United States.
    (8) On June 3, 1991, Mr. Barlow requested the return of the three 
children to the United States in a motion before the District Court in 
Olten-Gosgen.
    (9) On June 13, 1991, the District Court in Olten-Gosgen held a 
hearing regarding Mrs. Barlow's request for divorce, temporary support 
and temporary custody. Mr. Barlow was not present although he was 
represented by counsel. The Court, over the objections of Mr. Barlow's 
counsel, granted Mrs. Barlow temporary custody of the minor children 
and established support for the minor children and Mrs. Barlow.
    (10) On June 24, 1991, Mr. Barlow appealed the order of June 13, 
1991, of the District Court of Olten-Gosgen to the Supreme Court of the 
Canton of Solothurn as a violation of Article 16 of the Hague 
Convention.
    (11) On July 8, 1991, a hearing was held in the District Court in 
Olten-Gosgen regarding the return of the minor children under the Hague 
Convention. The District Court refused to order the return of the 
children, although the Court found that Mrs. Barlow's actions were 
illegal. The Court denied the request for return of the children to the 
United States finding that the children would be harmed by separating 
them from Mrs. Barlow because she did not want to return to the United 
States.
    (12) On August 12, 1991, the Supreme Court of the Canton of 
Solothurn reversed the June 13, 1991, decision of the District Court in 
Olten-Gosgen finding that the District Court had violated Article 16 of 
the Hague Convention in determining the custody of the minor children 
when a Hague application was pending.
    (13) on August 20, 1991, Mr. Barlow appealed the July 8, 1991, 
decision of the District Court in Olten-Gosgen for its refusal to order 
the return of the children to the United States to the Supreme Court of 
the Canton of Solothurn. Mr. Barlow appealed on the grounds that Mrs. 
Barlow's refusal to return to the United States did not create an 
intolerable situation for the children to prevent their return to the 
United States and Mrs. Barlow should not be able to create the 
situation and benefit from her own bad conduct.
    (14) On September 19, 1991, the Supreme Court of the Canton of 
Solothurn reversed the July 8, 1991, decision of the District Court of 
Olten-Gosgen and ordered the minor children to be returned to 
Kernersville, North Carolina, within 30 days after the order takes 
legal effect or Mr. Barlow may get the children within 30 days after 
the order takes legal effect.
    (15) On October 24, 1991, Dr. Laemmli, the District Court Judge in 
Olten-Gosger who had previously granted temporary custody of the 
children to Mrs. Barlow and had been reversed by the Supreme Court of 
the Canton of Solothurn, again ordered custody of the children to Mrs. 
Barlow during the duration of the divorce proceedings.
    (16) On October 29, 1991, Mr. Barlow petitioned the Administrative 
Clerk of the District Court in Olten-Gosgen for execution of the order 
of the Supreme Court of the Canton of Solothurn in which the children 
were ordered to be returned to Kernersville, North Carolina.
    (17) On November 5, 1991, Mrs. Barlow filed a petition for divorce 
and requested a divorce, custody, spousal support, child support and 
division of marital property.
    (18) On November 15, 1991, Dr. Laemmli, the District Court Judge in 
Olten-Gosgen, wrote to the Supreme Court of the Canton of Solothurn. 
The Judge wrote that it was impossible not to decide about custody of 
the children because there needed to be an execution proceeding and 
considerable time may elapse before the children are returned.
    (19) On November 25, 1991, Mrs. Barlow petitioned the Supreme Court 
of the Canton of Solothurn for a rehearing of the order for the return 
of the children to Kernersville, North Carolina. Mrs. Barlow offered a 
report from the Department of Social Services in Switzerland written on 
October 21, 1991, a report of an investigator regarding Mr. Barlow's 
conviction for avoiding arrest in 1985 prior to the marriage) and two 
affidavits from friends. All of the documents were not previously 
before the Court.
    (20) On November 29, 1991, the Administrative Clerk of the District 
Court of Olten-Gosgen suspended the execution of the September 19, 
1991, Order until the Supreme Court of the Canton of Solothurn decided 
if it would grant the rehearing requested by Mrs. Barlow.
    (21) On December 17, 1991, the Supreme Court of the Canton of 
Solothurn suspended execution of its order of September 19, 1991, until 
it decided on Mrs. Barlow's petition for rehearing.
    (22) On January 17, 1992, the Supreme Court of the Canton of 
Solothurn made its own motion not to have live witnesses at the hearing 
regarding the petition for rehearing unless the parties replied by 
January 24, 1992.
    (23) On January 24, 1992, Mrs. Barlow objected to not having live 
witnesses at the hearing regarding her petition for rehearing and 
requested that the Court hear the live testimony of her father, Mr. 
Bruegger.
    (24) On January 31, 1992, Mr. Barlow's counsel sent a letter to 
Supreme Court of the Canton of Solothurn objecting to any live 
testimony, including the testimony of Mr. Bruegger.
    (25) On February 5, 1992, Mr. Barlow filed a complaint and 
counterclaim in the divorce proceedings.
    (26) On March 16, 1992, there was a hearing before the Supreme 
Court of the Canton of Solothurn regarding Mrs. Barlow's petition for 
rehearing. Mr. and Mrs. Barlow were present as well as Mrs. Barlow's 
father, Mr. Bruegger and Mr. Barlow's mother, Mrs. Lightcap.
    (27) On March 24, 1992, the Supreme Court of the Canton of 
Solothurn denied Mrs. Barlow's petition for a rehearing finding that 
there was no new evidence to change its September 19, 1991, decision. 
The September 19, 1991, decision was reinstated.
    (28) On March 26, 1992, Mr. Barlow requested that the 
Administrative Clerk of the District Court of Olten-Gosgen execute on 
the September 19, 1991, order of the Supreme Court of the Canton of 
Solothurn.
    (29) On March 30, 1992, the Supreme Court of the Canton of 
Solothurn reversed the portion of the October 24, 1991, order of Dr. 
Laemmli granting Mrs. Barlow custody of the children during the 
duration of the divorce proceedings.
    (30) On April 1, 1992, the Administrative Clerk of the District 
Court in Olten-Gosgen lifted the suspension of the execution proceeding 
and set a hearing for April 9, 1992.
    (31) On April 8, 1992, Mrs. Barlow petitioned the Administrative 
Clerk of the District Court of Olten-Gosgen to suspend the execution 
order until the Federal Supreme Court of Switzerland heard her 
petition.
    (32) On April 10, 1992, Mrs. Barlow appealed the decision of March 
24, 1992, of the Supreme Court of the Canton of Solothurn to the 
Federal Supreme Court of Switzerland.
    (33) On April 14, 1992, the Supreme Court of the Canton of 
Solothurn refused to suspend the proceedings pending Mrs. Barlow's 
appeal to the Federal Supreme Court of Switzerland.
    (34) On April 16, 1992, the Administrative Clerk of the District 
Court of Olten-Gosgen ordered that the September 19, 1991, order from 
the Supreme Court of the Canton of Solothurn be enforced. The 
Administrative Clerk ordered that if Mrs. Barlow refused to obey, she 
could receive a 5000 franc fine, imprisonment of three months, or both. 
The Administrative Clerk refused to use force to get the children 
returned to the United States.
    (35) On April 29, 1992, Mr. Barlow appealed to the Administrative 
Supreme Court of the Canton of Solothurn regarding the decision of the 
Administrative Clerk of the District Court in Olten-Gosgen to impose 
sanctions but not use force.
    (36) On May 1, 1992, the Supreme Administrative Court of the Canton 
of Solothurn refused to stay the order for the return of the children 
pending Mrs. Barlow's appeal to the Federal Supreme Court of 
Switzerland.
    (37) On June 11, 1992, the Supreme Administrative Court of Canton 
of Solothurn denied Mrs. Barlow's request for additional time and gave 
Mrs. Barlow until June 22, 1992, to take a position with respect to Mr. 
Barlow's appeal from the decision of the Administrative Clerk of the 
District Court of Olten-Gosgen regarding the use of force.
    (38) On July 10, 1992, the Supreme Administrative Court of the 
Canton of Solothurn suspended the execution proceedings until the 
Federal Supreme Court of Switzerland had decided Mrs. Barlow's appeal 
from the March 24, 1992, decision refusing the rehearing and ordering 
the reinstatement of the September 19, 1991, decision.
    (39) On July 10, 1992, the Federal Supreme Court of Switzerland 
suspended all efforts to execute the judgment of the Supreme Court of 
the Canton of Solothurn until the Federal Supreme Court of Switzerland 
had decided the matter.
    (40) On August 20, 1992, the Federal Supreme Court of Switzerland 
denied Mrs. Barlow's appeal from the March 24, 1992, Order of the 
Supreme Court of the Canton of Solothurn. Mr. Barlow requested that the 
Supreme Administrative Court of the Canton of Solothurn order the 
Administrative Clerk of the District Court of Olten-Gosgen to proceed 
with the order of execution and lift the suspensions that had been 
previously entered.
    (41) On November 6, 1992, the Supreme Administrative Court of the 
Canton of Solothurn ordered that force be used if Mrs. Barlow did not 
obey the order to return the children to the United States. Mrs. Barlow 
was given until November 28, 1992, to obey the Court's order.
    (42) On November 21, 1992, Mrs. Barlow appealed to the European 
Court on Human rights in Straussburg, France, claiming a violation of 
her human rights in having the courts of Switzerland order the children 
returned to the United States.
    (43) On November 26, 1992, Mr. Barlow requested the suspension of 
the children's passports.
    (44) On November 27, 1992, the Administrative Clerk of the District 
Court of Olten-Gosgen refused to suspend the children's passports since 
Mrs. Barlow might comply with the Court's order on November 28, 1992, 
and give the children up.
    (45) On December 2, 1992, the Administrative Clerk of the District 
Court of Olten-Gosgen ordered suspension of the children's passports 
until Mrs. Barlow obeys.
    (46) On December 3, 1992, the Federal Supreme Court of Switzerland 
ruled that Mrs. Barlow's appeal to the European Court on Human Rights 
in Straussburg, France, would have no effect on the order of the 
execution.
    (47) On December 10, 1992, the Administrative Clerk wrote to the 
Swiss Central Authority allowing Mr. Barlow to pick up the children in 
Switzerland provided that:

          (a) Mr. Barlow is accompanied by someone educated in caring 
        for small children who has a command of the Swiss German 
        language;
          (b) that someone with the command of the Swiss German 
        language accompany the children in the United States until the 
        children are accustomed to their new circumstances and can 
        represent their interests in court; and
          (c) that if Mrs. Barlow desires to travel to the United 
        States, that Mrs. Barlow will have the protection of the United 
        States Central Authority during her stay.

    (48) On December 16, 1992, the Swiss Central Authority wrote to the 
Administrative Clerk of the District Court of Olten-Gosgen stating that 
the demands of the Administrative Clerk were outrageous and that Mrs. 
Barlow had brought the situation on herself.
    (49) On December 21, 1992, Mrs. Barlow was ordered to surrender the 
passports of the children on or before December 24, 1992, at 11:00 a.m. 
or the police would seize them.
    (50) On January 5, 1993, the Administrative Clerk of the District 
Court of Olten-Gosgen, Switzerland informed Mr. Barlow's attorney that 
a secret police action would take place on January 12, 1993 at 
approximately 8:00 a.m. whereby the three children would be taken by 
the police and a social worker from the home of Mrs. Barlow and her 
parents. The children were to be taken to a children's home in Luzerne, 
Switzerland and reunited with Mr. Barlow at the children's home. The 
Administrative Clerk of the District Court of Olten-Gosgen revealed 
that Mrs. Barlow's father, Mr. Bruegger, had made threats against him 
and Mr. Barlow's attorneys.
    (51) On January 11, 1993, Mr. Barlow and his mother met with the 
Administrative Clerk of the District Court of Olten-Gosgen, 
Switzerland, the social worker who had written a report about Mrs. 
Barlow and the Barlow children in October, 1991, and a social worker 
from the children's home in Luzerne. Said officials attempted to 
dissuade Mr. Barlow from returning to the United States with his 
children and queried if Mr. Barlow would take responsibility for the 
physical injury to his children if Mrs. Barlow's father should become 
violent.
    (52) On January 12, 1993, the Olten police went to the home of Mrs. 
Barlow's parents (Mrs. Barlow and the children have stayed in the 
Bruegger home since May, 1991.) The entire family had left sometime 
before the arrival of the police. The neighbors were questioned and no 
one claimed to know the whereabouts of the family. One neighbor had 
been left a key to the home but claimed to know nothing about the 
location of the family. A search for the family was activated and 
national and international warrants were in the process of being issued 
for the arrest of Mrs. Barlow and her parents. The whereabouts of Mrs. 
Barlow and her parents became known during this time and the warrants 
were canceled.
    (53) On January 13, 1993, a meeting was held. In attendance were 
authorities from the Swiss Central Authority, the Administrative Clerk 
of the District Court of Olten-Gosgen, a representative from the 
Department of Justice of the Canton of Solothurn, and the attorneys for 
Mr. Barlow and Mrs. Barlow. Mrs. Barlow's attorney revealed that he 
knew the location of Mrs. Barlow, her parents and the children but 
would not reveal it. Mrs. Barlow's attorney was given until January 14, 
1993, to reveal the location of the children. Mrs. Barlow's attorney 
was informed that Mrs. Barlow must decide by January 15, 1993, if she 
will return to the United States or the children will be taken from 
her.
    (54) On January 14, 1993, the Administrative Clerk of the District 
Court of Olten-Gosgen informed Mrs. Barlow's attorney that Mrs. Barlow 
must decide by 12:00 noon on January 15, 1993, if she will return to 
the United States. If Mrs. Barlow agrees to return, she must leave no 
later than the evening of January 19, 1993. If Mrs. Barlow refuses to 
return or refuses to respond, then the police will take the children on 
January 19, 1993, for Mr. Barlow to return with them to the United 
States. The Administrative Clerk of the District Court of Olten-Gosgen 
knows the location of the family. He has refused to disclose the 
location to Mr. Barlow's attorney and has refused to order police 
surveillance believing that Mrs. Barlow will not flee with the 
children. However, all international airports and border officials have 
been alerted to the situation. Mrs. Barlow has hired an attorney from 
the United States who is in Switzerland and will be meeting with her on 
January 15, 1993.
    (55) On January 15, 1993, Mrs. Barlow agreed to return to the 
United States no later than January 20, l993. She was ordered to 
disclose her itinerary for her return as soon as she knew it.
    (56) On January 15, 1993, after agreeing to return to the United 
States on or before January 20, 1993, Mrs. Barlow and two children were 
admitted to the Villain Park in Rothrist, in the Canton of Aargau, a 
private hospital. Attached hereto as Exhibits A & B are certified 
copies of the doctor's certificate dated January 15, 1993, regarding 
the psychological state of Mrs. Barlow and Dwight Barlow. On said date 
Mr. Hug expressed concern to plaintiff's attorney, Mr. Steinegger that 
Mrs. Barlow and others may commit ``collective suicide.'' Mr. 
Steinegger requested police intervention and the presence of a social 
worker in the home to monitor the possible suicide-homicide of the 
Barlow-Bruegger family. The request was denied by Mr. Hug.
    (57) On January 18, 1993, Mrs. Barlow indicated that there could be 
problems if she leaves for the United States. The Swiss Central 
Authority gave its assurance that the problems would be immediately 
resolved in cooperation with the Embassy of the United States in Berne. 
Mr. Brian Flora, Consul General of the United States confirmed with the 
Swiss Central Authority that Mrs. Barlow would be given a 6 month visa 
for the United States and that said visa could be prolonged if 
necessary.
    (58) On January 19, 1993, Mrs. Heidi Koch informed Mr. Hug, the 
Administrative Clerk of the District Court of Olten-Gosgen, that she 
represented the interests of Mrs. Barlow and the children. She sent the 
Exhibits A & B to Mr. Hug. On January 19, 1993, Mr. Haefliger withdrew 
as Mrs. Barlow's attorney.
    (59) On January 19, 1993, Mrs. Koch announced that Mrs. Barlow and 
two of the children were in a hospital. Mr. Hug confirmed this 
information. The Swiss Central Authority insisted that Mr. Hug obtain 
an independent medical check-up of the children and to inform the 
police of the status of the situation in the Canton of Solothurn and 
Aargau.
    (60) On January 20, 1993 the authorities involved in obtaining the 
transfer of the children ascertained that the transfer of the children 
to the United States would not take place. Mr. Hug confirmed that he 
would not have the order executed so long as there were medical reasons 
against it.
    (61) On January 20, 1993 Mr. Hug requested a meeting of authorities 
under the auspices of the Federal Office of Justice with the 
participation of plaintiff and defendant for January 22, 1993. Mr. 
Keller, the Director of the Federal Office of Justice consented to lead 
the meeting.
    (62) On January 21, 1993, Mr. Hug arranged a meeting for January 
22, 1993, to discuss the Barlow matter. Mr. Hug, Dr. Keller, Mrs. 
Jametti-Greiner, Mr. Barlow and his attorney, Dr. Steinegger, Mrs. 
Barlow and her attorney were to attend. Although Mr. Hug wrote a 
strongly worded letter to Mrs. Koch, he stated that the meeting would 
be canceled if Mrs. Koch and Mrs. Barlow did not attend.
    (63) On January 21, 1993, Mr. Hug was informed by defendant's 
counsel, Mrs. Koch, that Mrs. Koch was not in a position to attend the 
January 22, 1993 meeting.
    (64) On January 22, 1993, Mr. Hug informed the Swiss Central 
Authority that a police action was planned for January 25, 1993 to take 
the children away and to use physical force if necessary. Mr. Hug again 
expressed concern about a ``collective suicide.'' Mr. Hug requested and 
obtained police surveillance of the home where defendant and the 
children were staying.
    (65) On January 25, 1993, the police and three social workers took 
the three Barlow children from the home of Mrs. Barlow's parents where 
Mrs. Barlow and the children had been staying and brought them to Mr. 
Barlow in Bern, Switzerland. The children were taken in their pajamas 
and shoes. Mrs. Barlow did not send any clothing, toys, blankets or any 
other items with the children. After being examined by a medical 
doctor, the children were permitted to leave the country with Mr. 
Barlow and his mother. The children arrived in the United States at 
8:00 p.m. on Tuesday, January 26, 1993. They are currently staying with 
Mr. Barlow, his mother, Mr. Barlow's brother and sister-in-law, and 
their two children (ages three and four) while Mr. Barlow sets up house 
for himself and his children.
    The defendant wrongfully abducted the children and had taken every 
step possible to avoid returning the children to the jurisdiction of 
North Carolina. Defendant has asserted that the children would be 
harmed if separated from her. However, defendant chose not to return 
with the children to the United States. Defendant checked herself and 
two of the children into a private hospital due to the extreme 
psychological stress she was under. The psychological stability of the 
plaintiff and defendant and other psychological factors need to be 
addressed and would be useful in the custody proceeding.

                                 ______
                                 

                                                  27 December 1994.
Office of Children's Issues, Bureau of Consular Affairs,
United States Department of State, Washington, DC.
    Dear Colleague: First of all, let me thank you for your cooperation 
during this year which has been really satisfying. I hope sincerely 
that we might continue in 1995 on the same basis.
    Allow me to draw your attention to a case on child custody pending 
before an American court. The Swiss Central authority has some concerns 
about the lawsuit in re Barlow v. Brugger, where after a divorce 
pronounced in Switzerland and a decree stating the return of the 
abducted children to the United States--the custody of the children and 
the access for a right to visit is pending before a court of North 
Carolina.
    As you may remember, in the present case, the Swiss tribunals 
decided the return of the three Barlow children in last instance after 
a very long procedure, avoiding nevertheless any relevance to the final 
attribution of the parental authority, this being considered, after a 
decision in favour of a return of the children to the United States, as 
being of the resort of the U.S. Courts.
    In the current procedure before the American court it has now to be 
decided to whom and under which conditions the parental custody will be 
attributed. As we were informed through our representation in Atlanta, 
there might be some possibility that the custody over the three little 
boys will be attributed to the mother, but that she will have to stay 
within the jurisdiction of that court (or at least within the United 
States) in order to give the father the opportunity to keep some 
contacts with his children. The Swiss Central Authority feels the need 
to underline that such a decision could create an important precedent. 
In the present case, the Swiss tribunals--in conformity with the Hague 
Convention--have ordered the return of the children to the USA although 
the later--owing to the many appeals lodged by Mrs. Barlow against the 
return--have already long been living in Switzerland.
    By ordering the compulsory enforcement of the return decree the 
Swiss authorities have shown more than clearly that they consider the 
correct implementation of the convention requirements as having 
absolute priority.
    Without interfering in the American procedure, we would like to 
stress the point that there are no objective reasons for any 
restrictions in the custody as far as the mother is concerned. Should 
the American tribunals nevertheless come to the conclusion that in the 
actual lawsuit the children should not be entrusted to the mother, or 
that she must necessarily exercise her rights of custody in the USA 
because otherwise the father and the children won't be able to get in 
contact with each other, this would certainly be interpreted in 
Switzerland as a rejection of the system set up by the Hague 
Convention. It would then hardly be conceivable that under similar 
conditions a Swiss judge would again order the return of American 
children. Such an attitude would be all the less understandable as the 
Swiss authorities had even resorted to police power in order to ensure 
the enforcement of the order for return and therefore scepticism about 
in the manner in which the Hague Convention functions in no way seems 
justified.
    Taking into account the numerous cases between Switzerland and the 
United States which have been settled in the spirit and in the respect 
of the Hague Convention, the Swiss Central Authority would deeply 
regret such a development. We thus encourage you to underline to the 
court the mutual functioning of the Hague Convention between our two 
states in order to preserve this fruitful cooperation.
            Very truly yours,
                             Nicolette Rusca-Clerc,
                                 Federal Office of Justice,
     Central Authority in Matters of International Child Abduction.

                                 ______
                                 

                         Defendant's Exhibit 4

                             barlow/brugger
Return
    The conditions which led to the compulsory enforcement of the order 
for return of the children follow from the summary of the circumstances 
which the Swiss Central authority sent the American Central authority 
on 25 January 1993 (s. annex).
    Indeed, it was necessary to resort to police power in order to 
ensure the enforcement of the Order as the members of the Brugger 
family and the mother of the children also resisted this order 
physically.
    The return was foreseen for January 21, 1993, at 9 o'clock in the 
morning. I presume that the police chose that time of the day because 
one could then assume that the children were already awake, dressed and 
had had their breakfast, but that it would be too early in the day for 
the children to have left the house together with their mother and/or 
grandmother. In fact the children were already awake at that time, but 
they were ``still in bed''. Besides the ``Oberamtmann'' Hug (the former 
collaborator of M. Brugger), the Head of the Cantonal police and 
several policemen of which some were women (constables or social 
welfare workers?) as well as the Cantonal doctor took part in this 
action, the doctor having rapidly ascertained whether the children were 
in a state to be removed from their home. Upon his positive medical 
diagnosis, the children were fetched out of the house despite the 
violent verbal abuse and physical resistance of the Brugger parents and 
of Mrs. Barlow-Brugger. At that moment the children were wearing 
pajamas or trainers and slippers. One of the women who were 
participating in the ``action'' quickly grabbed the clothes and jackets 
which seemed adequate to them. I can't remember exactly anymore if all 
the children really had jackets on.
    The children were immediately brought to the Cantonal hospital, 
where they were examined very thoroughly as to their state of health. 
This time the check-up was made in order to find out if the children 
would be able to travel to the USA. The children received a meal in the 
hospital. After a positive diagnosis the children were driven to Bern 
and there they were entrusted to their father.
    Personal opinion: The people who participated in this return action 
took very great pains indeed in order to ensure that the return of the 
children take place in the most calm and civilized manner possible, but 
the members of the Brugger family put up so many obstacles that this 
was not possible. Had one entirely renounced ensuring the return by 
physical coercion this would have meant that according to the events 
occurring till now the judicially confirmed decrees of last instance 
ordering the return of the children would not have been enforced.
    Of course, in this ``inferno'' it is understandable that the 
children were frightened. I then took care of one of the little boys 
and I was able to reassure him on the whole; I could also observe the 
same thing with the two other children.
Juridical considerations
    In the present case, the Swiss tribunals decided the return of the 
three Barlow children in last instance; an enforcement injunction 
obtained by Mrs. Barlow according to which the return could only take 
place if no coercion was resorted to, was rejected upon an appeal filed 
by Mr. Barlow, so that the legal position was clear. The Solothurn 
authorities let several months go by, before they enforced the judicial 
decision. During that time the ``Oberamtmann'' tried several times--
however in vain--to bring the defeated party to comply voluntarily with 
the judicial decision.
    The Swiss Central Authority for matters of international child 
abduction is not empowered to express an opinion about the functioning 
of Swiss justice; that authority also does not officially comment on 
(or criticize) any decision which is given in application of the Hague 
Convention on the civil aspects of international child abduction or of 
the European Convention on custody decrees.
    However, on the basis of the international Conventions the Swiss 
Central authority must see to it that the necessary and adequate 
measures are taken in order to ensure the safe return (ordered by the 
tribunals) of the children. It can therefore not tolerate that orders 
for return of children which have been given by Swiss Tribunals are not 
enforced.
The precedent created by the Barlow/Brugger lawsuit
    The current procedure creates an important precedent. In conformity 
with the Hague Convention the Swiss tribunals have ordered the return 
of the children to the USA--although the latter--owing to the many 
appeals lodged by Mrs. Barlow against the return--have already long 
been living in Switzerland. By ordering the compulsory enforcement of 
the return decree the Swiss authorities have shown more than clearly 
that they consider the correct implementation of the convention 
requirements as having absolute priority. Should the American tribunals 
come to the conclusion that in the actual lawsuit the children should 
not be entrusted to the mother, or that she must necessarily exercise 
her rights of custody in the USA, because otherwise the father and the 
children won't be able to get in contact with each other, this would be 
interpreted in Switzerland as a rejection of the system set up by the 
Hague Convention. It would then hardly be conceivable that under 
similar conditions a Swiss judge would again order the return of 
American children. Such an attitude would be all the less 
understandable as the Swiss authorities had even resorted to police 
power in order to ensure the enforcement of the order of return and 
therefore skepticism about the matter in which the Hague Convention 
functions in no way seems justified.

                                 ______
                                 

                                     Ty Cunningham,
                                               Austin, TX .
                                                September 30, 1998.
Hon. Jesse Helms,
United States Senate, Committee on Foreign Relations.

    Dear Senator Helms: I understand you are going to chair a Senate 
Foreign Relations Committee Meeting and Public Hearing on International 
Child Abduction tomorrow, October 1, 1998 at 10:00 AM. Please enter my 
story, following, into the official record.
    I beseech you to speak on behalf of me and the other U.S. Citizen's 
whose children have been kidnapped from American homes and parents 
against U.S. Court Orders. Too often the countries these are taken to 
are members of the United Nations and have signed the Hague Treaty, but 
refuse to acknowledge U.S. Court rulings and refuse to help return the 
kidnapped children back to America.
    This is especially troubling to me because of the illegal abduction 
of my U.S. American-born children to Brazil by their Brazilian National 
mother.
    Geneva and Felipe Cunningham were kidnapped to Goiania Brasil by 
their non-custodial mother 16 months ago. This was the third time that 
their mother kidnapped them, against U.S. court orders. I was awarded 
sole custody by Travis County, Texas Courts in my July 1997 final 
divorce decree. The Travis County District Attorney's Office has issued 
a felony arrest warrant for their mother, Vilma Lopes de Silva 
Cunningham.
    Even though I have been awarded full custody, Vilma Lopes da Silva 
Cunningham has filed a custody lawsuit petition through Letters of 
Rogatory in Brazilian courts, which were processed by our very own U.S. 
State Department, against me and my U.S. citizen children. My only 
choices are: to answer the lawsuit (effectively overturning U.S. Court 
jurisdiction) or to default in the Brazilian Court. The Brazilian 
courts are not recognizing jurisdiction over U.S. citizens, and the 
U.S. State Department is assisting Brazil in service of process against 
me.
    Again, I implore you and all of Congress to help in the return of 
internationally abducted, U.S. citizen children to their homes in 
America. Thank you for your sincere efforts.
            Cordially,
                                     Ty Cunningham.

                                 ______
                                 

summary of the abductions of mark larson's daughter, julia larson, from 
                the u.s. to sweden by her swedish mother
    My Swedish ex-wife, Sofia Ohlander, has unlawfully abducted our 
American-born daughter, Julia Larson, from the U.S. to Sweden 3 times. 
When we got married in Utah in 1989, Sofia assured me that she was in 
full agreement that we would live here in the U.S. and raise our family 
here. Our daughter Julia was born in Utah a year later. Julia will turn 
8 years old on August 13, 1998, and her mother has successfully 
prevented us even from seeing each other since Julia was 3\1/2\ years 
old.
    The first abduction took place at the end of a family vacation in 
Sweden during the Christmas/New Year holiday in 1990/1991. Sofia had 
been quite depressed after Julia was born, and upon her insistence we 
went on a visit to Sweden for the holidays to show Sofia's mother our 
new baby. However, instead of returning with me to Utah at the end of 
the visit, Sofia kidnapped Julia and went into hiding with her, and 
Sofia's family threatened me with physical violence if I didn't leave 
Sweden immediately. I contacted the Swedish police, but they said there 
was nothing they could do to help me. As I found out later, this forced 
retention of our daughter in Sweden was a violation by Sofia of the 
Hague Convention on the Civil Aspects of International Child Abduction.
    After 5 months I had managed to re-establish contact with Sofia and 
persuaded her to return with our daughter to the U.S. For the next 7 
months we again lived together as a family in our Utah home. Then one 
day, without my permission or foreknowledge, Sofia took Julia and 
hopped on a plane with her to Sweden. This abduction was Sofia's second 
violation of the Hague Convention.
    Sofia cut off all contact with me for several months, and would 
only communicate through her Swedish attorney, through whom she was 
demanding a divorce and sole custody of Julia. I attempted to negotiate 
a custody and visitation arrangement with her, but the only arrangement 
she was willing to agree to was sole custody and child support for her, 
with no visitation for me other than a vague provision that I could 
come see Julia at Sofia's apartment in Sweden on the occasions when I 
``happened to be in Sweden.'' After consulting with numerous attorneys, 
law-enforcement officers, and government officials in both countries, 
none of whom informed me about the Hague Convention, I finally came to 
the understanding that the state of Utah--which is the only place our 
family had ever lived and the only place Julia had ever lived with the 
agreement of both of her parents--was the proper jurisdiction for the 
divorce and custody case. I filed a divorce and custody suit in Utah, 
and a few months later I went to Sweden and managed to retrieve Julia 
and bring her back to Utah with me.
    Two months later Sofia filed a Hague Convention case against me 
(fully funded on her behalf by the Swedish government) in the federal 
court in Utah, alleging that I had violated the Hague Convention by 
``abducting'' Julia from Sweden to the U.S., and making no mention of 
the facts that Julia was born in the U.S. and was abducted from our 
family home in the U.S. by her mother and wrongfully held in Sweden, 
and that I was actually returning Julia to the country from which she 
had originally been abducted. Instead of serving me with notice of her 
Hague Convention filing, Sofia's lawyer had the record of the filing 
sealed and petitioned the court to issue an ex parte order (i.e. an 
order made without giving me any prior notice or opportunity to be 
heard) requiring any peace officer within the state of Utah to 
immediately seize my daughter from my physical custody and temporarily 
place her with Sofia pending the outcome of her Hague Convention case. 
The order also set the case for a prompt hearing and ordered Sofia not 
to remove Julia from the state of Utah. The alleged ``emergency'' 
falsely sworn to by Sofia as grounds for such an extreme ex parte 
measure was that, if the court did not have my daughter immediately 
removed from physical custody and turned over to Sofia without 
affording me any advance notice or opportunity to be heard, my daughter 
would somehow ``suffer some irreparable injury'' and/or ``be carried 
out of the jurisdiction of the Court'' before the Hague Convention case 
could be properly adjudicated.
    Less than 48 hours after Sofia obtained physical possession of 
Julia from me via the enforcement of the ex parte order which she had 
fraudulently obtained from the court, she hopped on a plane and fled 
with Julia to Sweden in willful, calculated violation of the order. 
Sofia was greeted at the airport in Sweden by a large gathering of the 
Swedish media, where she bragged about how she managed to sneak Julia 
out of the U.S. with the inadvertent help of the U.S. authorities. 
(According to the Swedish media, the plane tickets Sofia used for this 
abduction were purchased by a collection fund established for Sofia in 
her hometown of Sandviken, Sweden.) This abduction occurred 4\1/2\ 
years ago, and Sofia has illegally prevented me and my daughter from 
seeing each other ever since then.
    The federal court immediately ordered Sofia to return to Utah with 
Julia, which she refused to do, as a result of which the federal court 
found her in contempt and issued a warrant for her arrest. The court 
then made a second order which required Sofia to return Julia to Utah 
within 30 days and formally requested the assistance and cooperation of 
the Swedish Ministry of Foreign Affairs, as Sweden's Central Authority 
for the Hague Convention, in enforcing and facilitating Julia's return 
to Utah. The order was sent to the Swedish Ministry of Foreign Affairs 
by the U.S. State Dept., with an official request for Sweden's 
cooperation and assistance under the international treaty. The Swedish 
mother again simply thumbed her nose at the U.S. court, and the Swedish 
Ministry of Foreign Affairs' response to the United States' formal 
request for assistance was a one-sentence fax stating ``I would like to 
inform you that despite [sic] Ms. Ohlanders [sic] actions we cannot 
find any prerequisite of returning Julia to Utah according to the 
Hague-convention [sic].''
    At that point I filed a request for a final ruling by the federal 
court in Sofia's Hague Convention case, to which Sofia's lawyers 
responded by filing a motion to dismiss the entire case, based upon the 
disingenuous argument that there was no longer any need for the case 
since Sofia had already accomplished her purpose for filing the case, 
namely getting Julia out of the U.S. and back once more to Sweden. The 
court denied her motion, and after several more delay and avoidance 
tactics by Sofia's lawyers, I was finally able to get the case heard. 
In June 1995 the federal court entered its final Hague Convention 
judgment, ruling that all of Sofia's abductions of Julia from the U.S. 
were unlawful violations of the Hague Convention, that Julia's proper 
residence as viewed by the Hague convention was in the state of Utah, 
U.S.A., and had been so since her birth, and that my return of Julia to 
Utah was a lawful restoration of Julia to her proper residence. The 
judgment ordered both Sofia and myself to ``take all steps necessary'' 
to secure Julia's return to Utah, and formally requested Sweden to 
recognize and enforce the judgment under the Hague Convention. As 
before, this judgment was sent to the Swedish Ministry of Foreign 
Affairs by the U.S. State Dept., with an official request for Sweden's 
cooperation in its recognition and enforcement under the international 
treaty.
    Because Sofia continued to thumb her nose at the federal court, and 
the Swedish Ministry of Foreign Affairs continued in its stance of non-
cooperation, I was forced to travel to Sweden in the summer of 1995 to 
seek enforcement via a Hague Convention court action there. In that 
action, Sofia's lawyer argued that the U.S. Hague Convention ruling had 
no legal effect in Sweden and was not enforceable there, and that the 
Swedish courts had to ignore the ruling and ``independently try the 
case from the standpoint of Swedish law.'' I spent 2\1/2\ months in 
Sweden pushing the case through the trial and appellate court levels, 
during which time Sofia kept Julia in hiding and defied all efforts by 
me, my attorney, the U.S. Embassy, and the U.S. State Dept. to arrange 
for contact between me and my daughter.
    During the entire span of the court battles in the U.S. and Sweden, 
Sofia and her friends actively engaged in a very extensive media 
campaign for public support in Sweden, painting a picture of a poor, 
innocent Swedish mother and her Swedish daughter (without my knowledge 
Sofia had even officially registered Julia in Sweden as a Swedish 
citizen, with her birthplace listed as Sandviken, Sweden, and the 
Swedish authorities were totally uncooperative with my attempts to 
correct that false information) who were being harassed and terrorized 
by a powerful foreign-father ogre whom the daughter didn't even know 
and whose only motivation for trying to tear the poor Swedish girl away 
from the bosom of her Swedish mother and her Swedish ``homeland'' was 
to increase his own status and dominion. Instead of portraying the 
legal battle as being between the two parents, with the child being the 
subject thereof, the Swedish media consistently portrayed it as Sofia 
and Julia on one side (e.g., Sofia's lawyer was constantly referred to 
as ``Sofia's and Julia's lawyer'') heroicly battling for their rights 
against the harassments of the ``foreign father'' and his imperialistic 
country on the other side. Sofia was repeatedly quoted as saying that 
all she wanted was ``to be left in peace'' so that she and her daughter 
could ``live a normal life.'' the image was so compelling that it led 
to well over a hundred newspaper articles and television interviews, at 
least one full-length feature article in a popular national Swedish 
women's magazine, and a half-hour prime-time television docudrama which 
aired throughout Scandinavia, in which Julia was used as an actress to 
play herself in professional ``re-enactments'' of Sofia's rendition of 
Julia being ``abducted'' by her brutal American father and ``rescued'' 
by her Swedish mother, both of whom were played by professionals.
    In accordance with Sofia's arguments for non-recognition of the 
U.S. Hague convention judgment, the Swedish trial court completely 
disregarded the U.S. judgment and ruled not to return Julia to the U.S. 
The Swedish appellate court also failed to grant recognition to the 
U.S. Hague Convention judgment, but rightly reversed the Swedish trial 
court's decision and ruled substantially in accordance with the U.S. 
judgment, ordering Sofia to turn Julia over to me within 6 days for 
return to the U.S.
    Sofia continued to hide Julia from me, and she and her family and 
friends sharply escalated their campaign for public support through the 
Swedish media. Instead of portraying the Swedish appellate court ruling 
as the return of a wrongfully abducted child to her habitual residence 
and homeland, the Swedish media painted it as the ``extradition'' of a 
terrified little ``Swedish girl'' from her Swedish homeland and her 
heartbroken Swedish mother. The Swedish regional and national 
television news broadcasted daily updates on the ``heroic'' efforts 
being made by thousands of Swedish citizens to ``save'' Julia from the 
appellate court ruling, which efforts included daily protest 
demonstrations in the mother's hometown of Sandviken, mass visits to 
influential leaders in the Swedish government appealing for their 
intervention and thousands of signatures on petitions protesting the 
ruling and requesting the Swedish Supreme Administrative's Court to 
accept the mother's appeal and reverse the ruling.
    On August 28, 1995, Sofia filed her appeal in the Swedish Supreme 
Administrative Court, accompanied by the protest petitions she had 
solicited. Two days later, on the day before Sofia was required to turn 
Julia over to me pursuant to the appellate court's ruling, Sweden's 
Supreme Administrative Court granted Sofia leave to appeal and stayed 
enforcement of the appellate court ruling.
    Four months later, the Swedish Supreme Administrative court 
reversed the appellate court judgment, ruling that the Swedish courts 
must categorically disregard prior Hague convention judgments from 
other countries and independently re-adjudicate those cases (in other 
words, free the forum-shopping Swedish parent from the adverse ruling 
and allow them a fresh re-litigation in Sweden). In re-adjudicating the 
case, the Swedish Supreme Administrative Court completely disregarded 
and contradicted the recognized body of international Hague convention 
case law and the official commentary on the Hague convention, ruling 
that Sweden did not have to return Julia to the U.S. because the 
Swedish mother had succeeded in unilaterally changing Julia's residence 
from Utah to Sweden by virtue of her unlawful abductions of Julia from 
Utah and her success in forcibly retaining Julia in Sweden against my 
wishes for more than a year.
    Despite Sweden's refusal to recognize the U.S. Hague Convention 
judgment, the Swedish government fully funded an appeal by Sofia of 
that judgment to the federal court of appeals. The Swedish government 
also funded a concurrent extraordinary motion to have the federal 
district court set aside its own Hague Convention judgment, based upon 
the disingenuous argument that the Hague Convention requires the U.S. 
courts to recognize and defer to the Swedish ruling (even though the 
Swedish ruling explicitly refused to recognize or defer to the already-
existing U.S. ruling). After this extraordinary motion was denied by 
the federal court, the Swedish government funded an appeal of that 
denial to the federal court of appeals.
    The enormous sums of money which Sweden poured into Sofia's 
litigation in the federal court of appeals were not in vain, since that 
court ended up ruling, with a 2 to 1 majority to vacate the U.S. Hague 
Convention judgment and dismiss Sofia's U.S. Hague convention case, 
which the appellate court majority reasoned was necessary in order to 
``resolve'' the conflict which existed between the U.S. and Swedish 
Hague Convention rulings. Instead of fulfilling the accepted function 
of the federal court of appeals, namely reviewing the lower courts' 
judgments for their legal correctness, the majority expressed the view 
that it was the federal court of appeals' responsibility in this case 
to ``untangle the Gordian knot'' created by subsequent, conflicting 
Swedish ruling (which, of course, meant that they had to come up with a 
way to reverse the U.S. ruling, since that was the only side of the 
``knot'' they had any control over). In other words, by categorically 
refusing to recognize any U.S. Hague Convention judgments and be re-
adjudicating the entire case in their own citizen's favor, the Swedish 
courts succeeded in strong-arming the federal court of appeals and 
getting them to back down. The majority ruling also completely ignored 
the inherent Constitutional due process issue associated with their 
dismissal ruling, namely that the courts of this country are not 
allowed to deprive an American parent of his or her children without 
affording that parent legal notice and the opportunity to be heard, and 
without a proper adjudication of the merits of the deprivation. The 
majority's decision to vacate the federal district court's Hague 
convention judgment and dismiss the whole case (in essence, to forget 
it ever happened) after the federal district court had forcibly 
deprived me of my daughter ex parte, is equivalent to permanently 
depriving me of my daughter without affording me any notice, any 
opportunity to be heard in defense, and without any adjudication of the 
merits of the deprivation. this ruling, which is a published, binding 
precedent upon all federal courts in the 10th Circuit, was explicitly 
intended by the majority ``to provide courts with guidance in future 
similar cases.'' The majority concludes its arguments with the 
astonishingly backwards assertion that ``Failing to grant [the Swedish 
mother's] motion to dismiss also could create a new incentive for 
parents to flee Hague Convention proceedings in the hope of obtaining a 
second, more favorable Convention determination in another country.'' 
The very well reasoned dissent, which pointed out that the court of 
appeals is not allowed to base its review of the lower court ruling 
upon subsequently occurring circumstances which were not in existence 
at the time the lower court ruled (i.e. upon the subsequent, 
conflicting Swedish ruling), characterized the majority's ruling as 
``unjustifiably abandon[ing] the rights of a United States citizen in 
the name of international comity.''
    The Swedish government has also fully funded Sofia's participation 
in the custody action in the Utah state court, where I have been 
awarded permanent sole custody of Julia, based upon a determination of 
the ``best interests of the child.'' The Swedish government also funded 
an appeal of the custody decree to the Utah Court of appeals, and 
extraordinary motion to set aside the custody decrees, and an appeal of 
the denial of that extraordinary motion. The Utah court of Appeals has 
recently dismissed both of Sofia's appeals, and I am currently waiting 
to see if the Swedish government will force me to expend even more 
money by funding an appeal for Sofia to the Utah Supreme Court. Of 
course, Sofia is in open violation of the custody decree and associated 
money judgments from the Utah state court, where she has been cited for 
contempt on 4 separate occasions and a warrant has been issued for her 
arrest. Also, the Swedish courts have recently ruled that they will not 
recognize or hold Sofia in any way bound by the Utah custody ruling, 
and that Sofia may pursue her own custody ruling in Sweden, where she 
will undoubtedly be awarded sole custody and child support.
    So far Sofia and Sweden have forced me to expend over $80,000 in 
attorney fees and over $25,000 in lost wages and other expenses in 
defending against the harassing litigation which Sweden continues to 
fund against me in the courts of my own country, which litigation is 
explicitly aimed at depriving me of the parental rights which Sofia has 
already illegally robbed me of. Although Sofia has been ordered to pay 
me several thousand dollars in damages for her harassing litigation and 
her deliberate defiance of the ensuing court orders and rulings, I have 
no possibility of collecting any of those damages or of protecting 
myself against the continuing financial drain of defending my rights 
against this litigation. Because the Swedish government is only funding 
the litigation and is not an actual ``party'' to it, I have no legal 
recourse against them in this litigation, and because they continue to 
protect their citizen-litigant against all of the ensuring orders and 
judgments, I have no effective recourse against her either. In effect, 
Sweden is supplying its citizen with an endless supply of ``bullets'' 
to attack my legal rights in my own country, while at the same time 
erecting a ``bullet-proof'' wall of protection around her. She can thus 
with total impunity engage in endless, risk-free, cost-free litigation 
against me, with my only recourse being to irretrievably expend 
enormous amounts of money and time trying to prevent her from 
``legally'' robbing me of the parent rights which she has already 
illegally robbed me of. As a result, my wife and I are more than 
$45,000 in debt, and because of monthly loan payments and lawyer bills, 
my family (myself, my wife, our 2\1/2\ year-old daughter Natalie, and 
our 7 month-old son Benjamin) have been forced to live for the past 4 
years on a budget that effectively places us below the poverty level as 
defined by the U.S. government. On top of all this, the Swedish 
government has been demanding that I pay Sofia monthly child support 
and that I pay the Swedish government over 7 years of ``back child 
support,'' including for periods of time during which Sofia and I were 
still married and we were living together as a family here in Utah.
    More importantly, the once close father-daughter relationship which 
Julia and I shared has been destroyed by Sofia, with the active help 
and support of her country. Due to Sweden's well-established stance in 
favor of Swedish child-abducting parents, especially Swedish mothers, 
and against ``foreign fathers'' in general, there appears to be no 
mechanism available to help me even be able to see my daughter again.

                                 ______
                                 

    Dear Senator Jesse Helms: Please, present my case to the Foreign 
Relations Committee hearing held on Oct. 1. I have not heard from or 
about my children since January 1991. I want the U.S. Embassy to do 
more than simply tell me they don't know where my children are. I have 
heard most recently from a friend in Egypt that my children are and 
have been residing in Cairo all along. Neither the U.S. Embassy nor the 
Other government agencies have done any welfare and whereabouts checks 
in the last several years. They only sent back the birthday cards I 
sent them to hold onto for my children. The Vice Consul stated in his 
letter ``We have no place for such things and will let you know if we 
hear anything about your children.'' This is a cold and cruel response 
to send to a mother whose been waiting for seven years to hear anything 
that the Embassy is doing about locating my children. It is more than 
disappointing, it is ``Child Neglect.''
            Sincerely,
                                      Barbara Mezo.

                                 ______
                                 

                         Where are My Children

                            by barbara mezo
    I remember when my son Mohammed was first born. He was a forceps 
delivery and when he cried his little face only moved on one side. I 
sat with him everyday holding him while he was in the Neonatal 
Intensive care unit at Brooklyn Hospital, in New York. I did not worry 
or cry. I knew that he would be okay. I held him and tried to feed him 
through a small tube until he was healed and able to breast feed. These 
memories are all that I have now since his father AbdelAziz kidnapped 
him to Egypt in May 1988. Along with my little girl Leila, who was just 
learning how to speak in full sentences when she was taken. They were 
only age six and two at the time. It's been ten years now of pain and 
tears, Holiday after Holiday, after Birthday has gone by where I am not 
able to spend the precious moments of my childrens' growing.
    The last time I saw my two children was in Cairo, Egypt, January 
15, 1991, two days before Saddam Hussein of Iraq fired the first 
missiles on Israel causing the Middle East Gulf War. I did not know 
then that my children would also be taken to Libya in their father's 
defiance against my Egyptian custody order. I already had custody from 
the United States, but the State Department told me the U.S. had no 
jurisdiction in Egypt since their is no treaty with regards to child 
abduction. I believed the custody orders I obtained would be enforced, 
but they were not and I was led down a trail of tasks and documents 
which to date still leave me not knowing or having contact with my two 
American children.
    Dr. AbdelAziz Elmergawi, my ex-husband, is a U.S. Felon under the 
Parental Kidnapping Act. However, even so, there is no Provisional 
Arrest Warrant that enable authorities in a Foreign country anywhere to 
arrest him. He travels freely on both U.S. and Egyptian passports 
without restriction. He could be in your town too! I need help from 
caring and concerned people. I am asking that people write, or fax 
letters to the U.S. Attorneys office in Washington D.C., and demand 
that a provisional arrest warrant be issued so that my two children and 
I can be reunited again.

                                 ______
                                 

                  from the parent of priscilla howard
Impact Statement
    My child was illegally abducted out of the United States between 
the 05th of March 1994 and 06 March 1994 to Germany.
    Germany demands parental kidnappers fleeing to the United States be 
extradited back to Germany and they are. Germany however will not 
extradite her citizens for Parental kidnapping to Germany.
    Germany does not honor the Hague Treaty with the United States. Had 
I applied for a Hague petition to recover my abducted child it would 
have a cost of $10,000.00 and Germany would have refused the return of 
my kidnapped child.
    Another ploy my assailant used was to keep her where-abouts 
unknown. Once a child is settled in Germany for a year a Hague Petition 
will not return the child. All I had to go on was that my child as at a 
Temporary address in Germany for 3 months. It took over 18 months to 
determine my child was settled in Germany after her abduction. I have 
had no contact what so ever with my child since 1994. I have U.S. 
Custody of my child. I just received a letter from the U.S. Postal 
Service and the letter just verified I still have no address for my 
abducted child.
    My Parental kidnapping case is therefore a non Hague Parental 
Abduction to Germany. NCMEC Case No# 847890 NCIC Case No MO4981559
    The abductor of my child, Elfriede Howard, is guilty of violating 
the United States Parental Kidnapping Act that became law in December 
of 1993.
    The United States has been forced to adopt new laws because of 
Germany and other countries do not honor the Hague Treaty with the 
United States regarding the return of American Citizen Children 
illegally removed from the United States. House Res. Bill #224, is 
titled the International Parental Abduction Bill. I encourage everyone 
to vote for this necessary and essential bill.
    I was Awarded U.S. Custody of my Child Priscilla Howard on 05 
December 1994. This Decision was decreed from the Cochise County Court 
in Arizona DR94000284.
    The German Children's Social Services is under orders from my 
child's abductor to provide me with ``keine Auskunift'' ``No 
information whatsoever'' regarding my child. I sent them a certified 
copy of my American Custody order with a translation. My child does not 
receive gifts or letters I send to her. I do not believe the address 
that appears on German court documents is where my child resides. 
Germany will not allow the U.S. Consulate to perform a welfare check of 
my daughter. Parent Alienation Syndrome is profoundly supported by the 
German government. Germany does not honor American Custody orders. 
Germany always gives custody to the German Abductor despite standing 
custody orders from other countries.
    On 01 June 1998 I received from a U.S. Marshal a German court 
summons to attend a hearing to determine how much child support I must 
pay the abductor of my child. I have U.S. Custody and I am certain that 
Germany has no jurisdiction over me as a U.S. Citizen living in 
Arizona.
    Germany has bilateral agreements with all states and they 
specifically stipulate that American courts cannot alter in any way 
German Court decisions. Germany does not honor the Hague Treaty and 
going to a German civil court is even more profoundly unfair to Non-
Germans. I do not know if Courts in Sister states would uphold a German 
court decision regarding child support for an illegally abducted child. 
It is becoming more and more difficult to have a provisional warrant 
issued by the FBI since Germany will not extradite her citizens for 
Parental Kidnapping. Without a warrant for parental kidnapping how 
would future left behind parents be treated when Germany uses these 
bilateral agreements for kidnapped American citizen children? Using 
American civil courts could be a way abducting Felons could siphon 
American Dollars out of the United States.
    France is having the same problem with Germany. Here is an e-mail 
from a French woman who asked people in our support group to help her 
in her fight to prevent her child from being sent to Germany for court 
ordered visitation. We all banded together and sent Faxes and letters 
to President Chirac begging him not to allow this child to be sent to 
visit the non-custodial parent in Germany since it would result in lost 
custody. The German courts, I reiterate are unfair to Non-Germans!
    Here is a request from a French Woman asking us for action 
regarding Germany's reputation for Parental Kidnapping. I do know if I 
agree with her action to go on a hunger strike. Her fear that Germany 
does not comply with the Hague Treaty and that she will never see her 
daughter again are very real! Her call for action follows:

                            call for action
        Dear Friends and fellow victims,
          Karine Koch from France has been ordered by a French Court to 
        return her 9 months old daughter Ann-Valerie to Germany on 
        September 11, 98. Everybody knows that if she does return Ann-
        Valerie, SHE WILL NEVER SEE HER AGAIN.
          Germany does not comply with the Hague Convention, never 
        gives custody to the non German parent and does not enforce 
        rights of visitation while other countries do. If the Alien 
        parent is given custody in his own country, the child will not 
        be returned after the first visitation in Germany and the 
        German parent will obtain custody in Germany. No matter what is 
        the legal decision, IN DEALING WITH GERMANY YOU ALWAYS END UP 
        SCREWED UP!!! Enough is enough! Germany and our weak 
        governments need a lesson. ``SOS Children's Abductions by 
        Germany'' has created a Support Committee for Karine who 
        refuses to return Ann-Valerie. Karine will start a hunger 
        strike on Monday, September 7, 1998, Place Vendome in Paris 
        right at the Ministry of Justice which serves at the Central 
        Authority for France. Until the decision is reversed she will 
        not feed herself; this is very courageous and she's putting her 
        life in line.
          The media have been alerted and will cover Karine's fight for 
        her baby. The TV will be following her from the beginning until 
        the end. This will bring a lot of attention to our cause. 
        Karine is not doing this only for her or for German cases: she 
        fights for our common cause: Internationally Abducted Children. 
        ``SOS Children's Abductions by Germany'' is an official member 
        of the P.A.R.E.N.T. Coalition. They need our help and support.
          Please, starting now, write or call massively to: President 
        Jacques CHIRAC, Palais de L'Elysee, 55 et 57, rue du Faubourg 
        Saint-Honor, 75008 Paris, France.

    I shared my experiences with President Chirac along with many 
American left behind parents. I am told France required the German 
parent to go to France for visitation because of concerns with 
Germany's reputation.
    In closing I would like to say that one of the most appalling 
things I have ever experienced trying to enforce my American custody 
order in a German court. Germany typically awards custody to the German 
citizen abductor regardless of justice! American Left behind parents 
are treated unfairly in German courts. Germany has essentially torn up 
the Hague Treaty with the United States and other European countries! I 
feel we should do the same with Germany! I believe that is the only way 
we are going to correct this problem by forcing Germany to come to our 
courts to resolve problems. This suggestion would ensure fairness. 
Germans are not fair to non-German left behind parents. That is why 
this hearing is being held.
    One thing Germany has done to me that I know has happened to many 
other American left behind parents. America needs to address this; When 
the custodial American parent goes to a German court in an attempt to 
recover a kidnapped child, Germany serves the searching parent with a 
subpoena. It is a motion to transfer custody to the victim's German 
assailant! Americans should be warned, NEVER SUBMIT TO GERMAN COURT 
JURISDICTION! German courts always give the German abducting parent 
custody. This is a total disregard for American law! The purpose of 
House Resolution Bill 224 is to address the problem that civil means of 
recovering an Internationally Abducted child never brings the child 
home! I believe that bilateral agreements courts have with Germany need 
to take full jurisdiction over all issues. The clause that prohibits 
German Decrees from being altered by American courts should be 
stricken. Germany disregards American Court decisions. American Courts 
should therefore take jurisdiction over issues of custody, visitation 
and child support in this country.
    As a victim of Parental Kidnapping I am enclosing letters to 
Senators, and Lawmakers that point out problems I have encountered. I 
have included suggestions to fix the overwhelming dilemma of 
International Parental Abduction.
    I will provide this panel with any document requested. I will send 
any document I have to any lawmaker for the asking.
    I Sincerely thank you for your interest in this very emotional 
matter.
                                  Joseph R. Howard,
                                           Priscilla's Dad.
                                                    Sept. 23, 1998.
Hon. Madeleine K. Albright,
Secretary of State.

    Dear Madame Secretary: I'm writing to you about the illegal 
abduction of my daughter (Namet Beydoun) over 4 years and 9 months ago, 
she was taken to Sidon, Lebanon. I was not allowed to see or even talk 
to my daughter until December 1997. Sept. 10-16 was my most recent and 
2nd visit to see my daughter. God is good! This time her heart was more 
open and receptive to me.
    The case file is active with the Office of Children's Issues, U.S. 
Dept. of State; thus, I will not go into greater details, other than in 
the past. I have had very little positive action with the office, 
instead, it has been mostly confrontational.
    However, now I have a very important request. I wish action to be 
taken from your office to recognize an employee who has done her job 
and done it with all diligence. Ann McGahuey, who now handles my 
daughters case has and is doing everything in her prescribed capacity 
to enable communication between me and the American Embassy in Beirut, 
between me and my daughter and her family in Lebanon. IT IS WORKING! 
The family in Lebanon mentioned to me during my recent visit, perhaps 
they will let my daughter visit me in the U.S. (I'm sure this will take 
more visits and trust building time). Four years and nine months is a 
long time of propaganda to be fed to a child. (This is why I 
desperately needed communication advocacy from the above mentioned.)
    Ann McGahuey has literally been terrific! On my recent trip to 
Lebanon, Sept. 9-16, 98, I was bumped on my return flight; due, to 
previous death threats in past years, by my ex-husbands family to me, 
my family here in Texas went frantic when I did not return. Ms. 
McGahuey went into action, tracked me down and possibly saved my mother 
from a severe physical attack or problem.
    In the past I have openly complained to our U.S. media about the 
inaction of the Office of Children's Issues. Now I want to give credit 
where and when it is greatly due, as well, to our U.S. media.
    However or whatever your process of recognition is for an employee 
who has done a job well done please do it.
    This is extremely important to me. My daughter is my life and for 
years I have struggled just to see her.
    Whatever your procedure of recognition for Ms. McGahuey, please 
send a hard copy to me, as I am in personal need to know she has been 
recognized.
    If you should need any additional, please contact me.
            Sincerely,
                                     Terri Beydoun.

                                 ______
                                 

                                                September 29, 1998.
Hon. Jesse Helms,
Chairman, Committee on Foreign Relations,
U.S. Senate, Washington, DC

    Dear Senator: I am submitting for the record my statement about the 
difficulties involved in the illegal abduction of my daughter, Namet 
Beydoun, (now age 14) to Sidon, Lebanon, by her father 4 years and 9 
months ago.
    At the time I filed for divorce, I requested supervised 
visitations, for her father, until my daughter reached the age of 12, 
because of previous threats from him, that he would take her. (My 
request was denied). At one time I refused to give my daughter to her 
father for his weekend vacation. I had a feeling he was going to take 
her. The police were called and I was advised by my attorney and the 
police officer; that I could and would be found in contempt of court: 
thus, the father would gain custody of my daughter, and then he could 
take her anywhere he wanted. (The police officer offered in his written 
report; that I appeared paranoid.)
    Due to fact I had been married to my ex-husband for many years, I 
was aware of the fact that my ex-husband could not obtain passports for 
my daughter without physical presentation, in person to the Embassy of 
Lebanon and the Embassy of Cyprus, or a notarized statement by me 
telling the Embassies that I gave my permission that they issue her 
passports for their countries. He forged my signature, both for the 
Embassy of Lebanon and the Embassy of Cypress and obtained passports 
for her. An employee of the STATE OF TEXAS, notarized these forgeries. 
(I sued the State of Texas, for money needed to try to recover her. The 
State of Texas acknowledged the negligence but claimed immunity, the 
case was denied). I had possession of her USA passport and had 
requested that Passport Services not issue another one.
    At the time my daughter did not come home from her weekend visit 
with her father and I had checked all other possibilities, I went to 
the Police station, The officers there treated me in a belligerent, 
demeaning way, not wanting to report her missing. One officer even had 
the audacity to tell me, ``Well honey, you made your bed, now lay in 
it.'' Finally after pleading, begging and crying, the police did put 
her in the NCIC. The police investigator assigned to the case was 
either on vacation or sick. No one ever was really sure which. (At the 
time bad weather had closed Kennedy down and time was of great 
importance). After a battle with the police dept. I went to the local 
media and then the FBI took over and warrants were then issued.
    Until 2 years ago I didn't have any contact with any support 
groups, or advocacy organizations for parents of Int'l Abducted 
children. I was unable to get any information about them. The National 
Ctr hadn't even told me there was an international division, within 
their organization.
    Until 1 year ago I had no personal contact with our United States 
Embassy? Beirut, Lebanon. Certainly not for my lack of trying!
    With the exception of Ann McGahuey, Office of Children's Issues, 
U.S. Dept of State, (who took my case) any contact with this office 
were confrontational and emotionally devasting. I would FAX information 
to this office and repeatedly be told I needed to FAX the same 
information. With FAX confirmations in my hand, I was told I had not 
done it, After reading the handbook on International Parental 
Abduction, by the U.S. Dept. of State, I was very aware our government 
was in no way going to try to recover my daughter. Time after time, I 
had to listen to the caseworkers in the Office of Children's Issues 
tell me this. Again as I have complained about my treatment from this 
office, I must once again put into statement that Ms. Ann McGahuey, has 
done every thing I believe that she could do under official directives. 
(Her treatment to me and help on my case has been wonderful).
    My own U.S. Texas Senator, Kay Bailey Hutchison's office, 
(constituent staff aide, Carolyn Kobey, sent me a letter and said my 
problem was of a personal nature and there was nothing they could do). 
At this time I was only trying to get someone to try to facilitate some 
type of communication with the Lebanese or someone of influence to help 
talk with the family in Lebanon, so that I might just see my daughter, 
not physically recover her. Thus I was forced to stage a demonstration 
around the Fed. Building, Lubbock, Texas, just to get any reaction from 
my Senators offices. It did not work. However, I have had many 
concerned citizens call me and tell me just what Carolyn Kobey of Kay 
Bailey Hutchison's office told them, that I was crazy out of my mind 
and unemployed. I have testimony from these individuals on this fact. I 
had to go to the media every time I needed any reaction from my own 
elected government officials. All I was looking for was a way to 
communicate with my daughter, or just merely establish a relationship 
with the U.S. Embassy in Beirut. I have never been sure what the office 
of Senator Phil Gramm has done. I would ask them to tell me what was 
being done and the staff aides would tell me, ``just be assured the 
Senator is doing all he can.''
    As my telephone and correspondence records well reflect, I have 
tried to contact everyone from the United Nations to Ross Perot. My 
list of lamentations goes on and on.
    As far as our U.S. government help goes, only the office of the 
Honorable Jesse Helms, the office of U.S. Rep. Larry Combest and Ann 
McGahuey of the Office of Children's Issues, have done anything to help 
in any way. However, I did get to see my daughter, for the time in 
December 1997 and then again in September of this year. The visits were 
very short, well supervised. Not until this last visit was I even able 
to sit with the child that was born from my own body.
    THE GREAT HAND OF GOD, REACHED OUT! He knew the desires of my heart 
and allowed me to see my daughter, not once but twice. As you can see I 
had tried everything I could, even a mercenary organization. Now I 
believe it is a matter of time and once again pressure on the family 
where my daughter lives. Finances have become a very big issue. 
Throughout almost 5 years, I as most parents of int'l abducted children 
have nothing but debts. and it seems there is no help for a parent to 
help re-establish a relationship their rightful relationship. No help 
with the Airlines, accommodations, transportation, etc. God willing I 
will find the finances that need to keep an knocking on the door of the 
house my daughter lives.
    I am at this time concerned about some of the advocacy 
organizations, that continue to represent us parents. In the recent 
past I have seen almost fraudulent behavior out of these groups.
    I thank the Committee on Foreign Relations for allowing this to be 
put into public record. Honorable Senator Helms, I thank God for you 
and your office.

        Suppose one of you has a hundred sheep and loses one of them. 
        Does he not leave the ninety-nine in the open country and go 
        after the lost sheep until he finds it, he joyfully puts it on 
        his shoulders and goes home. then he calls his friends and 
        neighbors together and says, `Rejoice with me; I have found my 
        lost sheep.' Luke 15:4-6
            Sincerely,
                                     Terri Beydoun,
                                            Lubbock, Texas.

                                 ______
                                 

Senator Jesse Helms,
United States Senate,
Committee on Foreign Relations.
    Dear Senator Helms: My name is Mitchell Goldstein and I am a left-
behind Parent in Georgia. I understand that on Oct. 1, you have called 
a special meeting of the Committee on Foreign Relations to hear the 
matter of International Child Abduction.
    It is my understanding that parents are invited to submit their 
story to be placed on the record. I would be very interested in not 
only having my story made part of the record, but also having the 
opportunity to speak about my case before the committee or at this late 
date attend the meeting. My case is a classic example of a contracting 
country (Switzerland) not complying with the Hague Treaty. I am ready, 
willing and able to testify before this committee if so asked and at a 
minimum would request that you would speak on my behalf and assist me 
in the recovery of my daughter.

To follow is a brief outline of my nightmare:

          On or about September 4, 1996 my Swiss ex-wife abducted our 
        then 4-year-old daughter, Kelly Goldstein (whom I have custody 
        of) and took her to Switzerland.
          Since that time I have been in the Swiss Courts seeking the 
        return of Kelly via the Hague Convention on the Civil Aspects 
        of International Parental Child Abduction. After numerous 
        failed appeals filed by my ex-wife, the Supreme Court of 
        Switzerland ordered her to return Kelly to the USA in a final 
        decision rendered 9/97.
          In September, I traveled to Switzerland to bring Kelly home. 
        Once there, my ex-wife again took Kelly and went into hiding. 
        After three frustrating weeks trying to bring closure to this 
        nightmare, I was left with no choice but to return home alone.
          On October 15, 1997 I returned to Switzerland to bring Kelly 
        home after Swiss authorities had informed me that her mother 
        had turned herself in. However once there my former wife again 
        refused to comply with the Court order and authorities refused 
        to enforce the order. I was almost arrested at the Zurich 
        airport after my former wife made a scene during what was 
        supposed to have been her compliance with the court order.
          After this attempt to bring Kelly home, my ex-wife had her 
        put in a foster care facility in Switzerland against my wishes. 
        Swiss authorities seemed unconcerned that there was a verdict 
        from the highest Court in the country ordering Kelly be 
        returned to the USA.
          Prior to the date Kelly was to be released from the foster 
        care facility (approximately two weeks later), I returned to 
        Switzerland to bring her home. I was to meet with her for three 
        days to get reacquainted before returning to the U.S. with her. 
        On the day prior to bringing her home, my ex-wife trumped up 
        new allegations and petitioned the courts to re-open the case. 
        Once again I was forced to leave Switzerland without my 
        daughter.
          My ex-wife then filed new appeals based on these latest 
        allegations. After another year went by, the Supreme Court on 
        September 7, 1998 upheld all lower court decisions denying my 
        ex-wife's attempt to reopen the case. I am now faced with 
        trying to have the order enforced again.

    Just prior to the abduction, my ex-wife remarried. Her new father-
in-law, Thomas Pfisterer is a politician in Switzerland and is 
assisting her in ignoring the court orders. After the foster care 
episode, my ex moved to the same Canton in which her father-in-law 
resides and is in office. Obviously in an attempt to further hinder the 
return of Kelly.
    Your assistance in the return of Kelly would be hold me forever in 
your debt. You may contract me at my office (770) 308-3320, home (404) 
233-6498 or by mail at 3636 Habersham Road Condo 2110 Atlanta, GA .
            Sincerely,
                                   Mitch Goldstein.

                                 ______
                                 

                                 Violaine Delahais,
                                                 Mesa, AZ ,
                                                September 29, 1998.
U.S. Senate Foreign Relations Committee

Re: October 1, 1998-Hearing on International Child Abductions

    Dear Members of the Foreign Relations Committee: Thank you for 
trying to actually do something about our missing children.
    I am part of the P.A.R.E.N.T. International coalition for which I 
am the Director of Affairs for France. I am a French citizen and a 
permanent resident of the United State of America. I will be an 
American citizen in two years as well as my son Rayan El Kadi and I am 
proud of it. Parents among our advocacy group struggle together, along 
with organizations worldwide, to bring our children home. I was in 
Arlington, Virginia on September 15 and 16, 1998 attending the NCMEC 
Forum on the Uses and Abuses of the Hague Convention.
    I understand that you need statements on the subject of 
International Child Abductions for your next hearing and I would like 
to take this opportunity to give you some details on my case which is 
the result of an incredible miscarriage of the American justice.
    My son, Rayan, age 7, was abducted by his non-custodial father, 
Imad Nadim El Kadi for the second time on October 17, 1997. I have had 
no contact with Rayan since; however, he has been located in Beirut, 
Lebanon, the native country of my former husband.
    Imad El Kadi was indicted by a Maricopa Grand Jury in May 1997 for 
the first abduction that occurred in 1994 and while he was on bail, 
Judge Barry C. Schneider form the Mesa Superior Court of Justice, 
issued an ex-parte Emergency Temporary Custody Order in his favor on 
October 16, 1997, without previous notice to me. Judge Schneider simply 
ignored the case's history of four years of litigation in three 
different countries and made the biggest mistake.
    On October 17, 1997, El Kadi, who is not and has never been a legal 
resident of the United States of America, with the help of his lawyer 
and four men, violently snatched Rayan from school and disappeared with 
him. His Temporary Custody Order was quashed by Judge Sherry Hutt from 
the Phoenix Superior Court on October 23, 97 but it was too late.
    After the first abduction, in November 1994, I went to Lebanon and 
retrieved Rayan with the help of private services. A warrant for 
questioning has been issued against me in Lebanon although El Kadi had 
not and still does not have a Lebanese Custody Order granting him 
custody of Rayan. There is no way that I can go back to Lebanon without 
being arrested.
    The second time, Rayan was abducted with the assistance of an 
American Judge. I filed a compliant against Judge Schneider and he 
appeared for a confidential hearing before the Commission on Judicial 
Conduct on January 16, 1998. My complaint was dismissed and the case 
was closed with no explanation.
    I have filed a Bar Complaint against El Kadi's lawyer, Cheryl L. 
Sivic who claimed her Fifth Amendment Privilege when she was questioned 
by Judge Sherry Hutt about the possible location of my son on October 
23, 1997; she committed perjury in the Mesa Court in order to obtain 
the ex-parte Order. My complaint is still pending.
    However, these proceedings will not bring Rayan back. I need all 
the help and the assistance I can get to bring my son home. The UFAP 
Warrant was issued eight months after the abduction when it took less 
than three months in 1994! This allowed the FBI to finally request a 
red notice from Interpol in June of 1998. But last week the request for 
extradition was officially denied by the County Attorney's Office 
because ``extradition is too expensive''. Therefore, Interpol will only 
be able to issue a yellow notice (last priority).
    Obviously, I did not succeed in explaining that I am just trying to 
secure the future. With the many friends and relatives that my ex-
husband has in Europe, it is very conceivable that he will try to enter 
a country where Interpol could arrest him. Knowing that a request for 
extradition had been issued, it could prevent him from traveling again. 
I had long talks with my FBI Agent and we agreed that my part is to 
bring my son back because nobody else will do it for me and I always 
knew that. Law enforcement's job is to protect us from a third 
abduction once Rayan is back. That why I wanted so bad a ``request for 
provisional arrest'' as a threat that would keep the abductor a 
prisoner in his own country. There is very little chance that the 
abductor will ever be arrested and actually extradited. The State of 
Arizona does not have to fear for it's money.
    Why should we victims have to beg, cajole, and grovel, before 
public officials to get them to do their jobs?
    My FBI Agent, Bob Caldwell, who is doing a great job, always faces 
the same obstacles:

          (1) No cooperation or communication is possible between U.S. 
        and Lebanon,
          (2) A lot of avenues are not available because I am not yet 
        an American citizen.

    Yet, I feel that I deserve some consideration from a system that 
has allowed my son to be kidnapped for the second time and has taken 
eight months to issue a basic warrant. Imad El Kadi has defied the 
American system, the American Justice and the American laws twice and 
that should be sufficient to motivate this country to stop him 
regardless of my son's citizenship. Senator John McCain has taken 
interest in my case and I am grateful for that.
    My point is: in most of the abduction cases that I know of, a 
pattern can be found: they could have been prevented. And knowing that, 
you understand the deep frustration of the left-behind parents. 
Prevention can be done through information (most of the judges and 
lawyers are ignorant about this issue) and SANCTIONS. Why should an 
abductor think twice before committing this terrible crime when he/she 
and his/her accomplices have to fear no consequences of their act?
    We need awareness about this issue and strong measures need to be 
taken against abductors and their accomplices as well as measures 
against the countries who protect these criminals.
    The way Saudi's Embassy employees treated the grieving American 
mothers on September 23, 1998 in front of an horrified American crowd 
shows the cruel and sad reality: America is no longer respected and 
that is not tolerable.
    America is the most courageous country in a lot of areas: I wish 
France would have the initiative to bomb terrorist countries instead of 
welcoming terrorist leaders from all over the world and provide them 
with medical care and nice castles paid with the taxes of the French 
people.
    America can and needs to be a leader in becoming an example in the 
issue of International Child Kidnapping: show the world that you will 
not accept that children will be taken out of their country and away 
from their family.
    If other countries would know that when a child is taken from 
America and wrongfully detained somewhere in the world, these countries 
would stop receiving any help from America and that a rescue team would 
immediately come and get this children back home, I bet abductions 
would become exceptions instead of an ever growing problem.
    I know these are extreme measures but remember: we are dealing with 
extreme people. Holding children as hostages and as a means of 
blackmail against the other parent is a terrorist act and when we face 
terrorism the regular rules are not applicable because they are not 
effective.
    I might sound naive to you but America is the world's leader: what 
are you waiting to implement new rules and have them enforced by and 
means? You will only get more respect from your fellow Americans and 
everlasting gratefulness from our children and left-behind parents.
    I sincerely thank you for your time and your effort in helping our 
children. We need more politicians like you.
            Very truly yours,
                                 Violaine Delahais,
              P.A.R.E.N.T., Director of Affairs for France,
Mother of Rayan El Kadi, 7, abducted to Lebanon for the second time 
                                                       on 10/17/97.

                                 ______
                                 

                                    John J. Lebeau,
                                    Palm Beach Gardens, FL,
                                                   August 10, 1998.
Senator Jesse Helms,
Chairman, Senate Committee on Foreign Relations,
Washington, DC.

Re: Your June 3, 1998 letter to Madeleine Albright; and my struggle 
with the Justice Department regarding the international parent 
kidnapping of Ruth and Luke Lebeau to Denmark.

    Dear Chairman Helms: Thank you for your outstanding efforts on 
behalf of missing and abducted children throughout the world, and 
specifically those being illegally retained in several European 
countries. I am speaking of course of those countries such as Denmark 
that are signatories to the Hague Convention, but are, in numerous 
cases, in direct non-compliance with the unambiguous terms of this 
treaty.
    In addition to the problems we are experiencing overseas, left-
behind parents such as myself are fighting a different, but no less 
exasperating battle right here at home, in our efforts to have our 
children returned. We are experiencing an almost inconceivable 
resistance from the Justice Department to pursue violators of the 
International Parental Kidnapping Crime Act of 1993. And in my own case 
it has gone to the extreme level of having now to initiate legal action 
against the United States government, as per my enclosed letter of 
August 4, to Ms. Donna Bucella.
    In addition, I would like to second Mr. Paul Marinkovich's support 
of your efforts as per his letter to you of July 30, 1998. Paul and I 
are Co-Executive Directors of a non-profit organization called 
International Child Rescue League, Inc. which we have formed to help 
resolve these monumental problems which are victimizing countless 
children throughout the world.
    Finally, I would like to offer my time to appear in Washington for 
any or all meetings, conferences, or even congressional hearings that 
may take place in regards to this issue. I would even Sir be willing to 
come visit with you alone to share more detailed information regarding 
my specific experiences and insight in an effort to alleviate this 
tragic situation.
            Sincerely,
                                    John J. Lebeau.

                                 ______
                                 

                                    John J. Lebeau,
                                    Palm Beach Gardens, FL,
                                                    August 4, 1998.
Ms. Donna A. Bucella,
Director, Executive Office of U.S. Attorneys,
U.S. Department of Justice, Washington, DC.

Re: United States Attorney Southern District of Florida's case 
investigation of the international parental kidnapping of Ruth and Luke 
Lebeau to Denmark

    Dear Ms. Bucella: It is with great regret that I must write to you 
once again regarding the above referenced case and the way it is being 
handled by the (USAO) for the Southern District of Florida in West Palm 
Beach.
    To begin, I would first like to comment on the letter I received 
from a Marcia W. Johnson of your office dated June 15, 1998. I am 
particularly offended by both the tone and content of Ms. Johnson's 
letter. First, by not responding to my letter of May 27, 1998 yourself, 
Ms. Bucella, you are clearly implying that its purpose is not of 
significant importance relative to your other daily activities, and I 
am taking that as a personal insult to my intelligence, a determined 
avoidance by your Southern District office to follow through with this 
investigation to the best of their abilities and with the full power 
provided by federal statutes, and a grave lack of human empathy for my 
twin children who have been seriously victimized by this heinous crime.
    Accordingly, please explain why Ms. Johnson uses the term 
``alleged'' to describe the illegal, international retention of my 
children by Mette Lebeau. As I can assure you that Ruth and Luke Lebeau 
are not back in the U.S. and in my custody, as per the Danish High 
Court Order of November 12, 1997, a copy of which was furnished to 
(AUSA) Carolyn Bell over seven months ago, the illegal retention that 
Ms. Johnson has referred to in the third line of her letter, is indeed 
a fact, and not merely an allegation.
    Secondly, Ms. Johnson states that the (USAO) and the FBI ``have 
been actively investigating the matter involving your wife's retention 
of your children . . . for some time.'' That statement Ms. Bucella, is 
so ridiculously vague that it again is an insult to my intelligence, 
for I know as a fact through my conversations with other law 
enforcement officials that the (AUSA)'s investigation was begun a mere 
19 days before my letter to you of May 27, 1998. This despite my urging 
Ms. Bell and Mr. Neil Karadbil of her office to initiate an 
investigation since March 1997. Their excuse for not doing so at that 
time, and as per Ms. Johnson's letter, was that ``by law,'' I had to 
exhaust all of my civil remedies first. This statement I have also 
discovered to be either an outright lie, or a gross misunderstanding of 
the authority of their positions. Ms. Bucella, in response to this 
letter, please prove to me that the law required me to exhaust my civil 
remedies before a federal investigation for violation of the 
International Parental Kidnapping Crime Act of 1993 could commence.
    As if that is not intolerable enough, when they finally did begin 
to investigate this case some 14 months later, they began with a direct 
violation of the National Child Search Assistance Act (Public law 101-
647; 42 U.S.C. 5779, 5780); and, may I remind you, that I have the 
facts to prove it.
    Thirdly, Ms. Johnson states that the case was further delayed due 
to the necessity to investigate allegations of abuse which were made by 
my wife, ``as it would be an affirmative defense to the kidnapping 
offense if (my) wife were fleeing from domestic violence.'' Ms. 
Bucella, please prove to me that specific allegations of violent abuse 
were made by Mette Lebeau. I think you will find that extremely 
difficult for the only allegations that Mette Lebeau ever made were 
emotional in nature, and had absolutely no relevance to domestic 
violence. That again was merely another excuse to avoid doing the job 
we American taxpayers are paying the (USAO) to do (namely, pursuing the 
issuance of an indictment and arrest warrant for a known and proven 
violator of a federal crime). And again, as I stated in my last letter, 
they have done all this at my immeasurable expense.
    On page two of her letter, Ms. Johnson refers to the 
``International Parental Kidnapping Statute.'' Please inform her that 
there is no such statute. What she is no doubt referring to is called 
the International Parental Kidnapping Crime Act of 1993 (Public Law 
103-173; 107 Stat. 1998; 18 U.S.C. 1204). She could have easily and 
correctly identified this statute simply by referring to the very same 
letter I wrote to you that she is attempting to respond to. Also, how 
ridiculous of her to inform me six days later of the June 9 grand jury 
indictment of Mette Lebeau. Had she properly investigated this matter 
before responding to my letter she surely would have learned that the 
indictment came as a direct result of my personal testimony before that 
grand jury and that I was, in fact, present at the time it was 
returned.
    In addition, I would like the name of the person at the State 
Department that ``indicated that pursuing the indictment would not 
inhibit the diplomatic process.'' I trust that if you are even able to 
provide me with that persons name, he/she will be of Legal Counsel to 
the State Department for no one in the Office of Children's Issues at 
the State Department where my case is being handled is of the authority 
to provide legal advice to anyone, especially a United States Attorney. 
In addition, I have been working with the State Department for almost 
two years now, and am in contact with them several times per week. I 
can assure you Ms. Bucella, that with the exception of one diplomatic 
note from the American Embassy, that took the Danes over two months to 
respond to, and contrary to the belief of (AUSA) Bell, and the 
corresponding statements in Ms. Johnson's letter, there is not, and 
never has been any ongoing ``diplomatic process.'' There has been only 
the 14-month legal process, that according to the Hague Convention is 
mandated to take no longer than six weeks, followed by the still-
ongoing criminal process. Thus, I can only conclude that this so-called 
``diplomatic process'' that does not exist is merely another creation 
of a clearly deceitful (USAO).
    Next, I will address the following statement on page 2; paragraph 1 
of Ms. Johnson's letter: ``A United States indictment or warrant in 
this case will essentially duplicate the Danish requests for 
international cooperation that has already been made.'' While I can 
easily overlook this and previous incorrect uses of the English 
language by your Legal Counsel in this letter Ms. Bucella, I must ask 
you again as I did in my letter to you of May 27, . . . is it common 
practice for the Department of Justice not to pursue violators of 
federal crimes by avoiding to pursue warrants for their arrest? From my 
numerous conversations over the past two years with other left-behind 
parents, public officials, and legal professionals, I can only assume 
that this is indeed true, unless you would like to answer my question 
this time and inform me otherwise.
    In paragraph 2 on page 2 of Ms. Johnson's letter she makes the 
following statement: ``Therefore, unfortunately, an indictment or 
warrant in this case may not have any great effect unless and until 
your wife returns to the United States.'' In response to that Ms. 
Bucella I have the following question. Since Mette Lebeau has herself 
stated repeatedly in the Danish media that she is being harbored by an 
``underground'' organization and that no one in the world but she and 
the people assisting her know where she is, I ask you this. How has the 
Department of Justice been able to acquire factual evidence that Mette 
Lebeau has not already returned to the U.S.? Surely you cannot prove 
that this has not occurred or will not occur in the future, thus making 
the indictment and subsequent warrant I fought for six months to get, 
of absolute critical importance to the safe return home of Ruthie and 
Luke Lebeau!
    Accordingly, I am going on record as stating emphatically that if I 
discover that Mette Lebeau has indeed returned to the U.S. at any time 
during the period between my second plea for the pursuit of an 
indictment to (AUSA) Bell in December 1997, and June 9, 1998 (the date 
it was finally returned), I will, with all my resources and energy, 
pursue a legal claim against the United States government and the 
Executive Office for United States Attorneys for violation of the 
National Child Search Assistance Act (Public Law 101-647; 42 U.S.C. 
5779, 5780).
    In the final paragraph of her letter, Ms. Johnson indicates that 
the (USAO) is ``coordinating'' with the State Department in attempting 
to return my children. For your information Ms. Bucella, the (USAO) has 
coordinated nothing with the State Department. Throughout her tenure 
with the Office of Children's Issues, Ms. Ellen Conway of that office 
has done an exemplary job of assisting me in the return of my children, 
and I have formally acknowledged her efforts and professionalism in a 
letter to the Director of that office. However, in contrast, the (USAO) 
has done nothing but work against me since my first phone call to them 
a year and half ago. And to this very day they continue to do so with 
not only an unacceptable level of professionalism, but also with an 
unfathomable lack of knowledge of how to properly handle an 
investigation such as this.
    For example, several weeks ago I learned from sources at the Office 
of International Affairs, that applications for a Request for 
Provisional Arrest should have been applied for subsequent to the 
federal warrants that were issued as a result of the indictment 
returned by the grand jury on June 9, 1998. (OIA) confirmed at that 
time that such application had not been applied for as of that date, 
already over one month after the indictment was returned.
    Since this apparently standard procedure had not even been 
mentioned to me by (AUSA) Bell, I took it upon myself to have an 
application faxed to her directly, for her convenience. Several days 
later, I received a call from (AUSA) Bell. Obviously quite disturbed by 
the receipt of the application, she informed me in her usual 
condescending tone, that I had no reason to have that application 
forwarded to her. Ms. Bell told me that she not only would not, but 
could not complete the application. She told me that the only way they 
would complete and file the application was with specific and factual 
evidence of the exact location of Mette Lebeau, I could make one phone 
call to the Danish authorities and my traumatic two-year struggle would 
be over, and my children safety returned to the U.S. However, not 
having any reason to believe otherwise, as I am not a legal 
professional or law enforcement officer, I accepted her statements as 
true based on the authority of (AUSA) Bell's position. I accepted that 
she knew the full scope and power of that authority better than I did. 
After all, she is the (AUSA) and I earn my living in a field that 
requires no knowledge of law enforcement methods. In addition, Ms. Bell 
also informed me that since Interpol had issued a ``red notice'' for 
Mette Lebeau, a Request for Provisional Arrest was completely 
unnecessary.
    Now either (AUSA) Bell thinks I am a gullible ignoramus, or she is 
terribly unsure how to do her job, for ten minutes after that 
conversation with Ms. Bell, with one phone call to Washington, I 
determined that everything she had just told me was again either an 
outright lie, or a gross misunderstanding of the authority and 
responsibilities of her position. First, her statement regarding the 
detailed information on Mette Lebeau that must be obtained with 
evidence thereof, before the application could be made, is simply 
untrue. In fact, I have learned that contrary to what (AUSA) Bell led 
me to believe, following an indictment such as this, the filing of the 
application without having such specific information is actually 
standard procedure at OIA.
    Now Ms. Bucella, will you please explain to me why the information 
regarding this standard Justice Department procedure is so readily 
available to me, yet completely unknown by your very own (AUSA), 
supposedly a legal and law enforcement professional handling such 
matters almost on a daily basis?
    As if to add insult to injury, with that very same phone call to 
Washington to corroborate Ms. Bell's statements to me, I learned 
something that absolutely infuriated me. You'll recall that Ms. Bell 
told me that the Request for Provisional Arrest was unnecessary anyway 
because of the ``red notice'' already in place. Well, Ms. Bucella, that 
again was easily proven untrue. To this very day there is absolutely no 
``red notice'' in place, and in fact, at the time Ms. Bell told me 
there was, the application for that notice had not even been filed! It 
was only after I asked the FBI to provide me the date the notice was 
issued that they informed me a week later that there had been a ``mix-
up'' and that there was no red notice in place. So tell me, is Ms. 
Bell's standard operating procedure such that she makes such bold 
declarations without even having the facts to back them up? In light of 
the way this case has been handled from the beginning, these actions 
are unconscionable!
    Finally, after again contacting Ms. Bell via the FBI (the only way 
she will accept any contact from me), to further discuss the 
application for Request for Provisional Arrest, and to share with her 
the information I learned regarding the standard OIA procedure of 
filing it, I was left a message on Wednesday July 29, that Ms. Bell and 
Special Agent Wilcox would together telephone me ``first thing'' the 
following morning to further discuss the application for Request for 
Provisional Arrest. I have yet to hear from them, and already, almost 
another week has gone by.
    Now once again Ms. Bucella, I will be perfectly clear. I demand 
that in keeping with the full authority of the United States Attorney, 
that the Southern District of Florida's West Palm Beach office file an 
application for the ``Request for Provisional Arrest'' of Mette Lebeau, 
and that this application be filed with the Office of International 
Affairs by Friday, August 7, 1998. If this application is not made by 
that date with absolute proof thereof delivered to me at the above 
address or fax number, I will pursue my legal remedies, which I have 
already determined to be ``valid and of considerable extent.'' In 
addition, I have already learned that such a case would be of extreme 
interest to the various local and national media contacts I am in 
regular communication with.
    May I humbly suggest that this time you give my letter your 
personal attention.
            Sincerely,
                                    John J. Lebeau.

cc: Mrs. Hillary Clinton
    The Honorable Janet Reno, U.S. Attorney General
    The Honorable Madeleine K. Albright, U.S. Secretary of State
    Ms. Mary Marshall, director, Office of Children's Issues, U.S. 
Department of State
    Thomas E. Scott, United States Attorney
    Senator Jesse Helms, Chairman, Senate Committee on Foreign 
Relations
    Congressman Benjamin Gilman, Chairman, House Committee on 
International Relations
    Ms. Mary Banotti, Fine Gael Member of the European Parliament
    Mr. Ernie Allen, President, National Center for Missing and 
Exploited Children
    Lady Catherine V. Meyer
    Congressman Nick Lampson
    Congressman Bud Cramer
    Congressman Bob Franks
    Congressman Marion Berry
    Congressman E. Clay Shaw
    Ms. Mary Jo Grotenrath, Director, Fugitive Unit, Office of 
International Affairs, Department of Justice
    Mr. Charles Goolsby, Office of Policy, U.S. Information Agency
    Mr. Ronald C. Laney, Director, Missing Children's Division, OJJDP, 
U.S. Department of Justice
    Mr. Gary Israel, P.A.
    Mr. William R. Boose, III, P.A., Boose Casey Ciklin Lubitz Martens 
Mcbane & O'Connell
    Mr. John Boykin, P.A., Boose Casey, et al.
    Mr. Joseph L. Ackerman, Jr., Boose Casey, et. al.
    Ms. Mary Grady, CBS News
    Ms. Ceil Sutherland, ABC Prime Time
    Mr. Dan Moffitt, The Palm Beach Post

                                 ______
                                 

                            Kristine Uhlman/UmHani,
                                        Sparta, New Jersey,
                                                September 16, 1998.
Hon. Jesse Helms,
Chairman, Committee on Foreign Relations,
U.S. Senate, Washington, DC.

    Dear Mr. Chairman: My perspective is the result of events and 
experiences over the past 20 years, which include:

    <bullet> Smuggling myself and my two American born children out of 
Saudi Arabia (June 23, 1981). My actions resulted in the deportation of 
American Embassy personnel;
    <bullet> The violent and professional abduction of my two children, 
2 and 4 years old, in violation of a Colorado court order granting me 
custody (Sept. 11, 1981);
    <bullet> My return to Saudi Arabia under contract to work as a 
single-status engineer and effort to litigate for custody in the 
Islamic court (1983-1984);
    <bullet> My experience as the first American woman to be arrested 
and imprisoned in the Central Riyadh Women's Prison (May, 1983);
    <bullet> My experience as the first American woman allowed to 
litigate for custody in Saudi Arabia (Sept. 1983). I lost;
    <bullet> My testimony before Congress on the Unified Child Custody 
Law (Sept. 22, 1981) and Human Rights Violations against United States 
Citizens by the Government of Saudi Arabia (June 15, 1987);
    <bullet> My experiences during 5 visits to Saudi Arabia over 15 
years to visit my children;
    <bullet> My work with Senator Alan Dixon towards the establishment 
of the Office of Children's Issues at the Department of State (1987-
1990);
    <bullet> My work with Betty Mahmoody (author of Not Without my 
Daughter) towards preventing international custody abductions. I have 
provided expert testimony on Women's and Children's rights under 
Islamic law during divorce and custody disputes across the United 
States and in Canada; and
    <bullet> The perspective of my son, now 19 years old, on his return 
to the United States after 17 years in Saudi Arabia.

    I believe I am in the position to have an opinion on the situation 
in Saudi Arabia as it relates to the custody abduction of dual-national 
children, the imprisonment of American citizens, and the Islamic, 
Shariah Court approach to an American women litigating for custody.
    Custody disputes and child abduction is a widespread problem that 
takes on horrendous implication when the parents are of different 
cultures and religions. International laws are inadequate to address 
many custody situations, especially those within the Islamic world. To 
reduce the number of these abductions, we must educate our courts, the 
lawyers, and the parents. Educate them with facts, which honor and 
respect that the Islamic religion delineates a parent's rights and 
responsibility to the child differently than our western traditions. 
Educate them to identify the risks and remedies unique to each cross-
cultural custody dispute.
    I was the first Western woman granted a single-status work permit 
and visa in Saudi Arabia so as to litigate for access to my children in 
the Islamic, Shariah court. Although the year I spent in the Kingdom 
was difficult and included a five day internment in the Central Riyadh 
Women's Prison, I came to understand that the Saudi Government makes 
every effort within the constraints of their religious and cultural 
traditions.
    Cross-cultural miss-interpretations of an individual's actions or 
intent are common. Within the intimate arena of family domestic 
disputes and the widespread gender disequity basic to the Shariah Law, 
custody disputes over dual-national children takes on immense 
proportions.
    I have worked with hundreds of victim parents over the past fifteen 
years. Most of these parents have been mothers; young women who married 
their Moslem partner with the intent to provide their children the best 
of both our worlds--the East and the West. Many of the women overcame 
intense displeasure within their own families because of these cross-
cultural pairings, and their strength and commitment must be admired.
    Many of these victim parents have expressed concern that the 
support they receive from the community during their custody disputes, 
or after abduction, is fueled by intolerance of the Muslim people. What 
a paradox. To produce children that are the product of religious and 
cross-cultural tolerance (exhibited by the marriage between the two 
parents), and to call out the bigots when the family breaks down. The 
children have a right to both worlds, to both parents.
    The perspective of any custody dispute should be from the right of 
the child to have access to both parents. When a child has been taken 
into the Kingdom of Saudi Arabia, for example, I have recommended that 
the mother contact the Saudi Embassy and make very effort to visit her 
child. The Saudis have been cooperative, within their own cultural and 
religious constraints, to honor a child's right to the mother. It 
should be noted that the cultural and religious traditions within the 
country honor the bond between mother and child to the extent that if a 
mother is imprisoned, her young children accompany her in her cell. It 
was my experience that over half the population of the Riyadh Woman's 
Prison consisted of children and infants during my stay there in 1983.
    If a family is litigating custody/visitation here in the United 
States, I recommend that the child(ren) remain within the jurisdiction 
of the American courts. The reason for this is that it has been my 
experience that a spiteful abducting parent can, and will, prohibit a 
victim parent from access to the child(ren). Until the Islamic courts 
can assure equal access to a disputed child to both the mother and the 
father within the foreign jurisdiction, I will continue to recommend 
that the parent not be given the opportunity to take the child(ren) 
outside of the United States. The United States courts have been shown 
to protect the right of the child to access to both parents.
    I also work on maintaining contact with an abducted child by 
working with the government of the country in which the child is held. 
Again, with my own personal experience and the few limited contacts I 
had with my abducted children gave them the incentive to find me 
seventeen years after they were stolen. I insist on access through 
legal means, I do not believe in `recovery' by other means.
    The risk of abduction can be thought of as an equation consisting 
of two parts: likelihood and remedy. Likelihood is specific to the 
unique circumstance of the individual family. Remedy refers to the 
process and obstacles to the return of an abducted child. There are no 
legal remedies available to a victim parent to return the child once 
that child is taken into Saudi Arabia, or most other Islamic countries.
    I have been accepted as an expert in several jurisdictions across 
the United States on issues relating to American women's experience in 
Shariah court, and the Shariah Law as it relates to divorce and custody 
issues in Islamic countries. I provide expert-witness testimony during 
custody disputes in an effort to establish supervised visitation in 
high-risk cases, as well as to identify protective measures appropriate 
for unsupervised visitation. I emphasize tolerance and respect for the 
Islamic traditions. Only by working within the framework of our common 
desire to do what is best for our children can we address this complex 
issue of international abduction.
    I am uncomfortable with the level of attention the media gives to 
some of the louder advocates of intolerance to the countries in which 
their children have been retained. Abduction is a harmful, egregious 
act, a crime against a child, but it is an act of an individual who has 
chosen to commit this crime against his (her) own child. Unfortunately, 
the Shariah delineates the responsibility for the physical custody of a 
child in a manner differently than our own. As a result, the abductor 
often finds legal support for his actions within his homeland, and that 
legal disparity is taken advantage of by the abducting parent. And, 
unfortunately, the victim parent sometimes feels compelled to 
distribute miss-information about the abductor's religion and homeland 
to garner support for her cause. The media's attention should be 
focused on how best to mediate these disputes, and to focus on 
prevention through education. And we must proceed with facts, 
diplomacy, and respect for other's beliefs.
    I feel it is wrong to present only one side of the story, that it 
is far more important to present facts and examples of diplomacy and 
respect. It is only through negotiating with the Saudi's that one can 
gain access to our abducted children, because the laws and traditions 
of the Saudi people identify these children as Saudi citizens. The 
mother's citizenship is not recognized, and American court orders 
defining custody have no legal bearing. We cannot expect the Saudi's to 
violate their own religious and cultural beliefs by removing these 
children from their fathers. Although I made every effort to return my 
children here to the United States, I honor and respect their dual 
heritage and have accepted that, due to circumstances beyond my 
control, they have been raised in Saudi Arabia. Throughout these past 
years of separation from my children, the Saudi Government helped me a 
great deal in negotiating with my ex-husband towards visitation. When I 
was imprisoned, I was treated just like the other women both Saudi 
nationals and ex-patriots alike. More importantly, my son recognizes 
that I have done more than the impossible and, in the process, have not 
condemned his religion or nationality.
    Please contact me if you have any questions or if you are in need 
of additional information.
            Very truly yours,
                            Kristine Uhlman/UmHani.

                                 ______
                                 

                                Jeffery A. Waymire,
                                     Indianapolis, Indiana,
                                                September 28, 1998.
Senator Jesse Helms,
U.S. Senate, Washington, DC.

    Dear Senator Helms: The following is a very brief compilation of 
the events surrounding the international abduction of my daughter Celia 
Ann Waymire. I would very much appreciate having my case submitted and 
placed on the record as part of the proceedings on the October 1, 1998 
special meeting on the matter of International Child Abduction held by 
the Committee on Foreign Relations.
    Please contact me with any questions on this matter or if you wish 
to discuss it further.
    Thank you.
            Sincerely,
                                Jeffery A. Waymire.

                                 ______
                                 

              hague application case for celia ann waymire

    Submitted by Her Father, Jeffery A. Waymire, September 28, 1998

    I have been attempting to gain access to my daughter Celia Ann 
Waymire since October 13, 1996, to no avail. I have encountered various 
hurdles in the process that have ultimately led to the mother of my 
daughter taking her and fleeing the state of Indiana and the United 
States. While ideally a joint custody arrangement would have been the 
best for Celia, her mother has chosen otherwise. Therefore, Celia will 
be the one who suffers the most from her mother's actions. Recovering 
Celia is the concern. These efforts have been pursued for Celia's 
benefit, not with any concern of the consequences or impact or affect 
this will have on her mother. I love my daughter and miss her very 
much.
    Celia was born on November 10, 1994. In May 1997, my daughter was 
taken to San Luis Potosi, Mexico, as a means to keep myself and my 
family (and even her mother's family) away from Celia. Celia's mother, 
Lisa Lee Russell, didn't even trust her own mother enough to let her 
watch Celia. Lisa's paranoia about others trying to have power or 
control over or affect on Celia caused her to flee to Mexico as a 
solution to raise Celia all by herself and to have Celia love her 
unconditionally. Never mind that Celia had been in numerous living 
locations. Never mind that Celia was not under the care and guidance of 
only one relative in a country where she was far removed from any other 
relatives or friends. All of this was done because of Lisa's repeated 
statement that this is ``what is best for Celia.''
    In December 1996, I filed for paternity. In early May, Lisa left 
the United States with Celia for Mexico to avoid the paternity hearing. 
In mid May 1997 I was awarded paternity and at the hearing, Lisa's 
mother, Lillian Russell appeared on my behalf and verified my 
testimony. In June 1997 I filed for custody. In July 1997 I was awarded 
custody of Celia Ann Waymire. In October 1997 I had filed for an 
Article 15 Determination. In December 1997 I was awarded an Article 15 
Determination by Judge James Payne of Marion Superior Court, Juvenile 
Division in Indianapolis, Indiana, to aid in my proper filing of the 
Hague Convention Application. On December 15, 1997, I forwarded my 
completed Hague package to Mr. Christopher Lamora of the U.S. State 
Department, Office of children's Issues. Mr. Lamora in turn forwarded 
my Hague package to the Mexican Central Authority on December 17, 1997.
    Since December 1997, Mr. Lamora and I, along with assistance from 
Embassy staff in Mexico have been attempting to ascertain the status of 
my Hague Application. The latest update I have from Mr. Lamora from 
September 11 of this year is as follows:

          ``I've asked Rosa Isela Guerrero three times now within the 
        past two and a half weeks for any further information, and each 
        time, she says she'll get it to me ASAP. My last written 
        communication from her, as I told you over the phone at the 
        time, was on the 19th of August, when she told me that Celia's 
        file had been forwarded to the San Luis Potosi (SLP) court. In 
        that same fax, she also stated that the Mexican Central 
        Authority had spoken with the DIF attorney handling the case, 
        Ms. Magdalena Gonzalez Vega, who said that she would expedite 
        the case. She has supposedly tried to follow-up since then, but 
        not been able to get Ms. Gonzalez on the phone.''
          ``The Mexican Central Authority is currently moving offices, 
        and I've been unable to reach them by phone since last Friday. 
        They are supposedly going to retain the same phone numbers 
        they've always had. We'll see. If I can get them by mid-week 
        next week and they haven't sent me new contact information, 
        I'll have the consular folks from our Embassy get in touch with 
        the SRE (Foreign Ministry) to find out the new contact info.''
          ``I do agree with you that there is an increased risk of 
        Lisa's finding out about what's going on the longer this drags 
        on, but there's not a lot I can do to force the SLP court's 
        hand. For now, I think, we've got to assume that no news, while 
        frustrating, is good news.''

    I have not seen or held or talked to my daughter since October 13, 
1996. The last photograph I have of her is nine months old. I have sole 
custody of my daughter. My Hague Application has been in the hands of 
the Mexican Central Authority for nine months. For the record, I would 
like the case of Celia Ann Waymire placed as part of the special 
meeting to be held October 1, 1998, by the Committee on Foreign 
Relations as a matter of International Child Abduction that needs to be 
discussed and resolved.
    I realize that the Hague Application for my daughter is just one of 
many outstanding cases at this time. Any and all efforts you make on my 
behalf on this matter are greatly appreciated.
            Thank you.
                                Jeffery A. Waymire.

                                 ______
                                 

                                    Jean Henderson,
                                           Miami, Florida ,
                                                 November 30, 1998.
Senator Jesse Helms,
U.S. Senate Foreign Relations Committee,
Dirksen Building, Washington, D.C. .

    Dear Senator Helms: As the parent of a child who is the victim of 
an international parental abduction, I thank you for you time and 
efforts on the behalf of children and ``left-behind'' parents. Our case 
is one that you referred to in your opening remarks to the Senate 
Foreign Relations Committee on October first of this year. I am the 
mother who traveled to the Republic of Czechoslovakia in search of my 
child.
    His father, Randell Lamar Henderson, abducted our son, Roman Lamar 
Henderson in early June of 1994. I have had no contact with my little 
boy since that time.
    I have made an attempt to make this letter to you as brief as 
possible. However, it is difficult to summarize nearly four and one 
half years of personal experiences. I cannot fully express the pain and 
heartache that the ``disappearance'' of my only child has caused. The 
bits and pieces of information that have been gathered over the past 
years have compounded my concern. While reading this information, 
please keep in mind that my son Roman, his father Randell and I are 
citizens of only the U.S.A.
    Throughout my search, I have discovered that I must be the driving 
force and, basically, lead investigator in our case. Please do not 
misunderstand. I would do ANYTHING to bring Roman safely home. However, 
there are certain issues that must be handled by U.S. law enforcement 
and governmental entities. It is in this respect that I have 
encountered some problems. Sir, please bear with me as I give you an 
overview of our case.

  <bullet> December 8, 1993: Judge Jennifer Bailey, as an alternate for 
        Judge Eugene Fierro in the Circuit Court for the 1 1th Judicial 
        Circuit in and for Dade County, Florida signed a restraining 
        order ``preventing'' Randell from removing Roman from Dade 
        County. This Judge denied my attorney's motion to require 
        Randell to surrender Roman's passport to the court, as she 
        believed that the restraining order was sufficient. Our court 
        case number is: 93-27043 FC 26.

  <bullet> June 5-14 of 1994: Randell fled from the U.S.A. while I was 
        attending my brother's wedding in Massachusetts. His attorney 
        had filed a motion preventing Roman from traveling to 
        Massachusetts with me as had previously been planned.

  <bullet> June 14, 1994: I filed a missing person report with the 
        Miami City Police Department--Missing Juveniles' Division. At 
        this time, I gave Detective Bernabe photographs and several 
        names, addresses and telephone numbers as contacts for 
        Randell's acquaintances here in Miami. Repeatedly, to this 
        date, Detective Bernabe has told me that he has not had the 
        time to investigate our case. He appeared to be of the opinion 
        that, since I believed that Roman had been taken from this 
        country, there was little that he could do. Therefore, I went 
        to speak to these people on my own. All that I learned was that 
        they had, indeed, left the U.S.A. However, their destination 
        and mode of travel remained a mystery.

  <bullet> June of 1994: I contacted the National Center for Missing 
        and Exploited Children (NCMEC) and was told that I must have 
        full custody of my child before this organization could become 
        involved in our case.

  <bullet> November 18, 1994: Two unidentified men went to a store 
        where I had been working when Roman was last in Miami. They 
        told a horrifying story about how Roman had approached them in 
        a park and had pleaded with them to ``put him in their bags and 
        take him to his mother in Miami''. Finally, the men agreed to 
        attempt to find me and to inform me of Roman's whereabouts. 
        Roman told these men that his father was ``doing more drugs 
        than ever before'' and had threatened to kill him if he tried 
        to contact his mother again. Unfortunately, a language barrier 
        led the store employees to believe that Roman was in London or 
        Paris at that time. We later learned that he was in Prague in 
        the Republic of Czechoslovakia. I have an affidavit from one of 
        these employees.

  <bullet> November 18, 1994: With the affidavit in hand, my attorney 
        requested an emergency meeting with Judge Eugene Fierro. The 
        Judge signed a court order giving me full temporary custody of 
        Roman along with a request that all law enforcement officers 
        (both nationally and internationally) cooperate in the search 
        for Roman and his return to me in Miami. He included a pick-up 
        order for Roman.

  <bullet> November of 1994: Meredith Morrison, who is our caseworker 
        at the NCMEC, became involved in our case. She put me in touch 
        with reunite, a missing children's organization in London. 
        These people were very thorough and helpful. However, Roman and 
        Randell were not there. Please note that Meredith, along with 
        all of the staff at the NCMEC, has been incredibly supportive, 
        concerned and knowledgeable throughout these past years.

  <bullet> November of 1994: I contacted the FBI in Miami. Special 
        Agent Clay Price, although he generally does not handle 
        international cases, became involved in our case. I was later 
        informed that the FBI did not, initially, believe that Roman 
        had been taken from the U.S.A. At this time, I began, under 
        this agent's direction, to document all contacts that I have 
        made concerning my search for Roman.

  <bullet> March 27, 1995: Detective Bernabe completed an affidavit 
        that was the basis for a third degree felony warrant for 
        Randell's arrest. This warrant (#95000522) was issued by the 
        State of Florida for ``unlawful removal of a child from the 
        state contrary to court order''. Barbara Pineiro, who is an 
        Assistant Attorney for the State Florida, told me that Florida 
        has agreed to pay any and all extradition costs. She also told 
        me that most abducting parents receive ``only a slap on the 
        wrist'' for their crime(s). However, due to the extenuating 
        circumstances in our particular case, she would personally do 
        her best to ensure that Randell is prosecuted to the fullest 
        extent of the law.

  <bullet> April of 1995: I had been calling the numbers of Randell's 
        friends throughout the world. I learned from Marco Martinovic 
        in Denmark that Randell had called him from Brussels, Belgium 
        in the summer of 1994. Randell had told him that he and Roman 
        would be coming to Denmark soon and asked if they could stay 
        with him for a short time. Sadly, they never arrived there. 
        However, this man has agreed to contact me if he should hear 
        from them again. He and another friend named Holly told me that 
        Randell had not given Roman proper medical treatment when he 
        was injured by a fall. They said that Randell preferred to 
        ``sit around and smoke marijuana''. Only when an infection led 
        to a high fever, did Randell seek medical assistance for our 
        child. I contacted the Danish Central Authority. A quick and 
        thorough investigation was performed. To our dismay, no further 
        information was learned other than that Roman often ``appeared 
        to be depressed''.

  <bullet> August 1, 1995: Cynthia Clark, a woman who lives in Miami, 
        called after seeing a missing child poster that I had placed in 
        a local store. She had known Roman and Randell in Prague in the 
        Republic of Czechoslovakia while vacationing there throughout 
        the summer of 1994. She told us that Roman and his father were 
        sleeping in parks, under a bridge, in youth hostels and with 
        anyone who would take them in. She gave me a photograph of 
        Roman with a Rastafarian man, which was taken in a park in 
        Prague. This man told Cynthia that he had taken it upon himself 
        to take care of Roman as his father did not always do so 
        properly. Randell, who was doing hair wraps (i.e. braiding hair 
        with colored string and beads) on the Charles Bridge was 
        friendly toward her until he learned that she was from Miami. 
        After he learned this, he would not allow Roman to speak with 
        Cynthia at all. Cynthia also told us that Randell spent his 
        free time smoking marijuana with a group of people. Roman, who 
        should have been attending school, was with him. I related this 
        information to Agent Price. He felt that this was a ``cold 
        lead''. Who would expect a father and son to continue to live 
        on the streets for more than one year? They must have been in 
        transit. Therefore, this was never investigated.

  <bullet> Christmas of 1995: A few days after Christmas, Randell's 
        sister, Pam McMahon, called me from Alabama to tell me that an 
        unidentified woman had called their mother on Christmas day. 
        This woman continued to call for a few minutes each time over 
        the next several days. Martha Henderson, Randell's mother, told 
        her that there is a warrant for Randell's arrest in Florida and 
        that the FBI had interviewed his family. Randell never spoke 
        directly to a family member. They did not speak to Roman 
        either. Martha Henderson suggested to this woman that Roman be 
        returned to Alabama and she would then attempt to obtain legal 
        custody of our child because Randell did not want me to have 
        custody of him. Mrs. Henderson and Randell's brother, Lawrence, 
        did not want Pam to call me with this information. Not long 
        after I had reported this information to the FBI, I received a 
        telephone call from Pam. She told me that her family would sue 
        me for harassment because the FBI was bothering them to the 
        extent that her mother was physically ill. Although Randell's 
        family and I had gotten along well until this point, I was now 
        the ``enemy''. I requested that Agent Price have a tap and 
        trace placed on the Hendersons' telephones and that their bank 
        account records be subpoenaed. He told me that a tap and trace 
        requires expensive and sophisticated equipment that our ``case 
        does not warrant''. Agent Price said that we must have a ``very 
        good reason'' to request bank records. He also told me that 
        Western Union drafts, etc. couldn't be tracked without a 
        specific draft number.

  <bullet> January 16 and 18, 1996: Randell made five separate 
        telephone calls to me at home. He kept the calls very brief 
        each time as he said he feared that my telephone line was being 
        traced. During the first two calls, Randell was very 
        disoriented. He could not maintain a conversation and was 
        continually repeating himself and stuttering. Basically, he 
        told me that ``this has to end'', ``Roman needs to be in 
        school'', ``Roman misses and loves me'' and ``Roman is angry 
        with me because I am responsible for the issuance of the arrest 
        warrant for his father. There was no reasoning with him. I told 
        him that all he had to do was return to Florida with Roman and 
        all of the charges would be dropped. Randell told me that he 
        and Roman ``have a wonderful life in Columbia, South America'' 
        and that he was only calling me now because they were away from 
        home on ``holiday''. He said that he would call me again in two 
        or three weeks when he was away from home ``on business''. He 
        has never called me again. I asked Agent Price to tap and trace 
        my telephone line and was told, once again, that our case does 
        not warrant this type of action. I even offered to pay for it 
        myself! I called Florida Assistant State Attorney Barbara 
        Pineiro who drafted a letter to Randell that explained that all 
        charges would be dropped if he were to return Roman to my 
        custody in Miami. I sent a copy of this letter to Randell's 
        sister.

  <bullet> April 15, 1997: Agent Clay Price told me that he had 
        requested that the blue notice for Randell be upgraded to a red 
        notice. This should take about six weeks.

  <bullet> May 8, 1997: Kim, a Canadian citizen, called the Missing 
        Children's Network in Canada. She had seen a poster of Roman in 
        a Subway restaurant in Montreal. Kim had known Roman and 
        Randell in Prague throughout 1995 and had spoken to Randell 
        again in the summer of 1996. (NOTE: Kim did not see Roman in 
        the summer of 1996. She was told that Rome was in a summer camp 
        and also was told that he was with friends in a more northern 
        part of the Czech Republic). This woman provided us with an 
        incredible amount of information! Kim had a photograph of Roman 
        and herself, which she gave to Patrick Bergeron at the Canadian 
        Missing Children's Network. She said that Roman and his father 
        were living within a hippie-type community and lived what would 
        be considered to be a Bohemian lifestyle. She said that many 
        people told her that they had taken it upon themselves to take 
        proper care of Roman. Randell purchased only the least 
        expensive foods for Roman (i.e. bread and cheese). Roman, who 
        speaks the Czech language fluently (his father does not), 
        rarely played with other children, had only a borrowed soccer 
        ball as a toy and did not attend school. Kim also said that she 
        is nearly certain, based on his appearance and demeanor, that 
        Randell is a heroin addict. Randell had invited her to visit an 
        underground bar with him. This bar was ``by invitation only'' 
        and Kim was given the impression that this was a place where 
        illegal drugs were used and, possibly, dealt. It was her 
        personal opinion that this ``establishment'' was connected in 
        some manner with the Mafia. Kim also stated that Randell 
        appeared to be involved with a Czech woman named Katia. She 
        said that Roman and Randell stayed with Katia at times, with 
        other people and were known to be ``squatters,'' who are 
        individuals who sleep in abandoned homes in Prague. Randell 
        also told Kim that he and a friend would soon be opening an 
        Indian import/export business in Prague. She gave us business 
        cards that she believed were from establishments that Randell 
        frequented and also mentioned a few bars, stores and parks 
        where Roman and Randell often went. When Kim met them, Randell 
        was earning money doing hair wraps. I regret that this same 
        information from Cynthia Clark in August of 1995 had not been 
        investigated.

  <bullet> May 8, 1997: I contacted Agent Price with this information. 
        He said that he must contact the FBI legate in Vienna, Austria. 
        The legate will, in turn, contact INTERPOL in Prague. The major 
        concern was that the Republic of Czechoslovakia did not, at 
        that time, recognize parental abduction as an extraditable 
        crime. (Note: The Republic of Czechoslovakia became a Hague 
        signatory in October of 1998.) Agent Price hoped that we could 
        have Randell deported, hopefully with Roman, as an 
        ``undesirable'' due to his fugitive status in the U.S.A. He 
        sent color photographs and all pertinent information to Vienna. 
        Agent Price told me that the investigators in Vienna had ninety 
        days to investigate and report any information that was 
        learned. He urged me not to go to the Czech Republic ``on a 
        wild goose chase''. Let the officials determine if my son was 
        presently in Prague.

  <bullet> July 3, 1997: Agent Price received the first report from 
        Prague (via Vienna). They had learned that Randell had been 
        granted a document (visa) which allowed him to stay in the 
        Czech Republic for one year. This document had expired on 
        January 3, 1997 and had not been renewed. Roman was not 
        mentioned on this document. All inquiries in Prague were being 
        made discreetly so as not to alert Randell. Much to our 
        astonishment, Randell and Roman were using their full, legal 
        names. We were perplexed as to what travel! identification 
        documents they were using because their U.S. passports had 
        expired. Agent Price told me that there was no information from 
        U.S. Passport Services in regard to the renewal and/or use of 
        their passports. I began planning to travel to the Czech 
        Republic. Too much time was passing.

  <bullet> July 15, 1997: I contacted Barbara Pineiro at the Florida 
        State Attorney's Office. She gave me an updated letter, which 
        was addressed to Randell. Mrs. Pineiro said that it might be 
        helpful if I should speak to Randell. She also told me that she 
        would be willing to speak with Randell and/or the Czech 
        authorities.

  <bullet> July 20, 1997: Agent Clay Price told me that the Czech 
        authorities had reported to Vienna that the address Randell had 
        written on the application for a long-term stay was that of a 
        general area and that they could not find any school records 
        for Roman. Agent Price also told me that, due to the red notice 
        for Randell, INTERPOL had sent information and photographs of 
        Roman and his father to all Czech border officials. The FBI has 
        Randell's fingerprints on file due to juvenile offenses for 
        assault with a deadly with weapon and drug charges. Agent Price 
        said that he is very frustrated by the rate at which our case 
        is moving along and, if he were allowed to do so, he would 
        travel to Prague. He believed that he could locate Roman and 
        Randell in an afternoon!

  <bullet> July 22, 1997: I spoke to Meredith Morrison (NCMEC) who had 
        just had a conversation with Cynthia Quinn, (INTERPOL). Ms. 
        Quinn had told Meredith that the FBI had sent her a request for 
        an upgrade to a red notice in April of 1997. This process 
        requires about six months before it is completed! Ms. Quinn 
        also told Meredith that she had sent out a diffusion notice 
        with the information that the blue notice would be upgraded to 
        a red one. Cynthia Quinn said that I could not speak with her 
        because she is not allowed to speak directly with parents.

  <bullet> July 30, 1997: I asked Agent Price to contact Detective 
        Steven Yoder who handles international extradition cases for 
        the Metro-Dade Police Department. Detective Yoder had contacted 
        the U.S. Office of International Affairs and was told that they 
        had no information on Roman and Randell, so he had sent the 
        information to Mary Jo Grottenrath.

  <bullet> August 4, 1997: I was put into contact with Mr. Bruce 
        Berckmans who does private investigation work. He made several 
        telephone calls and faxed information to the Czech Prime 
        Minister and Czech Minister of the Interior along with the U.S. 
        Ambassador to the Czech Republic. Mr. Berckmans did this 
        without compensation.

  <bullet> September 3, 1997: Agent Clay Price spoke, for the first 
        time, to Kim, the Canadian woman who had called in May of 1997, 
        to report the sighting of Roman and Randell in Prague. Each 
        time one of us had spoken to Kim, we had learned more 
        information.

  <bullet> November 3, 1997: Mr. Charles Goolsby, who is with the Voice 
        of America (VOA), contacted me. He told me that he would air 
        VGA and Worldnet radio and television broadcasts featuring 
        Roman and Randell in the Republic of Czechoslovakia and 
        throughout Eastern Europe. He told me that when he had 
        contacted the Miami City Police Department--Missing Juveniles 
        Division, he was told that they had no such case! I called 
        Detective Bernabe and explained this to him. He said that he 
        would make certain that would never happen again. I thought 
        that I would tell you this to help to make it clear how 
        difficult it is for ``left-behind'' parents. There is always 
        something to be done, clarified, etc. I have learned that I 
        must always keep ``on top of'' our case and constantly monitor 
        what has been done or what more could be done. Mr. Gooslby has 
        been incredibly helpful, supportive and knowledgeable 
        throughout my search,

  <bullet> November 10, 1997: Agent Price told me that he had recently 
        attended a U.S. Department of Justice conference in Toronto, 
        Canada. When he had asked about the International Parental 
        Kidnapping Crime Act of 1993 (IPKCA), he was told that, due to 
        the UFAP warrant that has been issued, this additional federal 
        warrant would be placing Randell in double jeopardy. Agent 
        Price also told me that the UFAP allows for a provisional 
        arrest request to be issued. He pointed out to me that the 
        penalties in Florida are higher than those with the federal 
        warrant. Therefore, he has not requested this particular 
        warrant. Cynthia Quinn told him that the red notice has not 
        been issued yet. It was now seven months since this upgrade had 
        been requested.

  <bullet> November 22, 1997: Friends and I held a benefit car wash to 
        help me to raise money for travel to the Republic of 
        Czechoslovakia. NBC local news gave us a lot of coverage.

  <bullet> December 1, 1997: I called Mary Jo Grotenrath with the U.S. 
        Office of International Affairs. She was shocked and dismayed 
        to learn that, although it had been received two weeks 
        beforehand, the request for a search and arrest had never been 
        sent to the Republic of Czechoslovakia. She said that this was 
        inexcusable and she would take care of it immediately.

  <bullet> December 12, 1997: I called Mr. James Bacigalupo, who is the 
        Regional Security Officer (DSS) at the U.S. Embassy in Prague. 
        He transferred my call to Kimberly Krhounek, who was the 
        Assistant Consul General in the U.S. Embassy there. Mr. 
        Bacigalupo told me that, if I was not satisfied with the aid 
        given to me, I should call him again.

  <bullet> December 12, 1997: Ms. Krhounek suggested that I travel to 
        Prague. The child protective service there would intervene if a 
        truant, endangered, neglected, and/or abused child's actual 
        whereabouts were reported to them. She told me to feel free to 
        call her at any time. She would help in any way that she could. 
        In the meantime, Ms. Krhounek would work with Mr. Bacigalupo to 
        involve the local police to ensure that a thorough 
        investigation was performed. She also said that the Republic of 
        Czechoslovakia is not a part of the European Union (i.e. Free 
        Europe), therefore a passport is required to travel to and from 
        that country. Additionally, all aliens are required to have a 
        green card to work in the Czech Republic.

  <bullet> December 15, 1997: I called Mr. Scott Stewart, who was then 
        working for the U.S. Department of State (DSS) in Miami, 
        Florida. He told me that Roman and Randell had renewed their 
        U.S. passports in the U.S. Embassy in Prague in May of 1996! He 
        gave me the new passport numbers along with the expiration 
        dates. It appears that Randell had gone to the U.S. Embassy on 
        two separate occasions as Roman's new passport expires on 6/19/
        200 1 while Randell's expires on 6/11/2006. I gave these 
        numbers to Detective Bernabe so that he could enter them into 
        the NCIC. Mr. Stewart could not help too much more because he 
        handles only cases involving passport fraud. However, he did 
        request copies of the passport renewal applications.

  <bullet> December 15, 1997: I called FBI Agent Price to tell him that 
        Roman and his father had renewed their passports more than one 
        and a half years ago! He was astonished and doubtful. He told 
        me that there must be a mistake because, with the yellow and 
        blue notices in place, the FBI would have been alerted. I gave 
        him the new passport numbers for verification.

  <bullet> December 15, 1997: I called Mr. Bacigalupo about the 
        passport renewals. He said that the yellow and blue notices had 
        never been entered into the U.S. Department of State databank. 
        They were only in the FBI databank. This explained how Randell 
        was allowed to renew their passports without any problems.

  <bullet> December 15, 1997: I called Agent Price about the yellow and 
        blue notices not being entered in the U.S. Department of State 
        databank. He told me that these notices were not in effect when 
        the passports were renewed (i.e. 1996), so it's irrelevant. 
        This is incorrect. Cynthia Quinn and Mary Jo Grotenrath had 
        verified that these notices were effective as of June of 1995! 
        I saw no point in arguing the issue with Agent Price. It was 
        already too late. My son could (and should) have been found 
        and, hopefully, returned home in May of 1996. So that there 
        would be no interference with the Czech investigation, Agent 
        Price asked me to have all of the people who I had involved 
        ``back-off'' because, with the most recently received 
        information, Roman should be home within two to three weeks. I 
        did so.

  <bullet> January 12, 1998: I called Agent Price again. He said that 
        he doubts that a provisional arrest warrant has been issued 
        because this requires that the exact location of the fugitive 
        be known. He also told me that he knows for certain that the 
        local Czech authorities are investigating and not to worry 
        because Randell will be arrested based on the red notice. I 
        asked Clay to be certain that Roman and Randell's new passport 
        numbers had been entered in the databanks of the U.S. 
        Department of State, INTERPOL, etc.

  <bullet> January 16, 1998: Meredith Morrison (NCMEC) called to tell 
        me that she had just spoken to Cynthia Quinn (INTERPOL). The 
        request for an upgrade to a red notice was still sitting on her 
        supervisor's desk awaiting his signature. Hopefully, this will 
        be accomplished within the next week. In the meantime, Ms. 
        Quinn had sent out cables to all European countries requesting 
        that they track any activity on Roman and his father's new 
        passport numbers.

  <bullet> January 20, 1998: Detective Bernabe (Miami Police 
        Department) told me that he had passed information to Agent 
        Price about a tip that they had received that Roman was in 
        Prague.

  <bullet> January 23, 1998: A man named John, who is Jennifer 
        Litshewski's (U.S. Office of International Affairs) legal 
        assistant, called me on her behalf to ask about the information 
        that I have in regard to Roman and Randell's ``alleged'' 
        passport renewals. Although dismayed that I must provide this 
        information to these people, I gave him the new passport 
        numbers, expiration and renewal dates. He said that his office 
        could find no indication that their passports had been renewed! 
        John told me that the U.S. Department of State was planning to 
        revoke Roman and Randell's passports.

  <bullet> January 26, 1998: 1 called Agent Price and he told me that 
        the revocation of the new passports is moving along quickly. If 
        the revoked passports are presented, Randell will, most likely, 
        be sent to the nearest U.S. Embassy where he will be arrested. 
        The current ``look-out'' on their passports with the U.S. 
        Department of State will not allow for their being detained, 
        but the FBI will be alerted as to their location. When I asked 
        if INTERPOL had run a trace on the new passport numbers, Agent 
        Price said that he had no idea if that had been done, but 
        ``red-flagged'' fugitives have escaped detection many times in 
        the past.

  <bullet> Late January of 1998: I sent letters to Florida Senator Bob 
        Graham and to the U.S. Secretary of State, Madeline Albright, 
        who is a Czech national. To date, these requests for aid have 
        not been answered.

  <bullet> January 28, 1998: I purchased two roundtrip tickets to fly 
        on February 4, 1998 from Miami to Prague. I felt that the eight 
        months that had passed since it had last been reported that 
        Roman was in Prague were more than sufficient time to allow for 
        a thorough investigation by authorities! A friend, David 
        Solomon, agreed to accompany me. These tickets cost a little 
        under $1000.00, which is considered to be a very low fare due 
        to the off-season in Prague. I was told that Roman's return 
        fare, if needed, would cost $800.00 if I purchased a roundtrip 
        ticket and $1800.00 for a one-way fare. I then contacted Agent 
        Price, the U.S. Embassy in Prague, Jennifer Litshewski, The 
        Missing Children's Network in Canada and Meredith Morrison, who 
        I asked to relate the information about my travel plans to 
        Cynthia Quinn. I made it clear to everyone that we were not 
        going to attempt a ``snatch-back'' or violate any laws. I would 
        not do anything to endanger my son. Mr. James Bacigalupo and 
        Kimberly Krhounek invited us to meet with them at the U.S. 
        Embassy in Prague.

  <bullet> February 5, 1998: David Soloman and I arrived in Prague. We 
        got a room in a bed and breakfast establishment. The 
        receptionist gave us a detailed map of Prague along with 
        directions to many of the places where Cynthia Clark and Kim 
        had told us Roman and/or Randell had often gone. We did not 
        disclose our reason for visiting these locations. David, who 
        has never met either Roman or Randell, and I decided that, if 
        questioned, it would be best for him to represent himself as'' 
        a friend of a friend'' of Roman and Randell`s. Roman's mother 
        would never be mentioned.

  <bullet> February 6, 1998: David and I went to the U.S. Embassy and 
        met with Ms. Krhounek and Mr. Bacigalupo. We inquired about 
        local laws and Ms. Krhounek told us that there is no Czech law 
        against searching for anybody. On a map, we found the physical 
        address that Randell had used on his passport renewal 
        application. Mr. Bacigalupo expressed concern that our 
        activities may interfere with the local investigation and, 
        therefore, asked that we proceed cautiously. He also told us 
        that he would try to arrange for us to meet with Ing. Radek 
        Prchal (INTERPOL), who has been assigned to our case in Prague.

  <bullet> February 6, 1998: David went to Old Towne Square, a major 
        tourist area, which precedes the Charles Bridge where Randell 
        had been working as a street vendor. David, who carried a 
        photograph of Roman that had been taken when he was eight years 
        old, asked the vendors for Roman and Randell. Incredibly, in 
        less than twenty minutes, David had spoken to three vendors who 
        recognized them immediately! These vendors described Randell as 
        having shoulder-length brown hair and a scar between his eyes. 
        These men also said that Randell leaves Prague in the winter 
        and ``goes to sea where it is warm''. Due to language barriers, 
        David could not determine if these men knew if Roman had 
        traveled with Randell or the name and/or type of vessel that 
        he/they had traveled on. Most of their communication was 
        accompanied by hand and body gestures. These individuals all 
        stated that they had not seen either Roman or Randell in four 
        to six months. I was very upset to learn this. If I had not 
        waited so long for the official investigation, I would have 
        arrived in Prague when my son was still there. I could, at the 
        very least, have had contact with my child, if not have 
        convinced Randell to allow Roman to return to the U.S.A. with 
        me. David then went to the Charles Bridge where, in no time at 
        all, he had spoken to several vendors (mostly artists) who knew 
        Roman and his father well. Fortunately, many of these men spoke 
        fluent English. From these individuals, David learned that 
        Roman and Randell had been living in an apartment on the other 
        side of the bridge, which is an area of Prague called Male-
        Stranna. We recognized this as an area where Kim (Canadian 
        caller) had reported that Randell and Roman sometimes lived, 
        went grocery shopping and was where the underground bar was 
        located. These people also said that Randell and Roman ``go to 
        sea'' in the winter. One man told David that, recently, the 
        local police had been preventing Randell from braiding hair on 
        the Charles Bridge, as they did not consider this to be art. 
        Therefore, Randell had begun braiding hair on side streets. 
        Also, Randell would begin to braid hair, at times, on the 
        bridge and would simply walk away if a police officer 
        approached.

  <bullet> February 7, 1998: David and I purchased tickets for the 
        Metro (i.e. underground train) to travel to Za-navsi 2451, 
        which is the physical address that Randell had given on his 
        passport renewal application. I stayed in a local restaurant 
        while David went to the apartment building. Please note that I, 
        for the most part, did not accompany David while he spoke to 
        people. We did not want to take a chance that Randell, if 
        nearby, would recognize me. Outside of this apartment building, 
        David, initially without any success, asked two separate people 
        if they knew Roman and Randell. He then went to a nearby 
        gymnasium where he spoke to a group of children. One boy 
        recognized Roman and led David back to the apartment building. 
        David then approached a couple in their mid-fifties. David said 
        that the woman ``nearly fell over'' when he showed her Roman's 
        photograph. Using broken English and hand gestures, the woman 
        told David that Roman and his father had lived in their 
        apartment with their daughter. She adamantly stated that her 
        daughter and Randell ``were no more--never again to be 
        together''. She also said that Roman and Randell had left for 
        Poland about six months ago. The man refused to speak to--or 
        even acknowledge--David at all. Both of these people became 
        very upset at the mention of Randell's name and the woman had 
        tears in her eyes when she looked at Roman's photograph. This 
        woman identified herself as ``Yitka''.

  <bullet> February 8, 1998: I stayed on the ``Prague side'' of the 
        Charles Bridge while David went to Male-Stranna. He spoke to a 
        thirteen-year-old girl, who in exchange for a cigarette, 
        offered to take David to a bar where Randell and Roman often 
        went. When David went into a nearby store to buy cigarettes, he 
        discovered that the clerks also knew Roman and Randell! The 
        girl took David to this bar, which is named Malostranska 
        Beseda. With the girl translating for him, David learned from 
        the bar's owner that Randell was in his bar every night when he 
        was in Male-Stranna. Also, he pointed in a certain direction to 
        indicate a flat where Randell had been living. However, the 
        owner of the bar said that Randell had told him that he had 
        ``given up his flat'' and was ``leaving Prague''. He was not 
        certain of the time frame and had no idea where Randell was 
        going.

  <bullet> February 9, 1998: I called Mr. Bacigalupo and he said that 
        he had arranged for us to meet with INTERPOL Agent Prchal on 
        February 11 . Mr. Bacigalupo was upset that David had asked so 
        many questions and asked us to do no more until after our 
        meeting with INTERPOL.

  <bullet> February 9, 1998: I called Meredith Morrison and she said 
        that Cynthia Quinn had told her that the red notice request had 
        not been signed as of yet! As I feared that the FBI/INTERPOL 
        would cancel the investigation if it was learned that Roman and 
        his father were, supposedly, not currently in Prague, I decided 
        not to contact Agent Price at this time.

  <bullet> February 11, 1998: David and I went to the U.S. Embassy to 
        meet with Mr. Bacigalupo and Kim Krhounek for our meeting with 
        INTERPOL. We exchanged photographs and information with Ing. 
        Prchal. He told us that Randell had been arrested for ``assault 
        with a deadly weapon'' in Prague in 1995, but did not go into 
        detail as to the results of this arrest. Ing. Prchal also told 
        us that Randell was a known heroine abuser/dealer in Prague, 
        but this information was given to us in a ``matter-of-fact'' 
        manner. Apparently, heroin use is not a serious crime in the 
        Republic of Czechoslovakia. Ing. Prchal told me that the legate 
        in Vienna, Austria had requested that his investigation be very 
        discreet. He was not to do anything that would possibly alert 
        Randell that he was being sought. Therefore, he was limited to 
        inquiring through government channels as to Roman's enrollment 
        in school, social services (including orphanages), medical and 
        dental records, any visas, marriage licenses, etc. This would 
        not allow him to request that any local investigators question 
        individuals. He also said that, without a red notice, his 
        ``hands are tied''. Ing. Prchal made it very clear to me that 
        he was willing to thoroughly investigate and to arrest/
        extradite Randell and return Roman to my custody once the red 
        notice was in place. He agreed to contact INTERPOL Agent 
        Cynthia Quinn directly. I gave Ing. Prchal many contact numbers 
        in the U.S.A. Ing. Prchal told me that, if Randell re-enters 
        the Republic of Czechoslovakia without applying for a long-term 
        stay, he will be in the country illegally and will, therefore, 
        be subject to deportation. I must mention that I was shocked to 
        see the ``photographs'' of Roman and Randell that had been sent 
        to Ing. Prchal. They were wallet-sized, blotchy, blurred, 
        black-and-white facsimile images. I would be hard-pressed to 
        recognize my child or Randell from those images! At the 
        conclusion of our meeting, Mr. Bacigalupo and Ing. Prchal told 
        us that, although we had given them very valuable information, 
        it would be best for us to not make any more inquiries to avoid 
        interfering with the local investigation.

  <bullet> February 12, 1998: I called Agent Price to give him an 
        update. He said that he is very frustrated by the lack of 
        progress and action on our case. Also, he had learned last week 
        that the U.S. Department of State had revoked Roman and 
        Randell's new passports. Additionally, Cynthia Quinn had 
        recently told him that the request for an upgrade to a red 
        notice was still sitting on her supervisor's desk awaiting his 
        signature. They are too backlogged to get to this! Agent Price 
        told me that he had attempted to impress upon Ms. Quinn how 
        important the red notice is due to the fact that I was 
        presently in Prague and to remind her that he had requested 
        this upgrade ten months ago. Agent Price suggested that, 
        perhaps, Meredith Morrison and/or Ing. Prchal could obtain 
        quicker results from Cynthia Quinn. He gave me the emergency 
        number for the Miami FBI Office in case I should need to 
        contact him urgently.

  <bullet> February 12, 1998: I called Ing. Prchal to explain how 
        important it was that he contact Cynthia Quinn. He said that he 
        would do so as soon as the time difference allowed and that he 
        would straighten this out with her. He reiterated that I should 
        feel free to contact him at any time with any problems and/or 
        questions that I should encounter.

  <bullet> February 15, 1998: Special notation: Today was Roman's 
        twelve birthday. The fourth birthday that had passed since I 
        last saw my son.

  <bullet> February 16, 1998: Ing. Prchal called me at our hotel to ask 
        if I would be willing to sign a release form that would allow 
        for Roman's photograph and information to be aired on Czech 
        television. This was the first time in the history of the 
        Republic of Czechoslovakia that a missing child would be 
        featured on television! As no red notice/provisional arrest 
        warrant or request had been issued for Randell, he could not 
        legally include photographs of him. Please recognize, once 
        again, that my personal difficulties have not been with foreign 
        governments, but with my own country! Ing. Prchal told me that 
        he had spoken to Cynthia Quinn who had assured him that the red 
        notice application would be signed within the next day or two. 
        Cynthia Quinn had told Ing. Prchal that both Roman and 
        Randell's U.S. passports had been revoked on April 15, 1997. 
        One must wonder why the FBI agent had only learned of these 
        revocations in early February of 1998? Which passports had been 
        revoked? The initial, expired ones or the new ones?

  <bullet> February 17, 1998: David and I flew back to the U.S.A.

  <bullet> February 19, 1998: Meredith Morrison (NCMEC) contacted Ing. 
        Prchal via e-mail. Ing. Prchal told Meredith that Roman's 
        search information had already been broadcast on television and 
        had been printed in the Czech national newspapers.

  <bullet> February 19, 1998: Patrick Bergeron (Missing Children's 
        Network in Canada) had spoken to his contact in Poland. This 
        individual said that it is unlikely, in any European country, 
        that a revoked U.S. passport will be detected unless its owner 
        travels on an airplane. He agreed to distribute posters of 
        Roman and his father in Poland.

  <bullet> February 19, 1998: Charles Goolsby called to tell me that 
        VOA can air broadcasts throughout the Mediterranean and has 
        already aired broadcasts in Poland in both English and Polish. 
        Mr. Goolsby has always reacted very quickly to the changes in 
        our case!

  <bullet> February 23, 1998: I called Jennifer Litshewski. She said 
        that she believes that both Roman and Randell's passports have 
        been revoked. She does not know what happens when a revoked 
        passport is presented other than that the passport holder would 
        not be allowed to travel. However, the cable that she had sent 
        out explained why the passports were revoked. The U.S. Embassy 
        in Prague will detect the revocations.

  <bullet> February 23, 1998: I called FBI Agent Price to ask him if he 
        thought that I should attempt to contact Mr. Luke Von Johnston 
        and his associate, Costas, in Johannesburg, South Africa. These 
        people have been sailing companions of Randell's for many 
        years. I had an address and telephone number for Mr. Von 
        Johnston. Agent Price said that it is worth a try. He will try 
        to determine what contacts the FBI has on the African 
        continent. He also told me that a revoked passport will be 
        confiscated and that Randell will be detained while Roman is 
        placed in protective custody until I arrive to bring him home. 
        Agent Price said that this should ``hold true on a worldwide 
        basis'' due to the information in the U.S. Department of State 
        databank. He also told me that he would contact Ing. Prchal in 
        Prague.

  <bullet> February 23, 1998: I was unsuccessful in my attempt to 
        contact Mr. Von Johnston. The telephone number that I had was 
        disconnected. The operator in Johannesburg told me that there 
        is no listing under his name and that it is not possible for 
        her to find a telephone number by an address only.

  <bullet> March 12, 1998: Agent Price called to tell me that Patrick 
        Bergeron, the Director of Search for the Missing Children's 
        Network in Canada, had written a ``nasty'' letter to Janet Reno 
        about how our case had been handled by the FBI. This letter had 
        been forwarded to Agent Price's supervisor in Miami. There will 
        be a congressional inquiry. Mr. Price was very upset about 
        this. He told me that he had done his best but was ``only as 
        good as the people backing him''. Although he understood my 
        frustration and had felt the same frustration, this was causing 
        him a lot of ``personal grief. Agent Price said he believes 
        that he has given me ``a fair shot''. I expressed doubt that 
        Mr. Bergeron had intended to harm anyone by writing a letter. I 
        was not even aware that it had been written. I told him that I 
        would discuss the letter with Mr. Bergeron.

  <bullet> March 13, 1998: Samantha Edwards, who was with reunite (a 
        missing child organization in London, U.K.) called to tell me 
        that she had received my letter. She had given the new passport 
        information to the proper authorities in her country. Ms. 
        Edwards also said that she would arrange for The National 
        Missing Person's Helpline (NMPH) to, once again, distribute 
        posters depicting Roman and Randell throughout Europe. The NMPH 
        would also air radio and television broadcasts.

  <bullet> March 13, 1998: Meredith Morrison (NCMEC) called to tell me 
        that she had spoken to a man who is with the U.S. Dept. of 
        State (DSS) about what action would be taken in a case in which 
        a citizen's passport had been revoked and a red notice had been 
        issued. Basically, he told her that the passports are only 
        revoked on paper. Therefore, the revocation will only be 
        detected if the document is run through the computer system. 
        Upon detection, Randell must be ``convinced'' to go to the 
        nearest U.S. Embassy at which time he would be detained. This 
        man also said that the red notice is crucial and should have 
        been requested much earlier in our case. He was kind enough to 
        contact Mr. Bacigalupo (DSS) and Ing. Prchal (INTERPOL) in 
        Prague. These men assured him that Randell would be arrested 
        there if a red notice were in place. Additionally, this DSS 
        officer spoke to Cynthia Quinn (INTERPOL) who stated that it 
        would take another two to three months before the red notice 
        was issued!

  <bullet> March 16, 1998: Mr. Goolsby told me that he had spoken to 
        Mr. Pat Donovan (DSS) who had said that the Czech authorities 
        had sent information as to my child's whereabouts to the FBI 
        legate in Vienna and had not received a response as of this 
        time. Mary Jo Grotenrath (U.S. Office of International Affairs) 
        had made the statement that there was ``no hurry'' with the red 
        notice because Roman and Randell had already been located!

  <bullet> March 23, 1998: I called Ing. Prchal (INTERPOL) and he told 
        me that a thorough investigation had now been performed in 
        Prague. The resulting information had been sent to the legate 
        in Vienna as well as to Cynthia Quinn (INTERPOL) in Washington, 
        D.C. Ing. Prchal expressed dismay that the red notice had not 
        been effective back in May of 1997 when the sighting was first 
        reported. After my visit to Prague, the local investigators had 
        questioned Randell's ex-girlfriend and her parents. Her parents 
        had said that they were headed to Poland. Katia, the former 
        girlfriend, said that they were on their way to Israel! Katia 
        seemed to believe that they were sailing. It appears that they 
        may have traveled down the east coast of the African continent, 
        rounded the cape and then headed up to the Mediterranean. Ing. 
        Prchal also told me that my visit to Prague had been very 
        helpful to him and to the local investigators. The color 
        photographs that I had given him were especially helpful.

  <bullet> March 30, 1998: Detective Steven Yoder (Metro-Dade Police 
        Dept.--Extraditions Office) called to tell me that all of the 
        necessary paperwork for issuing a provisional arrest request 
        had been completed by the Florida State Attorney's Office. 
        However, his contact at the U.S. Office of International 
        Affairs--Children's Issues has told him that a red notice is 
        not enough to allow for Randell's arrest in the Republic of 
        Czechoslovakia. This is confusing because Ing. Prchal and Mr. 
        Bacigalupo in Prague have stated several times that a red 
        notice is all that will be needed to take such action.

  <bullet> April 8, 1998: I spoke to Ann Macegahuey (U.S. Dept. of 
        State--Children's Issues) who told me that, although we are not 
        certain that my child is in Israel, she has initiated Hague 
        action there. She faxed me the required paperwork and told me 
        we must rush because Israel will ``shut down'' for Passover 
        soon. These documents included a list of attorneys in Israel. 
        If Roman is located in Israel, I must hire an attorney there! I 
        am not eligible for legal aid in Israel because I am ineligible 
        in Florida. One must have an annual income of $7,000 or less to 
        receive legal aid in this state! Personally, I don't understand 
        how a civil proceeding in any country other than the U.S. A. 
        will help us (if it is even allowed) because we do not have a 
        legal standing elsewhere. Leslie Kaufman, who is with the 
        Central Authority in Israel, will retain the paperwork for the 
        Hague application and will pass it along to any Hague signatory 
        country if need be. Ann Macegahuey said that she would contact 
        Mark Klein, my private attorney, to discuss any information 
        and/or documents that she may require from him. I went to the 
        courthouse in Miami and purchased the required certified court 
        documents.

  <bullet> April 14, 1998: Meredith Morrison (NCMEC) called to tell me 
        that her DSS contact had said that the ``unofficial'' report 
        from Israel indicates that there is no information that Roman 
        and his father had ever entered or left this country. However, 
        an open inquiry, as opposed to a one-time check, had been 
        requested in Israel and South Africa.

  <bullet> April 17, 1998: Ann Macegahuey called to tell me that alerts 
        had been cabled to South Africa and Israel. There was no record 
        of Roman and Randell with airport customs in these countries. 
        She also said that she needs information on the boat's registry 
        in order to be more thorough. Ms. Macegahuey also told me that 
        Randell's passport had definitely been revoked.

  <bullet> April 22, 1998: Ann Macegahuey called again to tell me that 
        she had sent a cable with copies of Roman and Randell's 
        photographs to South Africa, Israel and the Republic of 
        Czechoslovakia. She also said that, due to manpower cutbacks, 
        she could not send an alert cable anywhere unless there was a 
        ``legitimate reason'' to do so! In other words, we must have 
        specific information as to their current whereabouts. I don't 
        mean to sound bitter but, if we had that information, we 
        wouldn't be in this situation to begin with! When I reiterated 
        that it is highly likely that they are somewhere in the 
        Mediterranean on a vessel of some kind, Ms. Macegahuey told me 
        that she couldn't alert port posts without having the name and/
        or registration information of the vessel upon which they are 
        traveling. This is something that I cannot understand. A cable 
        and/or FAX could help to find my son. In the computerized age 
        in which we now live, I don't see why an electronic message 
        would overly ``strain'' manpower resources. But what do I know 
        of these bureaucratic issues? I am simply a mother who is 
        desperately searching for her only child. Ms. Macegahuey said 
        that she believes that Roman and his father are using false 
        identification and travel documents and, therefore, are not 
        being located. This theory makes no sense at all to me. If 
        Randell had intended to use falsified documents, why would he 
        risk entering a U.S. Embassy to renew their passports and have 
        been consistently using Roman's and his legal names? It appears 
        to me that they have not been located through their passports 
        because they are not flying and/or because a thorough trace is 
        not being performed. It is doubtful that Randell would have the 
        money to spend on airline tickets. Randell and I had lived on a 
        sailboat for nearly twelve years. Throughout our extensive 
        travels, customs officials often required only identification 
        from the vessel's captain along with the boat's registry 
        information. This is why I adamantly believe that if photos and 
        information were sent to the ``targeted'' port posts, they may 
        be recognized. My next goal is to send information to all of 
        the port posts where I feel that they may travel. I will do 
        this by utilizing a publication entitled, ``Ports of the 
        World''. However, I am somewhat doubtful as to what the 
        reaction from these authorities will be when a request is 
        received by a private citizen and not by U.S. officials. 
        Perhaps I am ``grasping at straws'', but I will not sit idly by 
        when my son's welfare is at stake.

  <bullet> April 28, 1998: After I had read Patrick Bergeron's letter 
        to Janet Reno, I sent my own letter to her today with a 
        synopsis of our case. I was hoping to make it clear to Mrs. 
        Reno that all of the delays, problems, misunderstandings and 
        oversights that have been encountered in our case could not be 
        attributed solely to the FBI. I also mentioned that the entire 
        issue of international parental kidnappings could be dealt with 
        more effectively if changes were made.

  <bullet> May 11, 1998: I called Maureen Dabbaugh (P.A.R.E.N.T.). She 
        told me that her experience, as well as that of other parents 
        with whom she has had contact, has lead her to believe that the 
        ``left-behind'' parent must personally contact customs, border 
        and port authorities with the information and photographs of 
        the child and the abductor. I requested one hundred posters 
        from the NCMEC to accomplish this goal.

  <bullet> May 13, 1998: As I had been required to send my only 
        official copy of Roman's birth certificate to Israel with the 
        Hague application, I went to the Dept. of Vital Statistics in 
        Miami to obtain more copies. The clerk told me that ``there is 
        a block on this birth certificate''. I must have a court order 
        to obtain a copy. I then called Darlene Newman in Jacksonville 
        at the Florida State Dept. of Vital Records. She told me that 
        the Florida Dept. of Law Enforcement (FDLE) had flagged Roman's 
        birth certificate. I pointed out that this flag would have been 
        completely ineffective if Randell or his representative had 
        requested the birth certificate. Upon being transferred to 
        Priscilla Smith, a supervisor, I learned that I NEVER should 
        have been told about the flag on Rome's birth certificate. 
        Ideally, the clerk would have ``stalled'' me while she 
        contacted the FBI or another law enforcement agency. Mrs. Smith 
        said that she would speak with the individuals in the Miami 
        office about this. Quick calculations of my attorney's $275/
        hour fee, court costs, processing, etc. lead me to believe that 
        this $6.50 copy could easily cost me as much as $500.00! I 
        decided to attempt an alternate approach to this problem.

  <bullet> May 19, 1998: I was able to reach Gwen Johnson at the FDLE. 
        She told me that she would ask Pat Rutherford, who is assigned 
        to our case with FDLE, to request that a copy of Roman's birth 
        certificate be released to me. I explained that I was more than 
        willing to show photo identification so as there would be no 
        concern that I was representing my ex-husband.

  <bullet> May 26, 1998: Meredith Morrison (NCMEC) called to tell me 
        that she had received a FAX, which was dated May 21, 1998, from 
        INTERPOL in Lyon, France. It stated that Randell's blue notice 
        had been upgraded to a red notice. This was a full thirteen 
        months after Agent Price had requested the upgrade! The reasons 
        that were given for this upgrade were that: Randell is a 
        ``known drug addict, violent, dangerous and is considered to be 
        armed and mentally ill''. Please note that Randell had suffered 
        a mental breakdown in St. Thomas in the U.S. Virgin Islands in 
        March of 1993 after he had learned that his current girlfriend 
        had, allegedly, spent the night with another man. He had called 
        me to say that he was going to kill three people and then 
        himself Between his family and myself, we had managed to 
        convince him to return to the U.S.A. with Roman and to undergo 
        therapy. After two weeks of Gestalt Re-decision Therapy, 
        Randell proclaimed himself to be ``cured''. I later learned 
        that his therapist had suggested that he continue in therapy. 
        Randell's mother and sister told me that they were gravely 
        concerned about Randell. His father was a diagnosed paranoid 
        schizophrenic who had committed suicide. They said that Randell 
        had begun, in their opinion, to exhibit many of the behaviors 
        that his father had shown in the past.

  <bullet> May 27, 1998: Pat Rutherford (FDLE--Missing Children's 
        Clearinghouse) told me that my request for a copy of Roman's 
        birth certificate was very ``unusual''. A flag (block) on a 
        birth certificate is never lifted until after the child has 
        been located. I explained how important this document would be 
        when I am able to take physical custody of Roman.

  <bullet> May 28, 1998: Detective Steven Yoder (Metro-Dade 
        Extradition) told me that he will make certain that the 
        passport revocations are in effect and that the information has 
        been entered into all of the appropriate databanks. I was very 
        concerned that they may ``slip through the cracks' again.

  <bullet> June 3, 1998: I spoke to Mr. Kenneth Jones (Dept. of Vital 
        Records in Jacksonville, Fl.) who told me that he absolutely 
        couldn't release a copy of the birth certificate to me without 
        a court order.

  <bullet> June 8, 1998: FBI Agent Clay Price called to tell me that he 
        had received another ``nasty'' letter which was, this time, 
        written to Janet Reno by me! I told him I had written that 
        letter intending to clarify any misunderstandings as to the 
        FBI's role surrounding the difficulties with our case. Agent 
        Price asked me to meet with his supervisors and him at the FBI 
        Headquarters in Miami. He said that he wanted to demonstrate to 
        me how much he had done to help to resolve our case. I have no 
        doubt that he did his best based on his knowledge of these 
        types of cases. However, regardless of who made errors, my 
        child should have been home at least by 1996 when his father 
        had renewed their passports in Prague. These types of errors 
        must be prevented from occurring in any case. I saw no point in 
        meeting with these people. There are certain issues upon which 
        we will never agree. Honestly, this conflict only served to add 
        to my emotional distress.

  <bullet> May 9, 1998: Charles Goolsby called to tell me that Mary Jo 
        Grotenrath had said that Roman is not on the FBI's missing 
        child web page and that I should ask Agent Price why he is not 
        featured there and if he ever had been placed on that site.

  <bullet> May 22, 1998: I mailed a certified letter to Judge Eugene 
        Fierro which explained my need for a court order to obtain a 
        copy of Roman's birth certificate.

  <bullet> May 25, 1998: I received a letter from Mr. Charles Barry 
        Smith who is the Supervisory Special Agent Unit Chief with the 
        FBI's Office of Public and Congressional Affairs in Washington, 
        D.C. Mr. Smith basically wrote to me that he regrets that my 
        child has not been found and that he understands my 
        frustration. However, extradition and national sovereignty 
        issues are factors and the FBI has followed and will continue 
        to follow all leads and that I may feel free to contact the 
        Special Agent in charge of my case at any time. Perhaps I am 
        ignorant of these affairs, but I do not understand how national 
        sovereignty has any relevancy in a case in which three U.S. 
        citizens are involved.

  <bullet> July 22, 1998: I received a court order from Judge Fierro 
        which I mailed to Mr. Jones in Jacksonville along with copies 
        of my identification and the appropriate fee. Within three 
        weeks, I received two official copies of Roman's birth 
        certificate. It had taken me three months and a great deal of 
        difficulty to obtain these copies! I can understand that 
        certain measures are necessary to prevent the abductor from 
        receiving these copies, but I don't understand why, as the 
        ``left-behind'' parent, I must continue to be ``punished'' for 
        my ex-husband's actions. After all, I'm not the ``bad guy'' in 
        our case.

  <bullet> October 1, 1998: Mr. Charles Goolsby and I discussed that 
        there is not a warrant for Randell's arrest based on the 
        Federal International Parental Kidnapping Crime Act of 1993 
        (IPKCA).

  <bullet> October 9, 1998: I discussed the IPKCA with Meredith 
        Morrison (NCMEC). She said that, recently, the Center has 
        experienced difficulties with particular countries that do not 
        recognize parental abductions as crimes. Nancy Nyak at the 
        NCMEC said that, if the passport revocations and red notice are 
        truly in place, nothing else is necessary. These leads me back 
        to the same question of as to whether or not all of this has, 
        indeed, been done and properly documented where necessary.

  <bullet> November 11, 1998: When I called FBI Agent Price today, I 
        heard a different agent's voice mail message. I have learned 
        that Special Agent Deborah J. Cool has been assigned to our 
        case. I have left a voice mail message for Agent Cool, but have 
        not received a reply as of yet.

  <bullet> November 16, 1998: Patrick Bergeron (Missing Children's 
        Network in Canada) called to tell me that he had been speaking 
        to RCMP Officer Lameer about a different case when this man had 
        told him that a new lead had been received on our case. A woman 
        had called the RCMP in British Columbia about three weeks ago 
        to say that she had met Randell in Greece in May of this year. 
        Officer Lameer did not have many details on this latest lead. 
        However, he did say that this information had been passed along 
        to INTERPOL in Washington, D.C. and to the FBI in Miami. 
        Although I do not want to interfere with any official 
        investigation, I cannot help but have grave concerns as to how 
        this lead is being followed. Past experience with the sightings 
        in Prague have left me with many doubts as to if a thorough 
        investigation will be performed in a timely manner. I have, 
        therefore, contacted Paul Stevenson, who is the U.S. ambassador 
        to Greece and asked that he help us in any way that he can. To 
        be quite honest, a part of me feels that I should go to Greece 
        right away before too much time has passed. However, we are 
        waiting for a more detailed statement to be made by this 
        caller.

  <bullet> November 23, 1998: Meredith Morrison (NCMEC) told me that 
        she has learned from the U.S. Department of State that flags on 
        passports are not automatically brought up when the passport 
        number and/or name of the citizen is entered into the system. 
        To receive this particular information, an individual must run 
        a further check into the system. How can we be certain that 
        individuals will take this extra step on a worldwide basis? 
        Additionally, a DSS officer told Meredith that Randell will not 
        be immediately detained and/or arrested even in a U.S. Embassy 
        when the revocation and red notice has been detected. He will 
        be asked, on some sort of pretense, to return later so that the 
        Embassy officials will have time to involve the local police 
        before making an arrest. A man, who is on the run from federal 
        authorities, will be leery and may not return at all. Senator 
        Helms, I apologize for taking so much of your time. However, I 
        believe that my case is an example of the typical problems that 
        must be faced within our own system so that more of our 
        children who have been victimized by an abducting parent can be 
        brought home. Perhaps, by sharing our story with you, you will 
        have more information with which you can help to spare other 
        parents similar difficulties in their searches. I am sad to say 
        that my faith in our ``system'' has been shaken. I will 
        continue to do whatever is humanly possible to give my son the 
        life that every child deserves. I am committed to this battle 
        for life--or until Roman is home.
            Sincerely,
                                    Jean Henderson.

                                 ______
                                 

                                    Orrin G. Hatch,
                               U.S. Senate, Washington, DC,
                                                 February 25, 1997.
Hon. Jesse Helms,
Chairman, Committee on Foreign Relations,
Washington, DC.

    Dear Mr. Chairman: It may interest your committee to review the 
materials I have received from Mr. Thomas A. Johnson as it concerns his 
efforts, not only in finding an answer to his own case, but also in 
addressing the larger problem confronting other American citizens when 
a child is abducted by the other parent.
    Contrary to the spirit of the Hague Convention treaties, there are 
examples where foreign governments are actually aiding and abetting 
such practices even when there is a clear violation of a court order. I 
understand that the State Department currently has on record some 75 
such cases in Sweden alone.
    Mr. Johnson has consulted with attorneys at the U.S. Department of 
Justice expecting that the International Parental Kidnapping Act of 
1993 should provide some relief through extradition. The response he 
has received, however, suggests that there is little, if any, 
enforcement of the Act. The Justice Department apparently defers to the 
State Department and the Hague Convention treaties presumably for 
diplomatic purposes.
    The extent of U.S. Department of State involvement has been to 
provide a list of attorneys in the foreign country and to report on the 
whereabouts and welfare of the child who has been kidnapped. Needless 
to say, American parents find this limited support inadequate, 
particularly as foreign governments are alleged to go as far as to 
provide counsel for the parent who has violated the court order. 
Greater cooperation between the U.S. Department of State and the 
Justice Department in representing the interests of American citizens 
in such cases may be desirable.
    While I understand that the Foreign Relations Committee has a full 
agenda, I am forwarding Mr. Johnson's materials to you for your 
perusal. Inasmuch as you have a long record of supporting families, I 
believe you will find Mr. Johnson's personal story as well as his 
observations and research of interest.
            Sincerely,
                                            Orrin G. Hatch,
                                             United States Senator.

                                 ______
                                 

                                                     July 23, 1998.
Hon. Madeleine K. Albright,
Secretary of State,
Department of State, Washington, DC.

    Dear Madame Secretary: It has come to our attention that Senator 
Jesse Helms has written you a letter expressing his concern that a 
number of members of the Hague Convention on the Civil Aspects of 
International Child Abduction are not adhering to this treaty. We would 
like to second Senator Helms and express our grave concern that, 
despite the requirements of this treaty, too many countries are 
disregarding it, and make no attempt to enforce the obligations under 
the treaties they have signed.
    We have been visited in recent weeks by a number of parents whose 
children have been abducted to Germany, Sweden and Denmark, by the non-
custodial parents. There are current felony arrest warrants 
outstanding.
    We understand that the Senate Foreign Relations Committee has 
pending before it a number of extradition and mutual legal assistance 
treaties. We believe, as Senator Helms does, that these treaties are 
useful only if they are fully enforced by both parties to the treaty.
    We would very much appreciate answers to the following questions:

    <bullet> Please state the policy of the United States with regard 
to entering into a treaty relationship with a country that is in 
violation of the Hague Convention on the Civil Aspects of International 
Child Abduction.
    <bullet> Please list each country that has agreed to extradite its 
own nationals.
    <bullet> Please list all provisions--including extradition of 
nationals--in the treaties that are unilateral concessions, that is, 
the United States will undertake an obligation that the treaty partner 
will not.
    <bullet> Please list all outstanding parental abduction cases with 
European countries.
    <bullet> Please list all countries with which the United States has 
reciprocal child support enforcement agreements and the legal authority 
for entering into those agreements.
    <bullet> Please provide those countries of the pending treaties 
that protect parents who abduct or wrongfully retain their children and 
punish parents who attempt to exercise their sole or joint custody 
rights.
    <bullet> Please list those countries which lack the legal basis 
such as contempt of court provisions to enforce court decisions in 
civil cases.

    We look forward to a reply in the near future.
            Sincerely,
    Nick Lampson,
      Member of Congress.

    Ben Gilman,
      Member of Congress.

    Bud Cramer,
      Member of Congress.

    Bob Franks,
      Member of Congress.

    Marion Berry,
      Member of Congress.

cc: Senator Jesse Helms

                               __________
  List of Additional Material Submitted for the Record Which Will be 
                  Maintained in the Committee's Files

International Parental Child Abduction--A publication of the U.S. 
        Department of State, Bureau of Consular Affairs (Revised 1997)

International Parental Child Abduction: Islamic Family Law--A 
        publication of the U.S. Department of State

Abduction: Saudi Arabia--A publication of the U.S. Department of State 
        (1996)

Saudi Arabia: Marriage to Saudis--A publication of the U.S. Department 
        of State (1996)

Hague International Child Abduction Convention; Text and Legal 
        Analysis--U.S. Department of State [Public Notice 957]; Federal 
        Register, Vol. 51, No. 58, March 26, 1986, pages 10494-10516

Hague Convention (Multilateral Treaty) on International Child Abduction 
        Enters Into Force on July 1, 1988--U.S. Department of State 
        [Public Notice 1067]; Federal Register, Vol. 53, No. 122, June 
        24, 1988, page 23843

Cooperative Agreement Adjustment Notice--Text of an agreement by the 
        the U.S. Department of Justice, The U.S. Department of State, 
        and the National Center of Missing and Exploited Children

Procedures for Handling Incoming Cases Under the Hague Convention on 
        the Civil Aspects of International Child Abduction--A 
        publication of the National Center for Missing and Exploited 
        Children

Hague International Child Abduction Convention: A Progress Report--by 
        Linda Silberman; Published in Law and Contemporary Problems, 
        School of Law, Duke University, Vol. 57, No. 3 (Summer 1994)

Getting Them Back: The Disappointing Reality of Return Orders Under the 
        Hague Convention on the Civil Aspects of International Child 
        Abduction-- by Jan Rewers McMillan; Published in Journal of the 
        American Academy of Matrimonial Lawyers, Vol. 14, No. 1 (Summer 
        1997)

                               <greek-d>

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
